<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2012

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION
                                ________
    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES
                    FRANK R. WOLF, Virginia, Chairman
 JOHN ABNEY CULBERSON, Texas        CHAKA FATTAH, Pennsylvania
 ROBERT B. ADERHOLT, Alabama        ADAM B. SCHIFF, California
 JO BONNER, Alabama                 MICHAEL M. HONDA, California
 STEVE AUSTRIA, Ohio                JOSE E. SERRANO, New York    
 TOM GRAVES, Georgia                
 KEVIN YODER, Kansas                

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             Mike Ringler, Stephanie Myers, Leslie Albright,
                    Diana Simpson, and Colin Samples,
                           Subcommittee Staff
                                ________
                                 PART 7
                                                                   Page
 Department of Justice............................................    1
 Federal Bureau of Investigation..................................  165
 Drug Enforcement Administration..................................  257
 U.S. Bureau of Prisons...........................................  359
 Office of Justice Programs.......................................  439
 Legal Services Corporation.......................................  519
 Assessment of Reentry Initiatives, Recidivism and Corrections 
Spending..........................................................  605
 APPENDIX I.......................................................  685

                                   S

                                ________
         Printed for the use of the Committee on Appropriations

PART 7--COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS 
                                FOR 2012
                                                                      ?

  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2012

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION
                                ________
    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES
                    FRANK R. WOLF, Virginia, Chairman
 JOHN ABNEY CULBERSON, Texas        CHAKA FATTAH, Pennsylvania
 ROBERT B. ADERHOLT, Alabama        ADAM B. SCHIFF, California
 JO BONNER, Alabama                 MICHAEL M. HONDA, California
 STEVE AUSTRIA, Ohio                JOSE E. SERRANO, New York    
 TOM GRAVES, Georgia                
 KEVIN YODER, Kansas                
                                    
 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             Mike Ringler, Stephanie Myers, Leslie Albright,
                    Diana Simpson, and Colin Samples,
                           Subcommittee Staff
                                ________
                                 PART 7
                                                                   Page
 Department of Justice............................................    1
 Federal Bureau of Investigation..................................  165
 Drug Enforcement Administration..................................  257
 U.S. Bureau of Prisons...........................................  359
 Office of Justice Programs.......................................  439
 Legal Services Corporation.......................................  519
 Assessment of Reentry Initiatives, Recidivism and Corrections 
Spending..........................................................  605
 APPENDIX I.......................................................  685

                                   S

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 67-259                     WASHINGTON : 2011
                                                                      ?

                                  COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\      NORMAN D. DICKS, Washington
 JERRY LEWIS, California \1\        MARCY KAPTUR, Ohio
 FRANK R. WOLF, Virginia            PETER J. VISCLOSKY, Indiana
 JACK KINGSTON, Georgia             NITA M. LOWEY, New York
 RODNEY P. FRELINGHUYSEN, New JerseyJOSE E. SERRANO, New York
 TOM LATHAM, Iowa                   ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama        JAMES P. MORAN, Virginia
 JO ANN EMERSON, Missouri           JOHN W. OLVER, Massachusetts
 KAY GRANGER, Texas                 ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho          DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas        MAURICE D. HINCHEY, New York
 ANDER CRENSHAW, Florida            LUCILLE ROYBAL-ALLARD, California
 DENNY REHBERG, Montana             SAM FARR, California
 JOHN R. CARTER, Texas              JESSE L. JACKSON, Jr., Illinois
 RODNEY ALEXANDER, Louisiana        CHAKA FATTAH, Pennsylvania
 KEN CALVERT, California            STEVEN R. ROTHMAN, New Jersey
 JO BONNER, Alabama                 SANFORD D. BISHOP, Jr., Georgia
 STEVEN C. LaTOURETTE, Ohio         BARBARA LEE, California
 TOM COLE, Oklahoma                 ADAM B. SCHIFF, California
 JEFF FLAKE, Arizona                MICHAEL M. HONDA, California 
 MARIO DIAZ-BALART, Florida         BETTY McCOLLUM, Minnesota         
 CHARLES W. DENT, Pennsylvania      
 STEVE AUSTRIA, Ohio                
 CYNTHIA M. LUMMIS, Wyoming         
 TOM GRAVES, Georgia                
 KEVIN YODER, Kansas                
 STEVE WOMACK, Arkansas             
 ALAN NUNNELEE, Mississippi         
   
 ----------
 <SUP>1}}</SUP>Chairman Emeritus    
                                    
               William B. Inglee, Clerk and Staff Director

                                  (ii)


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2012

                              ----------                              

                                            Tuesday, March 1, 2011.

                         DEPARTMENT OF JUSTICE

                                WITNESS

ERIC H. HOLDER, JR., ATTORNEY GENERAL OF THE UNITED STATES
    Mr. Wolf. Good morning.
    The hearing will come to order. I am going to welcome you, 
Mr. Attorney General. You are testifying today on the fiscal 
year 2012 budget request. Independent of recissions and 
scorekeeping adjustments, you are seeking new discretionary 
budget authority of $28.4 billion, an increase of $336 million 
or 1.2 percent above fiscal year 2010 and current CR levels.
    Your budget request for fiscal year 2012 is in large part 
driven by rapidly growing requirements in your detention and 
incarceration accounts. You are requesting program increases of 
$461 million just to provide the necessary capacity for Federal 
prisoners and the secure housing of detainees in the custody of 
U.S. Marshals Service.
    There are small yet important increases requested in the 
area of national security. We will have some questions on that. 
As in the case of last year, it was unclear what direction you 
are going to take in attempting or not to carry out the 
President's executive order related to the closure of 
Guantanamo Bay. Congress has not provided any of the resources 
requested in the past for these purposes, and the fiscal year 
2012 request does not include new requests for prosecutions or 
for acquisition of the detention facility in the U.S.
    We will also have some questions about gangs and other 
issues like that.
    But before we go to your testimony, I want to recognize the 
ranking minority member, Mr. Fattah, for any comments he might 
make.
    Mr. Fattah. Let me thank you, Chairman Wolf, for scheduling 
this very important hearing.
    And I want to thank the Attorney General for his appearance 
and participation this morning.
    And moreover, I want to thank the Attorney General for the 
extraordinary leadership that is being provided by the 
Department, and we see it in the everyday headlines that 
showcase major arrests, in terms of Medicare fraud, organized 
crime, and gang prevention. The work of the Department is 
obviously vital to our country, and we appreciate your 
appearance today and look forward to you addressing the 
appropriation needs of this Department. Given the national 
security duties relative to many of the agencies in the 
Department, it is critically important that you have the 
resources you need to carry out your duties. Thank you.
    Mr. Wolf. I thank you, Mr. Fattah.
    Mr. Rogers was going to be here to make a statement, and I 
think he is at the Republican Conference. So when he comes, we 
may break for that.
    With that, Mr. Attorney General, we welcome you and look 
forward to hearing your testimony. And your full statement will 
appear in the record.
    Attorney General Holder. Thank you.
    Good morning, Chairman Wolf, Ranking Member Fattah, 
distinguished members of the subcommittee. I thank you for the 
opportunity to discuss the President's fiscal year 2012 budget 
for the Department of Justice and to provide an update on the 
Department's progress as well as the Department's priorities.
    Today I come to you on behalf of my colleagues of more than 
117,000 dedicated men and women who serve our Nation's Justice 
Department in positions and offices all around the world. Above 
all, I come on behalf of my fellow citizens. As our Nation's 
chief law enforcement officer, protecting the safety of the 
American people is my most important obligation. At every level 
of the Department, this is our primary focus.
    As you know, in recent years, our Nation has confronted 
some of the most significant terrorist threats on the homeland 
since the September 11th attacks, and the Justice Department 
has played a vital role in combating these threats. Since 9/11, 
there have been hundreds of defendants convicted of terrorism 
or terrorism-related violations in Federal court. And during 
2009 and 2010, the Justice Department charged more defendants 
in Federal court with the most serious terror-related offenses 
than in any similar period since September 11th.
    Just last week, in Chairman Wolf's district, Zachary 
Chesser, a resident of northern Virginia and a United States 
citizen, was sentenced to 25 years in prison for attempting to 
provide material support to the terrorist organization al-
Shabaab, communicating threats against Americans and 
encouraging violent jihadists to impede and obstruct the work 
of law enforcement.
    Also last week, FBI agents arrested an individual in Texas 
for the attempted use of a weapon of mass destruction. Thanks 
to the around-the-clock work of hundreds of FBI agents, 
analysts and Federal prosecutors, this alleged plot was 
thwarted.
    Beyond our critical national security efforts, the 
Department has made, I believe, extraordinary progress in 
fulfilling the pledge that I made before this subcommittee 
nearly two years ago, that we would restore integrity and 
transparency at every level of our work and that under my 
leadership, every decision made and every policy implemented 
would be based on the facts, the law and the best interest of 
the American people, regardless of political pressures or 
consequences.
    I am also proud to report that the Department has taken 
meaningful steps to safeguard civil rights in our workplaces, 
in housing markets, in voting booths and in other areas; to 
protect our environment; and to bring our Nation's fight 
against financial and health care fraud to unprecedented 
levels. In fact, in the last year, the Department has announced 
the largest financial and health care fraud takedowns on 
record. And in fiscal year 2010, the Department's Civil 
Division secured the highest level of health care fraud 
recoveries in history, $2.5 billion, as well as the second-
largest annual recovery of civil fraud claims.
    Our Criminal Division saw similar success. In fiscal year 
2010, the Criminal Division participated in efforts, including 
joint enforcement actions with our U.S. Attorneys Offices 
throughout the country, that secured more than $3 billion in 
judgments and in settlements.
    In addition to our work to secure these recoveries, we have 
made strategic investments, and we have taken historic actions 
to combat gangs and both national and international organized 
crime networks. We have harnessed the new tools and authorities 
that Congress made available to us to investigate and to 
prosecute hate crimes. And we have responded to, and must 
continue to respond to, the recent nationwide surge of law 
enforcement shootings by ensuring that law enforcement officers 
have the tools, the training and the protective equipment that 
they need and deserve.
    This is of particular concern to me. This is a very, very 
real concern of mine. That is why today, overall, I am here to 
ask for your support of the President's fiscal year 2012 budget 
for the Department of Justice. Among the priorities identified 
in this budget are strengthening national security; preventing 
and combating crime; maintaining safe prison and detention 
facilities; supporting effective intervention and reentry 
programs; and assisting our State, local and tribal law 
enforcement partners.
    The budget proposal also places a premium on achieving new 
savings and efficiencies. It also reflects hard choices, such 
as program reductions that we have made in order to focus our 
resources on our highest priority programs, to respond to 
current fiscal realities and to act as sound stewards of 
taxpayer dollars.
    The fiscal year 2011 continuing resolution has presented 
significant budget challenges for the Department, given that 
the current cost of operations and staffing is considerably 
higher than it was last year. I have announced financial 
restrictions that I consider difficult but necessary, including 
ordering a temporary hiring freeze and curtailing nonessential 
spending. My hope is that these measures will preempt more 
severe measures in the future.
    But even with these directives in place, I submit to you 
that the Department's fiscal year 2012 budget request, which 
itself reflects many tough decisions, is essential to our 
national security and law enforcement work, among other 
priorities that matter deeply to the American people. With 
these investments and with your support and steadfast 
partnership, I am very confident that we can continue to build 
on our past successes and make good on our core promises of 
ensuring safety, opportunity and justice for all. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259A.001
    
    [GRAPHIC] [TIFF OMITTED] T7259A.002
    
    [GRAPHIC] [TIFF OMITTED] T7259A.003
    
    [GRAPHIC] [TIFF OMITTED] T7259A.004
    
    [GRAPHIC] [TIFF OMITTED] T7259A.005
    
    [GRAPHIC] [TIFF OMITTED] T7259A.006
    
    Mr. Wolf. Thank you very much.
    And I understand from your staff that a member of your 
family could have a health care problem. If at any time you 
feel it necessary to leave, that would be terribly appropriate. 
What we would do is just recess the hearing, and we would 
reconvene in a month or two or whatever would fit in your 
schedule.
    So I do want you to know, as a father of five kids and 
fifteen grandkids, to me, family is number one. If you feel at 
any time, just tell us, and we will recess the hearing.
    Attorney General Holder. I appreciate it, Mr. Chairman.

                  FREEDOM OF INFORMATION ACT REQUESTS

    Mr. Wolf. The Freedom of Information Act, I briefly 
discussed this, but I wanted this to be on the record. A review 
of recent responses to Freedom of Information requests by the 
Department conducted by the former Civil Rights Division 
attorney, Jay Christian Adams, showed that political and 
ideological factors may have influenced how quickly responses 
were provided.
    He provides a list of information from the Department's 
Freedom of Information Act logs, including the requester and 
how long the Department took to comply: Fred McBride, from the 
ACLU redistricting coordinator, got same-day service. Kristin 
Clarke, NAACP Legal Defense Fund, who sought the dismissal of 
the New Black Panther party case, same day service. Jerry Seper 
of the Washington Times, 6 months. Jed Babbin of Human Events, 
6 months.
    In May of 2009, I made a Freedom of Information request 
pertaining to your efforts to secretly release a number of 
Guantanamo Bay detainees and resettle them into northern 
Virginia. The Department failed to provide the information I 
requested after many, many months, never even responded. The 
Freedom of Information Act requires the Department to respond 
to a request within 20 days and to provide the requested 
documents within a reasonable time frame afterwards. Why did 
Mr. Adams find that no conservative or no Republican or no one 
on the other side received the reply in the time period 
prescribed by law?
    Attorney General Holder. I am not sure what research Mr. 
Adams has done. I have looked into the issues that were raised 
in a blog post or an article or something that he wrote. And 
the best I can determine, there is no ideological component 
with regard to the response times that the Justice Department 
makes to these requests. More complex requests take more time. 
Requests that are relatively simple in nature can be answered 
faster. But I can assure you that there is no ideological 
component with regard to how we respond to FOIA requests.
    Mr. Wolf. I have never even received an answer.
    Attorney General Holder. Well, I will certainly look into 
anything that you have submitted that is outstanding. We try to 
respond to letters, to FOIA requests. We have tried to make as 
part of this transparency effort that I talked about in my 
opening statement, we try to be very responsive when it comes 
to FOIA requests, whoever submits them. We have metrics that we 
use to gauge our success in that effort. And I think we have 
done pretty well reducing our FOIA backlog. To the extent there 
are still issues, I would be more than glad to work with you on 
those. Our hope is to try to be responsive to the requests that 
we get.
    Mr. Wolf. Could you get back to us by the end of the week?
    Attorney General Holder. I will endeavor to work on this as 
quickly as we can and try to delineate those things that are 
outstanding.
    [The information follows:]

                             FOIA Requests

    The Department has worked with the Chairman and Subcommittee staff 
to clarify and expeditiously respond to this request.

    I have to say that in preparation for the hearing, one of 
the things I asked about was where we stood with regard to 
responses to the letters, I guess, that you had sent. I was 
told by the folks in the Department that we only have at this 
point two outstanding responses with regard to letters that you 
have sent us.
    Mr. Wolf. The last letter was 11 months in answering and 
came in anticipation of the hearing. Eleven months is not a 
very good time for the Department. We will wait until the end 
of the week. And short of that, I think we are going to ask for 
an IG to look at it, because I think you have an obligation 
certainly to treat Freedom of Information Act requests fairly. 
So we will see how we go by the end of the week.

                        DEFENSE OF MARRIAGE ACT

    Last Wednesday, you announced that you and the President 
have concluded that section 3 of the Defense of Marriage Act, 
as applied to the same-sex couples under State law, is 
unconstitutional. As a result, the Justice Department no longer 
intends to defend the law against two ongoing challenges. When 
an administration makes a determination that a duly enacted, 
overwhelmingly supported statute--I think it passed 360 to some 
here in the Congress--is unconstitutional, Congress has a 
reason to be concerned. After all, the Justice Department has a 
duty to defend the constitutionality of the laws of the United 
States and has a long history of doing so.
    As the Washington Post noted in a February 23rd editorial 
``this does not mean that Justice Department officials must 
believe in the wisdom of the law or its policy implications, 
only that there are good faith and reasonable arguments to be 
made in defense. It is in short a very low bar. That is the 
approach taken by former Solicitor General Ted Olson in 
robustly defending a campaign finance reform law that Citizen 
Olson, a conservative Republican, would surely have rejected.''
    The Defense of Marriage Act was passed in 1996 by a vote of 
342 to 67 in the House. The very fact that this law passed the 
House and the Senate and was signed into law by the President 
provides a strong presumption that the law is constitutional. 
In addition, I believe almost 40 States have passed a similar 
law.
    According to CRS, the Department of Justice is legally 
obligated to defend all acts of Congress where a reasonable and 
good faith argument can be made that the act is constitutional. 
I realize ``reasonable'' in this case is defined by DOJ, but 
the fact that DOJ has defended this Act previously, section 3 
in particular, fatally undermines your assertion that no 
reasonable arguments can be made in its defense. Do you contend 
that your previous arguments in defense of this act were not 
made in good faith?
    Attorney General Holder. No.
    The situation that we face is a different one. The previous 
arguments that we made in support of the Act occurred in 
jurisdictions where there was an existing standard, the 
rational basis standard, a more permissive standard. Applying 
that standard, the feeling in the Department was that we could 
in fact defend the constitutionality of the statute. Two cases 
at issue exist in the Second Circuit, which does not have a 
standard with regard to these cases. We then had to make the 
determination what standard should apply.
    We looked in the Department. I made a recommendation to the 
President that, given the discrimination that gays and lesbians 
have endured in our Nation's history and for other reasons, a 
heightened scrutiny standard was appropriate. Applying the 
heightened scrutiny standard, as opposed to the rational basis 
standard, we made the determination that the statute could not 
pass constitutional muster. The President instructed me not to 
defend the statute on that basis after I made a recommendation 
to him that we did not think it could pass constitutional 
muster under a heightened scrutiny standard.
    Mr. Wolf. Your decision to abandon your duty to defend this 
law arose in proceedings in circuits where no controlling legal 
precedents exist. Considering the fact that DOJ has vigorously 
defended the law in the past, can you see why this would be 
viewed as a case of political opportunism?
    Attorney General Holder. I cannot assess how other people 
would view this. I can tell you that what we did was apply the 
facts and the law in a neutral and detached way. We made the 
determination that the announcement that I made was 
appropriate. It was not a decision that I took lightly. We take 
very seriously our responsibility to defend statutes that 
Congress has passed. We have defended the very statute that we 
are talking about in those circuits where there was existing 
law and where we thought the statute could pass constitutional 
muster on that lower standard.
    It is unusual, but it occasionally happens that the 
Department will refuse to defend a statute that Congress has 
passed. There were a number of instances where that has 
occurred in the past. In 1990, now Chief Justice Roberts 
declined to defend a statute that Congress had passed in the 
case of Metro Broadcasting v. FCC. So it is not unheard of, but 
it is unusual.
    Mr. Wolf. The Washington Post editorial board pointed out 
in an editorial that the Justice Department is institutionally 
tasked with defending duly-enacted congressional legislation. 
This does not mean the Justice Department officials must 
believe in the wisdom of the law or its policy implications; 
only that there are good-faith and reasonable arguments to be 
made in its defense. It is in short a very low bar. That is the 
approach, as I mentioned earlier.
    The Obama administration's tactic, it says, could come back 
to haunt it. What would the President say, for example, if a 
conservative Republican administration in the future attempted 
to sabotage the Obama health care initiative by refusing to 
defend it against constitutional attacks? Are there other laws 
down there that you find difficult to make a reasonable defense 
on that we should expect?
    Attorney General Holder. Again, we take seriously the 
obligation that we have.
    We have sent letters to Congress in the past. During the 
course of this Administration, I have signed each one of those. 
On maybe 10 occasions, for a variety of reasons, some 
technical, we have declined to defend a statute that Congress 
has passed. We look at these on a case-by-case basis, mindful 
of the historic obligation that we have and that we have 
followed to defend statutes that Congress has passed. We have 
shown no unwillingness to do that. This is irrespective of what 
we think about the wisdom of the statutes that the Congress has 
passed.
    Mr. Wolf. In the past, DOJ has encouraged Congress to 
engage attorneys in the defense of acts that the Justice 
Department would not defend. Do you encourage Congress to do 
that in this case?
    Attorney General Holder. We did what I think was the 
responsible thing, which was to announce our position well in 
advance of the deadlines that have been set by the court that 
is involved so that Congress can make its own determination as 
to how it wants to proceed.
    Mr. Wolf. Well, I think it is highly unusual for the 
Justice Department to pick and choose on something that has 
passed the Congress by a vote of over 360 votes, signed by the 
President, by a Democratic President, by President Clinton. 
There are similar laws in 40 different States. It almost looks 
like a political decision more than anything else that I can 
say.
    Attorney General Holder. I will say that I think the legal 
landscape has changed in the 15 years since Congress passed 
DOMA. The Supreme Court has ruled that laws criminalizing 
private homosexual conduct are, in fact, unconstitutional. 
Congress has repealed the military's ``don't ask, don't tell'' 
act. Several lower courts have ruled DOMA itself to be 
unconstitutional.
    So I think that the landscape has changed fairly 
fundamentally. And when one also looks at the historic 
discrimination that gays and lesbians have been subjected to, I 
think the decision that the President made, upon my 
recommendation, is appropriate.
    Mr. Wolf. I think it is inappropriate, and I think it is a 
bad decision, but we will see how history treats it.

                       NATIONAL SECURITY FUNDING

    Your budget request states that defending national security 
from both internal and external threats remains the 
Department's highest priority, yet the funding increases for 
national security programs are fairly modest, especially when 
compared to the increases for prisons, $461 million, and for 
COPS hiring, $302 million. The increase in the national 
security programs are $128.6 million and are almost all in the 
FBI's budget. This is less than half the amount you sought for 
such increases in the fiscal year 2011 budget, none of which 
have been funded. What are the biggest gaps in fulfilling the 
Department's national security mission, and how does this 
budget address those gaps?
    Attorney General Holder. I think one of the things that we 
need to do is make sure that we have the intelligence 
capabilities that we need, that we have bodies in order to do 
the very important work that has been set upon us. We have to 
have a very robust FBI. The FBI is really at the heart of our 
counterterrorism efforts. And it is for that reason that we 
have requested additional monies there.
    Given the lean budget times, we have tried to formulate a 
budget that will respond to the needs and the responsibilities 
that we have while at the same time being mindful of the fact 
that we are not in the situation where, frankly, we were just a 
couple of years ago. I think the budget that we have submitted 
will allow us to fulfill our national security responsibilities 
in addition to the other things that you have mentioned.
    Mr. Wolf. I am going to ask a couple more, and then, Mr. 
Fattah, I will be going to you so you can know.

                          GUANTANAMO DETAINEES

    You have sought funding in previous years to prosecute 
Guantanamo detainees in U.S. courts and to acquire and fit out 
U.S. prison space for their detention and incarceration. The 
Congress has not provided the funding, and there is no request 
for any such activities in your fiscal year 2012 request. Can 
you update the committee on exactly what plans are and what 
budget requirements are, if any, for activities related to the 
Department's responsibilities under the executive orders on 
Guantanamo?
    Attorney General Holder. It is still the intention of the 
Administration to close Guantanamo. Guantanamo serves as a 
recruiting tool for al-Qaeda. All of the intelligence tells us 
that. It has served as a wedge between the United States and 
some of its traditional allies. Countless numbers of people who 
are steeped in these issues, Republicans as well as Democrats, 
have indicated that the closure of Guantanamo will help us in 
our fight against those who have sworn to do harm to the 
American people and American interests around the world.
    We want to close Guantanamo. We have also indicated that we 
will make decisions about how we want to do this. We have to 
deal with congressional statutes, restrictions that have been 
put in place, unwisely so, I think, as I indicated in the 
letter that I sent to Congress about those restrictions. The 
President in a signing statement indicated that he thought they 
were unwise and that he would work to have them repealed. I 
agree with the President's statements. We have to deal, 
however, with that reality in making determinations as we 
structure the budget request that we send up to you.
    Mr. Wolf. Just for the record, I want to make sure it is 
answered. The thought that Guantanamo Bay is a recruitment 
tool--the first bombing of the World Trade Center took place 
before Guantanamo Bay was there. The bombing of the American 
embassies in Kenya and Tanzania; Khobar towers; USS Cole. Even 
in the previous Congress, there was no will, which was a 
Democratic Congress, to really close Guantanamo and most 
Members strongly disagree with the administration and you on 
moving Khalid Sheikh Mohammed to New York City. So what are the 
plans? You have been quoted on previous occasions. What are the 
plans now? What should someone expect with regard to Guantanamo 
and with Khalid Sheikh Mohammed?
    Attorney General Holder. Well, as I said, we are going to 
work to try to close Guantanamo. We put together a task force 
that included law enforcement personnel, people from the 
Intelligence Community, lawyers, to look at the 242 people who 
were in Guantanamo when this Administration took office. I 
think the count now is about 170 or so. We have categorized 
each of those people, put them into appropriate dockets, in an 
attempt to close Guantanamo. Again, I start my day at 8:30 
every morning with a briefing about the threats for the past 24 
hours. It is a compilation of all that the Intelligence 
Community has found. I am not revealing anything to say that, 
not every day, but I think on a fairly consistent basis, 
indications are that the existence of Guantanamo is something 
that al-Qaeda uses in its recruiting effort. It is simply a 
fact.
    You are right, those incidents that you talked about 
occurred before the existence of Guantanamo. But Guantanamo 
fairly or unfairly exists as a thing that is used against us by 
those who have sworn to harm us and who have in the past 
demonstrated a capability to harm us. And it is for that reason 
that we feel as strongly as we do, and are as determined as we 
are, to close that facility.
    Mr. Wolf. Do you think it will be closed by the end of the 
President's first term?
    Attorney General Holder. I don't know. We will do all that 
we can. We have to, obviously, work with Congress. Congress has 
put barriers in place to what I think we should be doing, so we 
will have to try to work through those restrictions and work 
with our allies to try to come up with a way in which we can do 
this.

                          TERRORISM RECIDIVISM

    Mr. Wolf. I am concerned about terrorist recidivism among 
those transferred from Guantanamo back to their home countries 
or third countries. Your head of Legislative Affairs just 
recently again--this is another indication--recently replied to 
my letter of last March--that is 11 months--about these 
concerns. In the intervening 11 months, the situation has 
gotten worse.
    In December, the DNI released assessment that 150 former 
Gitmo detainees are confirmed or suspected of re-engaging in 
terrorism or insurgent activities. That is 25 percent of all of 
those released and a substantial increase over previous 
reports. The number of confirmed recidivists increased from 27 
to 81. Presumably these transfers were only done when adequate 
security measures were pledged by the receiving government.
    What is the Department doing to make sure that these 
governments can now live up to the supervision, particularly in 
light of what has taken place in some of those governments 
around the country, around the world?
    Attorney General Holder. Recidivism is obviously something 
that we take very seriously. And those people who go back to 
the fight--I guess that is the expression that is used--are 
people who we will hunt down and bring to justice.
    Mr. Wolf. Have any Americans been killed by anyone who has 
gone back to the fight, as you say?
    [The information follows:]

                  Recidivism of Detainees Transferred

    The Department takes extremely seriously any incidence of 
recidivism of detainees transferred out of the Guantanamo Detention 
Facility, which is why all transfer decisions have been based on 
comprehensive reviews of intelligence and threat information. Since 
January 2009, the Administration has transferred 67 detainees in 
Guantanamo Detention Facility to foreign countries. Of these 67, three 
are confirmed recidivists and two are suspected recidivists. Prior to 
January 2009, 535 detainees were transferred and of these detainees, 79 
are confirmed recidivists and 66 are suspected recidivists.
    The Department is not the entity within the Government that 
maintains incident specific information related to these confirmed and 
suspected recidivists. The Office of the Director of National 
Intelligence may be able to provide additional information in response 
to your question. However, as stated, we take extremely seriously any 
incidence of recidivism of detainees transferred out of the Guantanamo 
Detention Facility, and are working across the government and with 
partner governments to minimize risk and keep the American people safe.

    Attorney General Holder. I am not aware of that. I don't 
know.
    Mr. Wolf. Wouldn't that be something to find out, though? 
If we had somebody and released somebody, and he then killed 
somebody. The Administration released several back to 
Afghanistan. To have somebody from Guantanamo Bay who has been 
down there serving with Khalid Sheikh Mohammed to be released 
back to Afghanistan, and the Administration--you were releasing 
people back to Yemen, only stopping after a number of people 
raised the issue, saying they are concerned. So I guess it 
could be checked for the records to see if any who have been 
released or have been captured or have been picked up have been 
involved with regard to the death of any Americans?
    Attorney General Holder. As one looks at the rate of 
recidivism, I think there is an interesting statistic. With 
regard to those that have been released during the time of the 
Obama Administration, we have a recidivism rate of about 7 
percent that compares to a rate of about 25 percent under the 
previous Administration. I think that is a function of the fact 
that we have been very careful in how we made determinations as 
to how people at Guantanamo should be treated.
    And the numbers with regard to those who have been released 
during this Administration, we are talking about the 
possibility--I guess of the 67 people that have been 
transferred, there have been 2 that have been confirmed, and 
then 3 who are suspected of re-engaging. That is 3 possibles; 2 
confirmed of the 67. As I said, that comes to about 7 percent.
    Again, any kind of recidivism is serious and something that 
we take seriously. But also note that since 2009, there has 
been a congressional restriction that we have had to run by 
Congress the people who in fact were going to be released from 
Guantanamo. That has been done in every case in which this 
Administration has released anybody from Guantanamo. We have 
never heard an objection from anybody in Congress about that.
    Mr. Wolf. Mr. Attorney General, I have objected, number 
one. And number two, I offered an amendment which was rejected. 
We hope to offer it again to make those releases public so the 
public knows. They are all top secret. We take a look at every 
one that is done, but most Members of Congress don't know who 
is being released, when they are being released. So you haven't 
heard anything because there has been no disclosure and 
dialogue. The amendment that I had would have made it public.
    So I guess I am going to go to Mr. Fattah. The last 
question is, can we expect any additional transfers in the near 
future?
    Attorney General Holder. Well, there are congressional 
restrictions that we have in place. We still are endeavoring to 
close Guantanamo, and we will try to continue those efforts, 
but we will also be mindful of the obligations we have under 
existing congressional restrictions and communicate whatever we 
have to communicate to Congress.
    Mr. Wolf. Mr. Fattah.

                        GUANTANAMO--RULE OF LAW

    Mr. Fattah. Thank you, Mr. Chairman. And obviously, a wide 
area of issues has been covered, but why don't we start where 
you left off on Guantanamo. Former Speaker Newt Gingrich 
appeared before a panel discussion here in the Congress almost 
a decade ago, after 9/11, and they were having this discussion 
about the United States and our ideals as a nation, as a 
country that operates under the rule of law. And the chairman 
would recall that under President Bush, the first President 
Bush--I think the chairman even joined in--there were 
complaints lodged against China for arresting people with no 
charges being made public and no trial. And so there were no 
charges. There were no trials. And we said that China was 
operating in a way in which it was in violation of 
international law and under the guise of a country operating 
under the rule of law.
    The biggest concern about Guantanamo is that our own 
country--and I go back to Speaker Gingrich. I asked him this 
question. I said, given post-9/11, given Guantanamo, how do we 
talk about the rule of law in international company? How do we 
say it is okay now to arrest someone without charges, with 
secret evidence, hold them indefinitely and say that is a 
permissible fact, given our criticisms of China and criticisms 
of other countries acting in this way?
    So I am less concerned about al-Qaeda using it as a 
recruitment tool. I am more concerned about our own 
justification for how we take someone, arrest them, don't make 
the basis of the arrest known, don't allow them to have an 
attorney, don't try them at any point and hold them 
indefinitely at Guantanamo, and how we then say as a nation 
that we are operating under the law.
    So my concern is a little bit different from the chairman, 
and I think that it takes away our ability. When you saw 
President Bush, Sr., aggressively attack China for doing this, 
I wonder what we would do today, given our own actions.
    But I do think that the chairman makes an important note 
that people have been released who have returned to activities 
that are of concern to us. They have been released under the 
previous administration with complete silence by those on the 
other side of the aisle in the House who now selectively want 
to attack this administration, even though the rate of 
recidivism, as you point out, is drastically different and 
Congress has approved of these releases.
    So I think that there are politics in this and I think that 
we should try to get politics away from this question of 
national security; let's actually focus on what is important to 
our country. And in that regard, I want to go to the chairman's 
original point.

              FUNDING IMPACTS OF THE CONTINUING RESOLUTION

    A significant part of the FBI's responsibility is in the 
area of national security. And I want to know, given the short-
term CR, given the budget request for next year, where you see 
the level of agents in terms of--particularly given the fact 
that over 40 percent of their responsibilities are in the area 
of national security and it was the desire of the Congress not 
to have cuts in the area of national security--whether than any 
of these would be impacted?
    Attorney General Holder. I am very concerned about the 
ability to run the Department in a way that is consistent with 
the obligations that we have if this CR were to continue. We 
have responsibilities on a national security front that we have 
addressed in the 2012 budget, even though the increases are 
frankly not as large as I would like them to be. There are 
nevertheless increases. We have tried, as I said, to come up 
with a budget that deals with the fiscal reality that we 
confront. I am particularly worried about the Bureau of Prisons 
and the responsibilities that we have there with regard to the 
intake that comes our way because prosecutors are doing what we 
expect them to do and agents are doing what we expect them to 
do. At the current levels that we have in the continuing 
resolution, we are going to run into a wall at some point.
    But to get more particularly to the question that you have 
asked, I am also worried that, with regard to the hiring needed 
to stay in front of these national security issues that are the 
responsibility of the Department, we have to get beyond this 
continuing resolution. I have tried to take into account the 
continuing resolution, and I have put in place a hiring freeze 
and done other things. But that can only tide us over for so 
long. So I would hope that through my testimony, through the 
interaction that hopefully the Administration will be having 
with members of this committee and Congress as a whole, that we 
will have a resolution of the budget issues that now divide us 
so that we will have the monies that we need to protect the 
American people.

                        DEFENSE OF MARRIAGE ACT

    Mr. Fattah. The Defense of Marriage Act. Any time that in a 
court of law we are arguing that someone's rights should be 
restricted in our country, the basis of the scrutiny of the 
court is an important one. So the point that this should be 
handled under heightened scrutiny I think, at least for myself 
and I believe for a majority of the American people that would 
agree, that any time we are going to trample on someone's 
rights or restrict them, it should take a very high level of 
scrutiny by the court. And I think that when we have my 
colleagues quoting the Washington Post editorial, which is not 
a normal thing for Members who sometimes are on the opposite 
side of the administration, you can obviously see that there is 
a great deal of interest in this matter. But it apparently is 
the case that there have been times in the past where the 
Department--``past'' meaning outside of this administration--
where the Department has not gone into court with arguments 
that they cannot believe in as constitutionally legitimate in 
previous administrations. And I want to make sure that we enter 
those for the record, and we will, Mr. Chairman.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259A.007
    
    [GRAPHIC] [TIFF OMITTED] T7259A.008
    
    [GRAPHIC] [TIFF OMITTED] T7259A.009
    
    But as to the point about the Administration's decision, as 
I would understand it, the Administration has said that it will 
still require upholding the letter of the law, but you will not 
allow your attorneys to go into court and argue something that 
on its face doesn't meet the scrutiny that would be required? 
Is that where the Administration is on this?
    Attorney General Holder. I think that is actually a very 
important distinction. We will not defend the constitutionality 
of the statute, but until the statute has either been changed 
by Congress or there is a definitive judicial interpretation of 
it or ruling with regard to it, we will continue to enforce the 
law because it is a law that does exist on the books. So we 
will enforce the statute, but we will not defend its 
constitutionality.
    Mr. Fattah. Thank you.

                           HUMAN TRAFFICKING

    Could you talk a little bit about the work of the 
Department in the area of combatting human trafficking?
    Attorney General Holder. This is something that is of great 
interest, not only to the Department, but to this 
Administration as a whole. We have made this a priority. We 
have an Administration-wide effort to deal with the problem of 
human trafficking. We have made budget requests in that regard. 
When one looks at the problems that exist, not only in this 
Nation but around the world, it seems to me that this is 
something that we have to make a priority. You have those 
people who are at greatest risk being taken advantage of, 
unfortunately--young people especially. It is something that I 
have really tried to focus on at the Department and also in 
conjunction with my colleagues in other executive branch 
agencies. The Secretary of State leads our efforts on the 
international side.

                             MEDICARE FRAUD

    Mr. Fattah. I referenced in my opening statement your 
recent activities regarding Medicare fraud and organized crime. 
If you could comment on the Department's recent efforts and 
successes in that regard and what appropriations requests in 
your fiscal year 2012 budget would be important in continuing 
those efforts?
    Attorney General Holder. We have been particularly 
successful, I think, when it comes to our fight against fraud 
efforts. As I have indicated in my opening statement, when it 
comes to health care fraud and other fraud-related recoveries 
that we have made under the False Claims Act, we have recovered 
billions of dollars for the American people. With additional 
resources, we can increase the amount of money that we get back 
for the American people, and we have made budget requests in 
that regard.
    When it comes to organized crime, this is something that 
continues to be an issue that has to be focused on by the 
Department of Justice. I was in New York about 4 or 5 weeks ago 
to announce a major takedown that we did of organized crime 
figures--the largest single takedown of organized crime figures 
in the history of this Nation. And it shows the breadth of 
organized crime activity from those things that seem relatively 
small in scale to things that are larger and more traditionally 
seem to be in control--the attempts to control the docks and 
union activity and things of that nature.
    So organized crime continues to be something that we have 
to focus on. There is a wide range of things that the 
Department of Justice has on its plate beyond that which is 
relatively new, the national security side. And what I have 
come to call these traditional functions are things I have 
tried to focus on, give attention to and make sure that we have 
adequate resources to try to address.
    Mr. Fattah. Thank you.
    And I will catch up on the next round.
    Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Culberson.
    Mr. Culberson. I will wait until the next round.
    Mr. Wolf. Mr. Bonner.
    Mr. Bonner. Thank you, Mr. Chairman.
    Attorney General, it is good to have you back here. Send 
greetings to your wife who is a citizen of my hometown.
    Attorney General Holder. From Mobile?
    Mr. Bonner. Yes, sir.
    In a minute, I want to go to some questions specific to the 
Gulf Coast Claims Facility, the process set up by the 
administration. But I would like to pick up on the line of 
questioning that the chairman and the ranking member had.

                        DEFENSE OF MARRIAGE ACT

    First, about DOMA, since it appears that the Department is 
not planning to defend DOMA and since, as you know, we are 
operating in a continuing resolution trying to finish the 
budgeting process for this fiscal year, could you give us any 
idea of how much money would be saved by the Department in not 
defending this, even though there is strong disagreement from 
many in Congress of this position? And would any of those 
monies be available in terms of returning to the process? Since 
you won't be defending it, those are monies that will not be 
spent by the Department. Would you have any idea how much money 
that would be?
    Attorney General Holder. I am not sure we save any money, 
frankly. The people who would be defending the statute, were we 
to do that, are career employees of the Department of Justice 
who will not be spending their time doing that. They will be 
spending their time doing other things. I am not sure that I 
see any savings as a result of the decision that I announced 
with the President.

                HYPOTHETICAL CAPTURE OF OSAMA BIN LADEN

    Mr. Bonner. And then, as a follow-up to Guantanamo--again, 
that was the original line of questioning. A few days ago, the 
CIA director said that if we were to capture Osama bin Laden, 
that he would very likely end up in Guantanamo. Is there a 
conflict within the administration that the CIA Director would 
make that statement and yet you, in answering to Chairman Wolf, 
continue to advocate a position that it is this 
administration's view that Guantanamo should be closed?
    Attorney General Holder. I think the Administration speaks 
with one voice. It is true that Director Panetta did indicate 
that in his testimony. He issued a statement later that evening 
that was consistent with what the Director of National 
Intelligence said at the hearing with Director Panetta. And I 
think the Administration's position is--this is something that 
we have thought about, that we have tried to work on and 
prepare for. And were bin Laden to come into our possession, 
the national security team would consider its obligations and 
make a decision as to how he would be treated.

                       GULF COAST CLAIMS FACILITY

    Mr. Bonner. As I said earlier, I want to switch gears to 
something that is parochial to me but really is important to 
the whole country. Because as you know--I think you were 
certainly involved in it--that was the impression--back when 
the President announced last year, in response to the worst 
environmental oil spill in American history, the creation of 
the Gulf Coast Claims Facility, and his naming through an 
agreement worked with BP and the administration--and again, it 
was our understanding that the Justice Department was heavily 
involved in this--to the appointment of Mr. Ken Feinberg to be 
the administrator of this. In the opinion of this Member, who 
represents Mobile, Alabama, and the coastal counties of my 
State, the GCCF has been a dismal failure.
    Despite continued and direct engagement with Mr. Feinberg 
to address the systematic shortcomings of his organization, 
there appears to be no improvement on the horizon, and 
consistency and transparency remain problematic. Let me give 
you a quick example. Based on the GCCF's own web page, last 
week--there are two coastal counties, as you know, in my home 
State, Mobile and Baldwin Counties. Last week, based on their 
own numbers, they processed four claims. Unfortunately, based 
on their own numbers, there are 93,000 claims that remain 
unprocessed. At this rate, it will take 450 years--I don't 
think any of us will be here--to process all these claims. And 
that is assuming there are no new claims that are filed.
    Now, the President said in creating this, again with the 
support of the administration, that this administration was 
going to stand by the people of the Gulf Coast. Can you--first 
of all, I want to give a shout-out to Tom Perrelli. He is the 
only person in this administration that I have confidence in 
that is going to put pressure on Mr. Feinberg and on BP to 
fulfill the promise that both the company and the administrator 
that this administration helped create made and that was to 
make the Gulf Coast whole. So I want to give a shout-out to Mr. 
Perrelli, and please let him know how much I appreciate his 
work.
    But can you give us any insight into what the Justice 
Department's role is in making sure that this creation is going 
to fulfill the promise that the President of the United States 
made to the American people?
    Attorney General Holder. I share the concerns that you have 
about the impact that the oil spill had on the Gulf Coast. I 
went down there shortly after, in fact went to Mobile and 
looked at some of the reconstruction efforts that were at that 
point underway, the rehabilitation efforts that were underway. 
The Justice Department does not operate or have any statutory 
responsibility for the GCCF.
    Although, I will say for the record--I thank you for the 
kind words you said about Tom Perrelli. He is the Associate 
Attorney General at the Department of Justice and has spent a 
great deal of time pushing to have claims paid more quickly. We 
have tried to monitor the activity of the GCCF. Its performance 
as of January 27th, looking at the numbers I have here, there 
were about 480,000 claims filed with GCCF; 170,000 of those 
have been paid, totaling a little over $3 billion. We have 
expressed our concerns about the pace and Tom has, again, as 
you have indicated, taken a lead for the Department. We have 
expressed concerns that we do not think these are being 
processed as quickly as they can. We have tried to apply, I am 
not sure I would call it pressure, but we expressed concerns in 
a way that is consistent with the responsibilities that we 
have.
    We don't have any formal relationship with GCCF. But Tom 
has used his time, his skills to try to speed up the pace at 
which people, who are very deserving, whose lives have been 
very negatively impacted--you have to go, you have to be there 
to see. It is one thing to read about this. It is a whole 
different deal to go down there and to actually see people who 
run hotels, restaurants. I was really struck by the fact that 
when I was there, it was warm--it was in the height of tourist 
season, and we went into a restaurant and my wife will kill me 
for this, I don't remember if it was outside of Mobile, a beach 
there, and we were the only ones in the restaurant. I talked to 
the owner of the restaurant; and he said, this was totally 
atypical, that on a day like this that time of year, they would 
have had a full restaurant. The only people that were in that 
restaurant at that time were the people traveling with me.
    I made a pledge to the people there I was going to come 
back a year from my visit to see where we stood with regard to 
how the claims process was going and to show them that, A, we 
cared, and B, we did as much as we could to make sure that this 
process worked for them. And I will go back on that one-year--
--
    Mr. Bonner. Please let me know when that is. I would love 
to go to lunch with you.

                       OIL POLLUTION ACT OF 1990

    I believe that ultimately the Department will have to issue 
a ruling that defines exactly what OPA requires of BP. You may 
not have a direct oversight of the GCCF. Although it begs the 
question that if you don't, who does? Because clearly it is a 
monster that has been created by this administration with the 
promise of making the people whole. And again, the thought that 
we might have to go 450 years before the last claim is 
determined, whether it is legitimate or not, our people will 
not be able to wait for that, obviously. What do you think will 
trigger a requirement for DOJ to issue a ruling on OPA, and are 
you preparing to make such a ruling at that time?
    Attorney General Holder. I am not sure I understand the 
question on the OPA.
    Mr. Bonner. The Oil Pollution Act of 1990 that passed that 
holds the company responsible and that there will be 
substantial fines.
    Attorney General Holder. We have filed a civil lawsuit, at 
least a couple of months or so ago. We are actively pursuing 
that matter in an attempt to gain money from the people and the 
companies we think are responsible for the spill. There is, as 
I indicated when I was in New Orleans, an ongoing criminal 
investigation as well. So the Department is operating on both 
levels, both with regard to the civil enforcement powers that 
we have and also with regard to the criminal investigative 
powers that we have to hold responsible those companies, those 
people who were responsible for the worst natural disaster in 
this Nation's history.
    We are being aggressive in that regard. We are pushing to 
make sure that we resolve this as quickly as we can. I think, 
under Mr. Perrelli's direction on the civil side, we put 
together this fund that BP has contributed to and from which 
claims can be processed. But beyond that, we are using our 
civil enforcement powers to sue to gain additional monies from 
the responsible parties.
    We have made clear, and I pledge again today, that the 
American taxpayers are not going to have to pay a dime for the 
cleanup or a dime for making whole the people who have suffered 
in the region that you represent.
    Mr. Bonner. Just one final question, Mr. Chairman. And I 
have some others that I will submit for the record.

                       GULF COAST CLAIMS FACILITY

    Not to blindside you on this, because you have had a lot of 
issues to touch base on, but do you have a response to the 
Federal judge's ruling in New Orleans that Mr. Feinberg is not 
an independent administrator as he was originally presented to 
the American people that he would be and, in fact, that he is 
executing his responsibilities on behalf of his employer, 
British Petroleum, rather than in a manner that is in the best 
interest of the victim?
    Attorney General Holder. The way this has been set up, he 
is paid by BP or works for BP. But the emphasis that we have 
placed, and Tom Perrelli has placed is on trying to make this 
claims process work. Our hope is that however the GCCF is 
constructed, it potentially can work, and should work better. 
The 450-year time period that you have indicated is obviously 
unacceptable. Something substantially, substantially shorter 
than that, is what we have to be looking at, and we will try to 
assist to the extent that we can by applying pressure where we 
can, by using our lawsuits to try to get money to people as 
quickly as we can. And to the extent we find issues with regard 
to how the GCCF is working, we will do what we can. We will 
certainly identify them and try to work to rectify them.
    Mr. Bonner. Thank you. Mr. Chairman, the reason I asked 
that--and again, I know this is parochial to me because I am on 
the Gulf Coast, but why it is important to our friends in 
Pennsylvania or California or Georgia or wherever, Kansas, is 
if you go from Key West in Florida all the way to Brownsville, 
Texas, and you look at the economies of the five Gulf Coast 
states, you are looking at over $2.8 trillion of GDP impact to 
this country. Last year we were all worried about what was 
happening in Greece, which was about a $350 billion impact on 
the global economy. The five Gulf Coast States, by rough 
estimates, $2.8 trillion, and we were devastated by this oil 
spill last year, and we continue to be devastated, and that is 
why I raised the questioning today asking for the Department to 
do everything it can.
    It is very unusual for a conservative Republican Member to 
be asking any Justice Department, this Justice Department or 
any other, to intervene here. But we have got to hold the 
people who did this accountable, and we have got to make sure 
that the claims facility that was set up by the Justice 
Department and the administration to make those people whole, 
we have got to make sure they are doing a better job. And with 
that, thank you.
    Attorney General Holder. I would disagree with you, Mr. 
Bonner. The questions that you have asked are not parochial 
ones. I think the statistics you just used about the trillions 
of dollars of impact, show that this is a national issue. It 
affects maybe most directly the people on the Gulf Coast. But 
the reality is this is a national issue, and that is why it 
requires a national response. And I can assure you that the 
Justice Department, Tom Perrelli and others, will stay focused 
on this issue.
    Mr. Wolf. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman.
    And welcome, Mr. Holder. I want to thank you for your 
testimony here today, and I really do appreciate your attention 
and dedication to the many important civil rights and justice 
issues that we face today.

                STATE CRIMINAL ALIEN ASSISTANCE PROGRAM

    I wanted to ask you something about the budget dance that 
we seem to go through every year and is the proper funding for 
the State Community Assistance Program more commonly known as 
SCAAP. As you know, border States, like California, are 
disproportionately affected by this. And I notice for the 2012 
request, the funding for SCAAP has been reduced greatly. And 
now I understand some of this programmatic shifting is going 
on. But at some point, we as a country need to come to a 
solution on this issue that goes beyond just partial 
reimbursement. And to this, I ask, do you have any suggestions 
or ideas on what Congress could do to permanently address this 
issue?
    Attorney General Holder. We have requested I think $136 
million for SCAAP. As we all know, that goes for the 
incarceration costs for inmates who do not have legal 
immigration status. And so I think one of the things that the 
Congress could do, working with the Administration as well, is 
to look at the whole question of illegal immigration and to try 
to address that in a comprehensive way. I think that would have 
an impact on the monies that we spend with regard to SCAAP.
    I mean we have tried to make sure that this money is spent 
wisely. I have seen the Inspector General report that indicates 
that some high percentage of people, I think it was 58 percent 
or so of people were not identified as people who were illegal 
immigrants and their status was not totally known. And so that 
is something I think that has to be worked on.
    The money that we are asking for this year is less than we 
sought last year. Again, that is just a tough decision, a tough 
budgetary decision that we had to make. We are of the view that 
this is in fact a national obligation and the states need to be 
reimbursed for the monies they expend in this regard. And the 
only reason we are seeking less money than we did last year is 
strictly on the basis of budgetary constraints that we have.
    Mr. Honda. I don't disagree with you about the efficacy of 
having a comprehensive immigration reform package that would 
include law enforcement and border protection and things like 
that. And it seems to me that over the past few years we have 
been approaching this whole issue, mish-mash, and spending a 
lot of money that doesn't seem to have a return on the kind of 
investment that we are seeking.

                    INDIAN COUNTRY JUSTICE PROGRAMS

    And you know that California has large needs for Indian 
country Justice programs. And I consider refunding components 
of Public Law 106-559 of vital importance. And I know that in 
this 2012 request, the DOJ has created a new discretionary set-
aside to fund all tribal assistance programs rather than 
separate appropriations.
    How will the change affect the civil and criminal and legal 
assistance programs, and particularly ensuring that current 
funding levels remain?
    Attorney General Holder. What we tried to do is actually 
prioritize the work that we have done with regard to tribal 
lands. It is something that I hope will be a legacy of this 
Administration, that we have taken seriously the 
responsibilities that we have on tribal lands, that we have 
recognized the unique needs and the unique problems that are 
faced there. We have in our budget funds that will go towards 
supporting what is certainly a desire on my part, and on the 
part of the President as well, to have as a legacy the fact 
that we are taking very seriously our responsibilities in that 
regard.
    We have over $420 million in the budget. We want to work 
with you to make sure that that money is spent in an 
appropriate way. But I really want to emphasize that this is 
something that is a high priority for this Administration. I 
met in the Roosevelt Room with the President and with a number 
of tribal leaders; I have gone to a listening conference in 
Minnesota; Tom Perrelli has taken this on as a particular 
priority of his.
    When one looks at the problems that women face on tribal 
lands with regard to violence that they are subjected to, when 
one looks at the rates of substance abuse, there are a whole 
host of issues that have to be dealt with. There are not 
sufficient law enforcement resources there. And the monies that 
we are seeking for tribal issues I think go a long way to 
backing up the promises that we made and the obligations that 
we think that we have.
    Mr. Honda. I appreciate the attention and the sense that 
you have regarding Indian country, because I think that that is 
an area where we at times turn a blind eye to, and I think that 
in terms of our relationship to sovereign nations it is an 
obligation that we need to fulfill.

                         GUN CONTROL--LONG GUNS

    One other issue I would like to bring to your attention, 
Mr. Holder, is gun rights and gun control. As an avid outdoors 
person myself, I support the Second Amendment, but also support 
reasonable changes to existing law that makes it easier to 
track criminals purchasing weapons.
    One of the biggest gun issues facing California is, of 
course, the sales of the so-called long guns and drug and 
criminal violence at the border. I know that there is a public 
comment period through the ATF on new reporting standards on 
long guns. But I would like to know what steps the Department 
has taken to improve the situation and what more can be done to 
put reasonable safeguards in place?
    Attorney General Holder. ATF currently has a proposal that 
has been made with regard to the purchase of long guns. It is, 
I think, a reasonable proposal that would require firearms 
dealers to report any instance where a person buys two long 
guns within a 5-day period that are above .22-caliber, that are 
semiautomatic, and have has a detachable magazine. The concern 
is, obviously, with the possibility that people are buying 
these as straw purchases, and that a lot of these weapons end 
up in Mexico. The proposal that ATF has made only applies to 
four States that border Mexico, but we think we could have a 
substantial impact on the flow of guns that go into Mexico.
    I am greatly concerned that some of these weapons that find 
their way into Mexico might be used against the agents from 
this Nation who are down there fighting with their Mexican 
counterparts against the cartels. It gives me very great 
concern. I think it is a responsible thing to do. I think it is 
respectful of the Second Amendment. It is something that we 
require gun dealers to do with regard to the sale of pistols. 
And it seems to me that asking dealers along the border to 
report on certain long gun sales, and given the limited 
circumstances under which I said that we do this, I think that 
that is appropriate. I think it would go a long way to helping 
us deal with this issue.
    Mr. Honda. I understand there are quite a few statistics 
that we have at hand relative to the number of firearms that 
are confiscated across the border that can be traced to the 
United States into several different kinds of activities that 
we have here that are not unlawful but should have greater 
oversight and scrutiny. And if those statistics are available, 
I would be very interested in receiving them.
    [The information follows:]

                       Firearms Seized in Mexico

    There are no United States Government sources that maintain any 
record of the total number of criminal firearms seized in Mexico. ATF 
reports relate only to firearms recovered in Mexico that were 
subsequently traced by ATF based upon firearms identifiers submitted to 
ATF by the Mexican Government. All crime gun traces are performed by 
ATF's National Tracing Center (NTC), the country's only crime gun 
tracing facility. The Mexican government does not submit every 
recovered firearm to ATF for tracing. Mexico trace data (as of April 
28, 2011) indicates that between FY 2009 and FY 1020, a total of 21,313 
firearms recovered in Mexico were traced by ATF. Of these, 10,945 were 
manufactured in the U.S., 3,268 were imported into the U.S. from a 
third country, and 7,100 were of undetermined origin due to 
insufficient information provided. The Department is committed to 
reducing the flow of guns across the border into Mexico through straw 
purchasers. ATF has submitted to the Office of Management and Budget 
for review and approval under the Paperwork Reduction Act a request to 
require Federal licensed firearms dealers in Arizona, California, New 
Mexico and California to report to ATF sales of two or more long guns 
(above a .22-caliber, semiautomatic, and has a detachable magazine) to 
the same individual within a five day period. If OMB approves the 
request, ATF plans to implement the reporting requirement without 
delay.

                              PATRIOT ACT

    A few weeks ago Congress passed extension to a few key 
provisions in the PATRIOT Act. And I opposed those acts since 
inception, as I strongly believe they crossed the line in terms 
of civil and privacy acts of our citizens. I understand the 
need to keep our country safe from harm, but as a country we 
need to do better than to pass laws that give broad powers to 
civilians. We need to do better than that.
    Many have called for hearings on this issue and a pragmatic 
approach to this issue. I would like very much to hear your 
thoughts on how we can bridge the gap between protecting the 
rights of Americans while giving the tools needed to protect 
us. And I think that that is probably an area that has come to 
fore because of the change in technology and the kinds of 
things that we understand technically as to what is going to be 
important and how to go about doing that.
    Attorney General Holder. Well, we do support the renewal of 
those three authorities: the business records provision, the 
lone wolf provision, and the roving wiretap provision. But the 
Administration also supports increased civil liberties 
protections. I think, in particular, a good balance is struck 
by the bill that Senator Leahy introduced that supports the 
extension of those authorities but also dials in civil 
liberties protection. These are necessary tools for us to have 
in order to fight the threat that confronts our Nation. We 
think that we can do this in such a way that, with appropriate 
supervision within the executive branch and working with the 
Foreign Intelligence Surveillance Court, we can make sure that 
these tools are used in a way that is effective but also is 
consistent with the values that have made this Nation great.
    The concerns you express I think are legitimate ones. We 
may end up in a different place, but the concerns you have I 
think are legitimate. And as I said, I think Senator Leahy's 
bill really strikes a good balance.
    Mr. Honda. What would be the critical steps that would need 
to be pronounced and clear in order for us to be able to 
execute some of the provisions that law enforcement may have, 
that may be at question by some other Members of Congress, the 
concerns we have in terms of privacy. What are some clear steps 
that need to be in place?
    Attorney General Holder. I think that as we use these 
provisions and other provisions of the PATRIOT Act, we have to 
be mindful of the privacy interests that American citizens 
have. We have to make sure that we act in a way that is 
consistent. We have to make sure that we don't overreach. We 
can't let the threat that we face make us turn our backs on 
that which has defined this country and made it the great 
Nation that it is. And that is a balance that you have to 
strike, but it is something that we should always be mindful 
of. And I think that if we keep that in our minds, those of us 
who have to enforce these laws and take advantage of these 
tools, if we keep those kinds of thoughts in our minds, we will 
act in an appropriate way.
    We want to work with Congress as well. Oversight, for 
instance, is something that makes a great deal of sense when it 
comes to the use of the PATRIOT Act. Generally these three 
provisions in particular: interaction with Congress about how 
these tools are being used, an airing of concerns that people 
have, and responses from those of us in government who are 
using these steps. I mean, that kind of interaction I think 
makes a great deal of sense and will make sure that there is no 
overreaching by those in the executive branch.

                        FISA COURT REQUIREMENTS

    Mr. Honda. One last question, Mr. Chairman. One of the 
things that seems to concern--well, it concerns me--is the 
decision that a person would make, whether it is executive or 
otherwise, to move forward without going through the legal 
process of securing permission to wiretap or to tap into the 
internet in the name of national security.
    Does that condition exist in the current law? And if so, 
are there requirements of that person to report in a timely 
manner that action to somebody like the judiciary arm?
    Attorney General Holder. All the surveillance activities 
that the Department of Justice and other intelligence agencies 
are involved in are done pursuant to statute and with the 
approval of the FISA Court or an Article III Court, if we are 
talking about just regular wiretapping, so that there is a 
statutory basis for those surveillance activities that we 
engage in, and then there is judicial approval of the request 
that we make so that there is supervision of these activities. 
There can be things done on an emergency basis at the direction 
of the Attorney General, but even those have to ultimately be 
submitted to the FISA Court for approval. So there is always 
judicial supervision of the things that we do.
    Mr. Honda. But the term ``ultimately reported back,'' is 
there a time definite that needs to be observed?
    Attorney General Holder. Yes, it is 72 hours. We are not 
talking about some extended period of time. I would have to 
look. But those things that I have done on an emergency basis, 
we try to report within the timeframe. I would have to check 
and get back to you on that. I think we are talking about 2 to 
3 days within which we have to report back to the FISA Court.
    [The information follows:]

                        FISA Court Notification

    Under the Foreign Intelligence Surveillance Act (FISA), the 
Attorney General may authorize emergency electronic surveillance or 
physical search of a foreign power or agent of a foreign power. The 
Attorney General or a designee must notify a judge of the FISA Court of 
the emergency authorization ``at the time of such authorization.'' An 
application must then be presented to a FISA Court judge ``as soon as 
practicable,'' but no later than 7 days after the Attorney General's 
emergency authorization.

    Mr. Honda. Thank you very much. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman, for yielding. I 
apologize for being late. General Holder, welcome to the 
committee.
    Attorney General Holder. Morning.

                        PRESCRIPTION DRUG ABUSE

    Mr. Rogers. I want to focus your mind with me on a problem 
of an epidemic that is sweeping this country, and that is 
prescription drug abuse and methamphetamine abuse. Today, two 
people at least will die in Kentucky from overdoses; 82 a 
month. My State perhaps is Ground Zero for prescription drug 
abuse, but it is everywhere, it is not just there. It is 
sinister. Nationwide, in the last decade we have seen a 400 
percent increase, in those reporting abuse of prescription pain 
relievers with about 7,000 new abusers every day; 7,000 new 
abusers every day.
    There is a mechanism that we are fighting in Kentucky and 
other States and that is, as you well know, the prescription 
drug monitoring programs in Kentucky--it is called KASPER--
where doctors and pharmacists can check in the central computer 
in the State to see if a person presenting a prescription has 
been doctor-shopping or has filled it in another location.
    Thirty-eight States now have responded to a Department of 
Justice grant program that helps them set up that system in 
their State. Thirty-eight States now have that system and 10 
more applied for those grants, including Florida, which I will 
come to in a minute. And KASPER works. We have seen a dramatic 
decline and a dramatic increase in prosecutions of fake doctors 
and pharmacists and the like. Other States have reported the 
same. And yet in your budget request, zero.
    This is a program that has been in place for--in fact it 
was started by this subcommittee, Mr. Chairman, under your 
leadership. It has been in place for maybe 10 years or so. We 
have seen the number of States with authorized or operational 
programs triple from 15 to 45, an increase of almost 2,600 
percent in the number of prescription reports. And yet for 
whatever reason, you did not request any funds to continue that 
program which has proven itself countrywide, why?
    Attorney General Holder. The President's fiscal year 2012 
budget, the budget that we have submitted, does propose to use 
$3 million of OJP's proposed research, evaluation, and 
statistics to set aside a fund for a limited number of 
prescription drug monitoring pilots in conjunction with an 
evaluation.
    So the information I have is that nearly every State has 
decided to implement a prescription drug monitoring program and 
had an opportunity to apply for those funds. The problem that 
you talk about is indeed a serious one. It is one that is 
nationwide in scope, though I think you are right, there are 
particular areas in the country that have had to deal with this 
issue in a more concentrated way.
    The fact that we have moved in the way that we have with 
regard to our budget is no indication that we are not mindful 
of the problem or less serious----
    Mr. Rogers. Zeroing out the program that is the only thing 
going that is getting at prescription drug abuse, zeroing that 
out tells me you are not serious about solving this problem; $3 
million in an ill-defined request that you have made for a 
pilot and evaluation. These aren't pilots, these are 
operational. Ask your State police and your U.S. Attorneys; 
they will all tell you this is the only weapon we have against 
prescription drug abuse.
    Attorney General Holder. I would respectfully disagree in 
that regard. We have our enforcement efforts that we take with 
regard to the prosecution of people who engage in the sale or 
misuse of these products. Those kinds of efforts will continue. 
So this is not the only tool that we have. And again, as I 
said, this is a problem that we take very seriously.
    Mr. Rogers. Well the head of ONDCP in the White House, Gil 
Kerlikowske, I spent last week with him in Kentucky. He was 
there 3 or 4 days talking about this problem, and he says that 
this is a valuable weapon in fighting this cause. I didn't 
discuss with him the fact that you had not requested any funds 
for it, I didn't want to embarrass him in public. But the ONDCP 
director has serious problems with your budget request.
    Now, that gets me to Florida. There is a thing called a 
Flamingo Express, the Flamingo Road. Broward County, Florida, 
is where practically all of the prescription medicines that are 
illegally obtained come from; 98 of the top 100 prescribers of 
oxycodone, 98 out of 100 top ones come from Broward County, 
Florida. They dispense over 19 million dosages of this drug, 
which is about 89 percent of the total dispensed by the entire 
country. These are pill mills, these are drive-throughs. You 
drive through like a Burger King, with a truckload or van load 
of people from Kentucky or Tennessee or Ohio or any other 
State, particularly on the eastern seaboard. You load your van 
up, you take them to Broward County, you drive them through the 
drive-through, and you come back with a ton of prescription 
medicines that you then foist off on innocent children and 
other people. And two of them in Kentucky die every day.
    Now, don't tell me that you are enforcing the law. What do 
you say about that?
    Attorney General Holder. The budget request that we have 
made includes $322 million funding for 1,497 positions at the 
DEA Diversion Control Program. That is an increase of $2.2 
million in base adjustments; 124 positions, including 50 
special agents, 50 diversion investigators, 9 intelligence 
analysts, and $30.8 million to support regulatory and 
enforcement activities of the Diversion Control Program. I 
think that is an indication that we take this issue seriously. 
It is one that we are trying to address, which is not to say 
that our State and local partners have not been as successful 
as we might have wanted to be. Our efforts need to be 
continuing ones. The toll that these medicines take on the 
lives of people and the impact they have in certain areas is 
substantial. And we are using the tools that we have. We have 
sought additional tools in the budget to try to deal with the 
issue that you have raised.
    Mr. Rogers. Well, it is not working so far. This is an 
interstate problem; this is in your ball park. Individual 
States are doing what they can, but how can Kentucky, for 
example, prosecute somebody in Broward County, Florida? They 
can't do that. That is only in your bailiwick. That is why we 
have a national government. It is an absolute disgrace that is 
killing people every day.
    Not only do dealers and addicts in my region make those 
frequent bus and van trips down there, but several budget 
airlines have recently instituted direct flights from 
Charleston or Huntington, West Virginia, to South Florida. An 
airline has seen it profitable to ship these people down there, 
buy their drugs, and ship them back.
    I am ashamed. You know what they call that? They call it 
the OxyContin Express. And you are seriously not dealing with 
the problem. And then in Florida there is an extra special 
problem. Florida, under a previous administration, applied for 
a grant PDMP grant, like 38 other States have done, and it was 
granted. And DOJ and this grant program that you didn't fund 
has given them $800,000 to start a KASPER-like program in 
Florida where it is most desperately needed, which would help 
us prosecute those crook doctors that are running these pill 
mills with drive-through service. And the State legislature 
authorized the program. But for some problem, it didn't get 
done until now.
    Then a new Governor takes over, and he not only announces 
he is not going to fund the program, he is going to try to 
repeal the law in Florida that authorized the program. What do 
you think about that? The Attorney General of Florida says it 
is crazy. What do you think?
    Attorney General Holder. We certainly have to work with our 
State and local partners. This is something that is of primary 
responsibility because of the interstate component of this that 
the Federal Government clearly has a role to play. We also have 
to work with our State and local partners because there is a 
local component to this as well as a State component.
    It is only when we work together that we will be effective 
in trying to deal with the transportation of these drugs. And 
also we have to come up with ways in which we deal with 
prevention aspects so that people don't start to use these 
drugs. We must have treatment money as well to deal with people 
who, unfortunately, use these drugs and become addicted to 
them, and as a result, continue to use and fund the activities 
that you are talking about.
    Mr. Rogers. Well, there are certain things the State of 
Florida can do and certain things they can't do. And what they 
can't do is do the interstate prosecutions. I know just last 
week, a part of a thing called Operation Pill Nation, DEA 
arrested 22 people, seized over $2.5 million in assets during a 
takedown of rogue pain clinics in Florida. Those arrests had 
resulted after 340 undercover buys of prescription drugs from 
over 60 doctors and more than 40 pill mills. And I congratulate 
DEA for that, but it is a drop in the bucket.
    Why can't we build up the forces, the DOJ forces in 
Florida, to get at this problem that is poisoning the rest of 
the country, particularly the eastern seaboard and the 
Appalachian States where I hail from? I would like to see you 
beef up the forces there, not in headquarters, but in the 
field. Make those buys, get rid of these doctors who are 
poisoning the country and killing people every day. What do you 
think?
    Attorney General Holder. I think that the additional 
resources we are talking about are not all going to 
headquarters. I think the fact that you talk about a successful 
DEA operation is an indication of how seriously this is taken 
by this Justice Department, by the DEA, which is a part of this 
Justice Department. We recognize the seriousness of the 
problem. I think that operation that you talk about is an 
indication, as I said before, that we not only have the program 
that you talked about in KASPER, but also have our enforcement 
arm that is, I think, in some ways as important, if not more 
important, than anything else that we are going to do to hold 
accountable those people who deal in these drugs, to put them 
in jail, and use that as a deterrent for others.
    Mr. Rogers. Let me make a specific request. Would you 
consider sending extra investigators, either through DEA or the 
U.S. Attorney's Office, or both, or any other of the Federal 
law enforcement agencies, would you consider shipping extra 
manpower to Florida to help shut down these drive-through pain 
clinics that are poisoning the country?
    Attorney General Holder. We will identify the places where 
we can best deploy our resources to be most effective in 
dealing with the issue that you have raised and the other 
issues, narcotic-related issues we have around the country. We 
have to work with our State and local partners. DEA can't do it 
alone, but we try to deploy our resources in a way that we are 
most effective.
    And I realize that what you are talking about is in fact 
beyond a regional problem, it is a national one, and that is 
why it has gotten the attention of the DEA in a way you 
previously described.
    Mr. Rogers. Well, there is a high-intensity drug 
trafficking area there.
    Attorney General Holder. It is a HIDTA operation.
    Mr. Rogers. Which is the supposed best way to marry up 
Federal, State, and local law enforcement in one operation. Can 
we beef it up and put more assets into the HIDTA that covers 
that region in order to go after these people?
    Attorney General Holder. I think we are always looking at 
the existence of these HIDTAs to see which ones are effective 
and which ones need more resources and which ones are not being 
particularly effective. So that kind of review is something 
that we do on an ongoing basis.
    Mr. Rogers. You didn't answer my question.
    Attorney General Holder. Well, I am answering as best I 
can.
    Mr. Rogers. Would you look at beefing up that HIDTA?
    Attorney General Holder. We do with regard to all of them 
and try to make the determination as to where we can use our 
resources the best.
    Mr. Rogers. Question: Will you look at that one?
    Attorney General Holder. We will look at that one as we 
look at all of them, but I will look at that one. But I don't 
want to----
    Mr. Rogers. Do you not recognize that the problem is in 
Broward County, Florida; it is not in Denver or Miami or New 
York. It is in Broward County, Florida. Do you want me to spell 
that for you?
    Attorney General Holder. You know the problem that you 
described is not one that is only in Broward County. There are 
parts of West Virginia that have been decimated by the use of 
the drugs.
    Mr. Rogers. Ninety-eight of the 100 prescribers of 
OxyContin are from Florida, 98 out of 100. Eighty-nine percent 
of all of oxycodone is dispensed by those in Broward County, 
Florida. If I ever saw a target, this one has got an X all over 
it. Why can't you see that?
    Attorney General Holder. I think what I have indicated is 
that as part of what we do, we will look at that HIDTA and see 
if it is effective, see if there are additional resources that 
are needed, as we do with regard to all of them.
    The responsibility that we have is national in scope, and 
we try to make sure that we deploy our resources in a way that 
deals with these issues in an effective way.
    Mr. Rogers. All right, I am asking you: Will you look at 
that and get back to this committee in two weeks?
    Attorney General Holder. I will do the best that we can. We 
will look at this and try to get back to you with a response as 
quickly as we can.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259A.010
    
    [GRAPHIC] [TIFF OMITTED] T7259A.011
    
    [GRAPHIC] [TIFF OMITTED] T7259A.012
    
    [GRAPHIC] [TIFF OMITTED] T7259A.013
    
    Mr. Rogers. And will you tell us what you can and can't do 
in Broward County, Florida, on this problem and tell this 
committee, with the chairman, in two weeks?
    Attorney General Holder. We will do the best that we can in 
the review that we will conduct and try to be as responsive as 
we can be. When you say things, what we can do and can't do, 
these are issues that if I had the ability to come up with a 
solution within two weeks, of course I would share it and 
implement it. But the issues that we are dealing with are ones 
that are longstanding and they are difficult. They are 
difficult.
    And we will do the best that we can. We will be as 
responsive as we can. But we are serious about this issue, we 
are dead serious about this issue, and understand the 
consequences of what it is that you are talking about. This is 
a national problem.
    Mr. Rogers. Well, my time is up.
    Mr. Honda. Mr. Chairman, would the gentleman yield?
    Mr. Rogers. But I am going to stay with you. I am going to 
keep after you on this, because my people are dying and I can't 
sit here and let that happen.
    Mr. Honda. Would the gentleman yield?
    Attorney General Holder. Well, one thing I would say is 
they are not your people, they are my people. These are 
American citizens, and we are doing the best that we can, in as 
many places as we can, to deal with the drug issues in whatever 
form they exist. I have seen lives ruined. I have sent people 
to jail, as a judge, who have dealt in these substances. I have 
tried to deal with this on the treatment side and on the 
prevention side. This is something that has decimated parts of 
our country. And we are trying to deal with this in as serious 
and productive a way as we can. So they are your people, but 
they are also my people.
    Mr. Honda. Would the gentleman yield?
    Mr. Rogers. I yield.
    Mr. Honda. Thank you, Mr. Chairman. I share your concern 
and I share your passion for the needs that our local folks 
face, because they are in fact lives that we feel responsible 
for.
    In California, we have a variety of counties that are 
methamphetamine farms where these drugs are being manufactured. 
I understand the need for interdisciplinary interagency 
cooperation. That is why I brought up the issue of SCAAP and 
the border issues and things that plague us locally, but it is 
a national issue too. And yet we have this great demand that we 
expect from our agencies.
    In today's testimony, I heard the gentleman talk about the 
cuts they had to make and shifting priorities around within 
that constraint. If this committee or subcommittee is willing 
to put forward any kind of resources that would enhance or 
build upon whatever additional resources the Department needs, 
I would be willing to stand shoulder to shoulder and request 
this.
    Mr. Rogers. Reclaiming my time, I am afraid I have imposed 
too much time from the Chairman already, so I yield back.
    Mr. Honda. Thank you.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Wolf. Before I recognize Mr. Schiff, let me just say I 
agree with Mr. Rogers. We had a hearing here about 7 or 8 years 
ago, and there was a young man--I can still remember he was 
with his father; his father was a minister and he had a blue 
suit coat on, I can still see it. He was sitting in the back 
and his dad had said his son had been addicted to OxyContin. 
And I remember seeing Mr. Rogers on the floor a couple months 
later. And I said, ``How is the young man doing?'' And he said, 
``He died, he overdosed.''
    And there was a New York Times piece. Mr. Rogers makes a 
very good point. You know where this is, you could have said 
sure, Mr. Rogers--I mean if I were in your job, I would have 
said, ``Boy, I am going to have a team down there tomorrow. If 
I can deal and save one person, I am going to do it, because 
that is why I am the Attorney General and that is why I am 
here.''
    Now, Mr. Rogers, they are your people, they are our people. 
But you could have just said, ``Yes, I'll have a team go down 
there.'' Maybe you can't do it, maybe you can, but you can 
look.
    Let me read you what the New York Times says. ``More than 
20,000 people die of prescription drug overdoses, including an 
estimate of seven a day in Florida.'' I mean you are a father; 
can't you feel the pain and the suffering and the agony? I can 
still see that young boy. You know, we will try to put the 
money back in, but you could have said, ``Yeah we are going to 
look at this.'' Maybe you can, maybe you can't. But he is 
laying it out.
    And if you read this--and we will share this with you--it 
is in several locations. It says here, ``addicts, driving cars 
with out-of-state plates, camp out most nights and wait for 
clinics to open at 10 a.m. `When we go into these clinics, 
there is a gun in there,' he said. `How many times have you 
gone into your doctor's office and there's an armed guard 
outside?' ''
    If any member here had a problem in their district and came 
to me and said, ``Hey, Wolf can you help us?'' I would say 
``Yes, anything we can do to try to help.'' And if you can save 
a young person from not being--but they know where it is. It is 
Broward County. They are flying down there. There have been 
articles in the paper. And the West Virginia thing, you are 
accurate. The Senator from West Virginia is concerned because 
they are going from West Virginia down there.
    So just send somebody down there and look at it and take a 
look, and if you can beef the thing up--and if it is happening 
in Mr. Honda's district, do the same thing; and if it is 
happening in Mr. Fattah's district, do the same thing.
    Anytime we can sort of deal and help people, I think we 
ought to do it. With that, I just hope you can help Mr. Rogers. 
I still remember that young man, he is gone now, the pain and 
suffering and agony his dad must feel.
    And if there are 20,000--according to the New York Times, 
20,000 a year die of prescription drug overdoses. And this is 
kind of the center, kind of summum bonum of all this going on. 
Let's get down there and see what we can do. Don't wait two 
weeks to come back. Tell us tomorrow or by the end of the week. 
With that----
    Attorney General Holder. Let me just say this. This is 
something that I have had personal experience with. I sat as a 
judge in the D.C. Superior Court, and I saw the impact of 
drugs, and I have seen lives ruined. I have seen futures 
destroyed. I have seen what should be the future of this city, 
Washington, D.C., sent away, incarcerated for selling drugs or 
because of the use of them.
    As Attorney General, I would hope that in the limited time 
that I have, I will use all the tools that I can to fight drug 
abuse in whatever form. To the extent that it exists, there is 
a particular problem in Florida as a supplier of prescription 
drugs, of course I am going to focus on that; of course we will 
send resources down there. And that is one of the reasons I am 
here, to ask for the resources to do the kinds of things that I 
know DEA agents are capable of. It is one of the things we have 
in our budget, the request for those funds.
    You are not talking to a bureaucrat here, you are talking 
to a father of three kids, you are talking to a former judge, 
you are talking to a person who has been in law enforcement all 
my life. I have seen the impact not only of prescription drugs, 
but of crack, powder cocaine, heroin. We have to deal with this 
problem in all of its forms so that we can make this Nation as 
productive as it can be, so we give futures to the children of 
this Nation, all the children of this Nation.
    I don't mean to imply that this is not something that--
because Mr. Rogers has raised it--that I am not taking it 
seriously. Of course I am going to take it seriously and of 
course we are going to review what is going on with that HIDTA 
down there. I feel this pain. I have seen this.
    Mr. Fattah. Mr. Chairman, let me just object before we go 
to Congressman Schiff. There is probably not another member who 
has been more passionate and focused on this than Chairman 
Rogers. And we live in a different culture here, Mr. Attorney 
General. When the chairman of the Appropriations Committee asks 
the question--and obviously the answer is yes--to any of us, 
you have a different responsibility. You are the Attorney 
General of the United States of America. So I don't want anyone 
to misconstrue here. You have to exercise the authority of your 
office fairly across the country on a whole range of 
priorities. And so I understand the chairman's passion. I also 
know with a certainty that not only can you spell it, you know 
how to find it on a map. But there is also a reality when we 
put a burden on the Department, when we cut funds, when we 
require a reduction in funds, that there are going to be 
limitations and we have to give up some of the redundancy.
    Now Health and Human Services has a similar program to the 
one that the chairman has referred to, which is in the 
President's budget, for a multimillion-dollar appropriation to 
do similar work. But I think that the one in Justice might be a 
better way to go, and maybe we can find some way to eliminate 
in the redundancy in the funding, this one versus the other 
one.
    I think it is improper to ask the Attorney General to 
somehow skewer the operations of his office. In terms of focus, 
he is focusing on the entire country. That is his job. We as 
Members of Congress have parochial responsibilities.
    I know for a fact that when Philadelphia had a problem, I 
went to the chairman, Chairman Wolf, and he arranged for a 
considerable amount of resources to be focused on a problem 
there. We live in this type of environment in which we respond 
to Members' concerns. But a member of the President's Cabinet 
has a different responsibility, and I just want to make sure we 
are clear about it, and that we understand there are differing 
roles here. I thank the chairman for giving me a moment.
    Mr. Wolf. Well, if I were the Attorney General and somebody 
asked me to go into their district to look and see, and I 
thought I could save one person, I would do it. In spite of the 
fact that you can look at this in an analytical global way, and 
you are a good person--I understand, we will help you in 
prisons, we will do all that--frankly, I haven't been happy 
with the lack of action you have taken on prison rape.
    I mean Bobby Scott and I have the bill and we are pushing 
and pushing and you are sort of taking this global, 
analytical--if I was the Attorney General, or I could go down 
and help one region, whether in north Philadelphia or northern 
Virginia or in that area, I would do it. Maybe you don't see 
that role there, but I would do it. And I would hope you can.
    And if any member along here on the other side of the aisle 
has something like this, that you could just kind of help their 
district, forget Republican and Democrat, but just help people, 
that is what government is all about, helping people 
individually to make a difference. With that, Mr. Schiff.
    Mr. Schiff. Thanks, Mr. Chairman. And welcome, Mr. Attorney 
General. I just want to say at the outset, as someone who 
worked in the Department for six years, how much I appreciate 
the job you are doing and how I think we have really turned the 
Department around from some difficult days the Department went 
through. I appreciate the thoughtfulness you bring to the job 
and your sincerity and commitment to fulfilling your 
responsibilities. I think you are doing a magnificent job.
    Attorney General Holder. Thank you.
    Mr. Schiff. I also want to compliment one of the task 
forces that was established. I think it was a multiagency task 
force between the Justice Department and the Defense Department 
and other agencies with respect to the GITMO situation, that 
painstaking work in looking at each of the detainees, gathering 
as much information, seeking further information where needed, 
to try to make intelligent decisions about how each detainee 
ought to be handled, whether a detainee could be repatriated, 
whether a detainee should be tried in Article III Court, or 
detainee should be brought before a military commission or 
whatnot. It was painstaking work and involved a lot of 
difficult decision making, but I think they did a remarkable 
job and their work will probably never be known unless there is 
a problem. But I want to express my appreciation for the hard 
work they put into it.
    And I hope that we can support the work the administration 
is doing to try to resolve each and every case of the detainees 
in Guantanamo in a sensible way without imposing funding 
restrictions here that will impede your ability to do that.
    I don't envy the difficulty of the job you have to do in 
the best of circumstances, but even more so under the rather 
difficult financial situation we are in right now. I think the 
conversation we have been having over the last half hour with 
respect to prescription medication will, unfortunately, be 
played out across many departments because we simply don't have 
the resources. We would like to give every problem the 
attention it deserves.
    I think we are seeing already in the budget fights an 
effort to rob Peter to pay Paul. As much as there is a problem 
that has to be addressed with respect to prescription drugs, as 
you point out there are problems that have to be addressed with 
respect to crack cocaine and powder cocaine and heroin, a whole 
panoply of drug abuse problems throughout the country.
    As my colleague Mr. Honda pointed out, methamphetamines. We 
were the world producer of methamphetamine in California. And I 
don't envy the task of trying to address all of those problems 
and prioritize in a year of declining budgets.

                              DNA BACKLOG

    I want to raise one of the subsets of potentially declining 
budget and ask what the impact will be, and that is the area of 
DNA. Let me say, first, congratulations for eliminating the 
offender backlog, which had been a subject of discussion and 
concern for years and years, and it is finally done. We don't 
have an offender backlog at the Federal level. That is 
phenomenal. A lot of States and municipalities are still 
struggling with that, but I am glad the Federal Government led 
the way in terms of its own backlog.
    There remains, though, a casework backlog and the OIG 
report indicates some of the periods in the casework backlog. 
What I wanted to ask you about is, I think the budget request 
is $110 million or thereabouts for DNA. Traditionally this 
committee has plused-up what the administration has asked for, 
250, 160 million. I don't know whether that is going to be 
possible given the budget situation. If we can't, if the most 
we are able to do is meet what you have asked for, will that be 
enough, number one, to avoid a future backlog in the offenders' 
samples, and will it be enough to continue to make progress in 
reducing the casework backlog?
    Attorney General Holder. Those are all good questions. The 
FBI's DNA database program cleared its backlog of over 312,000 
samples in September of 2010. We have had to make hard choices 
about our budget request in fiscal year 2012. We were actually 
asking for $137 million for DNA programs in fiscal year 2012, 
which is a 27 percent decrease from the fiscal year 2011 CR 
level. And that represents a very difficult choice given the 
usefulness of DNA not only in closing cases and in finding the 
guilty, but also in absolving people, clearing people who might 
otherwise be charged with crimes. We will do the best we can 
with the limited resources that we have. But we understand that 
DNA is a vital tool, and we want to have a 21st century 
criminal justice system. I think in many ways DNA is the 
foundation for an effective 21st century criminal justice 
system, so we will do the best that we can with the resources 
that we have, understanding that in these tough budgetary times 
we don't have all the money here that, frankly, I would like to 
have.
    Mr. Schiff. Well, if you could keep our committee informed, 
as we go along through the year, whether you start to develop 
another backlog in offender area, and also what progress you 
are making in terms of the casework backlog, that will help us 
understand whether we are devoting the right amount of 
resources to the problem.
    And I realize that the DNA may be the showcase for a 
broader problem in forensics generally, as State labs that do 
ballistics and do fingerprint analysis are aging along with the 
people who do the work. And the DNA problems may be sort of the 
canary in the coal mine of the need to make a new investment in 
the infrastructure of forensics in the country.
    One thing I think that would be useful for the Department 
to do--and this was also highlighted by the OIG report--and 
that is in trying to evaluate how the States and municipalities 
are doing with their backlogs. There is no common definition of 
what a backlog is. My own experience in Los Angeles with LA 
county and LA city backlogs is, you can easily play with the 
numbers by defining away your backlog.
    And so I think it would be helpful if the Federal 
Government can develop a sort of best practices definition so 
that we can compare State to State, municipality to 
municipality, and make sure that we are all talking about the 
same thing. I think that will help keep local jurisdictions 
honest in terms of where they really are with their backlog 
problems.
    To me it is just devastating when we see a situation like 
we have seen in Los Angeles where you have a multi-multiyear 
backlog, when you finally take the kits off the shelf and 
analyze them, rape kits for example, you find people that you 
take off the street who committed subsequent rapes in the 
interim while the kit has sat on the shelf. And those are all 
victims that didn't have to be victims.
    The other DNA point I wanted to raise with you is familial 
DNA. California recently solved the Grim Sleeper case. We had 
run the sample, the offender's sample, got no hits. Law 
enforcement tried everything else, and finally resorted to 
familial DNA. The State of California is one of only two States 
that has a protocol for doing a familial DNA search. The 
familial DNA search turned up the son of the suspect. And that 
led us to the suspect. Without the use of that familial DNA 
search, that serial murderer would still be on the street.
    The Federal Government doesn't have a policy that permits 
familial DNA searches of the national database. We were lucky 
in the Grim Sleeper case that the son was the hit in the system 
lived in the same State, in California. Had he lived somewhere 
else, we would not have had a match and the Grim Sleeper would 
still be at large.
    So I would love to see the Federal Government have 
legislation on this that I will pursue with your office. I 
would love to see the Federal Government adopt an appropriate 
policy where, as a last case resort, the Federal Government can 
do a national database familial search, and also establish 
requirements for States that want to take advantage of that 
capability to have protocols in place to make sure that it is 
not abused and privacy rights are respected. I would love to 
hear your thoughts on that subject.
    Attorney General Holder. I think it would be very 
interesting to see exactly what California has put in place. As 
you indicate, that very serious case was in fact solved because 
of the use of familial DNA. It is something that I think we 
certainly should want to examine on the Federal level, being 
mindful of the privacy concerns that have to be a part of that. 
I would be very interested to see how California balanced that 
and see whether or not that is something that we could use on a 
Federal level.
    But I would be interested in working with this committee 
and other Members of Congress in examining that and potentially 
working on legislation that would allow us, if legislation is 
needed--it may be some administrative thing, I don't know, but 
if there are ways in which we can increase our use of family 
DNA.

                GUN CONTROL--REPORTING OF LONG GUN SALES

    Mr. Schiff. Let me turn to one last topic, if I could. This 
was raised by my colleague Mr. Honda, and that is the problem 
with extensive numbers of American weapons going into Mexico 
and being used in drug crimes. We have been rightfully 
frustrated by our neighbors to the south with all the drugs 
that are exported from those countries and imported in the 
United States. They have a justifiable frustration with the 
flow of weapons, now leaving our country and going into theirs, 
that are being used to kill their law enforcement and they are 
being used to kill innocent people on the street and are 
creating an environment of almost complete lawlessness south of 
the border.
    I was pleased to hear your support for what ATF has 
proposed. I think adding a requirement of report of long gun 
sales will be helpful. But even that will be of limited value.
    I wonder if you could share some of your thoughts on the 
difficulty of investigating and prosecuting these cases of gun 
sales south of the border, which are against the law. We are 
not talking about criminalizing something here that is not 
already a crime. Why are these cases so tough and is there 
anything that can be done to very substantially change the 
dynamic, make a substantial dent in this problem?
    Attorney General Holder. One of the problems that we have 
is that people have their Second Amendment rights here in the 
United States and can legitimately, lawfully, buy weapons, and 
that is fine. The concern we have are for those people who act 
as straw purchasers, and who buy weapons in their own names but 
then transfer them or sell them to people illegally for use in 
Mexico. And that is one of the reasons why the ATF proposal is 
a good one. These are cases that are difficult to investigate 
because the sale on its face can appear to be a legitimate one. 
We don't know what the ultimate destination of that weapon 
might be. And to the extent that we can look for multiple sales 
within a relatively short period of time, and along the border 
States, I think we are focusing our attention in an appropriate 
way, respectful of the constitutional rights that American 
citizens have to purchase and to hold weapons, while at the 
same time trying to meet the obligations that we have to our 
very valiant Mexican neighbors who have lost substantial 
numbers of people against the cartels.
    I have to tell you the concern that I have is that with the 
increased number of DEA agents that we have in Mexico, ATF 
agents, FBI agents, I am concerned that these weapons that are 
illegally brought into Mexico and purchased in the United 
States will ultimately be trained on them, and that is is a 
tragedy that I hope that we can avoid.
    Mr. Schiff. Well----

                     GUN CONTROL--STRAW PURCHASERS

    Mr. Fattah. If the gentleman would yield for a second. The 
Department earlier today, just a few hours ago, has made some 
arrests in the death of a U.S. agent, an ICE agent, who was 
killed. The gun was purchased in the United States, in Texas, 
and apparently--at least by the arrest--allegedly by an 
American citizen who was working in conjunction with Mexican 
cartels to make these purchases. So the wisdom of what the ATF 
is trying to do is borne out in this instance. And your fear 
about American law enforcement being the victims of these guns 
has also been borne out, unfortunately.
    Mr. Schiff. Mr. General, do you have any sense of what 
proportion of the weapons that are being used, the weapons of 
American origin that are being used in Mexico by the cartels, 
are the result of straw purchasers as opposed to either theft 
or acquisition? In other words, is the vast majority of these 
weapons lawfully acquired by American citizens, then unlawfully 
sold or smuggled out of the country?
    Attorney General Holder. I don't know what the percentage 
is. I have seen a variety of numbers used in that regard. I am 
not really comfortable with quoting those numbers because I am 
not sure what methodology was used. But I think we can safely 
say a substantial number of the weapons that we find in Mexico 
were lawfully purchased in the United States through the use of 
straw purchases. And that is one of the reasons why, as I said 
before, the ATF proposal makes a great deal of sense.
    [The information follows:]

            Available Stats for Guns to Mexico From the U.S.

    The Department is unable to provide the specific number of firearms 
confiscated in Mexico that were purchased legally in the United States. 
The difficulty is determining whether a seized gun was purchased 
``legally''. A firearm may have been initially purchased legally but 
then subsequently purchased illegally before being transported to 
Mexico.

    Mr. Schiff. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Austria.
    Mr. Austria. Thank you, Mr. Chairman. And thank you, 
Attorney General, for your service to our country and for being 
here today. I know it has been a long morning so I will try to 
keep my comments relatively short.
    I want to thank Chairman Rogers for bringing up a very 
important issue because I can tell you when I talked to my 
sheriffs and my county prosecutors, one of the biggest drains 
on their budget is the prescription drugs and the meth labs. 
And I think we need to hear more about the Department's efforts 
as far as enforcement and also meth lab cleanup. So I know 
there has been a considerable amount of time spent on that 
today. I appreciate that. I also want to let you know in Ohio 
we are hearing the exact same thing from our locals.

                       OFFICE OF JUSTICE PROGRAMS

    Mr. Attorney General, I would like to ask you about the 
Office of Justice Programs, OJP. The President's budget request 
for OJP is 22.1 percent below the fiscal year 2011 amount. And 
it appears that most of the savings comes from the elimination 
of different programs, different projects. And I understand 
that some of these may be congressional projects. But with 
that, I would think it would lower the burden on OJP to 
administer and provide oversight for these grants. But there is 
a 30 percent increase for salaries and expenses to OJP.
    And my question is, why is there a substantial increase for 
OJP's salaries and expenses when the administrative and 
oversight burdens for OJP will be reduced?
    Attorney General Holder. Well, I think that what we have 
proposed is a budget that unfortunately reduces monies in some 
areas, increases it in others. We have, for instance, increased 
the amount of money that we seek for COPS grants, I think from 
about $298 million to $600 million. So there are different 
places where there is going to be an increase in funds sought, 
decreases in other areas.
    We want to make sure we administer these funds in an 
efficient way, in an appropriate way. And the numbers that we 
have set up with regard to the administrative costs I think is 
consistent with that desire.
    Mr. Austria. But it seems to me if you have less 
administrative and oversight, less projects out there, those 
type of burdens on OJP, that the administrative costs would 
move parallel to that.
    Attorney General Holder. I think it is a question not only 
of the amount of money that is involved, but the number of 
projects that we might be trying to administer. Even if the 
amount of money goes down, the number of projects that we might 
be ultimately supervising could be the same. As I said, COPS 
money goes up; that is still a program, but it has additional 
funds in it. We might have another program that continues to 
exist, although the money allotted for this year goes down. So 
it is in some ways difficult, I think, to draw a direct 
connection between the amount of money that goes to a 
particular component within the Department of Justice and what 
is the appropriate administrative amount.

                            THOMSON FACILITY

    Mr. Austria. Let me move on to another subject, Mr. 
Attorney General. I understand that this budget request 
includes a request for operating the maximum security Thomson 
facility in Illinois. And I also understand that it became the 
government--I understand that because the government is 
currently operating under a CR, which we expect throughout the 
remainder of fiscal year 2011--the Federal Government does not 
own the Thomson facility. If the Department is not able to 
purchase the Thomson facility in fiscal year 2011, how do you 
plan to do so in 2012? Will the purchase and operation timeline 
just slip back a year? And the other part of the question is, 
can you assure this committee that if purchased by the Federal 
Government, that the Thomson facility will not house detainees 
being currently held in Guantanamo Bay, or what is the plan 
there if you do intend to house them?
    Attorney General Holder. The money we have in the 2012 
budget is to start up the running of the Thomson facility. The 
hope would be that in the 2011 resolution that ultimately is 
reached, we would have the money allotted that we had in the 
budget for the purchase of the Thomson facility.
    We will actually save money. Thomson is something that is 
needed by the Bureau of Prisons to house maximum security 
prisoners. That is a big need that BOP has. We can get that 
facility, put it into operation and save the taxpayers money 
because it is an existing facility as opposed to one that we 
would have to construct. And that is why you have money in the 
2012 budget--I think it is $60 million or something like that--
for operational expenses.
    But the money that we need to purchase it is actually in 
the 2011 request, and as I said, it is our hope that we will be 
able to use the 2011 money to acquire Thomson for the need that 
we have.
    Mr. Austria. Are there any plans with Gitmo as far as the 
detainees there as far as future use with the Thomson facility?
    Attorney General Holder. There are no present intentions. 
We have these congressional restrictions with regard to the 
movement of people from Guantanamo to the United States, or 
obtaining facilities in the United States. Our need for that 
facility is, as I have indicated, to house maximum security 
prisoners. We have overcrowding with regard to that category of 
prisoners in the Bureau of Prisons now.

                        DEFENSE OF MARRIAGE ACT

    Mr. Austria. One last question, I know Chairman Wolf has 
already asked you about the Department's recent decision not to 
defend the Defense of Marriage Act. And the I agree with the 
chairman's concerns on this. And by taking this position, in my 
opinion, the Department of Justice is no longer fulfilling a 
usual role of defending Federal statutes. And it raises the 
question and it seems to me to be a considerable power grab by 
the executive branch. And if this practice continues, the 
legislative branch will have no choice but to start defending 
the Federal statute ourselves. And we are actually looking at 
ways now how to respond to that, whether it be through 
legislative branch attorneys or whatever means that might. And 
I know there are suggestions that whatever dollars are being 
used right now by the Department of Justice to be moved to 
whatever area, whether it be the legislative branch attorneys 
to defend Congress' statute.
    What are your thoughts on that? Because it seems like we 
are going down an area now because of the decision that was 
made that is opening up different areas, and I just want to get 
your clarification as far as your position on that.
    Attorney General Holder. Sure. What we did I think is 
correct for the reasons that I detailed before, but it is 
something that is exceedingly rare. We understand the 
obligation that we have to advance reasonable arguments in 
defense of statutes that Congress has passed. As I have 
indicated, there have been in other Administrations, other 
Departments of Justice, decisions made not to defend statutes 
that Congress has passed. But that is something that happens 
rarely. I have a list of 13 cases in which that has occurred 
outside of this Administration.
    Our intent is to continue to defend wherever we can and 
with reasonable arguments statutes that Congress passes. The 
recommendation that I made and the decision that the President 
made with regard to DOMA is something that I think is unique.
    Mr. Austria. Has there been any internal dissent from 
career Department of Justice attorneys regarding this shift of 
policy towards DOMA? And if so, can you give us some details on 
that?
    Attorney General Holder. I generally don't share internal 
Justice Department conversations, but I can say that we 
certainly had a fulsome conversation about this decision, all 
sides were heard. The recommendation was ultimately mine to the 
President, and the President made his decision having been 
fully briefed on both the pros and cons of the potential 
decision.
    Mr. Austria. Thank you, Attorney General.
    And thank you, Mr. Chairman.
    Mr. Wolf. Thank you.
    Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman.

                       VOTING RIGHTS ENFORCEMENT

    Mr. Attorney General, I appreciate you appearing before us 
today. In the time that I have got within this first round of 
questioning, I wanted to zero in on the right of the people of 
this country to vote. It is enshrined, of course, in the 15th 
Amendment, the right of citizens of the United States to vote 
shall not be denied or abridged by the United States.
    And, in fact, the very first Civil Rights Act to have been 
passed in the United States was the 1957 Voting Rights Act. And 
in going back over and thinking about your testimony today, I 
went back to my library and pulled out the wonderful Robert 
Caro series on Lyndon Johnson, which I highly recommend to 
anybody. It is a fascinating series of books and points out 
that when Johnson was majority leader, he discovered that the 
one area that the Southern Senators who had been consistently 
filibustering the passage of any civil rights legislation by 
Congress for 82 years--there had been this block of Southern 
Democrat Senators filibustering civil rights being granted by 
statute to minorities in the South--that Johnson found one gap 
that even the Southern Senators would be willing to permit. And 
that was the right to vote. Because in Johnson's estimate, in 
the field of voting rights--quoting Caro, ``even the most 
outspoken of white supremacists had a sense that there was 
something wrong with denying the right to vote. When the right 
to vote came up, he says the tone of voice of the Southern 
Senators was somewhat less defiant, sometimes in fact 
ashamed.''
    So Johnson zeroed in on that and recognized as the majority 
leader the one area where he could pass a civil rights act 
would be to ensure by statute the right to vote, and to ensure 
that that right was guaranteed by a right to trial by jury. 
Johnson realized if he was somehow able to get that part of the 
Civil Rights Act out of the bill, he would be able to pass the 
1957 Civil Rights Act and limit it to a single right, voting, 
and to guarantee jury trials to defendants in voting right 
cases.
    And it was really his proudest achievement. And I also went 
back and discovered, in another part of my library, the very 
first Newsweek magazine, introducing Lyndon Johnson to the 
nation after the assassination of President Kennedy. In his 
first speech to Congress, the new President gave his greatest 
emphasis to the most controversial measures, the civil rights 
bill and the tax cut.
    And, of course, the Attorney General is given the 
responsibility to enforce the Voting Rights Act, to enforce all 
of the laws that protect the rights of Americans to vote. And 
what I wanted to zero in on is the absolutely incredible and 
deeply disturbing evidence that the Department of Justice has 
been applying different standards to different groups of people 
in the enforcement of the Voting Rights Act and, in particular, 
in the Black Panther case.
    And, Mr. Chairman, I would like to if I could, put in the 
record the report of the U.S. Commission of Civil Rights, the 
interim report that they entered on the U.S. Department of 
Justice in the New Black Panther Party litigation. I would like 
to make it a part of the record if I could, sir.
    Mr. Wolf. Without objection.
    [See Appendix I on page 685.]
    Mr. Culberson. In the brief time that I have got, Mr. 
Attorney General, I won't have a tremendous amount of time to 
go through it. But I would like to ask you, sir, if you would--
and I will follow up with your office in more detail--respond 
to, there are apparently still a number of subpoenas, 
interrogatories, requests for production that you have not 
complied with yet that the Commission on Civil Rights has sent 
you. Have you fully complied yet with all of the requests of 
the Civil Rights Commission in this case?
    Attorney General Holder. You have got an iPad up there. You 
know, they wouldn't let me bring mine. You have got yours.
    Mr. Culberson. They wouldn't let you? Oh, sure you can. 
Absolutely.
    Mr. Wolf. For the record, nobody asked. If you would have 
asked, you could have brought yours.
    Attorney General Holder. I was only kidding.
    Mr. Wolf. Sure.
    Mr. Culberson. Well, I am a big iPad fan.
    Mr. Wolf. You are welcome to come next time with this.
    Attorney General Holder. I am sorry.
    With regard to the request that the commission has made, we 
have submitted I think 4,000 or 5,000 pages of testimony. We 
made available the Assistant Attorney General for the Civil 
Rights Division who testified. We offered towards the end of 
the time before the report was issued a couple of other 
witnesses that they requested.
    Mr. Culberson. Have you fully complied yet with all of 
their requests? The report that they issued says you have not. 
And it is really distressing.
    Despite the subpoena, according to the report on page 41, 
despite the subpoena issued to DOJ, you have not, Mr. Attorney 
General, turned over the direct evidence regarding your 
management level communications and decision making about the 
national Black Panther Party litigation. You haven't complied 
yet.
    Attorney General Holder. We have turned over all of the 
information that we thought was appropriate with regard to the 
requests that were made, and I think we did cooperate fully 
with the commission.
    Mr. Culberson. Well, I know that Mr. Wolf has also sent a 
letter with Lamar Smith last year. And, Mr. Chairman, I would 
like to work with you and your staff. And I hope, Mr. Attorney 
General, that you will be responsive to the chairman in 
supplying the committee and the commission with the evidence 
that they need in order to find out whether or not--for 
example, as Mr. Coates had testified that there are career 
people in the Department of Justice who feel strongly it is not 
the Voting Section's job to protect white voters. The 
environment there is that you better toe the line of 
traditional civil rights ideas and you better keep quiet about 
it, because you will not advance; you will not receive awards; 
and you will be ostracized.
    That is deeply distressing. And no matter who the Attorney 
General is, whether it is under the Bush administration, the 
Reagan administration, the Clinton administration or the Obama 
administration, you have got an absolute obligation to enforce 
all of the laws and certainly the Constitution, the 15th 
Amendment, the Voting Rights Act, in a way that is absolutely 
impartial regardless of who the defendants are.
    The nature of the charge, as the Commission found, paints a 
picture of a Civil Rights Division in the DOJ at war with its 
core mission of guaranteeing equal protection under the law for 
all Americans. During the Bush administration, the press 
reported ideological conflict within the division. If the 
testimony before the Civil Rights Commission is true, the 
current conflicts extend beyond policy differences to encompass 
allegations of inappropriately selective enforcement of the 
law, harassment of dissenting employees and alliances with 
outside groups at odds with the rule of law.
    How do you respond to that? That is a devastating 
indictment. No matter who the Attorney General is and no matter 
who the President of the United States is, that is a 
devastating indictment. How do you respond to that?
    Attorney General Holder. I want to assure you and the 
American people that the Justice Department under my leadership 
and as part of the Obama Administration enforces all of the 
laws without regard to the race, ethnicity or political 
persuasion of anybody who might be involved in a particular 
matter. The Civil Rights Division under my leadership, under 
Tom Perez's leadership, has done a good job in making 
determinations about how it uses its resources. But those 
resource allocations are not made on the basis of the race of 
the complainant, the ethnicity of the complainant, the 
political persuasion of the complainant.
    Mr. Culberson. But in particular in this case, in the Black 
Panther case, I don't know how you can say that. And it is just 
not accurate because the Voting Rights Section of the 
Department of Justice under the Bush administration was 
preparing to file a permanent injunction. The defendants in 
this case--I mean, they had them on videotape. The whole 
country saw those thugs; one guy with a billy club intimidating 
voters and running them off from the polling place in 
Philadelphia, and the defendants had even admitted liability.
    The DOJ, under President Bush, had a permanent injunction 
lined up. They were prepared to file. The judge was prepared to 
enter it. And as soon as the Obama Administration came in, you 
withdrew that, settled for significantly less--withdrew the 
permanent injunction, got a temporary injunction against one of 
the guys, I think the guy with the billy club. And it simply 
doesn't square with the facts.
    The United States Commission on Civil Rights has 
investigated this carefully and determined that you are not 
complying with their subpoenas or requests for documents. You 
didn't respond to Chairman Wolf when he was in the minority 
along with Chairman Smith, who is now chairman of the Judiciary 
Committee. The Department is, I hope, going to comply with Mr. 
Wolf's request for information.
    I mean, Mr. Coates, explained it very well when he said 
that imagine if a couple of Ku Klux Klansmen had stood outside 
a polling place in uniform--and these Black Panther guys are in 
some kind of a uniform--and the Ku Klux Klansmen had 
intimidated voters--one guy was carrying a billy club--wearing 
his white hood, can you--the Department of Justice would have 
been all over those guys. There is no difference between those 
two cases other than the type of uniform and the type of voters 
that they are harassing. Your job is to enforce the law without 
regard to race.
    Clearly in this Black Panther case, you basically reversed 
course, which is the first time that Mr. Coates had ever seen 
that happen in his 13 years with the Department. He never had 
seen an administration reverse course in pursuing one of these 
civil rights cases. And what is disturbing enough about the 
Black Panther case, but what I am driving at, sir--and I hope 
that you will be responsive to Mr. Wolf and Chairman Smith--is 
this case reveals a pattern in the Department of refusing to 
enforce the law if white voters are being harassed, or in the 
case of Pima County, the Civil Rights Commission points out you 
didn't pursue a case of harassing Hispanic voters.
    Attorney General Holder. Well, as I said, the way in which 
this Department of Justice conducts itself is to enforce the 
voting rights laws and all the laws without regard to the 
characteristics that you----
    Mr. Culberson. But that doesn't square with reality. How do 
you respond to the Pima County case and the Black Panther case 
and the evidence that Mr. Coates and I believe Mr. Adams--Mr. 
Adams actually resigned. You had a senior official at DOJ 
resign because one of your division chiefs, Mr. Perez I 
believe, had given, in Mr. Adams' opinion, false and inaccurate 
testimony before--Mr. Adams resigned because the Assistant 
Attorney General had given inaccurate testimony to the 
commission.
    What I am driving at, sir--and just the generalities aren't 
sufficient. We are going to really pursue this. This is not 
acceptable. These statutes--I mean, this is the greatest 
achievement--Lyndon Johnson considered the Voting Rights Act of 
1957 his greatest achievement. He considered the Voting Rights 
Act of 1964 the signature achievement of President Kennedy. 
These laws lie at the heart of what makes this the greatest 
nation in the history of the world, that we are never going to 
deny anybody the right to vote or deny anybody the right to 
privileges within the Constitution based on their race. Yet 
there is clearly evidence, overwhelming evidence, that your 
Department of Justice refuses to protect the rights of anybody 
other than African-Americans to vote.
    Mr. Fattah. Chairman, if the gentleman will yield.
    Mr. Culberson. That is the evidence before the commission.
    Attorney General Holder. I would disagree very vehemently 
with the notion that there is overwhelming evidence that that 
is in fact true.
    Mr. Culberson. Could you prove the Commission wrong, 
please? That is what I am driving at.
    Mr. Fattah. If the gentleman would yield. I would like to 
enter something into the record--it might be helpful to 
illuminate this issue. This is by the Republican vice chair of 
the Civil Rights Commission. And she submitted this for the 
record, Vice Chair Thernstrom: I cannot support the majority 
report on this investigation. This investigation lacked 
political and intellectual integrity from the outset and has 
been consistently undermined by the imbalance between the 
gravity of the allegations and the strength of the evidence 
available to support such charges. I would like to enter this 
into the record.
    Mr. Culberson. Sure. Reclaiming my time.
    Mr. Wolf. Without objection.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259A.014
    
    Mr. Culberson. We will put it into the record.
    Mr. Fattah. The Attorney General has been asked this 
question and answered it four times, and I have the ranking 
member of the full committee, and I would like him to be----
    Mr. Culberson. I understand. If I could, reclaiming my 
time. But I just would ask, Mr. Attorney General, if you could 
help us disprove these allegations. That is my concern, is that 
the evidence--and, Mr. Fattah--sure, Mr. Fattah. Absolutely. 
Put it in the record.
    Mr. Fattah. I don't want to cut him off. I just don't want 
him to ask and have answered the same question four times.
    Mr. Culberson. But he is just not answering it. My problem 
is----
    Mr. Fattah. That is the answer you are going to receive 
from the Attorney General. We should----
    Mr. Wolf. I have not cut anyone off and hope for the rest 
of this Congress----
    Mr. Fattah. I would never ask that you cut anyone off.
    Mr. Wolf. So I think we owe Mr. Culberson the opportunity 
to ask the line of questions. I hope I never have to test the 
gavel for the next two years. I think every Member who cares 
deeply about an issue ought to be able to talk about whatever 
they want to.
    Mr. Fattah. I totally agree. And we can ask any question we 
want. We have to accept the answers that were given.
    Mr. Culberson. Absolutely. And forgive me, Mr. Attorney 
General. My time is limited. And forgive me for interrupting 
you, sir, but really, your answers are very vague and general 
and not responsive to what I am driving at. And that is, I am 
asking you specifically, would you help Mr. Wolf, Mr. Fattah 
and myself and my good friend, Adam Schiff, who I know cares 
about this deeply, as all the members of the Committee do, to 
disprove these very serious allegations of the Civil Rights 
Commission report?
    Attorney General Holder. Let me say, I think I have 
answered very directly the question that you have asked, and 
let me be very clear. This Department of Justice does not 
enforce the laws in a race-conscious way. Any allegation that 
has been lodged in that regard is simply false. Now, I think 
that directly answers the question that you have put to me.
    Mr. Culberson. Okay. And you will help us prove that with 
documents, responses, interrogatories that the Commission has 
sent and you have not answered? You will answer all of those 
for our committee?
    Attorney General Holder. If the Budget Committee is going 
to be doing the oversight, sure, we will respond.
    Mr. Culberson. Sure, we do oversight. It is not just the 
authorizing committee, but we have a very important oversight 
role. That is why Mr. Rogers' questions were so important. This 
isn't just the funding committee. We are not just the money 
committee. We are a key part of oversight.
    Attorney General Holder. Sure. Whatever committee in 
Congress, whether it is Judiciary or this committee, we will 
certainly respond and work with you in dealing with the issues 
that are of concern to you. I would be more than glad to do 
that because I am confident that a neutral and detached 
examination of the record will substantiate what I have just 
said in as clear and direct a fashion as I can.
    Mr. Culberson. I hope so. Thank you very much.
    Mr. Wolf. Mr. Dicks.
    Mr. Dicks. Thank you, Mr. Chairman.
    I congratulate you on becoming the chairman of the 
committee and Mr. Fattah as the ranking member. Mr. Attorney 
General, we are glad to have you here today, and I think my 
questions are going to be a little less contentious, I hope.

                       IMPACT OF DOJ BUDGET CUTS

    A number of big cuts would fall on the Department of 
Justice: $581 million--this is in H.R. 1, the bill that we 
passed two weeks ago. A number of big cuts fall on the 
Department of Justice: $581 million from State and local 
enforcement assistance; $191 million from the Office of 
Juvenile Justice; and the wholesale elimination of the National 
Drug Intelligence Center and the Weed and Seed Program, just to 
name a few. Even with the House vote to restore funding for the 
COPS hiring program, these cuts will surely lead to a loss in 
jobs, more than 3,800 by some estimates, at a time when the 
Nation can ill afford the additional unemployment. Can you 
discuss these cuts and your view of what would be the impact of 
them?
    Attorney General Holder. I understand the concerns that we 
all have about the budgetary constraints that we have. What we 
have tried to do is responsibly come up with a budget request 
that is mindful of the fiscal issues that our Nation has to 
deal with while also trying to make sure that the Justice 
Department has the capacity to do the things that the American 
people expect of it. Some of the cuts that have been proposed 
and a few delineated go too far and will hurt the Department 
and its ability to be a good partner to our State and local 
counterparts. That is a very, very important component and a 
part of our job.
    Mr. Dicks. Just to add to that point. At the same time, the 
States are under the enormous pressure--I think all the States 
are going to have to cut something like $125 billion from their 
budgets, and they have to do it. So this is going to have a 
double effect on the State and local governments.
    Attorney General Holder. That is exactly the point I was 
going to make, given the problems that our State and local 
partners have and to the extent that we can help on the Federal 
side. It is not our responsibility to balance the State 
budgets. I understand that.
    On the other hand, to the extent we can help the law 
enforcement capabilities of our State and local partners and do 
it in a responsible way, which I think we have laid out in our 
2012 budget, I think we should try to do that.
    Mr. Dicks. Additionally troubling are that these specific 
cuts are targeted at the criminal justice sector, meaning that 
we will have fewer police officers, prosecutors and other 
public safety personnel working to keep our constituents safe. 
It also means that there will be significantly fewer resources 
available for youth mentoring, after-school programs, programs 
to prevent domestic abuse, programs in which I know you have a 
personal interest, and all at a time when State and local, as I 
mentioned, State and local governments are making severe cuts 
to their own budgets. Funding for many of these very important 
programs is disappearing before our eyes, and that will have 
very serious effects on all of our districts.
    So I hope that you can work with the leaders of--on both 
sides of Capitol Hill to try to make sure that when we get the 
final product here, that we have something that the Department 
can live with that won't have a negative effect on law 
enforcement.
    Attorney General Holder. I would hope that we have that 
ability, and I think in this hearing today we are having what I 
think is a good exchange. But hopefully it will just be the 
beginning of a process that will allow us to talk about our 
views of how we should construct this budget, obviously 
listening to the thoughts that the members of this committee 
have, and come up with a budget at the end of the day that will 
best serve the American people.
    We don't claim to have all of the answers. What we want to 
do is to have interaction on this committee that, as I said, at 
the end of the day, produces a good budget for my Department.
    Mr. Dicks. Thank you.
    Thank you, Mr. Chairman.
    Mr. Wolf. Thank you, Mr. Dicks.

                              PRISON RAPE

    Prison rape. I, along with Bobby Scott in the House, with 
Senator Kennedy and Senator Sessions in the Senate, passed the 
prison rape bill, which I think is very important. The fact is 
I hope to spend a little time on prisons and prison reform. But 
I want to begin with regard to this.
    Congress affirmed its duty to protect incarcerated 
individuals, and I have been disappointed that the Department 
has been very slow in acting, from sexual abuse when they 
enacted the Prison Rape Elimination Act. Since then, the 
National Prison Rape Elimination Commission has studied the 
causes of sexual abuse in confinement, developed standards for 
the reduction of such crimes, set in motion a process once 
considered impossible, the elimination of prison rape. On 
January 24th, the DOJ published the long-awaited proposed rules 
outlining national standards to prevent, protect and respond to 
prison rape. When do you expect the regulations to be 
finalized?
    Attorney General Holder. The rule is up for comment now. I 
would hope that this would be finalized by the latter part of 
this year, given all of the administrative things that have to 
happen, and the regulatory process it has to go through.
    Mr. Wolf. I have a letter from somebody who I know you know 
very well, Judge Walton. And I will just read a portion of it 
and perhaps you can answer as I get to that. He said ``I write 
in my capacity as former chairman of the National Prison Rape 
Elimination''--I assume you both served as judges together?
    Attorney General Holder. Yes, we served together on the 
Superior Court.
    Mr. Wolf. Yes. ``We are aware of the upcoming House 
Appropriations Subcommittee hearing. We offer the following 
short list of program items for your consideration. I note that 
our collective concern is predicated on more than your 
suspicion that interested parties have pressured the Attorneys 
General's PREA Working Group to alter the commission standards. 
The Attorney General apparently supports changing the 
commission standards, which in our view will weaken inmate 
protection and diminish institutional safeguards.''
    ``More importantly, the Department of Justice is currently 
using cost estimates that are unknown, unavailable. Everyone, 
especially the commission, needs to know the basis of the 
additional cost calculations and subsequent analysis, which has 
not been made public. Please inquire when this vital 
information will be released? When will you be releasing the 
information in time for the commission?''
    Attorney General Holder. Releasing the information----
    Mr. Wolf. Information with regard to cost? Because he goes 
on to say, ``it is essential that the data be available on an 
expedited basis for the commission and others who are present 
and preparing comments during April 4th. If the data cannot be 
properly released, please ask the Attorney General if the 
comment period will be extended to ensure an opportunity to 
review the crucial data before submitting comments.''
    Attorney General Holder. Well, I will certainly look into 
that. And to the extent that information has not been made 
available that would help in the formulation of good comments, 
I will do all that I can to make sure that information is made 
available. I just have to look into that.
    [The information follows:]

          Releasing Information Regarding Judge Walton Letter

    The Department's cost estimates were provided in the Initial 
Regulatory Impact Analysis (IRIA) that the Department made public at 
the same time as its proposed rule. The former commissioners requested 
additional information regarding the calculation of cost estimates 
contained in the IRIA. The Department subsequently posted to the 
regulatory docket in early March a set of worksheets that were used in 
preparation of the IRIA.

    Mr. Wolf. He went on to say, ``please inquire if the 
Attorney General agrees with the commission that regular and 
independent audits are a bulwark against adverse court 
decisions and public criticism.'' Do you agree with that?

                      INDEPENDENT AUDITING OF BOP

    Attorney General Holder. I certainly think there has to be 
some kind of monitoring of this to make sure that in fact the 
aims of the regulations that ultimately are adopted are in fact 
taking place. So, yeah----
    Mr. Wolf. Who do you see to monitor that?
    Attorney General Holder. Excuse me?
    Mr. Wolf. Who would you have monitor that?
    Attorney General Holder. These are things that will have to 
happen. I mean, we will have to work our way through that. I 
don't know what the process would be. But my thought is that 
some kind of monitoring of the progress----
    Mr. Wolf. I think the Department has been late in this. 
During this period of time, men and women have been raped in 
the prisons. We raised this with you last time you came before 
the committee. This is important. This is the responsibility of 
the Attorney General. And I thought this was one issue that you 
would embrace and be enthusiastic in working with the Congress 
to kind of deal with the issue. I am almost surprised that it 
has almost been like pulling teeth you almost can't get out. I 
would like to ask that the IG audit this. Because if you have 
the corrections people auditing themselves, you will not be 
sure that it is really being done. What is your position with 
regard to asking the IG to audit it every year for the first 3 
years and then 3 years thereafter?
    Attorney General Holder. Well, I would say that first off 
the passion that you have for this, I think, is laudable. And 
the reality is that this is something that we have taken very 
seriously at the Department of Justice, something I have taken 
very seriously at the Department of Justice. The commission had 
five years to do its work. There were a number of extensions 
that the commission had. We got one year once the commission 
submitted its report to us to try to get a final rule done. We 
missed that deadline. It is going to take about 18, maybe 20, 
months in order to do that. The commission had five years, as I 
said, to do its work.
    The passion that you have is shared by the people who have 
worked on it at the Department of Justice. This is something 
that we are trying to eliminate. We want to do it in such a way 
that we put in place a regulation that will stand the test of 
time and ultimately will be effective in stopping these heinous 
practices that subject people to physical abuse. And that is 
what we have tried to do and also have been mindful of the 
restrictions that have been placed on us about costs.
    Mr. Wolf. The question here is who will audit whatever is 
done or not done? Who do you view as auditing it to make sure 
that the act is carried out appropriately? Who do you see as 
auditing this?
    Attorney General Holder. Well, I think that is something we 
will have to work on. To audit the Nation's prison systems is 
something that is going to be very substantial, and you are 
talking about something that could be cost-intensive. So how we 
do this is something that I would be more than glad to work 
with the committee on and with you in particular about coming 
up with a mechanism so that we make sure that the monitoring is 
done in an appropriate way.
    Mr. Wolf. By an objective group? I don't think the people 
who are involved in it can audit themselves.
    Attorney General Holder. We will have to make sure that the 
audits, the monitoring, is done in a way that is credible. And 
we will have to work on that, sir.
    Mr. Wolf. Judge Walton goes on to say, ``of cross-gender 
searches, DOJ's standard is regressive on security pat-down 
searches. Virtually all State prison systems presently prohibit 
male staff from searching women inmates in the absence of other 
circumstances. This view is supported by a 1999 study conducted 
by the National Institute of Corrections, a DOJ component. We 
are informed and now confirming that a similar ban exists in 
most jails. Bureau of Prisons policy and practices, however, 
routinely permit cross-gender pat searches of female inmates by 
male correctional officers. Please inquire of the Attorney 
General why he opted to adopt BOP's practice rather than the 
practice which is prevalent in a majority of correctional 
institutions and supported by a robust body of case law.''
    Attorney General Holder. What is out there is a proposed 
rule, and there will be comments that will be made, among those 
obviously from Judge Walton and other members of the 
commission, members of the public, interested parties. And we 
will take those into account before a final rule is actually 
put in place. It would have been nice if Judge Walton had 
shared that with me. I didn't get it from him. But I will take 
it into account and maybe you can share that letter with me.
    Mr. Wolf. We are sharing it. We will--it is underlined. I 
have notes that we will share this with you.
    Attorney General Holder. Sure. That is fine. And we will 
take into account all of the comments that come from a variety 
of sources and in particular from those people who are on the 
commission.
    Mr. Wolf. Well, the commission spent a lot of time, and I 
think we really want to----
    Attorney General Holder. Five years.
    Mr. Wolf. And it is done well. Well, they are not 
professional people. They were taken from different areas, and 
they spent a lot of time. And we want to make sure that it is 
audited very appropriately and this is very, very successful 
once it is completed. I think the Department has been very slow 
with regard to that.

                   HUMAN TRAFFICKING--USA TASK FORCES

    Human trafficking. Last year I asked you about what could 
be done immediately to institute greater cooperation between 
State and local governments, the FBI and the U.S. attorneys in 
order to close down the sites where trafficking is taking 
place, remove the victims of trafficking and finally prosecute 
the offenders. It would be beneficial for all of the U.S. 
attorneys to have task forces with regard to this. What are 
your thoughts about--particularly in areas where this is a 
problem, which unfortunately seems to be in most parts of the 
country. Do you think it is good idea that every U.S. Attorney 
have the task force to deal with the issue of Federal, State 
and local working together? And if you do, how many currently 
have task forces?
    Attorney General Holder. I think that there is a variety of 
ways in which we need to deal with this, and I think that is 
something that is worthy of attention by the U.S. Attorneys' 
Offices and I think we need to work with our State and local 
partners in that regard. We have done things very quietly. We 
have had meetings with interest groups who have raised concerns 
about the use of various media and advertising that have been 
used to traffic, especially young women, girls actually. And as 
a result of those interactions and the pressure that we brought 
to bear, I think we have seen significant changes in the past 
year. Those efforts that we are doing, again quietly, are I 
think bearing results.
    Mr. Wolf. What I think the question was: do you think it is 
a good idea for U.S. attorneys in areas where this is a problem 
to have a task force whereby State and local and social 
services are working together? And Neil MacBride has one here 
in northern Virginia. I think they are bringing everyone in 
together. I believe they established it at our request, but I 
appreciate he moved very quickly on it. He felt it was a very 
important thing. How many other U.S. attorneys have a task 
force like Neil MacBride does?
    Attorney General Holder. That I do not know. But one of the 
things I have told all of the U.S. Attorneys is to look at one 
of the issues you have to confront in your district. How can 
you improve the quality of life for the people in your 
district? How are you going to protect the people in your 
district? And Neil has done exactly what you have indicated, 
and I think he has done it well. I think we can learn from what 
he has done there and see how we might extrapolate, learn from, 
replicate what he has done.
    Mr. Wolf. Could he be the only one that has a task force?
    Attorney General Holder. I don't know, and I will check on 
that and get back to you.
    [The information follows:]

   How Many U.S. Attorney Offices Have Human Trafficking Task Forces?

    There are currently 39 funded human trafficking task forces around 
the country, each of which has participation from the U.S. Attorney's 
Office that covers the area in which the task force is located.

           TRAFFICKING VICTIMS PROTECTION REAUTHORIZATION ACT

    Mr. Wolf. The Trafficking Victims Protection 
Reauthorization Act requires DOJ to create a new model State 
law to further a comprehensive approach to investigating and 
prosecuting human trafficking and to do so by drafting 
provisions that criminalize sex trafficking without proof of 
force, fraud or coercion, and whether or not the victim is a 
minor. Where is the DOJ in the process of drafting this model 
legislation?
    Attorney General Holder. I will have to get back to you on 
that, Mr. Chairman. That is something that obviously I think is 
worthy of our efforts, and I will check and see exactly where 
we are with regard to the drafting.
    [The information follows:]

       Trafficking Victims Protection Reauthorization Act Status

    The Department has drafted a model state law as required under the 
Trafficking Victims Protection Reauthorization Act (TVPRA) of 2008. The 
model state law is currently posted on the Department's website at: 
http://www.justice.gov/olp/model-state-criminal-provision.html.

                            WILBERFORCE ACT

    Mr. Wolf. Section 237 of the Wilberforce Act established a 
March 2009 deadline for the submission of a status report to 
Congress--that is March 2009--on the Department's long-delayed 
progress in commissioning a full report on unlawful commercial 
sex in the United States. Without a complete understanding of 
the horrific nature of this criminal industry--you know, you 
should be the Attorney General that shuts this down. The work 
should go forth. Holder is against this. Holder will go 
anywhere, do anything and eliminate this. This could be your 
legacy, if you will. So that is why I think every U.S. 
Attorneys' Office ought to do what Neil MacBride is doing.
    But to go back to the question, without a complete 
understanding of the horrific nature of this criminal industry, 
how can Federal, State and local policymakers properly deal 
with what many have described as the slavery issue of our time? 
Can you give us an update on the status of this critical 
report?
    Attorney General Holder. I am sorry, Mr. Chairman----
    Mr. Wolf. Section 237 of the Wilberforce Act established a 
March 2009 deadline for the submission of a report. I am asking 
you to give us a status of where it is. It is late. Can you 
give us the status of it?
    Attorney General Holder. Okay. This is different. I will 
get back to you with regard to where we stand in that regard.
    [The information follows:]

 Wilberforce Trafficking Victims Protection Reauthorization Act Status

    Pursuant to Section 201(a)(1) of the Trafficking Victims Protection 
Reauthorization Act of 2005, OJP delivered the first biennial report on 
severe forms of trafficking in persons, sex trafficking and unlawful 
commercial sex acts in the United States to both houses of Congress on 
October 1, 2009.

    Mr. Wolf. The manager's statement to the Wilberforce Act 
calls on the Department to review and report on the 
organization of its anti-trafficking prosecutions. Has this 
review been completed?
    Attorney General Holder. We are in the process of trying to 
compile a nationwide anti-trafficking strategy and come up with 
a guide for use by the task forces that will be in place or 
that are in place--I will come up with a number for you--so 
that we have a robust enforcement effort with regard to this 
issue. And I will come up with, as I said, with the number of 
task forces that are presently in existence and also detail for 
you where we stand with regard to the report in the 
legislation.

                           HUMAN TRAFFICKING

    Mr. Wolf. An undercover video recently showed that Planned 
Parenthood clinics in New Jersey, New York and D.C. and 
Virginia all turned a blind eye to the conditions that clearly 
marked patients as trafficking victims. Moreover, the clinics 
advised the pimp on how he could avoid being caught by 
falsifying or omitting key information on the very paperwork 
that is required to ensure minors. As you know, the Trafficking 
Victims Protection Act defines severe forms of trafficking in a 
person that is, quote, sex trafficking in which a commercial 
sex act is induced by force, fraud or coercion, in which the 
person induced to perform such act does not obtain the age of 
18. Have these been looked at with regard to the trafficking 
law?
    Attorney General Holder. It is my understanding that the 
FBI actually has looked at that matter. I believe this is true. 
If I am incorrect, I will send you something. But I understand 
the FBI has looked at that and a prosecution was declined in 
that matter.
    Mr. Wolf. I am going to end and ask some other questions 
that I am not going to go into. But I would really hope--
because when you speak out, Mr. Attorney General, the U.S. 
attorneys, they listen. You are their leader. And I think for 
you to say this is a priority for Attorney General Holder and 
no young teenage person, no young person should be sexually 
trafficked, no one should be brought in from another country. 
You could--and we are prepared to help you any way we possibly 
can--really make a tremendous--you could literally eliminate it 
for the next two years. If you put everything into it, you 
could literally break the back of this. And I would urge you--
and the committee will do anything we possibly can to help 
you--to be the Attorney General that literally almost 
eradicates sexual trafficking from this country.
    Attorney General Holder. As I said, this is something that 
is a priority of the Department. It is a priority of mine. If 
you look at the fact that craigslist has dropped their adult 
ads, that is a significant thing.
    Mr. Wolf. That is.
    Attorney General Holder. And that happened as a result of 
meetings that occurred in my office and the work that some 
organizations we met with----
    Mr. Wolf. I thank you for that.
    Attorney General Holder. And we have had other meetings 
about other publications that are continuing to do this. That 
is a prime way in which young girls are trafficked. Again, this 
is not something that we have done very loudly or sought any 
attention about--we only try to achieve results. I think you 
are right--the U.S. Attorneys are maybe a group of 90-some 
people who do tend to listen to me. Not many others do, and I 
hope that in my interaction with them I have made clear this is 
in fact a priority. And we will work to make sure that we have 
in place mechanisms that will effectively get at this issue.
    I think what Neil MacBride has done in the Eastern District 
of Virginia is very good. I am familiar with what he has done 
there, and we are in the process of developing ways in which 
other U.S. Attorneys can come up with mechanisms doing exactly 
what he has done or doing something that will respond to the 
unique needs of their districts so that we overall have a good 
national enforcement effort here. But as I said, we will 
continue doing the quiet things as well.

                HIGH-VALUE DETAINEE INTERROGATION GROUP

    Mr. Wolf. Sometimes the more public, the better. I am going 
to just ask you and then go to Mr. Fattah. It is about the 
High-Value Detainee Interrogation Group. I had over and over 
sent letters to the administration, and every one I talked to 
who is a career person thinks it is a good idea. I have asked 
that High-Value Interrogation Team be colocated at the 
Counterterrorism Center. Any comments with regard to that? 
Because if you are there when the information is coming in, you 
are more attuned and ready and know who you have to pick and 
pull. And to have them colocated there--they are not there. I 
know where they are. They are not there. Doesn't it make sense 
to colocate the HIG at the Counterterrorism Center in McLean?
    Attorney General Holder. I think the key is to make sure 
that they are communicating in real time to the extent that 
that is possible.
    Mr. Wolf. But the purpose of the Counterterrorism Center 
was to bring everyone together so they would be face to face, 
the stovepipes would be broken down. That is the advantage of 
it. And I think Leiter is doing a good job. But to have the HIG 
team colocated there, would that not make sense?
    Attorney General Holder. I think as I said, communication 
really is the key. I have seen the letter that you sent to Mr. 
Brennan, and I have seen his response back to you. And I would 
align myself with what he indicated.
    Mr. Wolf. That they don't have space? Is that the reason?
    Attorney General Holder. That there is the need to make 
sure that, as I have said, it is as close to real time as 
possible and that communication exists between the HIG and 
NCTC. And I agree with you that Mike Leiter has done a good job 
there. And I think that the interaction that exists between the 
HIG and NCTC is actually good.
    Mr. Wolf. How many times has the HIG or the MIT 
interrogation team been deployed since Christmas day last year?
    Attorney General Holder. I will have to check on that and 
get back to you. They have been deployed. I don't know the 
exact number.
    [The information follows:]

 Amount of Times HIG/MIT Has Been Deployed Since the Christmas Day Plot

    That number is classified and will be provided under separate 
cover.

    Mr. Wolf. Mr. Fattah.
    Mr. Fattah. Thank you.
    I know that the U.S. Attorneys listen to you because I know 
that our U.S. Attorney in the Philadelphia area, Zane Memeger, 
was out last night in a neighborhood interacting in a community 
around issues to improve the quality of life there in terms of 
guns and youth violence. And it made a significant impact.

                       VOTING RIGHTS ENFORCEMENT

    I want to get a couple of things in the record since this 
fiction about you making decisions about which cases to proceed 
with and which cases not to proceed with based on race. You 
decided to drop the prosecution for the late Senator Stevens. 
You were applauded by, I think, a lot of Members on the other 
side. You didn't do that on the basis of his race, right?
    Attorney General Holder. No.
    Mr. Fattah. And I want to make sure I enter this news story 
in the record about that decision.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259A.015
    
    [GRAPHIC] [TIFF OMITTED] T7259A.016
    
    Mr. Fattah. And also you decided not to prosecute anyone in 
relationship to the destruction of the alleged videos of 
torture of prisoners by agents of the CIA or consultants or 
employees. That wasn't done on the basis of race, was it?
    Attorney General Holder. That was not.
    Mr. Fattah. And you decided not to pursue a prosecution of 
former Majority Leader Tom DeLay, and his ties to Abramoff. Was 
that done on the basis of his race?
    Attorney General Holder. No.
    Mr. Fattah. So, now, this fiction about the New Black 
Panther Party, these were two individuals at one polling place 
in the entire Nation on election day who were out there. And 
this fiction created by Fox News is that they were intimidating 
voters. There were no allegations by any voter that they were 
intimidated, number one. These people said they were out there 
to protect these voters so they could cast their vote. Now, 
they should not have been there. They were rightly arrested. 
And the Department dealt with the adjudication in this matter, 
as you dealt with all the other cases.
    But I think that the allegation--and I think the most 
unethical thing a person can do is make allegations based on 
absolutely nothing--that you would make a decision based on 
race flies in the face of all of the facts available. I think 
it brings the Congress into disrepute, in fact, to even raise 
it, without evidence. Now, if we look at what this holdover 
Civil Rights Commission has done, they ran this ridiculous 
investigation that the Republican vice chair says lacked 
integrity, to continue these allegations out in public. But the 
facts are as they are, and I think that the work of the 
Department in making decisions, and these are some fairly 
politically sensitive matters, without regard to race or 
political affiliation, just based on the facts--that is what we 
want prosecutors to do, to exercise their discretion and to do 
it on the side of justice. So I want to commend you for doing 
it. And I want to thank the chairman for allowing me to enter 
the Vice Chair's----
    Mr. Wolf. Sure. Without objection.
    Mr. Fattah [continuing]. Statement into the record.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259A.017
    
    Attorney General Holder. If I could just say one thing in 
that regard, and I appreciate your comments. The decisions made 
on the New Black Panther case were made by career attorneys in 
the Department. And beyond that, if we are going to look at the 
record, let us look at it in its totality. The Department, just 
last year, requested additional relief on behalf of white 
voters in a Voting Rights Act in Mississippi, the case of the 
United States v. Ike Brown, where the person we were suing was 
black. So we have done these kinds of things irrespective of 
the race of the person who is either the complainant or the 
person who has done the inappropriate thing.
    We have simply tried to follow the law, apply the law in a 
race-neutral way. And any assertions to the contrary are simply 
not consistent with the facts.

                           HUMAN TRAFFICKING

    Mr. Fattah. Now, the reason why I love our chairman--Frank 
Wolf has done a great job--is in part because of the passion he 
brings to this question of human trafficking. And the 
Department has done some work in this area that I want to make 
sure we get in the record. Over the last two fiscal years, you 
have had a record number of prosecutions in human trafficking 
cases and particularly in this area of children, investigations 
related to 1,200 children. You have had over 600 convictions in 
State and Federal court with 25 years to life sentences 
imposed. I went over and visited, in Virginia, the Center For 
Missing and Exploited Children, which is funded by your 
Department. And you have a number of agents colocated there, 
FBI, ATF and the like, working day in and day out, doing 
amazing work to recover children who have been kidnapped or who 
were being exploited or being used for child pornography 
purposes. So I really want to commend the Department. And this 
is some $30-plus million dollars being well spent. I don't 
think the public is as aware as we should be about the number 
of children that go missing every day.
    And we talk about human trafficking as if they are just 
young girls being brought from some other place for untoward 
purposes. But in many instances, we have children right here in 
our own country, and it is terrible under any circumstance, but 
these children are being taken. And if it were not for the work 
of your Department to track them down and to prosecute the 
people who are violating the law and also rescue these 
children, it would not happen. So as a father of four myself, I 
want to thank you for that, and I yield back.
    Attorney General Holder. If I could, in that regard, I 
think what the ranking member is talking about is the Innocence 
Lost National Initiative. As of November 2010--and the 
statistics that he has are correct there. There are 39 
Innocence Lost task forces and working groups around the 
country and have worked successfully to recover more than 1,200 
children. Investigations have led to 600 convictions with the 
multiple 25 years to life sentences that he indicates. And I 
think that is an indication of the kind of attention and 
resources that we have devoted to this issue. We always want to 
get better at it, and we want to work with the committee and in 
particular with the ranking member and with the chair so that 
we make sure that all that we are doing is funded appropriately 
and that it gets the attention that it needs. It is a very 
serious problem.
    Mr. Wolf. Mr. Dicks.

                     COMPUTER INTRUSION INITIATIVE

    Mr. Dicks. Thank you. I want to thank the gentleman from 
Texas for letting me go first. In your statement on page 3, you 
talk about you want to expand the Computer Intrusion Initiative 
to increase our capabilities to detect and counter cyber 
intrusions. I serve on the Defense Subcommittee and am heavily 
involved in intelligence oversight. This cyber issue I think is 
one of the most dangerous issues to face the country.
    Attorney General Holder. You are right.
    Mr. Dicks. And I just would like you to describe what the 
Justice Department is doing with your Computer Intrusion 
Initiative.
    Attorney General Holder. I think you are right. This is one 
of the most dangerous things that we have to confront, both on 
a national security basis, where people are trying to hack into 
our computers, glean national defense information or where they 
might be used in an offensive way against our country. There is 
also the commercial side, where trade secrets are stolen, and 
intellectual property is stolen, as a result of computer 
intrusions. This is something that we have devoted a great deal 
of attention to.
    Cyber crime, in both the forms that I have described, is 
really something that requires 21st century enforcement 
efforts. It is something that we have devoted time and 
attention to. It is a priority for this Administration. This is 
something that not just the Justice Department is working on. 
This is something that we discuss in meetings that we have in 
the Situation Room with the President. We are really focused on 
the whole question of cyber crime.
    We have a very effective part of our Criminal Division, the 
Computer Crimes Section, which I think does a very good job. 
Our budget for fiscal year 2012 asks for an increase of $318 
million and 42 positions to enhance the FBI's ability to direct 
and investigate cyber terrorism matters and also to strengthen 
the National Cyber Investigative Joint Task Forces and also to 
improve our forensic capabilities in this regard. This is an 
area that really is important, and I think that your 
characterization of this as very serious and something we need 
to do is exactly right.
    Mr. Dicks. One thing I would mention, I saw a recent 
report. And some people say this isn't--it is still understated 
that cyber attacks and taking people's intellectual property 
has reached over $1 trillion worldwide. Now, that is a big 
number when you talk about that kind of an impact. And we worry 
about our financial institutions, our utilities. I think the 
Defense Department is doing a pretty good job. The major 
concern I have is with the Department of Homeland Security and 
its coverage of the rest of the government besides defense and 
the business community in the country and working with the 
Administration on what they are doing.
    And do you think there is a need for a regulation here so 
that the government--I am told by the Department of Homeland 
Security that they cannot direct a company to take certain 
actions, like a utility, for example, if they were vulnerable 
to a cyber attack; there are certain things they could do, and 
if they didn't do it, that the Department of Homeland Security 
can't do anything about it.
    Attorney General Holder. I think one of the things we need 
to do is try to work with partners on the private side and 
establish relationships such that when we identify a threat, 
they take action consistent with that threat. I think that is 
probably the best way to do it.
    But I think the point that you make about the commercial 
side is, again, exactly right. I went to Hong Kong to give a 
speech about that a few months ago and then went to China to 
talk to the Chinese authorities there about the problems, the 
issues that we have with them about the way in which these 
cyber intrusions are occurring and the theft of our 
intellectual property. They announced a program of short 
duration to deal with the issues that we raised. But I think 
working with people in private industry--having a good 
interaction between government and those on the private side, 
to allow them to come up with ways in which they are responsive 
to the issues that we identify--probably the best way to do it.
    If ultimately there is the need for regulation, that is 
certainly something that we would want to work with Congress 
on. But I think your identification of this issue and all of 
the ways in which you have described it is something that 
really has to be focused on. As we have made tough choices with 
regard to our budget, it is one of the reasons why we have 
sought the pretty substantial increase in this area because I 
think this is an area that is deserving. Even in hard budget 
times, this is an area that is deserving of more resources.
    Mr. Dicks. And I will just end on this. Sometimes people 
don't even know that they have been intruded on, and this is--
and you don't know necessarily where it is coming from because 
the way they set these things up can be very deceptive. So I 
just think--and I think the vulnerability has not been publicly 
stated as much as it should, so the people will take it and the 
companies will take it serious. Thank you.
    Thank you, Mr. Chairman.
    Mr. Wolf. Thank you.
    Mr. Culberson.

                       VOTING RIGHTS ENFORCEMENT

    Mr. Culberson. Thank you, Mr. Chairman.
    Mr. Fattah said--I want to make sure I understood, Mr. 
Fattah. I hope you weren't referring to my questions as 
bringing discredit to the Congress, I hope.
    Mr. Fattah. Never.
    Mr. Culberson. Thank you, my friend. Because we do work arm 
in arm on this. But these are not--I think I heard you say 
made-up allegations or something.
    Mr. Fattah. I said they were fiction.
    Mr. Culberson. Fiction. Well, they are on videotape, and 
you have sworn testimony from a whole variety of witnesses. And 
I know you are upset in Philadelphia. This happened in your 
backyard. But this is on videotape. You have got sworn 
testimony from a whole variety of witnesses. And in 
particular--and this is now a part of the record. I want to 
bring to your attention--this is sworn testimony in a 
litigation brought the Department of Justice under President 
Bush, a gentleman by the name of Bartle Bull, who worked in the 
Lawyers' Committee For Civil Rights Under Law in Mississippi in 
the 1960s, and was publisher of the Village Voice. He was the 
New York campaign manager for Bobby Kennedy's presidential 
campaign in 1968. This guy goes way back; Charles Evers' 
campaign for governor of Mississippi. The guy's civil rights 
credentials are impeccable. And he was interviewed by 
Department of Justice personnel about what happened on election 
day. He watched these two uniformed men confront voters, 
attempt to intimidate voters, position themselves in a location 
that forced every voter to pass in close proximity to them. 
They brandished a nightstick, were wearing uniforms. He says, 
``in my opinion, these men created an intimidating presence at 
the entrance to a poll.'' Direct sworn testimony in the 
litigation that was going to lead--until you dismissed it--to a 
permanent injunction against these guys. This is testimony, 
sworn testimony: ``In all of my experience in politics and 
civil rights litigation and in all my efforts in the 1960s to 
secure the right to vote in Mississippi, I have never heard or 
encountered another instance in the United States where armed 
and uniformed men blocked the entrance to a polling location. 
Their clear purpose and intent was to intimidate voters. To me, 
the presence and behavior of the two uniformed men was an 
outrageous affront to American democracy and the rights of 
voters to participate in an election.''
    His sworn testimony is, Mr. Fattah and Mr. Attorney 
General, that this would qualify as ``the most blatant form of 
voter intimidation I have encountered in my life in political 
campaigns and many States, even going back to the work I did in 
Mississippi in the 1960s.'' So it was on videotape. You have 
got sworn testimony from all sorts of witnesses that these guys 
were intimidating and harassing people. They admitted liability 
and were ready to accept the judgment of the court. The Civil 
Rights Division had actually prepared a permanent injunction.
    And as soon as the new administration came in, they 
withdrew it. And that in itself is a terrible affront to 
American justice and the Civil Rights Act that was the greatest 
achievement of President Lyndon Johnson and President Kennedy, 
the Voting Rights Act.
    What I am really driving at and what is most disturbing to 
me, to Mr. Wolf, and to a lot of Americans, is the double 
standard. There is a pattern of a double standard here that Mr. 
Adams, Mr. Coates, that a number of people in the Department 
have testified to. And on the Ike Brown case, Mr. Attorney 
General, you mentioned a minute ago that you said--I am flying 
through my iPad here. You have got to get one of these. Frank 
is about to get one. They are spectacular.
    On page 52--if I can get to it quick enough by flying 
through--I don't think I can pick pages. They talk about the 
Ike Brown case, Mr. Attorney General. You mentioned a minute 
ago that it was your belief that it was professional people and 
the career attorneys that had handled this. And as I recall, on 
page 52, that the attorneys who actually--at the time, the 
attorneys who made this decision--and I will find it here in a 
second--that they were--that you say they were career attorneys 
general. But by the time they made the decision, they were 
actually political appointees.
    So there is a lot of conflict between the official position 
of the Attorney General and the Department and the sworn 
testimony of attorneys who work in the Civil Rights Division 
and that there is--that we have got sworn testimony that there 
is a pattern of behavior of refusing to enforce the law in a 
race-neutral manner. This is a big concern to the committee.
    Mr. Fattah. If the gentleman would yield for one second.
    Mr. Culberson. Certainly.
    Mr. Fattah. I don't want you to take any personal offense 
for what I said earlier. I was not saying you were bringing the 
Congress to disrepute. I am saying that the allegation that the 
Attorney General is acting on the basis of race is fiction. If 
you look at all of the decisions to decline prosecutions, the 
ones I just named, Tom DeLay, former late Senator Stevens and 
so on, that they are not based on race. The only race involved 
here--the only issue of race is the singling out of this 
particular decision. Right?
    Now, I happen to know--and I know you are from Texas. This 
is pretty close in for me. This happened in Philadelphia. Is 
that the essence of the allegation that among a million polling 
places, there was one where this took place. That this rises to 
national significance is bogus on its face. Secondly, that 
anyone was intimidated--as I told you, no one has alleged that 
they were intimidated. But they should not have been at a 
polling place. It was a Federal election, and the Justice 
Department took appropriate action. I totally agree.
    Now, I am willing to yield you back your time because the 
committee has dealt with a lot of issues today. If you think 
this is the most significant one, I want you to better pursue 
it. I am just telling you, I am not making any personal affront 
to you. I know that you are sincere. I just think that to 
anyone who believes that the Department of Justice is operating 
on a basis of race, I just think this is without foundation.
    Mr. Culberson. Okay. Thank you. Reclaiming my time.
    And I appreciate that very much, Mr. Fattah. And we all 
work together arm-in-arm on this committee, Mr. Chairman and 
Mr. Attorney General, in a cordial and friendly way. And we all 
are committed to making sure our laws are enforced in a 
racially neutral way, in a way that is fair and blind. No 
matter who the President is or who the Attorney General is, I 
would be pursuing these questions. But I would hope that this 
committee will pursue in greater detail and in more depth and 
perhaps, Mr. Chairman, in a separate hearing, these very, very 
serious allegations of a pattern of behavior at the Department 
of Justice. Sworn testimony indicates there is a pattern of 
behavior of refusing to enforce the laws in a racially neutral 
manner, ignoring the voter intimidation in Pima County, 
Arizona; ignoring voter intimidation in Philadelphia; the Ike 
Brown case, where attorneys in the Department were harassed. We 
have got sworn testimony. And the reason it is relevant, if I 
could in conclusion, Mr. Chairman, point out that the 
Department of Justice is asking for a $145 million increase in 
the Civil Rights Division funding for this year, Mr. Chairman. 
And that includes funding for 815 staff positions. That is a 14 
percent increase in manpower and an 18 percent boost in 
spending. I want to make sure American taxpayers are getting 
their money's worth, Mr. Chairman; that that money is being 
spent in pursuit of cases in an absolutely blind and racially 
neutral manner. No matter who it is, if they are intimidating 
voters, if the voter registration rolls--that is another 
question, Mr. Chairman--section 8 of the National Voter 
Registration Act. We have got sworn allegations that it is not 
being enforced. The States are being allowed to keep garbage 
lists, and the DOJ is charged with cleaning up those lists.
    I think it is worth very careful inquiry, Mr. Chairman, to 
determine whether or not these--Mr. Fattah says it is false. We 
have got sworn testimony it is true. We need to pursue that in 
great detail.
    Attorney General Holder. If I could speak on just a couple 
of things. First, the people in the Black Panther case did not 
admit to guilt. They did not appear and a default judgement was 
entered against them.
    Mr. Culberson. But they did not contest liability?
    Attorney General Holder. When you say admit, that is an 
affirmative action.
    Mr. Culberson. They did not contest it.
    Attorney General Holder. I think that the quote that you 
read from that gentleman, that this was the greatest affront in 
the history that he had ever seen, that----
    Mr. Culberson. Personal opinion.
    Attorney General Holder. Think about that. When you compare 
what people endured in the South in the 1960s to try to get the 
right to vote for African Americans and to compare what people 
were subjected to there to what happened in Philadelphia--which 
was inappropriate; it is certainly that--to put it in those 
terms I think does a great disservice to people who put their 
lives on the line, who risked all for my people, like my wife's 
sister, who went to the University of Alabama. When George 
Wallace stood in the door and said that she as a State resident 
could not attend the University of Alabama, Vivian Malone, who 
I am proud to say was my sister-in-law, persevered. To compare 
that kind of courage, that kind of action and to say that the 
Black Panther incident, wrong though it might be, somehow is 
greater in magnitude or is of greater concern to us 
historically, I think just flies in the face of history and the 
facts.
    And I just want to assure again the American people that 
the allegations that somehow, some way this Justice Department 
does things on the basis of race is simply false. It is simply 
false. Anybody who makes that contention is not telling the 
truth, is not familiar with the facts or has a political 
agenda. It is simply not true.
    Mr. Culberson. I am very glad to hear it, Mr. Attorney 
General.
    And I know the chairman is as interested as I am, and as 
Mr. Fattah and all the members of the committee are, to ensure 
that is not true. I am glad to hear you say it, and I am 
confident that you will provide proof to the chairman of the 
committee that everything Mr. Coates and Mr. Adams and these 
other folks said in sworn testimony, that everything they said 
is false. I am confident that you will prove that they are--I 
hope that you can prove that your statement is accurate, and I 
hope that the committee will pursue it.
    Mr. Fattah. Mr. Chairman, I want to reiterate the statement 
of the Republican vice chair who was involved in this supposed 
investigation that keeps being referred to here. She says that 
this investigation lacks political and intellectual integrity 
from the outset and has consistently been undermined by the 
imbalance between the gravity of the allegation and the 
strength of the evidence available to support such charges.
    I just want to put that again in the record because this 
is--it is obviously an important issue to my colleague. I think 
it would be important for the committee in that the Attorney 
General has no burden to disprove allegations that even the 
hearer of these supposed statements says are weighted and 
imbalanced and lacked integrity from the outset.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259A.018
    
    Mr. Wolf. Before I recognize, Mr. Serrano, I do want to 
comment, though.
    I think Mr. Culberson makes a legitimate point. Mr. Fattah 
and I both are from the City of Philadelphia originally. My 
first year of college I went to the University of Mississippi 
in Oxford. I saw discrimination. I saw segregation. I saw 
things that I didn't like. I was the only member of the 
Virginia delegation to vote for the Voting Rights Act, and 
there were many editorials criticizing me from the Richmond 
Times Dispatch and other newspapers. And I think it is 
important--we are not looking for finding punishment to go 
through the Justice Department to find out who did this but 
going future, going future. And that is why I think it is 
important and I appreciate Mr. Culberson raising this. Going 
forward there ought not to be any discrimination based on race. 
Period. I will tell you that we have had telephone calls from 
career people at the Justice Department who do not want to come 
forth with their name.
    I am not so anxious to go back to find out what took place 
a year ago, two years ago and who is to blame and who puts this 
right. But going forward from here on end, from this day 
forward--because I believe in the Voting Rights Act strongly; 
not by rhetoric or by words, but by deeds. And we will make 
sure that it is enforced in an appropriate way. So I think what 
Mr. Culberson did was appropriate. We are looking forward, and 
with that, let me just go to----
    Attorney General Holder. I just want to say there have not 
been, there is not and there will not be any enforcement of the 
civil rights laws on the basis of anything other than the facts 
and the law. Race does not, has not, will not enter into those 
considerations.
    Mr. Wolf. Mr. Attorney General--you are a man of character 
and I take you at your word, period. But I will also sometime 
sit down with you off the record--because we are not looking to 
kind of ferret out and hurt somebody--and give you some of the 
things that I have been told by telephone calls from career 
people at the Justice Department. So let us work at a time 
whereby I can tell you that--I just ask that you protect 
their--because some are feeling intimidated that if they come 
forward, that they are going to be punished with regard to 
that.
    Mr. Serrano.
    Mr. Serrano. Thank you so much. I apologize for the fact 
that I was here this morning, that I left to be ranking member 
on a hearing. That hearing has long finished, and you guys are 
still going. So, congratulations and thank you.
    I had a very totally different question, but one cannot 
help but think that we Americans have a responsibility. We are 
living during a time--I have been around long enough, both 
politically and personally, to remember the 1960s, and it has 
been a while since I have seen the anger driven, not 
necessarily by Members of Congress or elected officials, but by 
nonelected officials, who obviously don't know that Hawaii is a 
State, otherwise they wouldn't question birth; who won't take a 
man at his word as to who he is or what he is; and who somehow 
have just gotten used to the fact that there have been some 
historic, dramatic and very important changes in this country 
that give rights and opportunities to a lot of folks.
    I have no doubt, Mr. Attorney General, that you take your 
job seriously because I know where you come from, not only 
because you are from New York City, but I know who you are. I 
have dealt with you for many, many years on other issue, some 
of which you took a lot of heat for during your confirmation, 
but which I knew indicated to me that you were looking for what 
was right to do and to do it correctly.
    And I think the danger we run at times as elected officials 
is that we make statements and not knowing that there is a 
crowd out there that listens to those statements and begins to 
believe that there is a problem beyond the question being 
asked. So you can bet your life that tonight there are a couple 
hundred thousand and millions of Americans who are angry at 
government who believe that the Justice Department is 
functioning under the issue of race only and in an unfair and 
improper way.
    So I just would hope that as we continue to move forward in 
this country--and we will move forward--that we get over some 
of these situations. I take very seriously your comment about 
your sister-in-law. I take that seriously because I lived that 
time. I am old enough to remember that time, how painful that 
was, how difficult it is. Now it is hard for people to remember 
that.
    Everything happened and you are here and I am here, and Mr. 
Fattah is here. So it was all simple. It wasn't simple. It was 
very, very difficult to register. I remember the Justice 
Department you head now under other leadership, dealing with 
the fact that people in New York were not allowed to vote 
because they didn't speak English, only to have Paula Dwyer and 
other folks go to the courts and say, well, you taught them how 
to be American citizens in Spanish in a territory, how can you 
deny them the right to vote now because they don't speak 
English the way you want them to. And those seem now--seem to 
have simply happened, but they didn't. They were long fought 
battles.
    And I know in closing that you are too serious a man and 
too humane to take that history not seriously and do anything 
that would be improper or allow anything knowingly to be 
improper and that would be against the best interest of this 
country. And I know that and I just felt that I had to say that 
for the record.
    Attorney General Holder. Thank you, Congressman. I really 
appreciate your comments.
    Mr. Serrano. Now to a local issue.

                            9/11 HEALTH BILL

    You know that one of the biggest issues we all participated 
in and there was a lot of pressure on is the James Zadroga 
Health 9/11 Bill which allows folks to be covered who were 
there at 9/11. The budget that you presented after saying all 
these nice things about you, in my opinion may not allow for 
the reopening of that account properly to service all of these 
folks, the appropriated amounts.
    We understand that the appropriated amount I believe is $6 
million. It took about three times that the last time that 
something similar was done. So my question to you is having 
fought such a difficult battle on behalf of people who really 
deserve help, how do we now deal with the fact that we may not 
implement it properly?
    Attorney General Holder. We certainly need Congress' help 
in that regard. The money is there and appropriately so, after 
a great deal of struggle for money to be paid to the victims. 
We need Congress' help so that we have an appropriate amount of 
money to start up and run this program. We want to work with 
Congress to make sure that we have the appropriate amounts and 
do that as quickly as we can so that people who for too long 
have been denied relief for heroic actions that they took on 
the most traumatic day in the history of my hometown, so that 
they will receive the benefits that they deserve. And we want 
to work with Congress to come up with those amounts and come up 
with a process that makes real this promise that we have all 
made by putting this fund together.
    Mr. Serrano. I hope so and I stand ready to assist you in 
any way that I can.

                             REDISTRICTING

    One last question and one that is dear and near to all of 
our hearts on this panel, it should be to the American people, 
redistricting. Is everything in place for the fact that I 
suspect with everything that we are hearing out there and with 
the growth of certain communities and loss of key seats, New 
York is losing two, Florida is gaining two, as an example, the 
Hispanic population's growth, the African American population, 
other groups throughout the country, do you feel confident that 
everything is in place for what I suspect will be a lot of 
challenges that will somehow end up with your Department?
    Attorney General Holder. We are mindful of the role we play 
in a variety of contexts in the redistricting effort and I 
think we are prepared for what I think you are saying correctly 
could be something that I think certainly would be contentious 
in a lot of places and may have legal implications in many, and 
we are ready to proceed. We have configured the Civil Rights 
Division and other parts of the Department in a way that we are 
going to be prepared to deal with the issues that we will have 
to confront.
    Mr. Serrano. Thank you so much. And once again, thank you 
for the job you are doing on behalf of our country.
    Attorney General Holder. Thank you.

                           BUREAU OF PRISONS

    Mr. Wolf. Prisons, an area that you really have a unique 
opportunity to do some fairly dramatic things that can make a 
big difference. The Bureau of Prisons is nearly 40 percent over 
capacity, and the Federal prison population is expected to grow 
by an additional 14,000 inmates over the next year at the cost 
of $27,000 per inmate per year. The Federal system--we are 
actually number one in the world, which is not a good thing you 
want to be number one in with regard to the number of people 
that are in prisons.
    Most State correction systems began their reform process by 
providing outside experts with correction data to conduct 
comprehensive analysis. I believe it is imperative that experts 
at the Bureau of Prisons and others outside government fully 
understand that the drivers are population, cost, and 
recidivism so we can address overcrowding, improve reentry 
programs, reduce the recidivism rate, increase public safety 
and control costs. I asked the Bureau of Prisons if they would 
make available the BOP data that will be necessary. And it is 
important that we get it early because we, through the efforts 
of Mr. Mollohan of this subcommittee last year--we were able to 
convince Pew and others to put together that forum. They came 
up with other really good ideas that the States are moving out 
on, but the Federal Government is not. So it is important that 
we get that data quickly so we can apply whatever the 
recommendations were for the States for the Federal Government.
    Can you tell us--we have asked the Bureau of Prisons to 
give it to us, that we get it as quickly as possible with as 
much information as they have. They are now saying, well, they 
have to go to U.S. Attorneys, and we need something quickly to 
deal with this issue so that Pew and State governments can look 
at that data and come back and make some recommendations.
    Attorney General Holder. Yes, we will endeavor to get that 
information to you as quickly as we can. I will see what the 
nature of the information is. And if there are any holdups, I 
will try to make sure that we streamline the process and get 
the information to you because I think the contention that you 
have just raised, the concerns that you have expressed, 
certainly throughout your career and certainly in my 
interaction with you, I think are appropriately placed.
    [The information follows:]

          Information for Pew and Council of State Governments

    The Bureau of Prisons (BOP) has compiled a data file with the 
information and is prepared to transmit it pending the resolution of 
issues regarding access to the data by outside consultants; BOP staff 
is working with your staff on such resolution. BOP is prepared to work 
with your staff and outside consultants to formulate the relevant 
questions, develop appropriate parameters, and then write the programs 
to run against the data. The BOP has social science researchers who 
have many years of experience working with the data and are familiar 
with the latest sophisticated statistical methods needed to ensure that 
any conclusions drawn from the data are well founded.

    We really have to look at ways in which we can use our 
prison system better than we are doing it. This whole question 
of reentry is something we have tried to focus on. We have 
worked with you in that regard. We have asked for a 10 percent 
increase with regard to the capacity issue. But we want to do 
more than that. We want to try to work on the prevention side. 
We want to work on the rehabilitation side. And we also want to 
work on the whole question of reentry programs and to try to 
cut down the recidivism rate, which ultimately and obviously 
protects the American people.
    It is a very interesting thing that I don't think too many 
people understand, but you all do and we need to get it out 
there, is that we can actually save money and increase public 
safety at the same time through the use of these rehabilitation 
and reentry programs. And so we look forward to working with 
you and the other members of the committee in that regard.
    Mr. Wolf. Texas is doing it, and Mitch Daniels from Indiana 
is doing it. I am going to have some questions with regard to 
work on that.

                FEDERAL INMATE GOOD CONDUCT TIME CREDIT

    But let me follow back to where we were. Congress mandated 
that Federal prisoners serve 85 percent of their time. BOP 
supports a change in the Federal Inmate Good Conduct Time 
Credit, which provides inmates clear incentives that encourage 
positive behavior. The change would increase good time credit 
availability by 7 days a year. I understand that your hope was 
that this proposal would be enacted by Congress. In fact, you 
have assumed, I understand from the staff, such a change will 
occur before October 1. That is in your budget request. Have 
you submitted a formal legislative proposal?
    Attorney General Holder. If not, we will submit one as 
quickly as we can. We believe that will save us about $40 
million by having the good time credit set at the level that we 
have indicated. It is an interesting thing, what I was saying 
before, about how we can save money and increase public safety. 
And this is one of those examples, what you have seen in the 
States, as you have indicated especially, where you make 
available to people who are in prison, vocational programs or 
the opportunity to get out of prison sooner if they will avail 
themselves of drug treatment programs, vocational programs, 
educational programs. It saves money in terms of time that they 
serve in jail, and actually it decreases the recidivism rate. 
So we will work on getting you an appropriate proposal in that 
regard.

                             PRISON REFORM

    Mr. Wolf. I think the earlier, the better. I am not sure--I 
hope this committee--I would be open to carrying something, and 
I think the gentleman would, the authorizers obviously would 
have to tell us that it is okay. But I think the earlier you 
get something up, I think the better it is.
    There is an area that I think we can make a tremendous 
difference in, having a robust work program in our Nation's 
prisons is an important priority, quite frankly, of mine. The 
statistics I received from the Bureau of Prisons tell us that 
inmates who participate in work programs are 24 percent less 
likely to offend again, 14 percent more likely to find work 
outside prison, and 23 percent less likely to have misconduct 
in prison.
    What are you doing with regard to prison reform? And in the 
interest of time, we ought to be boldly moving out. I have a 
proposal--I think you have the authority to do it--of putting 
industry into the prisons, the prison industry, to get products 
that are no longer made in the United States, which 
unfortunately are a lot of products. So you are not competing 
with organized labor. You are not competing with the furniture 
manufacturers. You are competing with somebody in Bangladesh or 
China or Mexico. I call it repatriation, bringing back, if you 
will, whereby then the men maybe can recreate that industry 
back in the United States.
    For instance, years ago, if you were a judge in the 
District of Columbia--Lorton was the armpit of the Nation. It 
was brutal. I used to go down to Lorton. I was in a program 
then. It was brutal. Brutal. We tried to bring in a television 
manufacturer. Emerson was somewhat a little interested in it. 
It was the last manufacturer of an American television set. 
They have since left. I think they are now down in Mexico. They 
were a little open to it. So we came in and said, let's 
manufacture Emerson television sets or portions of the 
television set in Lorton. The pushback from the District 
government and others was significant, and you know what 
happened in Lorton, the men would be so afraid--I have had some 
men tell me at Lorton, they couldn't sleep at night; they were 
afraid somebody would have put a shiv in them and kill them.
    Why don't you do something and be bold and bring back in 
industries that are no longer operating in the United States so 
you won't get across the breakers with the labor unions, you 
won't get across the breakers with the people that are 
manufacturing furniture or something like that, and really 
energize prisons--because you can't put a man or woman in 
prison for 15 or 20 years and give them no work. Very few 
people in the Federal prisons are working now. In fact, what 
has the loss been with regard to Prison Industries? How many 
jobs have you dropped in the last four years in prisons?
    Attorney General Holder. I don't have those numbers, but 
the program is not nearly as robust as it once was, and I think 
that is something that is ultimately really short-sighted.
    The ability to provide work opportunities, skills to 
people, through the Federal Prison Industries is something that 
I have supported, you have supported, and I think that over the 
long term is good for our Nation.
    Just one thing here. I was handed a note with regard to 
that proposal, that legislative proposal that you talked about. 
I was indicated you should get that this week, that we talked 
about in the previous question.
    Mr. Wolf. Well, you have an opportunity. I assume you are 
going to be here for the next 2 years. You have an opportunity 
to----
    Mr. Fattah. I am sorry, Mr. Chairman.
    Mr. Wolf. I didn't mean that in a----
    Mr. Fattah. It sounds like a sentence almost.
    Mr. Wolf. No, I assume there is an opportunity.
    Attorney General Holder. He is talking about my two years 
more here in this job as a sentence.
    Mr. Wolf. I see from that--you can be like Esther for such 
a time. You can literally transform, if you are going to be 
here for that period of time, would it not make sense to bring 
back some of the work that is being done now abroad and put it 
into the Prison Industries?
    Attorney General Holder. I wouldn't disagree with you. To 
the extent that we can come up with employment opportunities, 
work-unit opportunities for people who are incarcerated in the 
Federal systems, State systems as well, those are the kinds of 
things I think that we need to encourage.
    Mr. Wolf. Will you make it a priority?
    Attorney General Holder. I have tried to make this a 
priority, that is to work in ways in which we deal with 
rehabilitation, reentry, prevention, all of these things apply 
to it. But with this one in particular, I will do what I can 
and work with you in that regard.
    As you know, this is not something that is universally 
supported. But it is something that I think we should be behind 
and something that we should be putting resources and 
opportunities in.
    Mr. Wolf. What is the law now--when you access income from 
the Prison Industries? Is that returned to the Treasury or can 
you use that?
    Attorney General Holder. I don't know. I will have to check 
on that. I hear some whispering behind me.
    Mr. Wolf. Maybe they can whisper louder, and we can hear 
them.
    Mr. Lofthus. Prison Industries income stays with Federal 
Prison Industries for the benefit of Federal Prison Industries.
    Mr. Wolf. So, therefore, the more prison industries you 
have, the better: One, you lower the recidivism; two, you have 
revenue. But I would really hope that, in addition to 
eliminating sexual trafficking, this would be one of your 
legacies with regard to the prisons and with regard to the 
prison reform issue. Do you want to----
    Attorney General Holder. I am not sure which one I just 
got. I will have to work on it.

                         COUNTER-RADICALIZATION

    Mr. Wolf. Okay. The last two questions, and I will go to 
Mr. Fattah or then Mr. Schiff if he has a question. What should 
we be doing with regard to radicalization?
    Attorney General Holder. That is an issue that is of great 
concern. As one looks at the threat that we have endured these 
past, 12, 18 months or so, we have seen an increase in the 
number of American citizens who have for whatever reason 
decided to try to do harm to their country and to their fellow 
citizens. We try to determine what is it, what are the common 
factors that we see there that change people? The guy who was 
going to do the Times Square bombing, Shahzad, what happened to 
him? Ostensibly, he was just a normal guy who kind of goes off 
the deep end.
    We have substantial outreach efforts that the Department of 
Justice has done through its United States Attorneys Offices so 
that communities, Muslim communities, do not feel isolated. We 
talked to our British counterparts about the issues that they 
have dealt with there and ways in which they are trying to have 
a robust and effective counter-radicalization program. Our FBI 
is doing a really substantial amount and I think a good job in 
reaching out to Muslim communities.
    I have certainly tried to use the soapbox that I have to 
talk about these issues and to go to Muslim groups and make 
them understand that they are American citizens; they are a 
part of our American community. And it seems to me that one of 
the things we have to do is not let these communities become 
isolated, feel that they were being set upon, that they are 
being pointed at, to understand that they are just like the 
rest of us. They want the normal things for their kids. They 
want to feel safe in their homes. And we have to deal with 
those concerns. We also have to deal with the use of the 
internet in a way that is being used to radicalize people. But 
this counter-radicalization effort is something that the 
President has focused on and has told his national security 
team that he wants an effective robust program, and he has 
tasked a variety of us with that responsibility. John Brennan 
is the one who on a weekly basis--we meet with him on Tuesday 
afternoons with the President--is constantly bringing that up.
    Mr. Wolf. Your answer triggered it. Did it trouble you or 
did you speak out on the issue when CAIR ran those posters 
urging people not to cooperate with the FBI? Did you see that 
poster? It was really kind of shocking.
    Attorney General Holder. That is the kind of thing----
    Mr. Wolf. Did anyone speak out at the Justice Department 
criticizing CAIR for that?
    Attorney General Holder. We have had a troubled history 
with that organization. And we have to counter that by 
countering--or saying negative things about those kinds of 
posters. But then also doing things on the affirmative side.
    Mr. Wolf. Sure. That was I thought a very counterproductive 
thing for CAIR to----
    Attorney General Holder. It clearly is. It is 
counterproductive, and it is not in the interest of the Muslim 
community for that to be seen as the way in which they are 
going to interact with Federal law enforcement.

                        INTERNET RADICALIZATION

    Mr. Wolf. One other issue, too, that you triggered. What is 
the connectivity of all of these cases? Do all of them involve 
to a certain degree the internet? Is the internet--I know it is 
a difficult issue, but just on the surface, has there been an 
internet connection on 100 percent, 50 percent?
    Attorney General Holder. I am not sure I can give you a 
percentage, but a substantial number of them, when you look 
back and then do the things we are capable of doing--I don't 
want to go into too much--the things that we can do, you can 
kind of see attempts by these people to touch base with or to 
look at these jihadist web sites.
    Mr. Wolf. Would it not make sense to take down al-Awlaki's 
site. He is preaching hate. Major Hasan was radicalized by 
that. We have 13 people who were killed. His name has come up 
in other cases. Would it not make sense in that case to take 
that site down? Because the 13 families who will never have a 
loved one return to the house, and we know what he is preaching 
now. I think he has crossed the line. Would it not make sense 
to take al-Awlaki's site down?
    Attorney General Holder. We try to do what we can with the 
tools that we have. And cyberspace is huge. And if you try to 
knock down a site here, people pop up over there. And so what 
we are trying to do is come up with ways in which we are 
identifying those sites that are problematic, trying to counter 
the message that you see on those sites and then take physical 
action where we can.
    Mr. Wolf. Well, my sense is from talking to people, there 
are ways of taking his site down. They could perhaps go back up 
again, but there are different degrees. But certainly the 
hatred that he has been spewing and the death that we have seen 
as a result of that, I think the administration should take 
down the site. I know that some are going to say that we gain 
information from it, but that would make it very difficult to 
meet with the families of the 13 who would say that he was 
radicalized through that site.

            EQUIPPING FEDERAL AGENTS WITH WEAPONS IN MEXICO

    The last issue before I go to Mr. Fattah and Mr. Schiff, 
are you considering having our law enforcement people carry 
weapons in Mexico in light the attack on two U.S. Immigration 
and Customs Enforcement agents on February 15th.
    Attorney General Holder. I think we have to consider----
    Mr. Wolf. I saw you at the funeral if my memory serves me.
    Attorney General Holder. Yes. I went to Texas. We have to 
take into consideration everything so that our people are 
protected while they are doing the great work that they do. And 
that is one of the things that I think we have to look at and 
talk to the Mexican government about.
    Mr. Wolf. So that is under consideration?
    Attorney General Holder. It is something I am certainly 
considering, and I want to hear from the people who are there. 
We have to protect our people. And the information that Mr. 
Fattah shared about the guns that were used in the death of ICE 
Agent Zapata is of great concern. So we have to make sure that 
those kinds of incidents are not repeated. And to the extent 
that that involves the potential arming of them, I think that 
is something we have to consider.
    Mr. Wolf. Do our DEA people in Colombia carry weapons?
    Attorney General Holder. I am not sure about that. I am not 
sure. I think they do, but I am not sure about that. I don't 
want to answer the question not being sure.
    Mr. Wolf. And I assume if they did, that would be because 
of the permission of the Colombian government.
    Attorney General Holder. Right.
    Mr. Wolf. So that is the determining factor--whether or not 
the government of Mexico permits?
    Attorney General Holder. It is something we would have to 
work with the Mexican government to try to address. What 
happened, what tragically happened two weeks ago--I think 
potentially has changed the factual situation that we have to 
confront and may require a different policy.

                      DEA--COLOMBIA BEST PRACTICES

    Mr. Wolf. Have you looked at the success in the Colombian 
situation, the DEA and try to replicate that in the country of 
Mexico? Are there any similarities that this was successful 
because of this, this and this? And therefore, if we applied 
it, because 34,000 or 35,000 individuals have been killed in 
Mexico, and I am sure every family down there lives in fear. 
Have you--has anyone looked at what was done in Colombia with 
regard to the DEA and the comparable training and different 
things like that?
    Attorney General Holder. Yes, we have. In fact, that is one 
of the templates that we try to use, given the success we 
encountered over a long period of time, and it was not easy. 
But given the success that we ultimately achieved in Colombia, 
we have tried to see if there are lessons that we learned there 
that we can apply in Mexico. We have tried to do that through a 
variety of means, through the way in which we deployed our 
people through the Merida initiative and the ways in which aid 
goes to Mexico. We have talked about and we have examined and 
shared with our Mexican counterparts what occurred in Colombia.
    Mr. Wolf. Have there been any meetings between DEA and 
Mexico and Colombia, perhaps down in Colombia to show what was 
done and what worked and what didn't work?
    Attorney General Holder. I am not sure if there had been 
meetings in Colombia, but I know that certainly the lessons 
that we learned and the experiences that we had in Colombia, 
certainly have been shared with our Mexican counterparts. There 
have been briefings in that regard of which I am aware.
    Mr. Wolf. Mr. Fattah.
    Mr. Fattah. I am going to yield to Congressman Schiff.
    Mr. Schiff. Thank you, Mr. Chairman.

                       VOTING RIGHTS ENFORCEMENT

    I didn't want to interrupt earlier in the discussion of the 
New Black Panther issue, but I did want to make a brief comment 
on it. And I will be economical in my comments. I know it has 
been a long morning for you. But having spent part of this 
weekend visiting the Martin Luther King Museum in Atlanta, I am 
struck by the incongruous nature of this whole discussion.
    One of the things I found most kind of shocking about the 
exhibits I saw there was the long list of laws in the 50 States 
that were discriminating against Americans based on their 
ethnicity, denying them their ability to vote, denying them 
their ability to enjoy all the other attributes of citizenship. 
And to look at that history and then consider the discussion we 
have been having to me seems a little shocking in its 
disproportionality.
    It seems to me the commission investigation has been highly 
politicized, and my colleague, Mr. Fattah, read the vice 
chair's statements. I also would like to read briefly from a 
couple of the other commissioners, Arlan Melendez and Michael 
Yaki and ask that their statement also be included in the 
record.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259A.019
    
    [GRAPHIC] [TIFF OMITTED] T7259A.020
    
    [GRAPHIC] [TIFF OMITTED] T7259A.021
    
    [GRAPHIC] [TIFF OMITTED] T7259A.022
    
    [GRAPHIC] [TIFF OMITTED] T7259A.023
    
    [GRAPHIC] [TIFF OMITTED] T7259A.024
    
    [GRAPHIC] [TIFF OMITTED] T7259A.025
    
    [GRAPHIC] [TIFF OMITTED] T7259A.026
    
    [GRAPHIC] [TIFF OMITTED] T7259A.027
    
    [GRAPHIC] [TIFF OMITTED] T7259A.028
    
    [GRAPHIC] [TIFF OMITTED] T7259A.029
    
    [GRAPHIC] [TIFF OMITTED] T7259A.030
    
    [GRAPHIC] [TIFF OMITTED] T7259A.031
    
    [GRAPHIC] [TIFF OMITTED] T7259A.032
    
    [GRAPHIC] [TIFF OMITTED] T7259A.033
    
    [GRAPHIC] [TIFF OMITTED] T7259A.034
    
    [GRAPHIC] [TIFF OMITTED] T7259A.035
    
    [GRAPHIC] [TIFF OMITTED] T7259A.036
    
    [GRAPHIC] [TIFF OMITTED] T7259A.037
    
    [GRAPHIC] [TIFF OMITTED] T7259A.038
    
    [GRAPHIC] [TIFF OMITTED] T7259A.039
    
    [GRAPHIC] [TIFF OMITTED] T7259A.040
    
    [GRAPHIC] [TIFF OMITTED] T7259A.041
    
    Mr. Schiff. They introduced their dissenting opinion by 
saying the commission's investigation into and this report 
concerning the New Black Panther Party has been a tremendous 
waste of scarce government resources. They wasted our own 
resources at the commission and those at the Department of 
Justice as well. In addition to squandering time, money and 
attention, the majority has further squandered the reputation 
of the U.S. Commission on Civil Rights as it has spent more 
than a year on an Ahab-like quest to hobble the Obama 
administration and to attempt to rehabilitate the disgraced 
record of the previous administration's Department of Justice.
    That record they are referring to, the previous 
administration, included findings by the Office of Inspector 
General that under Mr. Schlozman, the Civil Rights Division had 
been highly politicized with career attorneys being replaced 
with people of ideological pedigrees rather than people of 
experience. In fact, the OIG found that people were hired with 
no background in civil rights, with no experience in it or in 
prosecuting cases for that matter and with no interest in it.
    And I am very proud of how that Department has been turned 
around in this administration. And the claim that the 
Department now is going to intervene in some way on behalf of a 
racist hate group because it is a black supremacist group 
instead of a white supremacist group strikes me as beyond 
credulity. In any event, I think the Department has been a sea 
change for the better, and I wish you continued sailing in the 
right direction.

                            MIRANDA DECISION

    One of the issues I wanted to raise with you involves 
Miranda and the intersection between criminal law and the 
national security environment. And I wanted to ask you, 
obviously, the Miranda decision is one of constitutional import 
that we have only a limited ability to influence. It is the 
court-drafted doctrine. Do you think it would be useful for the 
Congress to set out its understanding of how broadly the public 
safety exception to Miranda should be interpreted? Would it be 
useful in a Department's advocacy before the court to be able 
to point to the Congress believes that this ought to be 
interpreted broadly, as not only protecting a police officer in 
a grocery store, like in Quarles, but also protecting citizens 
in New York City in the event that there was a bomb in a 
vehicle or even that it also extends to vital emergency 
information that may be acquired that can protect the lives of 
troops out in the field? Would it be useful in should the case 
arise where you would have to argue about how soon Miranda was 
given for the Congress to weigh in and express its view that it 
should be interpreted broadly?
    Attorney General Holder. You are right, Miranda is of 
constitutional dimension, and ultimately it would have to be 
the courts that would have to decide in a particular case 
whether the government had exceeded what it is allowed to do 
under the public safety exception to the Miranda rule.
    I think that an expression by Congress, however, about its 
view of what the Miranda limits are, given the nature of the 
threat that we face and the need to use the public safety 
exception for interrogation purposes and, as you say, dealing 
with this new threat. And it is not a grocery store robbery. It 
is a question of you know, Abdulmutallab, are there other 
planes that have other people with bombs on them. Given the 
nature of the threat, I think an expression by Congress is 
something that Congress might consider, and I think that would 
be useful for the courts to have but obviously has to be put 
before Congress to decide.
    Mr. Schiff. Let me ask you one related question and that is 
in my view something that may be of more significant import in 
this context than Miranda matters, the presentment requirement, 
the requirement to bring a suspect before a magistrate within 
so many hours. I know there is disagreement in this 
subcommittee and indeed in the Intelligence Committee where I 
serve about in what circumstances someone should be Mirandized 
at all or somebody should be processed through the criminal 
justice system as opposed to the military tribals. But there 
are going to be cases I think that we can all agree that are 
going to be handled in the criminal justice system.
    You know, a future Timothy McVeigh situation is more likely 
to be handled in the criminal courts than in Gitmo or in a brig 
somewhere. Given the fact that some terrorism cases are going 
to be handled criminally, would it be useful for the Congress 
to revisit the kind of rigid requirements that are present in 
the clause and provide that in terrorism cases, there is a 
longer period of time; if the Attorney General or your 
designate certifies certain requirements are met, that you can 
make an ex parte application of the court to get a greater 
period of time before you are required to present a suspect to 
a magistrate?
    Attorney General Holder. That is an issue that I think is 
worthy of examination. I would be reluctant to say that we 
commit ourselves to one course of action or another, but it is 
something that I think we can look at and see whether or not 
there is a way in which we can have something that is 
consistent with our values, consistent with the constitutional 
obligations that we have, that makes us more effective in the 
fight against terrorism. But, again, given the tools that we 
now have, and restrictions we have with regard to Miranda and 
the presentment time period, we have done a pretty good job, as 
you correctly say, in dealing with those who have been brought 
into the criminal justice system.
    Military commissions cannot handle cases involving American 
citizens. And what we have seen over the last 12 and 18 months 
are increasing numbers of American citizens who are engaged in 
these terrorist activities. Those will have to go into the 
criminal justice system, and I think we have to make sure that 
the system is capable of handling those kinds of cases.

                         INTELLECTUAL PROPERTY

    Mr. Schiff. I look forward to working with you on that. And 
let me turn to a couple other quick areas. One is of deep 
interest to my constituents. And that is intellectual property. 
I have a lot of the studios and post-production, preproduction 
work in my district, and we lose countless, tens of thousands 
of jobs as a result of IP theft. This subcommittee over the 
last several years has increased the budget for the FBI to 
bring on new agents to work on IP cases. I think over the last 
couple of cycles, we have added about 50 agents in this area.
    One of the internal analyses, though, indicated that there 
is a DOJ study that although there was a substantial increase 
in the number of agents devoted, there wasn't a substantial 
increase in the number of hours that the FBI was devoting. In 
other words, there was more manpower; same amount of hours 
being devoted to the problem. And I think the FBI responded in 
part that they needed time to train these new agents. But at 
the same time, it also pointed to the fact that these IP 
dedicated agents were sometimes being used for other 
investigations. That is a concern given that this was really a 
focus of why these slots were funded. And I would ask you if 
you could look into this. I don't know if you have anything you 
would like to comment today, but given the magnitude of our 
economic challenges right now, this is an opportunity to crack 
down on the loss of American jobs and intellectual property.
    Attorney General Holder. I think that is right. This is a 
priority. The Vice President is leading the task force. DHS is 
involved. The Justice Department is involved. Victoria Espinel 
at the White House is involved. And this whole question of the 
theft of intellectual property is something that I went to and 
gave a speech about in Hong Kong. I went to China to talk to 
the Chinese officials there about the concerns we have about 
what is happening in China. We have in the budget request from 
fiscal years 2009 and 2010, 51 agent positions in the FBI that 
were supposed to be dedicated strictly to IP enforcement.
    [The information follows:]

    Manpower and Work at FBI Regarding Intellectual Property Rights

    Through prior year appropriations, the FBI has received agents for 
the purpose of investigating cases involving Intellectual Property (IP) 
Rights. While some of the previously reported numbers have shown fewer 
agents working cases than appropriated, as Congressman Schiff noted, it 
did take some time to hire and train the agents. The FBI measures 
Special Agents dedicated to a program by counting agent work-years, the 
equivalent of one agent working full time for an entire year on one 
particular program or case classification. The FBI is now utilizing 50 
Special Agents in support of IP investigations. This includes 45 field 
agents utilized in support of IP investigations and an additional five 
agents assigned to the National Intellectual Property Rights 
Coordination Center. Additionally, the FBI is taking measures to ensure 
the appropriate use of PRO-IP Act resources by providing guidance to 
all field offices detailing the importance of IP matters.

    And I think that given the job-killing capacity or impact 
that this IP theft has it is wrong, it breaks the law, but 
there are also economic consequences to it--for that reason, I 
think it is a very legitimate concern. And it is a reason for 
us to prioritize this. It is what occasioned my trip to Hong 
Kong, to China and occasioned the Administration to set up a 
task force that is led by the Vice President.
    Mr. Schiff. If you could take a look into the use of these 
agents to make sure that if they haven't been dedicated to IP, 
that they focus on IP. I think that would be welcomed.
    ICE has been very aggressive in this area, and I want to 
applaud what they are doing. I know they are getting some 
pushback. I know they have been actively involved in seizing 
the domains of web sites that are responsible for a 
disproportionate amount of the trafficking. I raise this 
because I don't want the Department of Justice to be 
discouraged from undertaking similarly aggressive action 
against pirates--I am not talking about the Somali variety, 
although I agree with that as well--by the pushback that ICE is 
getting, because there are many of us who completely support 
what ICE is doing and would love to see the Department of 
Justice equally aggressive in these actions.

                              PROJECT HOPE

    Finally, I know you are familiar with Project HOPE out of 
Hawaii. This is the effort Judge Steven Alm is using, employing 
graduated sanctions to try to attack recidivism and have been 
very successful at it. I know there is a grant program, the 
SMART Probation Program in your budget, $7 million. And I 
wanted to see whether Project HOPE and similar efforts like 
that are the kind of thing you are contemplating with this 
SMART Probation effort.
    Attorney General Holder. Yes, it is. I am familiar with 
Project HOPE. I know Judge Alm from the time we served together 
as U.S. Attorneys. He actually came, all the way from the State 
of Hawaii, here to Washington to share with me what he is 
doing. It is very impressive. And those are the kinds of things 
that we are trying to replicate. This whole notion of graduated 
sanctions really has made more effective the probation efforts 
that they have there, and those are the kinds of things that we 
want to try to replicate.
    Mr. Schiff. I think in this case--I know the chairman has 
worked on it for many years--to the degree the Justice 
Department can help pilot and lead some of the most effective 
attacks on recidivism, it not only is better for society, but a 
lot of the States like my own have such phenomenal budget 
problems in part because their corrections costs are going 
through the roof and have for the last two decades. And I think 
part of putting our economy, both nationally and at the State 
level, back on a sustainable trajectory is trying to figure out 
a better way to deal with corrections and deal with recidivism 
and deal with public safety generally, because what we are 
doing now just hasn't worked when you look at how many people 
leave custody and then go back in. It has now become the 
exception rather than the rule, people not recidivating.
    And I thank you for the time, Mr. Chairman. I yield back.
    Mr. Wolf. Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman.
    I will ask my last question for the record.

                         10TH AMENDMENT ISSUES

    There was a recent Supreme Court case in which some 
challenge has been made to utilizing the 10th Amendment. It is 
a Pennsylvania case arguing that Federal arrests in a 
particular case may fall outside the scope of what would be 
constitutional given the 10th Amendment prohibitions to Federal 
action. I know there has been a lot of discussion on the 10th 
Amendment in health care. If you could furnish the committee 
with what it would mean if the court decides that people can 
raise these 10th Amendment issues in criminal cases, how that 
would affect ongoing issues and even cases that may have 
already been decided.
    I know it is a hypothetical, but given some of the comments 
from some of the Justices, I think it is at least a reasonable 
question to ask about what effect this could have if there is a 
ruling that allows 10th amendment issues to be raised, such as 
Federal prosecutions of criminals.
    Attorney General Holder. We will formulate a response to 
that.
    [The information follows:]

              Tenth Amendment in Federal Prosecution Cases

    In Bond v. United States, No. 09-1227, petition for cert. granted 
October 12, 2010, the defendant argued that Congress exceeded its 
Article I authority and violated the Tenth Amendment in enacting the 
chemical weapons statute (18 U.S.C. 229) under which she was convicted. 
In his Supreme Court merits brief, the Acting Solicitor General agreed 
that defendant Bond had standing to raise her enumerated-powers claim, 
argued that her Tenth Amendment argument was the mirror image of her 
enumerated-powers claim, and noted that federal defendants regularly 
contend that Congress has exceeded its enumerated powers in enacting 
the statutes under which they are convicted. Because the courts of 
appeals have regularly decided these challenges, if the Supreme Court 
confirms that defendants have standing to raise enumerated-powers and 
parallel Tenth Amendment challenges to their convictions, we do not 
expect the decision to have a significant effect on federal criminal 
prosecutions.

    Mr. Wolf. Thank you.

                         KHALID SHEIKH MOHAMMED

    I have one last question. On several occasions, maybe two 
or maybe three, when asked about Khalid Sheikh Mohammed, you 
said decisions would be made within a week. It think it was 
within several weeks I think is the exact term. I think you 
said that about a year ago, and I think you said it again in 
the middle of the year, and I don't know if you said it again. 
I think you did. What is the status and what are your plans for 
Khalid Sheikh Mohammed?
    Attorney General Holder. Obviously, I cannot predict timing 
very well. That is a matter that is under active review. We are 
trying to work our way through that, given a whole variety of 
things, among them the congressional restrictions that were put 
in place under the defense authorization bill and that are 
being considered with regard to the continuing resolution. And 
so we are working our way through that. And as soon as we have 
an ability to announce the decision, we are going to do so. I 
am not going to get into the business anymore of trying to 
predict time.
    Mr. Wolf. I was going to say, do you think it will be in a 
few weeks, but I won't.
    Attorney General Holder. My record in that regard is not a 
good one. So I am not going to add to it.
    Mr. Wolf. Anyway, we appreciate your testimony. And with 
that, the hearing is adjourned.

[GRAPHIC] [TIFF OMITTED] T7259A.042

[GRAPHIC] [TIFF OMITTED] T7259A.043

[GRAPHIC] [TIFF OMITTED] T7259A.044

[GRAPHIC] [TIFF OMITTED] T7259A.045

[GRAPHIC] [TIFF OMITTED] T7259A.046

[GRAPHIC] [TIFF OMITTED] T7259A.047

[GRAPHIC] [TIFF OMITTED] T7259A.048

[GRAPHIC] [TIFF OMITTED] T7259A.049

[GRAPHIC] [TIFF OMITTED] T7259A.050

[GRAPHIC] [TIFF OMITTED] T7259A.051

[GRAPHIC] [TIFF OMITTED] T7259A.052

[GRAPHIC] [TIFF OMITTED] T7259A.053

[GRAPHIC] [TIFF OMITTED] T7259A.054

[GRAPHIC] [TIFF OMITTED] T7259A.055

[GRAPHIC] [TIFF OMITTED] T7259A.056

[GRAPHIC] [TIFF OMITTED] T7259A.057

[GRAPHIC] [TIFF OMITTED] T7259A.058

[GRAPHIC] [TIFF OMITTED] T7259A.059

[GRAPHIC] [TIFF OMITTED] T7259A.060

[GRAPHIC] [TIFF OMITTED] T7259A.061

[GRAPHIC] [TIFF OMITTED] T7259A.062

[GRAPHIC] [TIFF OMITTED] T7259A.063

[GRAPHIC] [TIFF OMITTED] T7259A.064

[GRAPHIC] [TIFF OMITTED] T7259A.065

[GRAPHIC] [TIFF OMITTED] T7259A.066

[GRAPHIC] [TIFF OMITTED] T7259A.067

[GRAPHIC] [TIFF OMITTED] T7259A.068

[GRAPHIC] [TIFF OMITTED] T7259A.069

[GRAPHIC] [TIFF OMITTED] T7259A.070

[GRAPHIC] [TIFF OMITTED] T7259A.071

[GRAPHIC] [TIFF OMITTED] T7259A.072

[GRAPHIC] [TIFF OMITTED] T7259A.073

[GRAPHIC] [TIFF OMITTED] T7259A.074

[GRAPHIC] [TIFF OMITTED] T7259A.075

[GRAPHIC] [TIFF OMITTED] T7259A.076

[GRAPHIC] [TIFF OMITTED] T7259A.077

[GRAPHIC] [TIFF OMITTED] T7259A.078

[GRAPHIC] [TIFF OMITTED] T7259A.079

[GRAPHIC] [TIFF OMITTED] T7259A.080

[GRAPHIC] [TIFF OMITTED] T7259A.081

[GRAPHIC] [TIFF OMITTED] T7259A.082

[GRAPHIC] [TIFF OMITTED] T7259A.083

[GRAPHIC] [TIFF OMITTED] T7259A.084

[GRAPHIC] [TIFF OMITTED] T7259A.085

[GRAPHIC] [TIFF OMITTED] T7259A.086

[GRAPHIC] [TIFF OMITTED] T7259A.087

[GRAPHIC] [TIFF OMITTED] T7259A.088

                                          Wednesday, April 6, 2011.

                    FEDERAL BUREAU OF INVESTIGATION

                                WITNESS

ROBERT S. MUELLER, III, DIRECTOR, FEDERAL BUREAU OF INVESTIGATION
    Mr. Wolf. Good morning. The hearing will come to order.
    Director Mueller, you are here this morning to testify 
regarding the fiscal year 2012 budget request for the Federal 
Bureau of Investigation.
    As you are coming before the committee perhaps for the last 
time as director, I would like to take this opportunity to 
personally express our deep appreciation for your outstanding 
service over the last ten years.
    You took over as director immediately before 9/11 and since 
that time, I think you have done a magnificent job of guiding 
the FBI into the new and expanded role at the forefront of 
protecting the Nation from further terrorist attacks. There is 
no doubt in my mind that you will be remembered as one of the 
finest directors in the history of the FBI.
    As we understand, your ten-year term will expire in early 
September of this year. I personally wish you could stay on. 
But, again, we acknowledge and congratulate you on your 
outstanding record. We thank you.
    I want to thank you and your family, because of the time 
away from your family for your service. I wish you the best as 
you move on to new challenges. The Nation owes you and owes all 
the men and all the women of the FBI a debt of gratitude for 
their tireless efforts over these very difficult ten years.
    For 2012, you are seeking an appropriation of $8.1 billion, 
an increase of $177 million or 2.2 percent.
    I look forward to your testimony on the new increases you 
are seeking as well as on the FBI's continuing transformation 
activities to fulfill its role as the key domestic 
counterterrorism and intelligence agency.
    This year, you have been operating under a series of 
Continuing Resolutions. The FBI along with the rest of the 
department is under a funding freeze and a hiring freeze.
    I would like to hear how you are managing under these 
circumstances and what effects they are having on your 
operation.
    Your request for fiscal year 2012 includes a number of 
important increases in the areas of national security, computer 
intrusion, surveillance, and weapons of mass destruction. The 
committee will be interested in hearing about the details of 
these increases and obviously we will have a number of 
questions.
    We should all be clear, though, on the overall fiscal 
climate in which we are operating. The debate we are having in 
the House on the spending reflect a realization that our 
country must reduce spending and significantly scale back our 
deficits and debt in order to get our economy back on the right 
track.
    The FBI's mission is certainly among, I believe, the most 
important activities that this subcommittee funds, but we will 
need your assistance in finding ways to economize as we mark up 
for next year's budget.
    Before you proceed, I want to recognize my friend, my 
colleague, Mr. Fattah, for any opening statement.
    Mr. Fattah. Thank you.
    Let me join in the chairman's remarks that you have had an 
extraordinary tenure as director of the FBI, I think 
unparalleled to any other director's service. And part of that 
is because of the time in which you served.
    Post 9/11, our country has faced very significant 
challenges and the FBI has undergone extraordinary change from 
an agency focused on apprehending criminals domestically to now 
a very significant role in national security and protecting the 
country against terrorist threats.
    And we have had a remarkable period in which even though 
these threats have been real, the FBI really has been at the 
forefront of protecting Americans and in dealing with this very 
new responsibility, at least in terms of the scope and breadth 
of it and the threats that face the country.
    So I want to thank you for your service. We know that there 
is a point in time at which you will be moving to your next 
act. But in terms of our country, we want to thank you for your 
service and welcome you. I look forward to your testimony.
    Mr. Wolf. Thank you, Mr. Fattah.
    Your full statement will appear in the record. Proceed as 
you see appropriate.

                      Director's Opening Statement

    Mr. Mueller. Thank you, Mr. Chairman.
    Chairman Wolf and Ranking Member Fattah, thank you for 
having me here today, but thank you also for your generous 
remarks and comments. I appreciate them as does the Bureau.
    Today the FBI faces unprecedented and increasingly complex 
challenges. We must identify and stop terrorists before they 
launch attacks against our citizens and we must protect our 
government, businesses, and critical infrastructure from 
espionage and from the potentially devastating impact of cyber-
based attacks.
    We must root out public corruption, fight white collar and 
organized crime, stop child predators, and protect civil 
rights. We must also ensure we are building a structure that 
will carry the FBI into the future by continuing to enhance our 
intelligence capabilities, improve our business practices and 
training, and develop the next generation of Bureau leaders.
    And we must do all of this while respecting the authority 
given to us under the Constitution, upholding civil liberties 
and the rule of law. And we must also do this in uncertain 
fiscal times.
    The challenges of carrying out this mission have never been 
greater, as the FBI has never faced a more complex threat 
environment than it does today. Over the past year, the FBI has 
faced an extraordinary range of threats from terrorism, 
espionage, cyber attacks, and traditional crime. And let me 
just for a few moments discuss several examples.
    Last October, there were attempted bombings on air cargo 
flights bound for the United States from Yemen and directed by 
al-Qaeda in the Arabian Peninsula.
    Last May, there was the attempted car bombing in Times 
Square aided by TTP in Pakistan and these attempted attacks 
demonstrate how al-Qaeda and its affiliates still have the 
intent to strike inside the United States.
    In addition, there were a number of serious terror plots by 
lone offenders. Their targets ranged from a Martin Luther King 
Day march in Spokane, Washington, to a Christmas tree lighting 
ceremony in Portland, Oregon, to subway stations in the 
Washington, D.C. Metro system. The motives and the methods for 
these plots were varied, making these among the most difficult 
threats to combat.
    The espionage threat persisted as well. Last summer, there 
were the arrests of ten Russian spies known as illegals who 
secretly blended into American society in order to 
clandestinely gather information for Russia. And we continue to 
make significant arrests for economic espionage as foreign 
interests seek to steal controlled technologies.
    The cyber intrusion at Google last year highlighted the 
potential danger from a sophisticated internet attack and along 
with countless other cyber incidents, these attacks threaten to 
undermine the integrity of the internet and to victimize the 
businesses and persons who rely on it.
    Lastly, in our criminal investigations, we continue to 
uncover billion dollar corporate and mortgage frauds that 
weaken the financial system and victimize investors, 
homeowners, and ultimately taxpayers.
    We also exposed healthcare scams involving false billings 
and fake treatments that endangered patients and fleeced 
government healthcare programs.
    I should mention the extreme violence across our southwest 
border, which continues to impact the United States as we saw 
with the murders last March of American consulate workers in 
Juarez, Mexico, and the shooting last month of two Immigration 
and Customs Enforcement agents in Mexico.
    Throughout the year, there were numerous corruption cases 
that undermined the public trust and countless violent gang 
cases that continue to take innocent lives and endanger our 
communities.
    And as these examples demonstrate, the FBI's mission to 
protect the American people has never been broader and the 
demands on the FBI have never been greater. To carry out these 
responsibilities, we need Congress' continued support more than 
ever.
    The support from this committee and the Congress has been 
an important part of the ongoing transformation of the FBI. A 
key element of this transformation has been the ability to 
recruit, hire, train and develop the best and the brightest 
agents, analysts, and staff to meet the complex threats we face 
now and in the future and the ability to put in place the 
information technology and infrastructure needed to perform 
every-day work.
    I am concerned that our momentum built over the past 
several years with your support is going to be adversely 
affected due to the constrained fiscal environment.
    The FBI strives to be a good steward of the funds Congress 
provides and we continually look for cost-saving initiatives 
and better business practices to make us more efficient.
    However, addressing the major threats and crime problems 
facing our Nation requires investments that cannot be offset by 
savings alone. If funded for the remainder of fiscal year 2011 
at prior year levels, the FBI will have to absorb over $200 
million in operating requirements and will have over 1,100 
vacant positions by the end of the year.
    The fiscal year 2012 budget that we are discussing today 
would actually provide a lower level of resources than the 
fiscal year 2011 request submitted last year and will leave 
unaddressed gaps in our investigative and intelligence 
capabilities and capacities in all programs.
    I do note that the proposed Continuing Resolution that is 
currently being discussed would fully fund the Department of 
Defense while all other agencies would be extended for a period 
of time.
    I ask that you consider fully funding the FBI in the CR. I 
have raised this with numerous persons up on The Hill. I can 
only say that under the proposed CR, the FBI would be the only 
major partner in the Intelligence Community that is not fully 
funded. And while our Intelligence Community partners would be 
able to proceed with planned initiatives and programs, the 
Bureau could not.
    Approximately 58 percent of the Bureau's budget is scored 
under the defense-related budget function. Today FBI special 
agents, intelligence analysts, and professional staff stand 
side by side with the military in Afghanistan and elsewhere, 
working together to keep our country and our citizens safe from 
attack.
    Full funding of the FBI--for which both the House and the 
Senate were in agreement on their respective marks--would 
enable these critical dependencies and collaboration to 
continue without interruption.
    Lastly, we simply cannot afford to return to the pre-9/11 
days where hiring and staffing in the FBI was a roller coaster 
that left most field offices under-staffed to deal with the 
terrorist and other threats we faced nor can we afford to 
return to the pre-9/11 days where funding uncertainty led to a 
degradation of the FBI's physical and information technology 
infrastructure, which contributed to shortcomings in our 
capabilities.
    I again thank you for the opportunity to discuss these 
issues with you today, particularly discussing the FBI's fiscal 
year 2012 budget request.
    Let me finish by thanking this committee, Mr. Chairman and 
Congressman Fattah, for your continued support on behalf of the 
FBI but most particularly on behalf of the men and women who 
make up the FBI. We appreciate the support you have given over 
the years and look forward to that continuing support.
    Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259A.089
    
    [GRAPHIC] [TIFF OMITTED] T7259A.090
    
    [GRAPHIC] [TIFF OMITTED] T7259A.091
    
    [GRAPHIC] [TIFF OMITTED] T7259A.092
    
    [GRAPHIC] [TIFF OMITTED] T7259A.093
    
    [GRAPHIC] [TIFF OMITTED] T7259A.094
    
    [GRAPHIC] [TIFF OMITTED] T7259A.095
    
    [GRAPHIC] [TIFF OMITTED] T7259A.096
    
    [GRAPHIC] [TIFF OMITTED] T7259A.097
    
    Mr. Wolf. Thank you, Mr. Director.
    With the markup on the CR, we directed the staff to make 
sure that if there is one agency that was protected, it was the 
FBI. And we will continue to do anything we possibly can to 
make sure that continues.
    Mr. Mueller. I appreciate that.

                    KILLINGS ON THE SOUTHWEST BORDER

    Mr. Wolf. And also before I get into the--we have a lot of 
questions--there was a killing yesterday I saw where two 
Americans----
    Mr. Mueller. Yes.
    Mr. Wolf [continuing]. Were coming across the border. Do 
you know much about that? Can you tell us----
    Mr. Mueller. It is still under investigation. We are still 
investigating the circumstances, so we are not certain. There 
are varying motives that need further investigation before we 
could comment on the circumstances of that particular killing.
    Mr. Wolf. But they were American citizens, correct?
    Mr. Mueller. They were. And my belief is it was south of 
Tijuana.
    Mr. Wolf. They were in line at the border crossing?
    Mr. Mueller. I believe that to be the case, and they were 
American citizens.
    Mr. Wolf. You have presided over one of the most sweeping 
organizational changes probably in the history of our 
government and a change that had to be immediately responsive 
to an absolutely critical national need, preventing further 
terrorist attacks.

                 ASSESSMENT OF THE FBI'S TRANSFORMATION

    Your testimony focused mainly on current programs and 
requirements, but I would like to ask you to step back. Give us 
an assessment and accounting of the FBI's transformation under 
your watch.
    What has been the success and what needs more work?
    Mr. Mueller. Well, let me start with what I believe has 
contributed to the change in the Bureau. In the wake of 
September 11th, one of the principal steps that we took in my 
mind was prioritizing, and I mean really prioritizing. We 
identified the ten major priorities in terms of programs and 
ensured everybody understoods that our success was dependent on 
working with state and local law enforcement and everybody in 
the organization had to become proficient with technology.
    The prioritization required we immediately move 2,000 
agents from criminal programs to counterterrorism, our number 
one priority. And then the number two priority is 
counterintelligence, third is cyber.
    And we have gone back and looked at those national security 
priorities and the criminal priorities each year, and believe 
that we have set up a structure so that the funding and the 
increased personnel goes to those priorities. And that was 
tremendously important.
    I think the other substantial pillar of the change has been 
understanding that we had to develop the intelligence capacity 
to prevent not only terrorist attacks but gang activity and 
espionage before the acts occurred. And that is somewhat 
different than utilizing our investigative tools for 
investigating an incident after it happens.
    In developing those tools, and developing those tools 
within the Constitution and the applicable statutes, bringing 
on 2,000 additional analysts and changing the way we think 
about approaching the threats that we face in the future with 
the advent of the intelligence program was the second pillar of 
growth. What needs to continue, is build up that intelligence 
capacity and capability.
    In the future, I look at threats. I think the 
counterterrorism threat will remain there, certainly the theft 
of secrets threat will remain but what will be increasingly 
important is to become adept at responding to threats in the 
cyber arena and building up the intelligence capacity to 
address that cyber threat which requires human resources. But 
also the technical savvy and expertise will be a challenge for 
the next several years.
    Mr. Wolf. Have any of the areas such as organized crime, 
sex trafficking, different areas like that been neglected--I 
mean, if you look at it knowing you had to prioritize but 
knowing when you prioritize there are some things you would 
like to do, you cannot do, what has been--maybe the word 
neglect is not the best word--what has been pushed behind that 
you would have liked to have kept forward?
    Mr. Mueller. One of the hard decisions we as an 
organization had to make in the wake of September 11th is where 
do we move 2,000 agents from? Ultimately, we took them from the 
drug program as well as from smaller white collar criminal 
cases.
    And in each case, we sought to work with other federal 
agencies, like DEA, to pick up where we had left off, and when 
it came to smaller white collar crimes we had to work with 
local district attorneys and state's attorneys general to cover 
that. And those are the areas that we had to draw the resources 
from initially.
    When it comes to gang activity and violent crime, I was 
firmly of the belief that we needed to enhance our efforts in 
these particular areas because of the devastating impact on the 
communities which are affected by these type of activities.
    Particularly, having prosecuted homicide cases here in the 
District, I became familiar with the adverse impact of violent 
crime on our communities. And so we have built up. We have way 
over 100 gang task forces around the country. That has been a 
priority.
    We have not had a backfill of the 2,000 agents that we 
moved from the criminal programs to the national security 
programs, but I think we have done a better job prioritizing 
our criminal programs and focusing on those areas where there 
is a substantial need for the Bureau to operate.
    Mr. Wolf. I guess today coming in, they had a report out 
that drug use among high school students is going up. We are 
not going to say that is because the FBI or someone has taken 
their eye off the target, but, I mean, it has gone up.
    People living in inner cities are impacted by gang violence 
almost to the degree that it would be a terrorist attack 
equivalent. I saw the headlines the other day in one of the 
local papers, I think in Prince George's County, the number of 
deaths have been going up.
    If you are living in the inner city, living in a 
neighborhood that is impacted by whether it be MS-13 or 
whatever, that is an act of terrorism for you, particularly if 
you have children and you are worried about them.
    We have even seen in my congressional district MS-13 as you 
know. So that is not meant as any criticism, because God bless 
you all. Your men and women. And you have been focused on the 
number one issue.
    But do you think there has been as a result of the fact 
that this has been such a priority for the Nation, that maybe 
perhaps areas of drug use and drug violence and gang violence 
have been able to get out of control a little bit?
    Mr. Mueller. I am not familiar with the latest figures on 
usage by, what is it, high school students?
    Mr. Wolf. It was high school students.
    Mr. Mueller. High school students. I know that it 
fluctuated some. It had gone down for a period of time. I had 
not realized it had gone up.
    Mr. Wolf. It was in today's paper.
    Mr. Mueller. As we both know and understand, gang activity 
has increased over the years and not just within the United 
States.
    I know you are very familiar with MS-13, a gang that 
originated in Los Angeles, spread throughout the United States, 
and now is an international operation involving not just the 
United States, but El Salvador, since it originated there, 
Guatemala, Honduras, and Mexico.
    It has grown beyond the capabilities of any particular 
localized jurisdiction to become an international problem. That 
is one where we have addressed it with gang task forces around 
the country and also put resources down in El Salvador where we 
work with our counterparts there on fingerprint capabilities. 
We have got agents that are stationed down there that work 
solely on MS-13 and we also work with our counterparts in 
Guatemala, Honduras, and Mexico. But that type of gang activity 
has gone from a neighborhood to a city to a state to the United 
States, and is now international. Our focus now has to be on 
that area where we have unique jurisdictional capabilities and 
addressing those gangs that have spread over the last five to 
ten years, not just domestically but also internationally.
    Mr. Wolf. We were told by DEA that most of the gangs in 
Mexico have operations here in the United States; is that 
correct?
    Mr. Mueller. I believe many of them do, yes.
    Mr. Wolf. And I think the FBI is uniquely set up in such a 
way to deal with that because they go from state to state.
    As you know, we did the northern Virginia task force 
because they were leaving Arlington, going to Fairfax, leaving 
Fairfax, going to Prince William. Same thing holds true, 
leaving Arizona, going to Pennsylvania, leaving Pennsylvania, 
going to Virginia.
    And so I just wonder if at times because if you are living 
in a neighborhood and you are impacted by gang violence, that 
is really an act of terrorism.
    Okay. As we go through the budget, we will certainly look 
at that. You want to say something?
    Mr. Mueller. Well, let me just add one thing. We have 164 
Safe Streets Task Forces, which I am sure has probably doubled 
since September 11th because it has been a focus for us.
    The other thing that I believe that has benefitted us is 
looking across state and FBI jurisdictional lines to have an 
intelligence picture of not just northern Virginia but northern 
Virginia, Washington, D.C., and Maryland. The crooks do not 
care where they commit their activity and, yet, we are divided 
jurisdictionally by states and also by FBI field offices.
    What we have done in terms of developing intelligence 
capability and regional intelligence centers, which still is a 
work in progress, is to have a regional and intelligence focus. 
So if you have a source that is working in D.C., there is no 
reason why that source cannot also be working in northern 
Virginia or Maryland across jurisdictional lines. And that 
will, in my mind, benefit us and our operations and win us a 
much broader picture than perhaps we had had before.

             COUNTERINTELLIGENCE V. CRIMINAL CAREER TRACKS

    Mr. Wolf. Are you disadvantaged in the FBI if you have 
spent most of your time in organized crime or in fighting gangs 
and, therefore, not involved in the counterintelligence area 
and not involved in the terrorism area?
    Is there any career track that is negatively impacted by 
the fact that you have had more time in one than the other? Is 
there any kind of you have to touch the bases to kind of move 
up and move ahead or can you just continue or if you are really 
good fighting gangs, MS-13, et cetera, but you have not had the 
time working with regard to al-Qaeda? Does that hurt you in the 
bureau?
    Mr. Mueller. No, I don't think so, although I think because 
the emphasis in the Bureau prior to September 11th was 
principally on its criminal program----
    Mr. Wolf. Right.
    Mr. Mueller [continuing]. And deservedly so. We still have 
the emphasis on those programs, but there has been the 
consequent emphasis on counterterrorism in the meantime. And 
counterterrorism and the national security branch I think has 
been elevated because of the funding and personnel that have 
gone there.
    But the heart and soul of this organization, and has been 
for 100 years, and the talents and capabilities that enabled us 
to be good criminal investigators, and are the same talents and 
capabilities that enable us to address the other priorities.
    Mr. Wolf. I agree. I am just a little bit concerned, 
though, that if someone is emphasizing gang violence or 
organized crime and they have not spent enough time in 
counterterrorism that there not be a career negative for them, 
that they can still----
    Mr. Mueller. No, I do not think that is the case. And I 
will tell you that some of our best investigators on the 
counterterrorism side have had a tremendous amount of time on 
the criminal side. And----
    Mr. Wolf. But does it go from criminal to counterterrorism 
and al-Qaeda work or do they go from al-Qaeda work, 
counterterrorism to gang work? I mean, are there more coming 
from the criminal area into counterterrorism and fighting 
terrorism or are there more coming from counterterrorism and 
does the road go both ways?
    Mr. Mueller. Well in the past, since September 11th, it has 
gone from the criminal to counterterrorism----
    Mr. Wolf. So----
    Mr. Mueller [continuing]. As we build up the 
counterterrorism.
    Mr. Wolf. So if you look at an agent's career track, it has 
gone from here to there. What I am concerned about is I would 
not want to have it be a negative.
    I mean, it is a criminal, gang, terrorism activity for 
someone who lives in the inner city to be threatened by a gang. 
I mean, the fear, whether it be in Philadelphia and Virginia, 
wherever, to be able to walk your children to the school----
    Mr. Mueller. Yes.
    Mr. Wolf [continuing]. It is fear. But I just would not 
want it to be, and there may be somebody who is so committed, 
dedicated that if you have not punched your card over here for 
some time, that you hurt yourself career wise.
    And if you look at the overall budget, knowing 
administrative costs, but looking at raw expenditures, how much 
of the Bureau's budget is going for counterterrorism and 
counterintelligence versus crime and the traditional FBI work 
before 9/11? Is there a percentage?
    Mr. Mueller. Yes. I would tell you that in September of 
2001, I would say, and these are rough figures, approximately 
7,000 of the agents in the field were working criminal cases 
and 3,000 national security. Now it is approximately 50/50. And 
it has been that way for the last three or four years.
    Now, one of the challenges we face is that we will bring in 
agents who have particular career paths coming in to be cyber 
agents or intelligence agents, criminal agents or 
counterterrorism agents based on their background. And they 
spend some time in a small or medium sized field office where 
you are doing a number of things, but then they, because of the 
necessity to gain expertise in a particular field, may be in 
the field for a period of time.
    But as an agent you rise in the structure, we need people 
who are able to supervise, not just the cyber, but all aspects 
of an office Assistant special agent in charge have to be able 
to supervise. You may have come up in counterterrorism but you 
will have to supervise different programs. So the challenge is 
giving them the training and leadership skills across all of 
the various programs that we have.
    Mr. Wolf. Okay. To leave this subject, but to kind of wrap 
it up, in 2006, the committee had CRS do a review of the 
fundamental strategic objectives and performance measurement 
plans for your intelligence program.
    I personally think the time is right for an updated look by 
outside experts, particularly with you leaving and the great 
job you have done.
    Would you agree to work with the committee in pursuit of a 
quick snapshot updated evaluation of how the FBI is doing in 
the area of foreign intelligence collection and implementation 
of post-9/11 intelligence reforms?
    Mr. Mueller. Certainly I would work with the committee to 
look at it. As I think you are aware, I encouraged outside 
reviews so that we get a separate perspective. And I would be 
happy to work with the committee on such a review.
    Mr. Wolf. Good.

                        DOMESTIC RADICALIZATION

    Domestic radicalization: in your testimony, on the growing 
concern about the threat from homegrown extremists. According 
to the Congressional Research Service, there were 43 homegrown 
Jihadist terrorist plots and attacks since 9/11, more than half 
of those occurring since May 2009. So the pace is accelerating.
    What are you doing differently to understand and respond to 
this?
    The Christmas Day bomber, al-Awlaki was involved in the 
influence. He was at a mosque here in northern Virginia. Al-
Awlaki radicalized the major at Fort Hood.
    We have the Metro one that you just referenced. That person 
came out of northern Virginia. The other five Pakistani 
students who were from the Fairfax County area. You have al-
Amoudi who is in jail with regard to his terrorist activity. 
You also have the valedictorian at the Saudi Academy for the 
plan with regard to the assassination of President Bush.
    So what are you doing differently to understand and respond 
to this? And I stress again you have seen a tremendous uptick 
since May of 2009.
    Mr. Mueller. Well, let me speak for a moment about the 
uptick and the factors contributing to that uptick. There are 
two principal ones in my mind.
    One is what used to be called core al-Qaeda as a 
centerpiece of the threat activity in the world operating out 
of Pakistan and the Pakistani-Afghan border has migrated now to 
other areas, particularly al-Qaeda in the Arabian Peninsula, 
including where al-Awlaki is now in Yemen as well as Somalia, 
al-Qaeda, and Maghreb.
    Consequently, you have different focal points of terrorist 
activity. Some are more eager to attack the United States 
homeland than others, particularly those operating out of 
Pakistan and those operating out of Yemen.
    Secondly, and perhaps more importantly, is the growth of 
the internet as a vehicle for radicalizing, and to a certain 
extent training, for operational capabilities that, in my mind, 
has brought the sermons of somebody like al-Awlaki into the 
bedroom of a teenager anyplace here in the United States 
without the necessity of a person traveling to a place to hear 
al-Awlaki or actually having to go buy a tape or get a tape of 
al-Awlaki.
    So what we are seeing is a profusion of individuals who 
have been radicalized, not person to person, but on the 
internet. Our response has been to undertake differing 
activities to try to determine who is utilizing the internet to 
radicalize and who is being radicalized on the internet, some 
of which we could go into in closed session.
    But it also goes back to the necessity for developing 
sources--sources who are in a position to identify those 
persons who are being radicalized and are seeking the weapons, 
explosives, or other items in order to carry out their 
intentions.
    Both with addressing the internet and also reallocating and 
reorienting our source coverage, we are attempting to address 
what is a phenomenon that has been growing over the last two or 
three years.
    Mr. Wolf. A recent report by Bruce Hoffmann and Peter 
Bergen warns of complacency and the possibility that, ``an 
embryonic terrorist radicalization and recruitment 
infrastructure has been established in the U.S. homeland.'' And 
I do not know what your comments or your feelings about that 
are. I think both of them are pretty competent people.
    But do you in certain circumstances have the capability and 
the authority to take down certain websites or block certain 
internet communication channels if you are able to prove that 
they are being used by terrorists or for terrorist purposes? 
And I guess the word is capability. Do you have the capability, 
number one, and, secondly, do you have the authority? And maybe 
you could kind of split them out, both capability and 
authority.
    Mr. Mueller. I would say capabilities, yes, generally 
depending on the circumstances. There are a number of ways that 
persons using the internet are trying to avoid both scrutiny 
and attacks from others. But generally, I would say, yes.
    In terms of authorities, there are, as we all know, First 
Amendment protections that one has to be cognizant of in 
addressing these cases.
    There also is the circumstance where if you actually do 
take down an internet site on a particular server, because of 
the ubiquitous nature of the internet, it is nothing for a 
person to migrate that website to another website that may be 
elsewhere.
    I would say to get more of the details, it would require a 
discussion perhaps not in the public arena.
    Mr. Wolf. Well, I would like to have that with you because 
I think al-Awlaki's website ought to be taken down. And I am 
concerned that there are some companies in the United States 
that are providing the servers that are allowing al-Awlaki to 
do what he is doing.
    I mean, can you feel the pain and the suffering of someone 
who lost a loved one at Fort Hood?
    Mr. Mueller. I have thought long and hard about that. 
Absolutely.
    Mr. Wolf. And some of the comments that came out of the 
Department of Army with regard to that and some of the data, 
knowing what they had, and al-Awlaki basically in essence fired 
the weapon. He fired the weapon. And so I think he ought to be 
taken down.
    And to have American companies providing the servers, being 
the servers that allowed that to take place because the first 
person if something happens to one of them, they are not going 
to call the Interpol. They are going to call the FBI if 
something happens to them.
    And so there are going to be a number of these things. I 
know you are going to want to say we cannot get into it in an 
open setting, but I would like to almost take an afternoon to 
just kind of go through it.
    I think you ought to take those sites down. I know you 
cannot take every site down, but I have talked to people out 
there. The high-tech community is fairly prevalent in my 
district. And they say you can take sites down. Now, they can 
come back up again, but the guy is operating in Yemen and if 
you keep taking him down and taking him down and taking him 
down.
    And I went to the Peter King hearing and I saw the 
radicalization that took place of those families and the pain 
of the Somali families that saw their kids drawn into this 
partially because of al-Awlaki. And so if you have the 
capability, then I guess it is the authority.
    And what I worry about--and God bless you--I think you have 
been the best director the FBI has ever had period. And I put 
that comment in the record about your wife and your family. I 
mean, you have done an amazing job.
    I worry that there is not anyone who has the 
responsibility. State Department says, well, we have got to be 
careful what our relationships are abroad and Defense says 
this. And you are sort of caught in the middle here. But there 
ought to be a policy of this Administration. And maybe we can 
write something in the bill that these sites ought to be taken 
down.
    I know you cannot take every single site down, but that 
magazine is out there. It ought to be taken down. And that is 
like saying there is a house of prostitution and we know bad 
things are taking place or people are being--and I want to ask 
you some questions about sex trafficking that you know I care 
deeply about--but to say, ``we know there is sexual trafficking 
taking place in that room. But if we go in there, they are just 
going to move to another place. So why bother?'' I mean, hit 
them there, hit them there, hit them there, hit them there.
    Just do everything you can because for the good of the 
families and both those whose kids are being radicalized, my 
sense is in talking to a number of people, the parents did not 
even know the children are being radicalized. And so they get a 
bad rap.
    So I would urge you and we are going to look at it to see 
if we can say take them down, take them down because if we have 
the capability, then I think to sort of punt this thing and say 
because of this or that or we may offend somebody.
    Mr. Mueller. Let me if I----
    Mr. Wolf. Sure.
    Mr. Mueller. Let me just say, first of all, we would be 
happy to sit down and go through with you and the committee the 
considerations that go into taking down a site.
    The only other thing I would say in generally talking about 
this area of mutual concern, we share exactly----
    Mr. Wolf. I know you do.
    Mr. Mueller [continuing]. The concern. There is 
intelligence considerations as well.
    Mr. Wolf. I understand.
    Mr. Mueller. And what I want to do is identify those 
persons who have the intent and seek or have the ability to 
undertake terrorist attacks.
    Mr. Wolf. But al-Awlaki has taken it beyond----
    Mr. Mueller. Absolutely.
    Mr. Wolf. I mean, he has----
    Mr. Mueller. Absolutely.
    Mr. Wolf. I have some others, but I am going to go to Mr. 
Fattah. But I am going to come back to this subject.
    Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman.

                   BENEFITS OF INVESTMENT IN THE FBI

    Mr. Director, I want to make sure that we put this on the 
record, that you have had an extensive career in public service 
from your days as a United States Marine leading a rifle 
platoon in Vietnam, winning the Bronze Star, your service as a 
U.S. attorney, and now as the head of the FBI.
    And you are getting ready to leave in September. And 
somewhat like Secretary Gates, you are in a position to be 
maybe even more forthright on some of the challenges facing the 
country going forward.
    So, when we look at the budget for the FBI, we cannot look 
at it in my view in isolation. We have to look at it opposite, 
for instance, the financial and human costs of the 9/11 
incident. You know, it cost our country a great deal, thousands 
of lives and it cost our economy and was a real jolt to the 
airline industry, to New York. I was just there to see Freedom 
Square and what is going on there.
    So I think that the Congress should not be looking at just 
the cost of additional agents. I mean, you are requesting some 
40 additional agents in this national security space. But it is 
really the cost versus the exposure. We have to look at this in 
terms of the exposure that the country faces.
    And this is not the FBI that you are going to be leaving. I 
mean, as we go into the 2012 fiscal year, you will have 
retired.
    So, I think it would be helpful for you to talk about how 
we should be looking at our investment. You know, there is a 
lot of talk around here that spending in and of itself is 
wasteful. I think some spending is necessary and obviously so 
when it comes to protecting lives and protecting our economy.
    So are you aware of some of the estimates of the cost of 
the 
9/11 event financially to the country even though obviously the 
human cost was even more? But if you could share about the 
economic impact of that to the Nation.
    Mr. Mueller. I think everybody would agree that the human 
cost was unbelievable. But in addition to that, as you point 
out, there was a blow to the economy that cost the United 
States billions and resulted in lost opportunities. And you can 
never put a value on the persons who lost their lives and would 
have contributed for many years after that.
    Going to the Bureau's budget, one of the frustrating 
aspects of this job has been the fact that we were expected to 
and needed to have built up an intelligence capacity that is 
absolutely essential to protect the public from attacks in the 
future.
    But when it comes to the budget and the budget discussions, 
because of the history of the Bureau being perceived as a law 
enforcement agency and lumped in with other law enforcement 
agencies, we have had to take the funding to build up the 
intelligence capacity out of the criminal justice side. And, 
there has not been a backfill.
    So a number of the priorities that you and others wish us 
to pursue on the criminal side have, in our prioritization, 
unfortunately taken a back seat when it comes to the budget 
crisis.
    And at a time like this when we are talking about a 
Continuing Resolution where each of the agencies within the 
Intelligence Community because, they are part of the DoD 
budget, gets their 2011, we are still stuck going back to pre-
2010. So that has been tremendously frustrating.
    I do think it is shortsighted in the sense that the 
terrorist attacks on the United States are for a variety of 
reasons--the loss of lives, number one--one of the most 
devastating things that can happen in the United States in this 
day and age.
    And we, Homeland Security, and the Intelligence Community 
need to be at the forefront in defending our country here from 
such attacks.
    Mr. Fattah. Well, for instance, you mentioned in your 
opening testimony the attempted bombing of, or bombs at least 
being transported on cargo planes. Now, that incident centered 
in significant respect on the Philadelphia International 
Airport where one of the planes was and one of the others had 
moved through. That cost the industry a great deal of money.
    So these issues of investing now on the prevention side and 
the intelligence side through your work can save us money on 
the other side. I wanted to mention that.
    I do want to take some time and walk through a few areas. I 
sent you a letter probably about a year and a half ago about 
mortgage fraud. There has been a very significant ramp-up of 
focus on mortgage fraud, and there have been major arrests 
across the country including in the Philadelphia area. The 
mortgage foreclosure crisis had to do with the economy and 
unemployment, but there were also problems in the industry.
    The FBI has had a very positive impact I think in cleaning 
up some of what it has cost lots of Americans, their homes and 
their piece of the American dream.
    I want to thank you for that and I want to thank you for 
your work in closing these very old but still relevant civil 
rights cases, particularly in the south where civil rights 
workers were killed and these cases have languished for decades 
and you closed out them on your watch. I want to thank you for 
that.
    I was over visiting the National Center for Missing and 
Exploited Children over in Virginia and the work of your team 
there with other entities has been remarkable. I do not think 
that many people in the country know that we have more than 
1,000 kids who go missing every day in our country and the 
amazing work that the FBI and some of the other agencies have 
done, including the interactions with Interpol in recovering 
some of these young people who end up in other parts of the 
world. So I want to thank you for that.

                         FY 2012 BUDGET REQUEST

    But I do want to get into some of the budget issues. You 
have a request, one of the smallest requests, but I think one 
of the more important ones. You have a request in the 
President's budget of $16 million for education benefits. The 
CR has it at around nine. We think that there is a way to fix 
that problem.
    I want you just to illuminate on what that small number 
represents in terms of benefits to agents.
    Mr. Mueller. Well, I believe you are talking about the sums 
requested to help persons with their education and retiring 
their bills?
    Mr. Fattah. Yes.
    Mr. Mueller. One of the programs I think that is beneficial 
to the workforce is to help persons who are striving to better 
themselves. I know over the years that the chairman and others 
on this committee have pressed hard for us to provide 
additional educational opportunities to our workforce in the 
same way that the military does for their workforce.
    Those sums reflect, if I am speaking about the sums that 
you are talking about, our desire to do exactly that--to reward 
those persons who want to better themselves, and by bettering 
themselves better the organization.
    Every dollar that we spend to provide additional education 
or to provide a relief to those who already have bills is a 
dollar very well spent.
    Mr. Fattah. Now, you talked about the 1,100 positions that 
you want to deal with that the President has not provided 
funding for you to backfill.
    In terms of what this would mean in terms of programs, as 
you refer to them, on the criminal side or on the national 
security side, these are positions in which agents have retired 
and you are attempting to now backfill them?
    Mr. Mueller. Let me, if I could, give you an example. In 
2010, there was a supplemental that gave us additional 
resources to address the mortgage fraud crisis. We obtained 200 
additional positions in a one-time supplemental. Those 
individuals are brought on board. We were up to 98 percent in 
terms of our hiring ability which we had striven to meet for a 
number of years.
    We had sought recurring funding to sustain this one-time 
funding that we received in the supplemental. And the $200 
million that we are going to lose, the numbers of bodies we are 
going to lose, part of them is attributable to the fact that we 
are not getting the recurring funding to fund these bodies that 
were given to us to address the mortgage fraud crisis.
    In 2011, we sought additional individuals to fight the 
mortgage fraud crisis in the budget. We are probably not going 
to get that.
    When we started the 2012 discussions a year or so ago, we 
did not put additional resources in our request for additional 
resources for mortgage fraud because we had already been given 
those resources in the past and expected to get them in 2011.
    So when I say that we are backsliding in terms of our 
budget position, that is an example of the problem we face 
where additional resources have been given to us in the past to 
address this crisis and, yet, we are not going to have them in 
the future and, in fact, have to cut back.
    Mr. Fattah. All right. And the last question for this 
round. Mr. Director, you have over 30,000 employees. You have 
12,000 agents. What is the average salary for an agent?
    Mr. Mueller. I would have to get back to you on that.
    [The information follows:]

                     Average Salary of an FBI Agent

    The average cost of a field agent, including benefits and 
availability pay, is $169,000.

    Mr. Fattah. All right. Thank you.
    Mr. Wolf. Mr. Bonner.
    Mr. Bonner. Thank you, Mr. Chairman.

              ASSESSMENT OF THE FBI OVER DIRECTOR'S TENURE

    Director, thank you so much for your life-long service to 
our country and for your stewardship of the FBI during a pretty 
challenging decade I think by any analysis of that. And that is 
kind of where I would like to start the conversation.
    Since you became director, the word terrorism has probably 
been rewritten, at least in the dictionary definition of it, 
certainly the terrorist attacks on 9/11, the cyber terrorism, 
the escalated concern on the border, the illegal drugs that 
have come in, which is a form of domestic terrorism.
    At the end of all of our careers, we have the opportunity 
to look back and think, well, if I could have it to do all over 
again in our routine for the day and could get anything done 
that needed to be done, I would like to do this to change my 
legacy of service.
    Have you had an opportunity to look back over the last 
decade and think if we could have just done this differently, 
if we could have not had the controversy over Guantanamo or 
Patriot Act or whatever, then perhaps we could have made the 
country safer or done something different?
    And I say that not with criticism because I started out 
with admiration for your service, but you will be leaving a 
legacy of service during probably one of the most challenging 
decades in the life of our country and, yet, the next director 
may well want to have the benefit of your experience.
    Mr. Mueller. There are two areas. I generally look forward, 
not back, but people are asking the same question. I would say 
there are at least a couple of areas where I would have done 
things differently.
    One is understanding the challenges of developing 
information technology in an organization that is information 
driven.
    The first efforts at developing a case management system 
failed. And in part in my mind, it failed because I did not ask 
the tough questions to understand the track that the 
technologists were going down and make certain that I 
understood what they were talking about and used common sense 
to question what they proposed doing.
    So if I had it to do over again, I would recognize that on 
the one hand you have those who understand the business 
practices of an institution like the FBI and then you have 
those who understand technology. Getting these together to 
upgrade your technology and modernize your business practices 
at the same time is a very difficult exercise that requires 
weekly, if not daily, management and assuring that the 
purported experts explain to you in English what is happening 
and how it is going to happen and so that you make certain that 
it is done the way it was drawn up. That is one area.
    The second area, I was slow to understand that developing 
intelligence is not just developing databases or hiring 
analysts. It is a way of thinking about your mission in the 
sense that as important to knowing what is coming in through 
the door, it is important to know what we call your domain. 
Whether it be in your field office or in your state knowing 
what the threats are, determining what you know about those 
threats, but as important is determining what you do not know 
about those threats, and using sources and intercepts to fill 
those gaps so that you have a fuller picture of those threats 
before an incident occurs.
    It took me a while, because I come from the background of 
being a prosecutor and I am used to getting a case in, 
investigating it, trying it, and hopefully convicting the 
person, to understand that we have to address the threats, 
analyze the threats, identify what we do not know about those 
threats, and fill in those gaps in order to prevent an attack.
    The statistics we have used in the past, the number of 
arrests, indictments, and the like, do not give you the picture 
of what the threat is. By gaining the picture of the threat, 
you then do a much better job in allocating the resources and 
getting ahead of the threat in the future.
    I would say the last thing, and one of the great things 
about being associated with this organization, is the men and 
women of the FBI in the past, in the present, and I am sure in 
the future. The hardest decisions you make are personnel 
decisions. I have made some good ones and I have made some bad 
ones. But overall, the quality of the people that serve in the 
FBI today is unmatched in any other institution.
    Mr. Bonner. Thank you for that reflection. Now I am going 
to give you an opportunity to give us some constructive 
criticism.
    Based on your service, what can Congress do? It is not 
always about money. That is what the purpose of this hearing is 
about, but it is not always about money. What can we do to be a 
stronger partner with the bureau because we all share the 
concern about terrorism?
    There is not a person in Congress, Democrat, Republican, 
north, south, east, west, that does not have the same love of 
country and, yet, sometimes the people back home watch us kind 
of like stepping on an ant bed, just scrambling all over and 
fighting with each other and using a war of words at times.
    What can we do to be a better ally of the FBI in combating 
some of the challenges, whether it is cybersecurity or 
homegrown terrorism or other things? What can we do from your 
experience over the past decade?
    Mr. Mueller. I come to realize painfully sometimes that 
organizational structures, as traditional as they may be, need 
to change with the changes in the world around us.
    An example would be that the way we organize to address 
crimes as a bureau has been very localized because most crime 
in the past 100 years has been local crime. Consequently you 
can have a dispersed, distributed organizational structure that 
gives deference to the Special Agent in Charge in a particular 
region.
    When it comes to counterterrorism on the other hand, that 
does not work because the threat is to the United States as a 
whole. I cannot look at one Special Agent in Charge, whether it 
be New York or Houston or what have you, and say you are 
responsible for preventing terrorist attacks.
    So our structure that was built for the criminal side has 
had to change over the last ten years by building up the 
coordination and the intelligence capabilities in 
counterterrorism to not only give oversight in the country but 
also to be able to intersect and interchange information with 
CIA, NSA, and the others.
    In the cyber arena, our organization is going to have to 
change as well for a variety of reasons, where victims can be 
in all 50 states at the same time, but you do not know who the 
contributor is.
    When it comes to Congress, I do think that one should 
reflect upon the organizational structures and determine 
whether that structure fits the growth in the times.
    You mentioned financial. As I mentioned before, we proceed 
as a law enforcement agency, although we are now an 
intelligence and national security agency and, yet, the same 
persons who looked at us from the criminal perspective for the 
past number of years are the ones looking to the financing and 
the context of our law enforcement responsibilities without 
necessarily taking in the broader understanding that we are a 
national security agency and need to have a firm foundation for 
our funding over the years.
    Mr. Bonner. And I want to just ask one more question this 
round. From your testimony, you mentioned the elimination and 
the consolidation of the FBI Violent Crime and Gang Task Force 
and, yet, I assume that is not to suggest that the bureau is 
not still concerned about that.
    Are these functions being taken up by other areas of the 
agency?
    Mr. Mueller. Well, we are looking at our gang task forces. 
We have no intention of eliminating the gang task forces around 
the country or the violent gang task forces around the country 
or violent crime task forces around the country.
    What we are looking at is overlap between our task forces 
and other task forces, whether it be Department of Justice or 
Department of Homeland Security, to see where there are places 
that we could be better, more efficient in pulling together two 
or three task forces.
    But the number three priority on the criminal side after 
public corruption and civil rights is organized criminal 
activity, which includes gangs. Since September 11th, that has 
been our number three criminal priority and will continue to be 
our number three criminal priority.
    The number of gang task forces, I think I indicated before, 
there are something like 160 odd around the country, will 
continue.
    Mr. Bonner. Thank you so much.
    Thanks, Chairman.
    Mr. Wolf. Thank you, Mr. Bonner.
    Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman. Director, thank you 
for the good work that you do.
    Mr. Mueller. Thank you, sir.

                         MIRANDA WARNING ISSUES

    Mr. Schiff. I appreciate you have a hard job. I wanted to 
discuss with you the FBI guidance on Miranda warnings, and from 
a couple of perspectives. The first is that I think it is sound 
guidance, and but I think it is constrained by the presentment 
requirements under current law. And I have legislation that I 
introduced last year that I am going to be reintroducing to 
allow a delay in presentment in terrorism cases for up to 
forty-eight hours upon certain conditions subject to another 
renewal for an additional forty-eight hours. I would like to 
get your thoughts on that.
    And also the potentially greater importance, I think, of 
the presentment issue even than the Miranda issue. I think 
presentment has a greater effect on potentially ending an 
interview than does the Miranda warning itself. And I would 
love to get your thoughts on that.
    The second question on that issue is under the guidance you 
state where the desire for intelligence outweighs potentially 
the evidentiary use of the information. Under the right 
circumstances they should continue an unwarned interrogation. 
Have you given any guidance to your agents or discussed the 
possible need to wall off agents that are doing the 
interrogation for intelligence purposes from the agents that 
will carry forward with the criminal investigation? Because I 
would think you would have a potential problem segregating the 
fruit of the poisonous tree if you do not have that kind of a 
separation.
    Mr. Mueller. Let me address the latter point first and then 
go to the presentment point. I think you focused on, in terms 
of, what happens during an interrogation, particularly an 
intelligence interrogation, may well be important in certain 
cases where there is overwhelming evidence of guilt and you do 
not need whatever statements are given.
    But yes, there is always a consideration given. This 
happens a great deal overseas, to have what is called a clean 
team. You do an intelligence interview. It is understood to be 
an intelligence interview. It will be an unwarned interview. 
And then you have another team come in, give the Miranda 
warning, and then make the argument in court that this clean 
team has been untainted by the information that was obtained in 
the intelligence interview and hope that the judge will allow 
that in. So that is always a consideration. We have done that 
around the world any number of times, that particular scenario.
    I will point out that there is often a debate between the 
prosecutor, who wants to try the case, and others who are more 
concerned about the broader picture and the intelligence. That 
debate goes on, as you can well understand given your history 
as a prosecutor, in cases, not across the country but in the 
more important terrorist cases that we take down.
    Going to the presentment issue, yes----
    Mr. Schiff. You know, before you do that though, what would 
your legal sense be? Let us say you have one team that comes 
in. They interview the suspect with a criminal investigation. 
At a certain point they decide this person has such 
intelligence value that they are willing to sacrifice, 
potentially willing to sacrifice, the evidentiary information. 
They step out. There is no Miranda warning yet. The clean team 
is brought in to continue the interview. Where do you think 
that puts you in a legal footing? In other words, if the 
violation of Miranda, the violation of the Fifth Amendment 
occurs when the information is introduced, not from the 
continuing interrogation itself, even though you have the clean 
team walled off do you think a court may find that because the 
interrogation by the clean team went on that even the 
statements that might have come in by the criminal 
investigative team, via Quarles or elsewhere, are tainted by 
the fact the interrogation went on after that?
    Mr. Mueller. I guess I would, say if there is a period of 
time where the case agent gets in and does an initial interview 
looking for a criminal case. Unmirandized because they want 
intelligence and they are within the Quarles exception. Then 
that will stand or fall depending on the applicability of the 
Quarles exception to the questioning that was done under that 
exception. Then if another clean team comes, and Mirandizes 
him, and there are additional statements, then the court will 
look, in my mind, to those additional statements and determine 
whether or not there was sufficient attenuation that the 
statements that were Mirandized should come in, even though 
there had been statements given prior to the clean team coming 
in. That I think will be dependent on the case law in a 
particular jurisdiction. I am not familiar with all of the 
cases that come down one way or another in that scenario. I am 
not certain there have been that many cases where that has been 
tried.
    Mr. Schiff. And you mention that overseas it happens 
frequently, have a clean team. Have you given any guidance to 
your agents about the necessity in a domestic arrest situation 
of having a clean team come in?
    Mr. Mueller. In the course of our training, yes sir, there 
is discussion about that. Often there is discussion with the 
prosecutors. Often the prosecutors may well want at least to 
discuss the possibility of a clean team. I will tell you the 
one thing that is troublesome in that, though, is particularly 
with our agents, that building rapport over a period of time is 
absolutely essential. If you have different teams you risk 
losing that rapport that may get you the information you need, 
particularly on the intelligence side. That is, in my mind, a 
weighty consideration.
    I also believe that it is the people on the ground who are 
dealing with the individual who are often in the best position 
to know the way forward, as opposed to others a thousand miles, 
or two thousand, or even three thousand miles away trying to 
ascertain what is happening between a particular agent on a 
case who is knowledgeable of not only the case but the 
individual, and can respond to the individual. These decisions, 
in my mind and in some large part, should be driven by the 
input from those who are on the ground actually doing the 
interrogation.
    Mr. Schiff. I wonder in that context, and I could see the 
point you are making about the importance of having an ongoing 
team, whether it might make sense to have a, you know, you have 
two people conducting an interview. One who steps out once you 
have reached the point of the end of the public safety 
exception. And then one who persists and is no longer part of 
the criminal case. Then at least you have some continuity. But 
I think that points up the importance of addressing the 
presentment issue. Because that seems to me the greater 
impediment. And how would you feel about under appropriate 
circumstances legislation that would lengthen the period of 
presentment?
    Mr. Mueller. As you are aware, I have to defer to the 
Justice Department in terms of a views letter and the Justice 
Department views. I would say more generally, to the extent 
that we can have more flexibility in these very difficult 
circumstances, I am in favor of flexibility.

                         FAMILIAL DNA SEARCHES

    Mr. Schiff. Okay. Do I have time for another question, Mr. 
Chairman? Shifting gears, familial DNA, which two, now I think 
three states with Virginia, are now adopting policies to 
provide for familial DNA searches. In LA it was of great 
benefit to us in apprehending the Grim Sleeper. I would like to 
see, and I have legislation on this as well. I do not know 
whether it will require legislation. But I would like to see 
the federal government through CODIS have the capability of 
doing a familial search in the right circumstances, or 
responding to a state request for familial search. And I think 
we would want to make sure that there are privacy protections 
in place.
    But in the Grim Sleeper case we were fortunate because all 
the DNA hits went unanswered. The DNA searches went unanswered. 
All the other crime leads went unanswered. We had a serial 
killer out there, and we did the familial search. It turned up 
the son of the suspect that led us to the suspect. We were 
fortunate, though, that the son had been in custody in 
California, in the same state where we were doing the search. 
Had he been in custody in a different state the Grim Sleeper 
would still be at large. Which I think points out the 
importance of having the capability under certain circumstances 
to do a national familial search. So I wanted to ask your 
opinion about, not necessary whether you support this form of 
the legislation, but whether you support having the capability 
of doing familial searches at the national level?
    Mr. Mueller. Well, certainly with the appropriate balance 
to privacy concerns, any additional tools that will enable us 
to identify a person, such as the Grim Sleeper, very few would 
be against, including familial searches. My understanding is 
that California and Colorado have legislation adopting it, and 
now as you indicated Virginia may be adopting it as well. There 
are two states, Washington, D.C. and Maryland, who have 
legislation opposing it, as I think you are aware. So the 
privacy concerns are triggering discussions.
    As you sort your way through that, there is also the 
concern in terms of the software that enables CODIS, not being 
capable of doing the type of familial searches that one would 
want to do. My understanding is both in Colorado and in 
California, the DNA laboratories have adopted a software 
package that enables them to do it. In addition to the issues, 
in terms of privacy concerns, there would be the funding factor 
as well. But in my mind we ought to have, and we are, having 
discussions on this. But we ought to try to sort our way 
through these issues so that under certain circumstances we 
make use of that capability.
    Mr. Schiff. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Austria.
    Mr. Austria. Thank you, Mr. Chairman. And Director, thank 
you for your service to our country and your commitment as 
Director of the Federal Bureau of Investigation. We appreciate 
very much your hard work and I thank you for being here for 
this committee. And I apologize for walking in late. We have 
other committees going on, as I am sure you are well aware.
    You know, this week we are obviously going through a very 
difficult time from a budget standpoint, as we look at our 
current situation with CRs, and a possible government shutdown 
coming this week. And we, you know, certainly want to assure 
that the FBI has the ability to meet its mission to protect and 
defend the United States. And you have listed I think ten 
priorities that you have with your mission, with the FBI. And I 
want to just ask you as we go through these short term CRs, and 
there is a lot of uncertainty as to what is going to happen at 
the end of this week as far as a government shutdown, how does 
the FBI ensure that these priorities are being met? Or do you 
prioritize? Is there areas that are a bigger threat, maybe 
cyber, or terrorism, that you prioritize your dollars during 
these difficult time periods? And if that is the case, are you 
taking away from other areas? And let me ask you, you know, how 
you manage those ten priorities and are assured that you are 
meeting those ten priorities during this difficult time budget 
wise?

                          TOP THREATS TO U.S.

    Mr. Mueller. Well, we would start from the top and continue 
prioritizing. Counterterrorism, counterintelligence, cyber, and 
the national security arena, and public corruption, civil 
rights, transnational, international organized crime, white 
collar crime, and violent crime on the criminal side. And we 
would be taking from the lower priorities and try to leave 
unaffected the counterterrorism, counterintelligence, and 
cyber.
    But often Congress gives us dollars for particular 
positions. As with the example I used to address the mortgage 
fraud crisis. We obtained that funding, we brought additional 
people on for that particular purpose, and then we do not get 
the recurrence in the next budget. Then we most likely would 
have to cut back there. So it depends on what is happening in a 
particular budget cycle. In some part we are dependent on 2010 
because that was the base. Then you have to look at 2011 that 
is going through the CR process now. And then we are here 
talking today about 2012. But a great deal of what we all want 
or need in the 2012 budget may now be determined by what 
happens in the CR for 2011.
    So while we still apply the priorities, Congress' interest 
in particular areas, such as the mortgage fraud crisis, cyber, 
and terrorism, may dictate particular reductions in programs 
regardless of the prioritization.
    Mr. Austria. And certainly we want to ensure that you are 
able to. And also I think, you know, a concern we have is the 
families as well of the folks that are working under your 
agency, and the impact that this is having both on your agents 
that are out in the field, your folks that are working for the 
FBI, and their families. And I do want to continue to monitor 
that because we want to assure the safety of this country.

                                SENTINEL

    Let me specifically talk if I could about your case 
management program, the Sentinel.
    Mr. Mueller. Sentinel, yes.
    Mr. Austria. In February the Acting OIG testified that 
Sentinel, the case management system currently being developed 
by the FBI, was behind schedule. And I believe it was two 
years, at least two years, behind schedule, and $100 million 
over budget. Can you give us an update on the FBI's efforts to 
implement Sentinel? And what is your target completion date, if 
you have one? And do you expect any additional cost overruns?
    Mr. Mueller. Well, the overview is back in I think 2004/
2005 when we entered into a contract with a contractor to 
produce the case management system. Given our previous 
experiences we divided it up into four phases. We went through 
phase one and it completed on time, on schedule, and under 
budget. Phase one was successfully deployed. Then we had 
problems with phase two when it was delivered due to coding 
errors and a number of things and we could not accept it on 
schedule.
    We have since completed phase two, which was the foundation 
for the system. And we had approximately 10,000 users out there 
using it now. Phases three and four we put a partial stop order 
on because we were not satisfied with the performance on phase 
two. We then determined that in order to complete this on 
budget and at least close to schedule we needed to change our 
development approach. So we developed what is known in the 
field as an ``agile'' development approach which cut way down 
on the monies that we were spending on contractor's services. 
We are still using the contractor but we have cut way down and 
are utilizing an agile development process that is much less 
expensive, and in my mind much more respondent to the needs of 
the workforce.
    My expectation now is that either in the fall or the 
beginning of next year we will complete this project and we 
will have, I cannot say every one of the original requirements 
done, but certainly a substantial amount of the requirements 
that we need to service the FBI as a whole.

            INTERAGENCY COORDINATION ON THE SOUTHWEST BORDER

    Mr. Austria. And one last question, Mr. Chairman. Just to 
kind of follow up a little bit on Mr. Bonner as far as what we 
can be doing, you touched a little bit on working with the 
other agencies, Homeland Security and other agencies. Obviously 
we have had testimony here in this committee and other 
committees about what is going on with the Southwest border as 
far as the drug cartels and so forth. Are you able to brief our 
committee on, you know, the ability to work with other 
agencies? What you are doing and your assessment as to what is 
happening on the border?
    Mr. Mueller. Well in terms of working with other agencies 
let me, I will start and give just a brief response to an issue 
that periodically raises its head, is our relationship with the 
intelligence agencies, CIA, NSA, and the like. And I will say 
since September 11th that has developed, I could not ask for 
more in terms of development of those relationships. The number 
two person in our National Security Branch is a person from the 
agency. We have hundreds over working at aspects of the CIA, or 
National Counterterrorism Center, and the like. And we have a 
number from the various agencies working with us and I think 
our relationships are terrific.
    On the law enforcement side, I am a great believer in task 
forces. Our success is in large part dependent on our 
relationship with state and local law enforcement. And the best 
vehicle for that is sitting side by side with somebody from 
another agency addressing a common threat.
    On the southwest border we have a very close relationship 
with DEA, where we focus principally on the kidnappings, on 
public corruption in agencies and the like, where DEA focuses 
on the narcotics traffickers. And we also have a very good 
relationship with Customs and Border Patrol in terms of 
operational activity. We also have established an intelligence 
entity down in El Paso that encompasses our offices along the 
border, our headquarters, and our legal attache's office in 
Mexico City. And that is colocated with and in the same area as 
EPIC, the El Paso Intelligence Center, which is populated by 
DEA and the rest of the law enforcement and intelligence 
communities.
    Mr. Austria. What areas can we be improving on or be more 
efficient?
    Mr. Mueller. There are overlaps, with some agencies, 
traditionally. When it comes to ATF, for instance, there have 
been overlaps in terms of our investigating explosives 
incidents here in the United States and that is an area in 
which the Deputy Attorney General resolved the issues and has 
given guidance to both of the agencies where I think we are 
eliminating some of that overlap. But there are other areas 
where there are overlaps that we all are trying to avoid. I do 
not see many benefits in the budget crisis but one of them is 
that you really have to prioritize, and consequently you may 
lose some of those overlaps when all of us are straining under 
our budgets.
    Mr. Austria. Thank you, Director. Thank you, Mr. Chairman.

                             RADICALIZATION

    Mr. Wolf. Thank you, Mr. Austria. Back to the terrorism 
issue, I do not believe that our government has a comprehensive 
policy to prevent radicalization. We have a number of questions 
we will submit for the record. But I plan to introduce 
legislation either late this week or next week to create a team 
B to bring fresh eyes to our nation's counterterrorism 
policies, including those intended to combat radicalization. 
Bruce Hoffman supports the proposal. Jane Harman supports the 
proposal. She is not here now, but we were working with her 
just before she left to go to the Woodrow Wilson Institute.
    It will be a strategic reevaluation of threat intelligence, 
possibly leading to a new way of disrupting terrorism by 
preventing the radicalization and recruitment process that 
sustains it. The work of a team B would not be meant to replace 
the analysis currently done by our intelligence agencies, but 
rather provide competing analysis. And again, and I know you 
have created a quasi-mini team Bs, I am talking about team B 
that looks at, almost similar to what was done in the Ford 
administration with regard to communism. Pipes led that from 
Harvard. They looked across the board. They had the exact same 
information that everyone in the government had and they looked 
at the evaluation with regard to the threat of communism.
    So I know, just to take away one of your answers, I know 
what you have done in the Bureau and I commend that. But I am 
talking about a government wide policy that Bruce Hoffman 
thinks may be a good idea. What are your thoughts about that?
    Mr. Mueller. I would have to look at it. I am certainly not 
opposed. It sounds like an idea that is worthy of study, 
depending on who, how, when, funding and the like.
    Mr. Wolf. Addressing funding, it would have the adequate 
funding.
    Mr. Mueller. Addressing radicalization is at the heart of 
the issue. We need to on the one hand to prevent persons from 
being radicalized but also on the other hand identify those 
persons who have been radicalized so that you make sure that 
you catch them before they are able to undertake a terrorist 
incident. What we have found over a period of time is that 
radicalization occurs in so many different ways. It can occur 
on the internet, it can occur by a peer. There are so many ways 
that people are radicalized. There is a great deal of work that 
has been done in terms of the variety of ways that people are 
radicalized, and a great deal of work has been done on the 
radicalization process. But any guidance that we can get to 
enhance our abilities to stop the next terrorist, I would 
welcome.
    Mr. Wolf. Good. Well we are going to put the bill in next 
week. We may try to put it on this committee, or I do not know 
what we are going to do, but we are going to push it. And I 
think people who have looked at it, I think each agency has 
done some outside work. But I think if you bring it together in 
a comprehensive basis.
    Last May I read of your concern in a Fox News report about 
the Bureau's October, 2002 decision to release Anwar al-Awlaki 
from custody upon his return to the U.S. despite an outstanding 
warrant for his arrest at that time. Several of the former 9/11 
Commission members have publicly stated that the information 
from al-Awlaki's arrest warrant and October, 2002 reentry to 
the U.S. was not shared with them despite al-Awlaki's 
appearance in the 9/11 Commission Report as a possible 
supporter of the 9/11 terrorist cells. Former Senator Bob 
Graham said that the fact that this was not provided to the 
Commission was very unusual, and again it is one of the 
unanswered questions of 9/11. Could you discuss, now, or if it 
is inappropriate we can do it in a private sessions, why the 
information was not shared with the 9/11 Commission? And 
provide the committee with a detailed accounting in an 
appropriate setting?
    Mr. Mueller. I am vaguely familiar with this issue. I think 
it was perhaps a complaint out of Denver, if I am not mistaken?
    Mr. Wolf. Correct.
    Mr. Mueller. And some time ago, a couple of years ago I 
think, I remember looking at the issue and believing that there 
was, certainly not much more at this time to be done. I will 
say that al-Awlaki in the meantime has taken on a significance 
that he certainly did not have way back when, although he was 
significant, number one. But secondly, and perhaps more 
importantly, we opened up to and gave the 9/11 Commission 
access to everything we could find that was related to 
terrorism, and particularly those persons responsible for 9/11. 
So if this was not provided to the 9/11 Commission, it was 
certainly not by intent. It may well have not been in one of 
the files that we provided to the 9/11 Commission. But I think 
you will find that the 9/11 Commission was appreciative of all 
the work we had done to provide them just about everything that 
we had in our files.
    Mr. Wolf. Well the gentleman, and his name escapes me. He 
is at UVA now. He was Executive Director of the Commission.
    Mr. Mueller. I know who you are talking about.
    Mr. Wolf. He has expressed some concern about it, also. And 
I think he later went on to be an advisor to Condoleezza Rice.
    Mr. Mueller. Yes, it is Zelikow.
    Mr. Wolf. Yes. And he also had expressed some----
    Mr. Mueller. Well I would be happy to look into the matter. 
I can tell you that we tried to provide everything that we had 
that would be responsive to the interests of the 9/11 
Commission at the time.
    Mr. Wolf. If you can look into it, and maybe when we talk 
about that other thing we can go into it. In April, 2009 a 
letter from the FBI Assistant Director Richard Powers to 
Senator John Kyl the Bureau announced that it had severed its 
relationship with the Council of American Islamic Relations, 
CAIR. Mr. Powers wrote, ``Until we can resolve whether there 
continues to be a connection between CAIR or its executives and 
Hamas, the FBI does not view CAIR as an appropriate liaison 
partner.''
    I strongly supported this decision in part because CAIR was 
found to be a co-conspirator in the Holy Land Foundation case. 
The Foundation's founders were convicted in November, 2008 on 
charges of, ``providing material support to Hamas, a designated 
foreign terrorist organization,'' according to a Department of 
Justice press release. Hamas is recognized by the United States 
and the European Union as a terrorist organization. It is 
publicly committed to the destruction of Israel. Its 1988 
covenant says, ``The day of judgment will not come until 
Muslims fight Jews and kill them.''
    On June 12, 2009 I spoke on the House floor for nearly an 
hour laying out in great detail my concern about CAIR and sent 
the Bureau and others copies. I believe I sent you a copy, 
also. Since that time CAIR's troubling behavior has continued. 
In January, 2011 CAIR's California chapter found an old poster 
displayed on its website stating, ``Build a wall of resistance. 
Don't talk to the FBI.'' Have you ever seen that?
    Mr. Mueller. Poster? Yes, sir.
    Mr. Wolf. The poster? This is a telling example of how CAIR 
has sought to prevent individuals from cooperating with law 
enforcement, or at the very least to present themselves as the 
only legitimate channel for doing so.
    Last month before the House Homeland Security Committee Mr. 
Bihi, the uncle of Burhan Hassan who was killed in Somalia, 
testified about the disruptive actions of CAIR in the Somali-
American community in Minneapolis following the disappearance 
of several Muslim Americans in 2009. Mr. Bihi states, ``CAIR 
held meetings for some members of the community and told them 
not to talk to the FBI, which was a slap in the face for the 
Somali-American Muslim mothers who were knocking on doors, day 
and night, with pictures of their missing children asking for 
the community to talk to law enforcement about what they know 
of the missing children.'' According to FBI estimates 
approximately ten of these missing men, these are Americans 
living here who have now gone back to Somalia, have joined al-
Shabbab, have died in Somalia. CAIR's actions were, I think, 
counterproductive for the families of these men.
    For all of these reasons I continue to believe that CAIR is 
not an appropriate partner for the FBI or any other federal 
agency. I would assume that the Bureau's policy of not working 
with CAIR on a non-investigative, and I stress that, non-
investigative matters remains in effect. Can you confirm that, 
please?
    Mr. Mueller. We have no formal relationship with CAIR.
    Mr. Wolf. Thank you very much. Recent reports indicate that 
in 2009 from CAIR Executive Director Nihad Awad to Libyan 
dictator, Libyan dictator. And I have the letter here which I 
would like to give you before we leave, which I will submit for 
the record.

[GRAPHIC] [TIFF OMITTED] T7259A.098

[GRAPHIC] [TIFF OMITTED] T7259A.099

    Awad appears to be soliciting money for a CAIR project. 
Long before Qaddafi's brutal and murderous assault on his own 
people, which has dominated the news in recent weeks, his 
deplorable human rights record was well known. Political 
parties are illegal. Organizing or even joining a party can 
result in death. He has publicly executed dissidents. Freedom 
of the press is non-existent. According to various respected 
NGOs he has employed arbitrary arrest, political killings, and 
disappearances to maintain his grip on power.
    In addition to human rights abuses against his own people 
Qaddafi has engaged in international acts of terrorism against 
the United States, including the 1986 attack on a discotheque 
in West Berlin, killing several U.S. servicemen and injuring 
over 200 others. Two years later was the infamous attack on Pan 
Am Flight 103, which exploded over Lockerbie, Scotland killing 
270 people. In 2003 after denying Libyan involvement for years 
Qaddafi's regime formally accepted responsibility for the 
attack. It was this same Qaddafi that CAIR, Mr. Awad, wrote, 
``I am pleased to send Your Excellency in my name the most 
solemn assurances of thanks and appreciation for the efforts 
you exert in the service of Islam, Muslims, and all mankind 
through your initiatives to teach Islam, spread the culture of 
Islam, and solve the disputes for which you are internationally 
known.'' He went on further with details to set up a Muslim 
peace foundation, discusses the need to raise $15 million, and 
thanks Qaddafi for his general support.
    Although CAIR's website states CAIR's operational budget is 
funded by donations from American Muslims, it is my 
understanding that Awad has made repeated attempts to solicit 
funding from Qaddafi and other foreign sources. Is the Bureau 
aware of CAIR's outreach to Qaddafi? And do you know if CAIR 
has at any point received any funds from the Libyan regime?
    Mr. Mueller. I would have to get back to you on that. I am 
not familiar myself at this point, but we may.
    [The information follows:]

                       CAIR Funding From Qaddafi

    The FBI can provide this information in a closed setting.

    Mr. Wolf. Okay. In the same vein, is the Bureau aware of 
any attempts by CAIR to solicit funds from any government 
currently on the U.S. state sponsored list of terrorism? Sudan, 
which has been involved in genocide. Cuba, which we see has 
religious leaders in prison. Iran, which aids Hezbollah, which 
is responsible for the bombing of the Marine barracks in 
Lebanon. And Syria, who was also responsible. Or any other 
terrorist organization that would similarly be prohibited under 
the law? Do you have any indication that they have made any?
    Mr. Mueller. Not to my knowledge. I have to get back to 
you.
    Mr. Wolf. Okay, if you would I appreciate that. And on that 
last issue, with regard to CAIR, I believe that engagement with 
a group like CAIR has the perverse effect to giving legitimacy 
to the very elements in the community that are being most 
counterproductive by discouraging cooperation with law 
enforcement to prevent terrorism. But we need the active 
engagement of the Muslim community. And so I have encouraged 
you and the FBI to meet with and involve a large element of the 
American Muslim community. Bring them in, who have been 
outspoken in condemning terrorism. Can you tell us how the FBI 
is reaching out to all of the groups, to bring them in? Because 
somehow when CAIR is the only one given a dominant power, and I 
appreciate the fact that the FBI will not meet with them, I 
think it is important to empower the other Muslim groups to 
include them. And can you sort of bring us up to speed on what 
the Bureau is doing with regard to that?
    Mr. Mueller. Since September 11th every one of our fifty-
six field offices and the leadership of those offices have had 
outreach to the Muslim community, as well as other communities. 
But in the wake of September 11th, especially the Muslim 
community. Understanding that the worst thing that could happen 
to the Muslim community in the United States would be another 
terrorist attack. And that we need the support of that 
community, and our business is basically relationships. So we 
have had outreach to all elements of the Muslim American, Arab 
American, Sikh American communities in our various field 
offices since September 11th. I, on a number of occasions, have 
met with diverse leaders from the Muslim communities over the 
years. We will continue that outreach for the future, and 
generally the future, not just the foreseeable future, anything 
but for the future. It is part of the way we operate and work, 
and it is absolutely essential to not only the Muslim community 
but to the United States that we continue that process.
    Mr. Wolf. I had sent some names over asking that you and 
top people meet with them. Do you know if those meetings ever 
took place?
    Mr. Mueller. Yes. I would have to get back to you, but I 
did look at the list of requests. I believe we have responded. 
In certain circumstances we absolutely are meeting with the 
people, and there may be occasions when we are not but it may 
be because they are out of the country or some other reason. 
But----
    Mr. Wolf. Okay, could you have your people tell us who?
    Mr. Mueller. Yes, absolutely. I would be happy to do that. 
My understanding is that we have tried to keep your staff 
apprised of what is happening in each of the cases that you 
have raised and we will continue to do that.
    Mr. Wolf. Thank you. The High-Value Detainee Interrogation 
Group. The Interrogation Task Force created by the executive 
order led to among other things the creation of a High-Value 
Detainee Interrogation Group, or HIG. This function is housed 
administratively at the FBI and led by an FBI agent. Could you 
briefly describe the HIG concept and the FBI's role?

                 HIGH-VALUE DETAINEE INTEGRATION GROUP

    Mr. Mueller. Yes. We have believed in the Bureau for any 
number of years that we are successful in questioning and 
interrogating individuals by building a rapport over a period 
of time. But not everybody is successful at that. I do believe, 
and have often believed by my time as an Assistant United 
States Attorney, you have those who are good at doing 
questioning and those who may be not so good. So the effort in 
the HIG is to make certain that when we have a person who has a 
great deal of information relating to terrorism, that we have 
the best possible team that is doing the interrogation. That 
means somebody who is a professional. It may well be someone in 
the Bureau who spent a lot of time as a homicide detective on 
the street and has done this for years. A person who is a 
professional in terms of this is all he or she does. Others who 
may be knowledgeable about this individual and the case, and 
others who have the background in terms of religion or region, 
and the like can additionally give context to the interviews. 
So you develop a course of interviewing this person that 
maximizes the opportunity of getting the information you want. 
We have had this concept for over a year now. It was formally 
encompassed in a directive from the President. Even before then 
we had put together these teams. They can be from the FBI, DOD, 
or individuals can be from the FBI, DOD, or CIA, where we get 
the subject matter expertise, and put together those teams to 
do interrogations of persons who have substantial information 
on terrorism.
    There are two other areas that are important to the HIG. 
One is in developing and pulling together all of the literature 
and experience on interrogations. Remarkable as it may seem 
there is a dearth of material on what may well be the most 
effective of legal interrogation techniques. Pulling that 
together in the sense of having a body of persons who are 
looking at this and developing new ways of addressing 
interrogations is essential.
    The third area that the HIG focuses on is training. 
Training for those who are going to be doing interrogations and 
how to do the most effective interrogations. So those are the 
three pillars. And it has been operating well, I think, over 
the last year.
    Mr. Wolf. Well I think it makes a lot of sense. And I 
commend you and the administration for doing that. As you know, 
I have suggested over and over and over, and over and over to 
the National Security Council and others that you consider 
relocating the HIG staff with the National Counterterrorism 
Center. I know the reason has said, ``You know, Wolf, this is a 
really good idea but we do not have the space.'' I drove by 
there. That is in my district. I mean, if you do not have the 
space and cannot find enough space, take out a couple of 
vending machines. But do you think it would be a good idea? Has 
every one, every expert-- and I am kind of setting you up here. 
But every expert that I have spoken to, every single one says 
it makes sense to colocate the HIG at the Counterterrorism 
Center because when the information is coming in, and I think 
the people at the Counterterrorism Center are doing a very good 
job. There is no criticism meant here at all. But they are 
drinking out of a fire hose, the number of contacts that are 
coming in there per day. So by having the HIG team here, that 
was the purpose of the Counterterrorism Center, to get the 
stovepipes out and bring everybody together. Would it not make 
sense to colocate the HIG at the Counterterrorism Center?
    Mr. Mueller. Yes. I have said that before, and I have over 
and over, but not maybe the third over, requested and sought to 
colocate. And I will continue to push to do that. I know we had 
to, absent the ability to move in, find alternative space and 
we have done that. We are all together. But I will continue to 
press that.
    Mr. Wolf. Well, thank you. And maybe we can carry language 
in this bill to, Director, but I appreciate that. What is the 
level of the FBI resources devoted to the HIG this year? How 
many positions does the FBI----
    Mr. Mueller. I would have to get back to you. I think it is 
approximately thirteen including detailees in terms of the 
staffing. And in the 2012 budget we are asking for eighteen 
positions and $16 million.
    Mr. Wolf. Okay. Well I am pretty sure we will be able to 
meet that need. And I do not want to get into too much detail, 
but I think you are right and the FBI is right and the 
administration is. It is critically important to quickly, 
effectively acquire this useful material. To what extent in an 
open forum can you express some of the experiences that HIG has 
gone through within the last year? Is there anything that you 
feel comfortable sharing in an open forum?
    Mr. Mueller. No probably I should not. But I will tell you 
that we have had teams both domestically as well as overseas 
where we may be doing the interrogation, but participating in 
it in some way are the agency, DOD, and others, where we have 
brought subject matter experts together to make certain we have 
the most effective interrogation team that we can or could put 
together.
    Mr. Wolf. Okay. Maybe during the recess I could stop out? 
If you could have the HIG people contact staff and we can just 
stop by, and just talk to them?
    Mr. Mueller. Absolutely, or I would be happy to have them 
come up to give you a full briefing.
    Mr. Wolf. No, that is okay. I will be out and I will just 
stop.

                    FOREIGN ESPIONAGE/CYBER THREATS

    Mr. Mueller. Okay. Happy to do it.
    Mr. Wolf. One other area. And then I am going to go to Mr. 
Culberson. Can you just, without me getting into the question, 
sort of explain to the committee the threat, the cyber threat 
that we face? And secondly, can you explain to the committee in 
an open session, and also to the American people, and to the 
business community, what threat the Chinese government is 
insofar as cyber, and with regard to intelligence? And we are 
going to go to Mr. Fattah next, and then Mr. Culberson.
    Mr. Mueller. With regard to the last portion of the request 
in terms of a particular country, I would prefer to discuss 
that off the record.
    Mr. Wolf. Okay. How dangerous is the overall threat?
    Mr. Mueller. Well the overall threat is exponentially 
growing each year. And the threat comes from many levels. You 
have government actors who are seeking to steal secrets from 
the departments of various government entities. You have the 
same government entities from other countries who are 
attempting to steal information from contractors or from the 
financial institutions and the like. Then you have individuals 
who are located in foreign countries who may have some loose 
affiliation with the government services or maybe not, 
depending on the time of day or their interests. They may be 
interested in robbing banks, and utilizing cyber capabilities, 
or assisting government agencies. You have a growing threat 
from terrorists who want to use cyber capabilities to disrupt 
the electrical grid and various infrastructure. And then you 
have got the high school student across the street who becomes 
very adept at hacking into a particular business or a 
particular company, has the skills at a very young age, and 
does it for nothing other than fun or proving that he can do 
it, will move in and hack servers or databases in the 
government or large companies.
    That is just stating a very small piece of the cyber 
threats that we see out there. And for us in the Bureau, our 
main role in this is determining attribution. You can have 
victims in every one of the fifty states, but you do not know 
where the player is. Is the player in Russia? Or China? Or 
Morocco? Or Turkey, where we found in years past individuals 
who are undertaking cyber attacks. Our challenge is at the 
outset. We do not know whether it is economic espionage, 
espionage, or a crime, so we must come together with those who 
handle this in the intelligence community, such as NSA, CIA, 
and the like, and put together a team like we have done at the 
NCIJTF so that at the outset we look at a cyber attack and try 
to determine attribution. We then determine whether it is a 
national security issue or a criminal issue, and then pursue 
the investigations thereafter.
    Mr. Wolf. I am going to go to Mr. Fattah. But just to end, 
do you think we need almost the Counterterrorism Center, if you 
will, for cyber? Because there is so much in defense. There is 
so much, obviously, of what the Bureau does. You are also 
impacted with regard to banks, and impacted with regard to the 
private sector. And I know there was one person who came in and 
worked at the National Security Council. That person left. 
There seems, it just seems so spread out. Would it make sense, 
I do not know what, to have an agency? To have a, where is the 
NCIJTF?
    Mr. Mueller. It is in Northern Virginia. What I would 
welcome is----
    Mr. Wolf. Is every agency there?
    Mr. Mueller. Yes. I would welcome you to visit the NCIJTF 
and I think you will be impressed in terms of the cooperation 
that you see for all of the agencies and the exceptional work 
they do.
    Mr. Wolf. Okay.
    Mr. Mueller. And the NCIJTF reaches out depending on 
expertise in NSA, or other elements of DOD, or FBI, or 
Department of Homeland Security.
    Mr. Wolf. Okay. Well maybe I will do both of them. Do you 
have somebody from the Federal Reserve there? And somebody 
from----
    Mr. Mueller. I am not certain that we would have somebody 
from the Federal Reserve but I know we know who in the Federal 
Reserve to call and talk to.
    Mr. Wolf. But all of the agencies in the government who 
have an interest----
    Mr. Mueller. Yes.
    Mr. Wolf [continuing]. Are all----
    Mr. Mueller. Yes.
    Mr. Wolf. Well we will take a look at that. Mr. Fattah.

                             INDIAN COUNTRY

    Mr. Fattah. Thank you, Mr. Chairman. Part of your budget 
request is for additional support in Indian country. Native 
Americans, Alaska natives experience a much higher rate of 
crime. And I should note that crime in totality has decreased 
over your tenure, over this decade, even though when you 
started we had about 280-some million Americans and now we have 
something slightly over 300 million. The population has grown 
but the amount of crime per capita has decreased in all of the 
violent crime categories that you monitor.
    I know Indian country, is a priority for the entire Justice 
Department, and you have some additional requests. Would you 
like to comment for the record on those?
    Mr. Mueller. Yes. On 9/11, 2001, when we looked at 
prioritization, we understood we could not reduce our personnel 
assigned to Indian country. We maintained the same level, which 
was somewhat over 100 agents, which was inadequate then. It is, 
to a certain extent, inadequate today. We are requesting an 
additional forty personnel or positions in the 2012 budget, of 
which twenty-four of those positions would be for Special 
Agents. And again, it is realizing that this is an area in 
which additional resources will result in additional justice 
for those who are victims of crime in Indian country. So, that 
is part of our request.
    Also, as we look at the future of addressing crime on 
Indian country, I have been of the belief that other elements 
of the government, the Bureau of Indian Affairs and other 
elements should also be funded and trained to pick up some of 
the work that is currently done by FBI agents. For a variety of 
reasons that has not happened. So as a result of the burden 
still being with us, and maybe appropriately so, that is why we 
put in the request for an additional forty bodies.
    Mr. Fattah. Well let me congratulate you for the arrest 
that was made in the Martin Luther King Day parade case in 
Spokane. Is there anything that you can say about that case? Do 
we think it is one person, just the person that has been 
arrested? Or is there some broader concern here?
    Mr. Mueller. Well, the persons who worked on that did a 
remarkable job in identifying the individual and when the story 
comes out it will be an interesting story. It is still in 
litigation so I cannot----
    Mr. Fattah. I do not want you to compromise your position 
in any way.
    Mr. Mueller [continuing]. Specify the work that was done by 
the agents in order to identify that individual. But there was 
one individual arrested but I cannot say at this juncture 
because the investigation is continuing.

                              DNA BACKLOG

    Mr. Fattah. Now the DNA backlog. I know you testified in 
the Senate I guess a couple of days ago about how that is being 
worked through. But if you would like to make some brief 
comment for the record today on the DNA backlog?
    Mr. Mueller. Well, we have reduced the backlog in terms of 
the samples from over a hundred thousand, to almost negligible 
amounts now, as a result of two factors. One is the additional 
resources from Congress to hire additional examiners for the 
DNA lab which handles the taking of the samples and putting it 
into CODIS. And secondly, technological advances enable us to 
much more efficiently process the samples. So we have reduced 
that to negligible figures.
    When it comes to forensic DNA, we still have backlog there. 
But our expectation is by certainly 2012, and hopefully the 
spring, that will be reduced to almost nothing. We have made 
substantial inroads into that backlog as a result of shifting 
some of the personnel from the injection of the samples over to 
working on the forensics aspect of the DNA process.

                           HEALTH CARE FRAUD

    Mr. Fattah. The Attorney General and you concluded at least 
the initial portion, and the arrest, and the indictments 
related to the largest Medicare fraud in the country's history 
a few months ago. There was a major announcement on this. And 
there has always been I think a blatant acknowledgment by 
everyone who has looked at Medicare that there was a lot of 
fraud there. But this was a very significant effort, I guess 
coupled with one that followed after that with the round up of 
people involved in Oregon. This is what we would think about as 
traditional organized crime. But these were two major 
operations. Healthcare is a big issue here in the Congress. 
This is an area where there are billions of dollars that could 
be saved dealing with fraud. And you have started to really 
aggressively focus in on this. Is this another area where there 
is more opportunity to pursue wrongdoers?
    Mr. Mueller. There is. And again, it gets down to a certain 
extent to resources. We leverage our capabilities by working 
with a number of healthcare fraud task forces around the 
country. The two incidents you have mentioned are just an 
example of the work that has been done by these task forces. I 
do think there is one significant figure, and that is for every 
one dollar in enforcement cost, you return seven dollars to the 
government in terms of forfeited funds. So it is worthwhile for 
the government to fund this because you get seven dollars back 
for every dollar that you give to us.

                             VIOLENT CRIME

    Mr. Fattah. And two last things. One is that I know you 
spoke to the chairman in response to an earlier question about 
these gang task forces that have had very successful 
operations, particularly in the suburbs of Philadelphia, an 
area that you are familiar with----
    Mr. Mueller. Yes.
    Mr. Fattah [continuing]. Because you were raised there, in 
the Villanova area. But in the entire Philadelphia suburbs 
there have been very significant activities by one of the gang 
task forces that led to significant arrests. And that is to be 
appreciated.
    And the last question is, there has been a lot of talk 
about planes and challenges related to maintenance of planes. 
We had a plane leaving Philadelphia, and the FBI has now 
determined that the hole in that plane was a bullet hole. And 
obviously I am not sure that there is much else that can be 
said about it. I know that it is being investigated. But it is 
obviously of concern, and this goes to the protection of our 
whole civilian aviation program. We have a lot of activities to 
check passengers going on planes. But whether it is lasers at 
the pilot's eyes, or whether it is in this instance a bullet 
hole in the plane, activities from the ground in and around 
planes obviously are a concern. So if you have anything to add 
about this issue? It is a localized one, but one of national 
importance.
    Mr. Mueller. No, that is something we are following. I know 
there was some, but I have not gotten briefed in the last 
couple of days. I know we were investigating and there was some 
question about the trajectory--whether it was from up into the 
plane or otherwise. So the trajectory, and the possibilities in 
terms of where it may have occurred, whether in Philadelphia or 
was it Charlotte, I think, on the other end? I know we are 
investigating those aspects.
    Mr. Fattah. Thank you.
    Mr. Wolf. Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman. Director Mueller, 
we admire you all immensely. It is a real privilege on this 
committee to help you in your work, and your agents. It is a 
great source of pride to all of us. We thank you for your 
service, sir. At the height of the Cold War--Director Mueller I 
am sorry I do not have your biography here with me--but at the 
height of the Cold War in the eighties if you think about the 
level of espionage directed against the United States by the 
former Soviet Union. Think about the scale of the penetration, 
the agents, you know, there were only big mainframe computers I 
guess at that time. So you think about the scale of espionage 
the Soviet Union was directing against the United States. How 
can we compare the level of espionage for hostile purposes, the 
espionage that hits the United States by the Chinese today? To 
follow up on Mr. Wolf's question?
    Mr. Mueller. Again, as I responded to Mr. Wolf, I would 
really have to discuss that off the record.
    Mr. Culberson. Okay. We would very much like to do that. 
And Mr. Chairman I would be, if there is an opportunity for me 
to join you?
    Mr. Wolf. Sure.
    Mr. Culberson. In a briefing like that? Or frankly for the 
committee, I would like to do so. It is a source of great 
concern, the level of attacks on the United States by the 
Chinese. And I know by other countries, too. Not just cyber 
attacks, but also individuals attempting to get into the United 
States to commit another 9/11 attack if they can do so. And in 
prior years I have talked to about, and I want to thank you 
again for the work that the FBI is doing in particular watching 
the northern and southern Borders. And I know several years ago 
had congratulated the FBI's office in San Antonio for some work 
they had done in intercepting I think members of Hamas, is that 
correct? They were coming across the southern border?

                   BORDER SECURITY/TERRORIST THREATS

    Mr. Mueller. I think several years ago we had a discussion 
about an incident where we believed that there may have been 
persons associated with Hezbollah that had come across the 
southern border.
    Mr. Culberson. Hezbollah? That the FBI office in San 
Antonio had apparently taken the lead in catching those folks?
    Mr. Mueller. I am not certain which office.
    Mr. Culberson. Right.
    Mr. Mueller. That may well have been.
    Mr. Culberson. Talk to us if you could, sir, about the, to 
the extent you can do so in an open hearing, that has, about 
the number of individuals from countries, special interest 
aliens from countries with known connections to terrorism that 
the FBI has, is aware of that have been apprehended by any 
federal law enforcement agency crossing the southern or 
northern border?
    Mr. Mueller. I can't give you here any figures. I think DHS 
will have to get back to you on the numbers. I can tell you 
that we are concerned about special interest aliens coming 
across the southern borders and the northern border as well. 
One tends to focus on the southern border, but we have to be 
aware of the challenges in the northern border, as well. In 
both borders we cooperate closely with Customs and Border 
Patrol, in terms of identifying these individuals and making 
certain that they are interviewed and evaluated, and then I 
have some say in what happens after they have been apprehended 
and where do they go after that. With a close relationship, we 
have agents that are stationed along the border whose principal 
responsibility is to, once identified, either by us or by 
others, to then interrogate and gather what intelligence we can 
and then perhaps weigh in on what should happen to the 
individuals in the future.
    Mr. Culberson. The Eastern Chronicle just reported that 
there are 900 special interest aliens from 35 nations with 
suspected ties to terrorism that have been apprehended along 
the southern border between Texas and California, at least in 
the last 17 months, and quoted an independent analysis by a 
Vanderbilt political scientist, Carol Swain, and it found a 67 
percent increase in arrests of border crossers from suspect 
nations that they had, border patrol has picked up. Could you 
just give us some examples to help heighten the awareness of 
the country and the Congress to (a) the scale of the problem, 
and (b) the type of people that are crossing. Are there any 
examples that come to mind?
    Mr. Mueller. Well, I don't think I have any in mind. Not 
one I could talk about in open session. I will tell you that 
we've had examples of individuals coming in from Somalia. We've 
had examples of other individuals coming in from suspect 
countries, but when you sit down, you interview them, you find 
that they may be from clans that are really, the persons are 
seeking asylum. They may come from a country that has been 
designated as a safe haven for terrorism, but the individuals 
once they come in, may well have no association whatsoever with 
terrorism. Nonetheless, they come from that same suspect 
country.
    Mr. Culberson. What I'm searching for is some ammunition 
that you can talk to us about publicly and we can use in the 
debate to help heighten the awareness in the country, the 
importance of securing the border in, not only to keep out the 
drugs and the gangs and the violence, but terrorists.
    Mr. Mueller. Well, you know, what I can perhaps do, but it 
would have to be off the record is talk about specific 
incidents.
    Mr. Culberson. Okay.
    Mr. Mueller. All I can tell you is that, needless to say 
ourselves, the Department of Homeland Security, and other 
intelligence agencies are concerned about the possibility of 
special interest aliens coming across both borders, and we have 
had incidents where, apart from identifying the persons coming 
through, we've had some intelligence that there has been 
discussion about operatives coming from Pakistan or Somalia or 
Yemen, in utilizing the southern border to come into the United 
States.
    Mr. Culberson. Has that happened yet?
    Mr. Mueller. There's been intelligence out there.
    Mr. Culberson. But it has?
    Mr. Mueller. Again, off the, I can't----
    Mr. Culberson. We'll talk off the record.
    Mr. Mueller. Yes, sir, talk about incidences.

                         MURDER OF JAIME ZAPATA

    Mr. Culberson. Could we also, and forgive me, Mr. Chairman, 
for running late with multiple hearings on top of one another, 
if you've already discussed the murder of the federal agents 
in, ICE agent Jaime Zapata who was slain north of Mexico City. 
Have we talked about that yet? I wanted to ask what progress 
the FBI is making in hunting down his killers. His partner was 
wounded. I see that the FBI just arrested, charged and arrested 
ten alleged Mexican gang members with murdering the two 
Americans, a U.S. Consulate employee and her American husband, 
and a Mexican man who had U.S. ties to a U.S. Consulate in 
Ciudad Juarez. But in particular, Special Agent Zapata.
    Mr. Mueller. That investigation is ongoing and working from 
the moment it happened, our Legal Attache Office was on the 
scene very shortly afterwards and has been working with our 
Mexican counterparts to make certain that those who are 
responsible seek justice. We have had access to the evidence 
from the scene. We have had access to the scene itself. We have 
been working with the Mexican authorities to make certain that 
everyone involved in that sees justice.
    Mr. Culberson. We have in the, Brandon Analysis has, was 
had to help me calculate the number of deaths per thousand 
during the Mexican Revolution 100 years ago and today on a 
level of violence it's far worse today than it was at the 
height of the Mexican Revolution 100 years ago, and it appears 
as though there is literally a full scale war going on right 
across the border in northern Mexico, and the level of violence 
is just unprecedented, an extraordinarily dangerous situation 
that in addition to the threat from terrorists crossing the 
border, individuals with connections to, individuals from 
countries with connections to known terrorist organizations, 
the, talk to us about the scale of the violence. It certainly 
appears to be a war going on right across the border, and give 
us some sense of the level of violence that we see going on in 
northern Mexico.
    Mr. Mueller. I think the homicide statistics speak for 
themselves, in places like Juarez and elsewhere. I would not 
call it a full scale war. I would say there are full scale 
warring factions that utilize homicide as a mechanism of 
retaliation, staking out one's turf and retribution, that have 
contributed substantially to the number of deaths in Mexico, 
even though the military and the police, have undertaken 
substantial efforts to address it, and it's certainly not under 
control at this point. I know we are providing substantial 
support, particularly intelligence support to our counterparts 
in Mexico, and everybody's hope is that we'll see reductions 
down the road.
    Mr. Culberson. Is the level of violence unprecedented? It's 
got to be----
    Mr. Mueller. I think it's fair to say it's unprecedented. 
You know the last couple of years have been particularly bad. 
Yes, I would say it's probably unprecedented. Now I can't go 
all the way back to the earlier wars, but I would say the 
violence is very difficult.
    Mr. Culberson. Thank you very much, Mr. Director, for all 
that you do. Thank you, Mr. Chairman.
    Mr. Mueller. Thank you.
    Mr. Wolf. Mr. Serrano.
    Mr. Serrano. Sorry that I was late. I was at another 
hearing. I understand that this is probably your last hearing 
before this Committee.
    Mr. Mueller. Yes, sir.
    Mr. Serrano. And I just wanted to tell you that I value the 
service you've given our country, and the way in which you 
handled it, and as I said to you when I first met you, and I've 
said to colleagues of mine throughout the years that I've been 
in Congress, I represent a District in the Bronx, but I also 
have great interest in what happens in the Commonwealth of 
Puerto Rico, and in the Commonwealth the FBI has had a mixed 
history. You've been very fair in maintaining an open dialog on 
Puerto Rico, and for releasing many of the documents that you 
were able to make public about a difficult time, the 
relationship between the FBI and the independence movement in 
Puerto Rico, and I want to thank you for that.
    Mr. Mueller. Thank you, sir.
    Mr. Serrano. I think there's much more information. It's a 
desire to, not to repeat history, and you played a major role 
in it. Also, I don't know if anyone asked you, but I know you 
continued a program, which was very impressive to me, of taking 
new agents to the Holocaust Museum. I don't know if that was 
brought up, but that's very impressive that you continued, then 
you grew, and you expanded that program to show people what 
happens when government misuses its power.
    Mr. Mueller. Louis Freeh deserves the credit for that, and 
he----
    Mr. Serrano. Tell him every time I see him on the, you 
know, but I wanted to thank you, sir, again and I'm so tempted 
to tell about our running day after election joke, but I don't 
know if you want me to say that or not.
    Mr. Mueller. You can go ahead.
    Mr. Serrano. I've got to tell you. This is great, ladies 
and gentlemen, Mr. Chairman. So I'm the most Nervous Nelly 
about doing things right, and not only do I do things right, 
but then I worry that somebody thinks I didn't do things right, 
you know? And I get a call from the Director the day after 
election. He says, ``Congressman, I just think it's fair to 
inform you that we're starting an investigation on you.'' Of 
course, I had a heart attack. I fell down off the chair. I 
said, ``I didn't do anything wrong. What did I do? What's the 
issue?'' ``Just anybody who wins with 95 percent should be 
investigated.''
    Mr. Mueller. I don't recall it exactly that way, but----
    Mr. Serrano. All I know is I fell off the chair and it's 
become an ongoing tradition, and he called me when I went to 94 
percent. What was going on. It is a great story, but it shows 
that the FBI Director can have a sense of humor. But I do want 
to thank you and I want to ask you a question here. I've asked 
you this question before. You've given us the right answer, but 
it needs to be asked. You, after 9/11, and I was on the 
Committee then, we, in many ways Congress asked you, the FBI, 
to refocus your attention to terrorism, and we always wonder 
what happens to the ongoing investigations on white collar 
crime and drug issues and so on? Has that suffered at all, or 
has the FBI been able with its resources, to do that which has 
to be done in the area of terrorism, which is top priority, but 
also not have, you know, major drug dealers celebrating and 
saying, ``They're not after us now.''

                  TRANSFORMATION OF THE FBI SINCE 9/11

    Mr. Mueller. Well, as I think I've testified before in the 
wake of September 11th, we moved 2,000 agents from the criminal 
programs to the national security programs, principally 
counterterrorism. Of those, approximately 1,500 came from the 
drug programs. Another 500 came from doing smaller white collar 
criminal cases throughout the country. I met with Special 
Agents in Charge because I was relatively new. They were much 
more knowledgeable, but we had to prioritize, so we did. We 
have not had a back fill those 2,000 criminal bodies. Currently 
we have 50 percent doing national security and 50 percent doing 
the criminal programs. At the time, we worked closely with DEA 
so that no investigations would be dropped, and we worked with 
State and local law enforcement to set up programs, to the 
extent possible, for them to address smaller, white collar 
criminal programs. Over a period of time, when we had the 
variety of threats whether it be cyber or health care fraud or 
the mortgage fraud crisis, the Madoffs of this world, counter 
terrorism, or the Russians who we picked up last year who were 
living clandestinely here in the United States, we've had to 
prioritize and some things have suffered, and some things quite 
probably have fallen through the cracks. But I think where we 
are today is where we should be for the foreseeable future, and 
that is 50 percent doing the criminal programs, 50 percent 
doing the national security programs.

                     FY2011 CONTINUING RESOLUTIONS

    Mr. Serrano. Well that's, I think it's again, in keeping 
with my respect for you, that you would admit that some things 
may have fallen through the cracks, but there is a move to make 
sure that doesn't happen in the future or we continue to 
tighten up on it. You know, an issue that of course you don't 
discuss but there is a possibility of a government shutdown, 
assuming there is one and it lasts longer than, there should be 
no government shutdown but if it lasts longer than people think 
it will last, how will that affect you? I mean, do you have to 
then with less resources concentrate just on some issues and 
then others stay aside?
    Mr. Mueller. We're going to have to look at it day by day. 
I can tell you that it is already adversely affecting morale at 
the Bureau because a number of our people don't know whether 
they will be here on Monday, don't know whether they'll get 
paid, and it is tremendously disruptive to somebody who has 
given their service to a place like the Bureau. I do expect 
that our investigations will continue unhindered. We will do 
everything we can to support that, whether it be training or 
coordination. New initiatives, will all have to be put on the 
back burner if there's a government shutdown, and we'll have to 
evaluate it day by day. It is taking a substantial amount of 
effort from our administrative people today to try to 
anticipate what will happen if there is a government shutdown, 
and that effort which could be spent elsewhere, will continue 
to have to be spent as a result of whatever shutdown there is 
in the days and weeks to come.
    Mr. Serrano. Yeah, and I can understand that because one of 
the issues that we're facing here is there's no such thing as 
unessential members of our staff. I mean, in your case, how do 
you tell, you look at a group of 100 agents and say, ``You 50 
are essential, and you 50 are not.'' Imagine what that does for 
the 50 who are not essential.
    Mr. Mueller. It's difficult.
    Mr. Serrano. Let me ask you a quick question on my other 
District. The FBI is building a new facility in Puerto Rico, 
and I understand the GSA, which we just had a hearing with GSA 
in the Subcommittee that I'm Ranking Member on, has $145 
million dollars for the construction of the facility. Did the 
FBI consult with GSA about the funding, and is this----
    Mr. Mueller. I'm sure. Actually, I'm going to be down in 
Puerto Rico visiting that office in the near future, and that's 
one of the things on the agenda to talk about. But yes, I'm 
sure we do not do anything without GSA.
    Mr. Serrano. Okay. I can understand.
    Mr. Mueller. When it comes to buildings, I mean.
    Mr. Serrano. Okay. I have no further questions, Mr. 
Chairman. Thank you.

                        ELECTRONIC SURVEILLANCE

    Mr. Wolf. Thank you, Mr. Serrano. I have some budget 
questions here. You've included a new increase request to 
establish the Domestic Communications Assistance Center. Other 
Department of Justice agencies have also requested FY 12 
increases for this effort. What is this center, and why is it 
needed?
    Mr. Mueller. This goes to one of the issues that I should 
have mentioned in response to one of the earlier questions that 
we have to look forward to in the future, and that's what we 
call ``going dark''. By that I mean that we face an inability 
to intercept or obtain the results of interception of 
conversations given the growth in technology. Back in the 
1990s, the statute was passed that required communications 
carriers to provide communications to the federal government 
pursuant to a court order and then you had people like AT&T, 
Verizon, and the like, who are the only communication carriers 
around. Today you have Google, Facebook, Microsoft chat and you 
have any number of ways that you can pass communications. We 
will go to court and get an order directing a company to 
provide us those communications. A company will say, ``We don't 
have the capability of doing that.'' What we are looking for is 
legislation to address that increasing gap where companies do 
not have the capability of providing those communications to 
us, pursuant to a court order. This particular entity that is 
being established would have state and local participation, 
along with other federal agencies to address this particular 
issue of how we can assure that when there is a legitimate 
court order, whether it be from the FISA court, a Title III 
court, or from a State court, the companies that provide 
communications capabilities to persons have the ability to 
respond to those court orders.
    Mr. Wolf. There are budget requests from other justice 
agencies for this same effort. Will the FBI have the lead role 
there?
    Mr. Mueller. Yes.
    Mr. Wolf. Then you will have the lead?
    Mr. Mueller. Yes.
    Mr. Wolf. And will they share some of the financial burden, 
too?
    Mr. Mueller. My hope, yes.
    Mr. Wolf. Your hope? Okay.
    Mr. Mueller. I hope it's yes.

                             VIOLENT GANGS

    Mr. Wolf. I have a number of questions on the violent 
gangs. But you know how I feel and Mr. Fattah feels. I really 
hope that you will embed a strong program with regard to the 
gang issue that continues after you leave. You know, we may do 
some language in the bill with regard to that. But I really 
worry, particularly the question that Mr. Culberson asked. The 
violence south of the border is pretty extraordinary, and I can 
remember taking my entire family driving through Mexico with 
all of my children. We went to, you know, Mexico City. We drove 
through the entire, not through the entire country, a large 
portion. You couldn't do that really today, and I worry that 
it's moving north, and the killing of the two Americans just at 
the border crossing. So I really hope that there can be----
    Mr. Mueller. I believe any one of my proposed successors 
would have gangs as one of the top priorities. I do not expect 
that my successor would change much in the way of priorities, 
and gangs is very high at the top. We have so many persons in 
the Bureau who have worked on this over a period of time and 
believe strongly that this is a function that the Bureau should 
have. I cannot really anticipate any diminished effort when it 
comes to addressing violent gangs.

             FBI/ATF EXPLOSIVES INVESTIGATIONS JURISDICTION

    Mr. Wolf. Coming then to the other side of the coin with 
regard to lack of resources, the issue of jurisdiction over 
explosives investigations has been a divisive issue within the 
Justice Department. There have been previous efforts to resolve 
and including instructions by the Deputy Attorney General. The 
OIG has also looked at the issues several times and continues 
to have concerns. The overlap and confusion, you were talking 
earlier about if there is a good spinoff from these budgetary 
matters it would be that we are not going to have any overlaps. 
The IG also looked at the issues and said, ``The overlaps and 
confusion have also been identified by GAO as a potential 
source of cost savings, if we were to eliminate the duplication 
and combine capabilities.'' What is your assessment of the 
current arrangement, and what can be done to streamline 
operations and reduce confusion and also to save money, and is 
there an active effort? I know periodically you will see 
articles in the newspaper about an active effort in the Justice 
Department to resolve the issue.
    Mr. Mueller. Yes. I think the IG report and the like 
predated the Deputy Attorney General's action on those 
recommendations and he, several months ago, issued a directive 
that outlines the lanes in the road when it comes to explosive 
investigations, but also goes further in assuring that ATF has 
a presence on our Joint Terrorism Task Forces. Basically in 
brief summary, any explosion or explosive incident that may be 
tied to terrorism is handled by the Joint Terrorism Task Force. 
On the Joint Terrorism Task Force are ATF agents. Any explosive 
incident that has no ties to terrorism goes to ATF, and so it's 
a fairly clear guideline for both agencies. It's been in 
practice several months now, and as I travel around, I ask the 
question, ``How are we doing?'' and my belief is that it's gone 
a long ways in solving the problems that were pointed out by 
the IG.
    Mr. Wolf. So you think the issue has been resolved?
    Mr. Mueller. Yes, I do. The actions of the Deputy Attorney 
General in this particular area has resolved that issue.
    Mr. Wolf. If the head of the ATF were up here would he say, 
give the same answer, do you think?
    Mr. Mueller. Both of us probably didn't get everything we 
wanted, which is always the case. But I think he would also say 
that it has been resolved.
    Mr. Wolf. Well, you can see in the, this Subcommittee has 
really made an effort to make sure that your efforts are 
completely funded. I know that. But when you do see this 
overlap with ATF as you're giving up certain things, they are a 
capable agency that can do this work. I think if they're doing 
their work, I'd rather see the FBI rounding up al-Awlaki or 
dealing with MS-13 or if there's somebody else always working 
on that area. But if you say the issue's been resolved.
    Mr. Mueller. Can I just comment briefly on that? I am not 
at all reluctant to give up jurisdiction in areas which I think 
should be with other agencies, and I've done it over a period 
of time, both at the Bureau, but also at the Department of 
Justice. In this particular area though, at the outset of an 
explosive incident, you do not know whether it has ties to 
terrorism. You take something like the backpack up in the 
Martin Luther King holiday in Spokane, Washington. Initially 
that is investigated by the Joint Terrorism Task Force, 
including ATF, and it turns out to be a domestic terrorist 
incident. So I would say that the guidance from the Deputy 
Attorney General leads to a presumption, where there is a list 
of factors that seem to indicate that it's a terrorist attack, 
then the Joint Terrorism Task Force would take it at the 
outset. If it is clear it has nothing to do with domestic 
terrorism or international terrorism, then it goes to ATF. And 
I would say that because of our capabilities, our handling of 
devices with the context of a terrorist plot perhaps in mind 
and the experience we've had dealing with IEDs in Afghanistan 
and Iraq, as well as in the United States, that when it comes 
to a terrorist incident, we have the capability and the greater 
backdrop and context of terrorism to investigate those cases.

                                SENTINEL

    Mr. Wolf. Okay. On the Sentinel issue, I think we just have 
to get into that because one of the biggest challenges and I'm 
sure the frustration has been the automation as you mentioned 
earlier of the FBI's case files. Last year you issued a full 
stop work order on the contractor, and I understand you brought 
the management of the project in-house. Can you describe what 
the problem was that led to that decision and was the contract 
not going to deliver the desired outcomes within the existing 
budget?
    Mr. Mueller. Well, the answer to the last question was yes. 
It would not deliver the desired outcomes under budget or 
within a reasonable time frame, so we sought alternate 
solutions. We got into this when the contractor delivered Phase 
Two to us. We found that Phase Two did not have the 
functionalities that we had paid for. The question is why 
didn't you pick this up earlier? The fact of the matter is, in 
the first phase and various iterations in between, you get to 
the deadline and it would be produced and prior to the delivery 
of the second phase, we anticipated that when we got it it 
would work fine, but we found that it did not. There were 
coding errors and other issues that required us to go back with 
the contractor and get those resolved. We then looked around 
and determined how we could be more efficient in handling the 
contract. We put in a partial stop work order for the balance 
of the contract, and developed thereafter what we call an 
``agile'' development capability, which is a different way of 
developing a software capability. We've been using this now for 
maybe six months, and I am comfortable that the smaller team is 
responsive to the needs of the field and is providing to us at 
a much reduced cost, the functionalities that we need based on 
the original contract. Part of my frustration goes to the 
procurement policies of the government in the sense that in 
2004, 2005 we entered into a contract for millions of dollars, 
with a set of requirements that are developed at and for the 
workforce of 2004, and yet is a five year contract, and over 
those five years a number of things changed. The technological 
capabilities in the workplace are advanced. Our business 
practices changed and inevitably the contracts change over a 
period of time. But when you have such a large, timely 
expensive contract like that, you cannot be adept and agile in 
responding either in the change in business practices or the 
change in technology. So the new way of proceeding with the 
contract gives us more flexibility to develop and adopt the 
technology going almost in every case, using the provider of 
the technology as opposed to a middle man, and it also is much 
more responsive to the business needs of today, as opposed to 
the business needs of 2004. I am cautiously optimistic that 
we're on the right path in terms of providing a case management 
system under budget, or at the budget figures that we arrived 
at four or five years ago.
    Mr. Wolf. Do you believe the FBI has the in-house technical 
project management expertise?
    Mr. Mueller. At this juncture, yes, and we also have 
persons from the outside that are monitoring every step.
    Mr. Wolf. Well, here's the concern that I have. The OIG 
contends that your defined budget of $451 million does not 
reflect the true cost of the project because it does not 
provide the cost for maintaining the system for two years as 
the original budget plan did. Do you agree with this statement, 
and if those two year maintenance costs are included, what is 
the full life cycle cost of Sentinel, of it today?
    Mr. Mueller. I'm not that familiar with that particular 
issue. I will say that we've had some disagreements with the IG 
in terms of what is encompassed within the $451 million 
dollars. I'd have to get back to you on that particular issue.
    [The information follows:]

                       Sentinel Funding Breakout

    The FBI has estimated the cost of the Sentinel project to be 
$451,000,000, which takes into consideration the necessary precautions 
for any information technology development effort. This amount includes 
funding for development support, program management, operations and 
maintenance, risk management, and independent verification and 
validation. Additionally, Sentinel Agile development is currently 
within the alloted budget amount and is on schedule. A briefing of 
Sentinel's capabilities will be provided within the next couple of 
months.

    Mr. Wolf. Okay, well who is the manager now of Sentinel? 
What is the person's name and his background? Who is the person 
that now has been brought in-house to head it?
    Mr. Mueller. Well, T.J. Harrington is in charge of the 
whole thing.
    Mr. Wolf. What's his background?
    Mr. Mueller. Well, he's an accountant. I can get you the 
background.
    [The information follows:]

       Biography--Thomas J. Harrington--Associate Deputy Director

    On August 13, 2010, Director Mueller appointed Thomas J. Harrington 
to the position of associate deputy director.
    Prior to his appointment, Mr. Harrington served as the executive 
assistant director of the Criminal, Cyber, Response, and Services 
Branch, the largest operational entity within the FBI, which is 
composed of the Criminal Investigative Division, the Cyber Division, 
the International Operations Division, the Critical Incident Response 
Group, the Office of Law Enforcement Coordination, and the Office of 
Victim Assistance.
    Previously, Mr. Harrington served as the associate executive 
assistant director for the National Security Branch (NSB). During his 
tenure in this position, he also played an integral role leading the 
Strategic Execution Team, which Director Mueller established in 
September 2007 to build on and accelerate the FBI's efforts to enhance 
its national security mission.
    Mr. Harrington also served as the deputy assistant director (DAD) 
for Counterterrorism, Operational Support Branch. During his tenure as 
DAD, he had administrative oversight of the division, as well as 
managerial responsibility for the Foreign Terrorist Tracking Task 
Force, the Counterterrorism Operational Response Section, and the 
National Threat Center. He also played a major role in the 
establishment of the NSB in 2005.
    From 1999 to 2002, Mr. Harrington managed the organized crime/drug 
and violent crimes/major offenders programs as the assistant special 
agent in charge of the Philadelphia Division. While serving as a 
supervisory special agent in the Philadelphia Division, Mr. Harrington 
led the economic crimes squad and was the white-collar crime 
coordinator. Mr. Harrington was instrumental in the proposal and 
subsequent establishment of a a Russian/Eastern European criminal 
enterprise squad in Philadelphia.
    Mr. Harrington began his career as an FBI special agent in 
September 1984. Following a period of training, he was assigned to the 
FBI office in Denver, Colorado. In Denver, Mr. Harrington specialized 
in white-collar crime matters, and more specifically, financial 
institution and securities fraud. In June 1991, he was assigned 
supervisory duties in the Criminal Investigative Division at FBI 
Headquarters in Washington, D.C. As part of his Headquarters 
assignment, Mr. Harrington oversaw the FBI's national insurance and 
securities fraud intitiatives.
    Mr. Harrington is a 1978 graduate of Mount St. Mary's College, in 
Emmitsburg, Maryland and a 1990 graduate of the Stonier Graduate School 
of Banking, American Banker's Association, University of Delaware, 
Newark, Delaware. Mr. Harrington received the Presidential Rank Award 
for Distinguished Executive in 2006.

    Mr. Wolf. How many project managers have there been over 
the life of the project, and where are those individuals now?
    Mr. Mueller. I would have to get back to you, possibly two 
or three.
    [The information follows:]

                   List of SENTINEL Program Managers

    Mio Lazarevich--3/16/06-6/15/07 (Phase I)
    Dean Hall--6/16/07-10/14/07
    Steve Shelton--10/15/07-10/15/10 (Phases 2&3)
    Jeff Johnson--9/15/10-present (Agile)

    Mr. Wolf. I think that is part of--you know, I was out in 
my district. And I went into one location. And we were doing a 
town hall meeting. And I looked at this guy. And I recognized 
him. I said, ``You look just like.'' He said, ``I am that 
person.'' He is gone. He is out. He is moving.
    So I think you have had such a----
    Mr. Mueller. I think you are talking about--well----
    Mr. Wolf. Well I think you have had such a turnover there. 
And the concern is did he come from outside?
    Mr. Mueller. Yes.
    Mr. Wolf. Did he sign a contract that he will stay for the 
next five years? Because you have had one year, two years, 
three, and then they go. I remember the first gentleman you had 
I believe he was from Utah, if my memory serves me.
    Mr. Mueller. Yes.
    Mr. Wolf. He used to live in Oakton. I can recall another 
person. And then I can recall the person that I saw a couple of 
months ago.
    Mr. Mueller. That probably was Zalmai Azmi. He would have 
been there for a period of time.
    Mr. Wolf. Yes, it was. And I think they change so often. 
And I really worry about bringing someone in. I mean, is he 
going to stay? Is he in the----
    Mr. Mueller. For the life of this project, yes. But you are 
talking two different things. One is the CIO.
    Mr. Wolf. Yes.
    Mr. Mueller. Chief Information Officer.
    Mr. Wolf. But that is their responsibility too though.
    Mr. Mueller. Yes. The person I have in that responsibility 
now is Chad Fulgham. He is an Annapolis graduate. He was 
involved in electronics in the Navy over a period of time. He 
went to Wall Street for a period of time and then came to us 
two years ago. He will remain for the period of this contract I 
believe.
    But the fact of the matter is one of the hardest things for 
any of our agencies to do is keep qualified personnel as CIO, 
because with what we pay them compared to what they can make 
out on the street, it is tremendously different.
    Mr. Wolf. Yes. I am not really totally sympathetic to that 
though. I think, you know, your people really do an incredible 
job. And they do it because they are dedicated to the country. 
If everyone just went to where they had the highest salary.
    I was very disappointed once. One of your counterterrorism 
people came in. And I thought he was a wonderful selection. And 
then I found out he was going to work for the gambling 
industry. I mean, how depressing.
    So, yeah, your people could go out and work for the 
gambling industry in Vegas. But that is not what they are. That 
is not who they are. So just because you can make--you could 
have made more money.
    Mr. Director, you could have quit in five years. And you 
could have gone home and told your wife I am leaving. I am 
going to go with one of the biggest law firms on Wall Street. 
You could have named your price. You didn't do it, because you 
are a patriot. And your family stayed in there. And I know your 
people.
    I mean at church I think you have ten agents that go to my 
church. When I am out in wherever I am in my district, men and 
women come up to me. They are good people. And I know. I will 
guarantee that if somebody said, okay, at 48 we can take you 
here. Most of them say, no, we are not going to go. They are 
committed.
    The same way we have very many people in the American 
military in Afghanistan, and Iraq, and places like that who 
could go out. But they don't go out, because they stay. So I 
think it is not really that.
    I think there has been too much of a change in the program. 
And I would hope, you know, and I want, you know, their names 
publicly. And I stipulate if you think they are good people 
they must be. But I think we are going to continue to check are 
they still there, or did they leave to go out for a bigger 
salary or a better salary? This has been really a difficult 
issue.
    And I know you have put a lot of time in on it. And I know 
Glenn Fine has done more, you know, comments about it. But it 
really has to be done right. So I hope who they are stay and 
stay until they can salute to the next director or whoever it 
is and say, you know, job well done. This thing is finished. It 
is a good program. The American taxpayer got the money. The 
Bureau can do what they need to do with the effort. But I think 
you have had too many changes.
    Mr. Mueller. Well let me if I could say something about the 
work that Chad Fulgham and his predecessors have done. People 
tend to look at Sentinel and should, because it is a 
substantial project.
    But in terms of our database structures, we have come 
from-- through some difficult times. We now have the latest 
generation of work space. We have, over 25,000 people who are 
on BlackBerries. We have internet access. We have come a long 
ways in a relatively short period of time technologically.
    One focuses on Sentinel. I understand that. But one also 
ought to focus, on the advances we have made in all the other 
areas of technology that our current CIO and his predecessor 
are responsible for.
    Mr. Wolf. But when Sentinel finishes, assuming it is 
finished well----
    Mr. Mueller. Yes.
    Mr. Wolf [continuing]. What will the total cost be?
    Mr. Mueller. $451 million. That is my hope.
    Mr. Wolf. That is a half a billion.
    Mr. Mueller. Yes.
    Mr. Wolf. From the very beginning.
    Mr. Mueller. Yes.
    Mr. Wolf. So in your overall----
    Mr. Mueller. But we don't have any new case management----
    Mr. Wolf. Right. And I think it is appropriate. And the 
committee has always funded that. But I think the change, and 
the turnover, and the people that I have talked to over the 
years, I keep seeing different people.
    And I just hope the people that are there now, I don't know 
if the gentleman is in the audience or not, but I hope that 
they stay with this until it is concluded and finished. And 
they can turn an ongoing program over for the American 
taxpayer. And so your men and women can do the best job with 
it.
    But there has been a lot of turnover. And I know the Bureau 
people don't want to leave and go work for the gambling 
industry. Not only do they not want to go for--and you don't 
want to go downtown to work for a big law firm that is 
representing China or doing something like that, because your 
people are committed patriots. They do the best thing for the 
country.

                              FBI ACADEMY

    On the training issue, your request for fiscal year 2011 
included an increase of $74 million to renovate facilities at 
the FBI Academy, including the construction of a new dormitory 
and classroom space. This funding has not been provided. And 
given the current status of fiscal year 2011 appropriations, it 
looks like the funding may not be.
    You testified last year that the academy was in a maximum-
service capacity. How are you managing without the funding? And 
what are your plans for fiscal year 2012 and beyond?
    Mr. Mueller. It is like any infrastructure enhancement. It 
is needed. If you don't get the funding for it, you just delay. 
But your infrastructure crumbles around you. Quantico was built 
in the 1970s, I think. Most of the dormitories and the like are 
crumbling. So we are pushing money in to fix up the falling 
concrete, the disrepair. But we need the additional building to 
augment that.
    Again, it goes back to when we are asked to build an 
intelligence capability in the Bureau, which means now having 
3,000 as opposed to 1,000 analysts, including having to train 
those 2,000 additional analysts, including setting up a 
training program. That means personnel, but it also means 
building expenses and costs.
    We have new agents classes. We have the analysts that need 
to be trained. We have state and local law enforcement. One of 
the gems of the Bureau, if you talk to state and local law 
enforcement, is the National Academy.
    Mr. Wolf. I agree.
    Mr. Mueller. I refuse to cut anything out of the National 
Academy, because we are training state and local law 
enforcement. We are also training the middle managers of our 
counterparts overseas. It is one of the most effective programs 
in my mind for identifying the future leaders of police forces, 
whether it be in Asia, or the Middle East, or what have you. 
And giving us a leg up in the future.
    So the training of the National Academy, the agents 
themselves and the analysts, all take space. And that is why we 
requested the funding for this building. If we don't have it. 
Then we will go along. I think, if I am not mistaken, we have 
occasions where we are using a motel to house people because we 
don't have the space down at Quantico.

               FOREIGN LANGUAGE TRAINING/MATERIAL REVIEW

    Mr. Wolf. You have had a difficult time finding or training 
enough agents, analysts, and linguists with critical language 
skills especially Arabic. Could you bring the committee up to 
date on the progress of hiring and training?
    Mr. Mueller. Yes. I don't have the statistics with me 
today, but we have done better over the last few years but not 
as good as I would want. I would have to get you the statistics 
on that.
    [The information follows:]

 Recruiting and Training Agents, Analysts, and Linguists With Critical 
                            Language Skills

    The FBI Foreign Language Program aggressively recruits linguists 
throughout the United States, targeting heritage-speaker communities. 
Language-specific advertising is launched in local publications where a 
recruiting event is set to occur to inform the public of recruiting 
events. Rudimentary initial screening occurs on-site to triage eligible 
potential linguists candidates who are then fed into the formal 
applicant process for proficiency testing and security vetting. The FBI 
has also partnered with the Office of the Director of National 
Intelligence to recruit linguists. Recent FBI and FBI/ODNI efforts have 
produced over 1,000 candidates who have been added to the pool of 
applicants currently in process by the FBI.
    The FBI Foreign Language Program maintains a robust training 
program for each of the three targeted employee groups. Special Agents 
and linguists are offered long-term training at the U.S. Department of 
State Foreign Service Institute and Special Agents may be selected for 
overseas training with international partners. Various other types of 
foreign language training designed to meet specific job criterion are 
provided through multiple commercial and academic vendors. Training 
opportunities are announced via an annual Open Season call for 
candidates. Critical languages, such as Arabic, are given priority 
placement with leadership concurrence.
    The Bureau has increased the number of linguists in all languages 
by 74% since 9/11/2001. The number of Arabic linguists has increased by 
243%, while the number of agents proficient in Arabic has increased by 
134% during the same period.

    Mr. Wolf. Because the OIG found last year that there were 
substantial amounts of unreviewed foreign language material 
that you had collected. And the question was is this directly 
related? And I think the answer is yes to your challenge of 
hiring those qualified.
    Mr. Mueller. I think that was several years ago. And I 
believe that we have responded to that.
    [The information follows:]

          OIG Report on Un-reviewed Foreign Language Material

    The OIG Report provided documentary evidence of the difference 
between the volume of material collected and the amount of material 
processed by the FBI. The FBI acknowledges there are un-reviewed 
foreign language materials; however, the Foreign Language Program works 
closely with the Bureau's operational components to ensure the highest 
priority matters are always covered. The FBI's struggle to hire 
qualified linguists rests on the reality that: few of the critically-
needed languages are taught in the United States education system to 
the proficiency levels required for FBI work; there is a finite 
population of native-speakers of the foreign language from which the 
FBI draws the majority (95%) of its linguists who can successfully 
complete the rigorous proficiency testing; and there are security 
vetting standards which the FBI requires to insure the accuracy of the 
final English-language product, as well as the safeguarding of national 
security information. On average it takes 12 applicants to yield one 
linguist and may take as long as 19 months, owning to the thoroughness 
of the background processing required.

    Mr. Wolf. I think it was last year.
    Mr. Mueller. I will check on that, but I know we have a 
response to the IG on that particular issue. As is usually the 
case, and I can say in almost every instance, we move very 
quickly on the recommendations that come out of the report. And 
rare are the occasions where we don't agree on a particular 
recommendation.

                        CENTRAL RECORDS COMPLEX

    Mr. Wolf. On records management, in the past this committee 
has supported the Bureau's efforts to improve management of its 
central investigative records and to automate those records so 
agents and analysts can share information more easily.
    I understand the fiscal year 2012 GSA budget request 
includes initial funding for construction of a facility. Can 
you give us a quick update on the status of the program?
    Mr. Mueller. I would have to get you more of the details. I 
know we, again, are looking for the funds so that we can start 
the construction of that central records complex that we have 
been seeking for, I think it may have been at least six-seven 
years now.
    [The information follows:]

                  Central Records Complex (CRC) Update

    GSA's FY 2012 Request to Congress includes $97 million to construct 
the Central Records Complex for the FBI.

    Mr. Wolf. I think it has been, yes. And what has it meant 
that you haven't been able to do that?
    Mr. Mueller. We cannot be as efficient as we want. I know 
one of the issues that people raise is FOIA for instance. We 
have become far more efficient with FOIA, but we have records 
going back, probably not 100 years now, but many years. But we 
get probably more FOIA requests, than just about any agency in 
the country. And yet we are still paper records based.
    And to the extent that we can get a centralized records 
facility that would enable us to automate, scan, and better 
access those records, we can be responsive to FOIA as well as 
to our own internal searches where we need to find information, 
on a terrorist case, an espionage case, or a white-collar 
criminal case.
    Mr. Wolf. So you are continuing the work involved in 
completing the inventory and file destruction program to 
prepare for the eventual move?
    Mr. Mueller. Yes.
    Mr. Wolf. Okay. And that space will be backfilled in 
Washington?
    Mr. Mueller. We have moved people out to Winchester.
    Mr. Wolf. How much of that is still in the main building?
    Mr. Mueller. There is some still down in a facility down 
south of Washington, D.C. I am not sure what percentage is left 
there, but headquarters, everyone is out in northern Virginia.

                             LEGAT OFFICES

    Mr. Wolf. Okay. How many legats do you have now in how many 
countries?
    Mr. Mueller. Last I had was I believe it was 60 or 61. I 
had seen, you know, for many years it was 61. We may be at 60 
now. And I don't know why we went from 61 to 60. I would have 
to check on that.
    [The information follows:]

  Number of FBI Legal Attache (Legat) Offices and Number of Countries 
                                Covered

    The FBI currently operates 62 Legal Attache (Legat) offices and 13 
sub-offices in 65 foreign countries.

                   NORTH AFRICAN/MIDDLE EAST PROTESTS

    Mr. Wolf. And you had somebody in Yemen.
    Mr. Mueller. Yes.
    Mr. Wolf. And you had somebody in Egypt.
    Mr. Mueller. Yes.
    Mr. Wolf. How about Bahrain?
    Mr. Mueller. I think Bahrain may be handled out of Egypt. I 
would have to check on that.
    [The information follows:]

                Legal Attache (Legat) Office in Bahrain

    Although the FBI does not have a Legat office in Bahrain, the 
region is covered by Legat Doha, Qatar.

    Mr. Wolf. Jordan?
    Mr. Mueller. Pardon?
    Mr. Wolf. Jordan, did you have somebody in Jordan?
    Mr. Mueller. Yes, we do.
    Mr. Wolf. Libya, did you have somebody in Libya?
    Mr. Mueller. We do not. We have handled that out of 
Algeria. We recently put one in Algeria.
    Mr. Wolf. Because I don't want to get in too much detail, 
because there are a lot of things you would rather not--you 
want to ask but you don't want to. But I just wonder how 
closely are you following all the activity abroad in some of 
these countries to see who are the individuals that are 
involved in the activity there?
    Mr. Mueller. Very closely. I can say we have concerns with 
Yemen and our counterparts in Yemen. What is happening in Yemen 
has resulted in a reduction in cooperation when it comes to the 
counterterrorism side.
    In Egypt we have to develop new relationships with the new 
entities that have been established. We want to be certain that 
what is happening in Libya, take stock of, to the extent that 
we have information in the United States that may bear on what 
is happening in Libya, the opposition forces, who they are, 
what they are doing. We also have a number of Libyans here in 
the United States whether it be students or visitors, and we 
are seeking that information.
    We also want to make certain that we are on guard with the 
possibility of terrorist attacks emanating somewhere out of 
Libya, whether it be Qaddafi's forces or in eastern Libya, the 
opposition forces, who may have amongst them persons who in the 
past have had associations with terrorist groups.
    Mr. Wolf. Yes. I saw yesterday's Wall Street Journal. It 
said, ``The FBI has begun questioning Libyans living in the 
U.S. as part of an effort to identify any Libyan-backed spies 
or terrorists and collect information that might help allied 
military operations. The move reflects concerns among U.S. 
officials in the wake of an allied bombing campaign that 
established a no-fly zone in Libya to prevent the massacre of 
anti-government rebels that Libyan leader Muammar Qaddafi might 
try to orchestrate revenge attacks against the U.S. citizens.''
    So do you pretty much have a handle on who the individuals 
are that are involved in the rebels in Libya?
    Mr. Mueller. I am not certain at this point anybody really 
does. This is an ongoing effort, by us and at the same time by 
State Department, and the agency, and others to identify the 
individuals who may be part of the opposition.
    Mr. Wolf. Okay. So there are no FBI agents on the ground 
today in Libya?
    Mr. Mueller. Not in Libya, no.
    Mr. Wolf. Okay. Mr. Dicks and then Mr. Fattah.
    Mr. Dicks. I just wanted to be here today to thank you for 
your great service to the country. And I have enjoyed over the 
years working with you in the intelligence capacity, and 
counterterrorism, and all the other things the FBI does.
    Let me ask you on the subject that the chairman was just 
raising. There was a news article, a news presentation last 
night, about what we were talking to a number of Libyans in the 
United States about--you know, I guess we are concerned about a 
possible terrorist attack of some sort.
    Can you tell us anything about that in open session?
    Mr. Mueller. Well I can say that there are individuals who 
were previously affiliated with the Libyan government who 
happen to be in the United States. They may have been here 
representing Libya in various international institutions and 
the like. To the extent that they have renounced or denounced 
Qaddafi, are willing to be interviewed and to give us 
information as to what may be happening in Libya, we will 
proceed with those interviews.
    Also with regard to students or visitors from Libya here in 
the United States who may have information on what is happening 
in Libya, we have an outreach effort to them as well to obtain 
what information they might have that may alert us to any 
attempts at retaliation within the United States or elsewhere 
by pro-Qaddafi individuals.
    The other aspect of it is that countries such as Libya may 
have foreign establishments, or may well have intelligence 
officers who are part of those foreign establishments, or they 
may have intelligence officers that are operating with 
different types of cover in the United States. We want to make 
certain that we have identified these individuals to assure 
that no harm comes from them. Knowing that they may well have 
been associated with the Qaddafi regime.

                            BORDER SECURITY

    Mr. Dicks. Have we had problems where some of these people 
have gone through other countries and maybe gotten into the 
United States illegally, and we have been monitoring them? Is 
that an issue? Is that something you are concerned about?
    Mr. Mueller. Yes. I think Mr. Culberson earlier asked about 
special interest aliens coming across the southern border. And 
I would say also that we shouldn't forget about the northern 
border.
    Mr. Dicks. Right.
    Mr. Mueller. But, yes, that has been a concern. We work 
very closely with the Customs and Border Protection. Once these 
individuals are identified, we interview them and have some 
recommendations as to how they should be treated down the road. 
They may well come from a country like Somalia or elsewhere----
    Mr. Dicks. Right.
    Mr. Mueller [continuing]. And have a legitimate claim to 
asylum here, and not in any way be associated with terrorism. 
But we need to know if that is indeed the fact.
    So we do and will continue to work with Customs and Border 
Protection and Immigration Services to make certain that we try 
to identify those persons who may have had some association 
with terrorism if they are attempting to come through the 
southern border or even the northern border.
    Mr. Dicks. Thank you very much. I appreciate it.
    Mr. Wolf. Thank you. Mr. Fattah.

       RELATIONSHIP WITH INTERNATIONAL LAW ENFORCEMENT COMMUNITY

    Mr. Fattah. I thank you, Director. With Chairman Young on 
the Defense Committee, I traveled to Brussels a while back. And 
we met with all of the EU law enforcement, your counterparts in 
the EU countries. And it is an amazing thing that they have 
worked out where they have a jurisdiction across these national 
boundaries, all across the 20-plus countries.
    Because you do work in Europe and Africa, in fact, 
everywhere, I assume, your relationships with our European 
allies in the EU are strong, including with Interpol, because I 
want to move to a subject that connects up to this in a minute. 
But I assume that the relationships are very good.
    Mr. Mueller. Our relationship with Interpol is very good, 
and our relationship with EUROPOL is good. Some of the things 
that EUROPOL has done in terms of having a European-wide 
extradition process that is expedited and a European-wide 
arrest warrant are to be commended.
    One of the issues with a multilateral organization, 
however, is the lowest common denominator. When it comes to 
sharing intelligence, many services to a certain extent, 
including our own, are reluctant to put the intelligence into a 
database that could be accessed by you don't know whom.
    So while we have very good relationships with EUROPOL, I 
would say we have better bilateral relationships, because you 
develop a level of trust in the bilateral relationship that is 
difficult to do when you are dealing with a multilateral 
corporation.

                 HUMAN TRAFFICKING/VIOLENT CRIME/GANGS

    Mr. Fattah. Well I am going to come to my final subject in 
a minute, which is human trafficking and how it plays out.
    But I just want to run through a few other areas quickly. 
Given your decade, almost decade, of service and looking 
forward in a number of areas, I would be interested in what 
your view is about whether there are going to be continuing or 
declining problems. We see organized crime now, Eastern 
European, Russian, and the like playing out here in the United 
States.
    Do you see this as a continuing or declining problem going 
forward for the country?
    Mr. Mueller. I think it is going to be an increasing 
problem, whether it be Eastern European criminal groups or 
Asian organized crime. That I think will be expanding.
    Indeed, my own view is that while the statistics show that 
violent crime has been reduced over the last several years, I 
am not certain that we can continue that. There is a great deal 
of uncertainty as to what has contributed to that reduction in 
crime. It may well be----
    Mr. Fattah. I thought it was your tenure.
    Mr. Mueller. I was going say it was Chuck Ramsey in 
Philadelphia. And I think it is to a certain extent policing. 
But also given the economic climate, given the caliber of the 
weaponry that is out there, I am not certain we can sustain 
that reduction level in the future. I would be concerned about 
that.
    But on the upswing, quite obviously as I mentioned, is 
cybercrime. It is going to be increasingly a growing problem.
    Mr. Fattah. When I traveled to Africa, we were told when we 
went to certain parts of the continent, we shouldn't have any 
ID, any credit cards, because of the significant counterfeiting 
problem emanating particularly in certain countries that I am 
sure you are aware of.
    Do you see this as a declining issue, their ability to copy 
and produce almost any document?
    Mr. Mueller. To the contrary. Africa is getting wired. That 
is the only way to put it. The access to the internet where the 
cables are being installed will increase the capabilities of 
criminal groups operating there to expand across the globe. 
They will have the bandwidth that they did not have before to 
undertake criminal activities outside of the continent of 
Africa, affecting victims in countries around the world.
    Mr. Fattah. Now the street gangs here that we talked about 
already, both domestically grown and those that have expanded 
internationally coming our way through South America and other 
places, do you see this problem growing or declining going 
forward?
    Mr. Mueller. I don't know how much it will grow. It is as 
substantial as it is today.
    Mr. Fattah. There are perhaps over a million or so gang 
members.
    Mr. Mueller. Well if you are talking MS-13, or if you are 
talking about any number of gangs out there, MS-13, the 18th 
Street Gang, the Nuestra Familia, the Mexican Mafia, the Latin 
Kings, Crips, Bloods, across the board. The gangs have not 
substantially diminished. I haven't seen substantial growth. 
But it is just a continuous presence.
    Mr. Fattah. With regard to hate groups and the 
supremacists, I know you have made a number of arrests in these 
areas. Domestic terrorism has been a major concern from Timothy 
McVeigh and forward. Is that a problem that persists 
significantly as part of the FBI's focus?
    Mr. Mueller. Yes. We have not forgotten that the largest 
loss of life prior to September 11th was Oklahoma City. Our 
concern is certainly the groups that I think you allude to.
    But also the lone wolf, the individual who is not 
necessarily affiliated with one of those groups or may at one 
time have been affiliated with one of the lesser groups and 
been rejected from the group. In part because they may be too 
violent. So they are off on their own and willing to undertake 
terrorist attacks that other members of the group may not want 
to undertake, because it draws the scrutiny of law enforcement 
to that particular group.
    So the lone wolf is a real problem. We talk about the 
Holocaust Museum, von Brunn, an individual who harbored 
tendencies. He walks in and shoots a guard in the Holocaust 
Museum, a lone wolf that we could not have identified before 
and stop such an attack even though he had been in our files at 
some point in the past. That is our biggest problem and the 
biggest threat we face.
    Mr. Fattah. Now I talked to you, privately, about nuclear 
material. And I know that we have spent a lot of effort and 
resources on being able to detect nuclear material and to 
inspect cargo.
    If you play out one of the incidents in any of the kind of 
game playing that you go through, it is a major concern, 
whether it is New York City, or Philadelphia, or Washington, 
D.C.
    Does the Bureau have all of the resources that it needs? I 
know you have some requests that are particularly related to 
this area. But do you need additional resources as you see this 
playing out going forward?
    Mr. Mueller. Yes. I think this is probably a topic we ought 
to discuss off the record. But I will say we have the 
responsibility for render safe in the United States. And that 
we take that exceptionally seriously.
    The resources we have asked for in 2012 will enable us to 
be responsive should there be an incident. But we would also be 
happy to give you a briefing as to how we operate in such an 
incident. And not just us but how we operate with, to a certain 
extent, DOD but most particularly with the labs around the 
United States in terms of addressing a render-safe situation.
    Mr. Fattah. Well I have visited the Los Alamos Lab and 
Sandia Lab. But this is a concern. And we will follow it up 
with the chairman and deal with this.
    My final set of questions has to do with human trafficking 
and sexual trafficking. There have been a lot of arrests, a lot 
of concern in this area. But it seems as though this is a 
problem that is continuing to be something that challenges the 
country where women, some domestically, I mean, American 
citizens and also women brought here from other places are 
essentially being put into a state of almost slavery. And this 
is a nationwide problem. It is taking place in places all over 
the country.
    I would be very interested in what you could tell us about 
the work of the FBI in this regard and what, if anything, we 
can do to apply more resources to this problem.
    Mr. Mueller. We address the problem in two areas. One is 
civil rights. Under that program in which individuals who are 
brought to the United States in, I think I can appropriately 
say, conditions that are akin to slavery. You know, we have a 
number of cases in that arena over the last year. I can get you 
the statistics.
    And then we have what is called the Innocence Lost 
Initiative, which addresses child prostitution throughout the 
country, particularly along the highways. Over the years, I 
think it may have begun in 2007, we have made a number of 
arrests of individuals who are providing those services and 
holding children in some form of a mental or financial 
constraints.
    We have identified more than 1,000 children who have been 
involved in this kind of activity and been able to rescue them 
from that activity, which is probably the most satisfying 
aspect.
    You know, even more satisfying than putting the person away 
is freeing up a child who has been caught in, I would call it 
some form of bondage.
    Mr. Fattah. Thank you, Mr. Director. And thank you again, 
for your service to the country.
    Mr. Wolf. Thank you. Mr. Serrano, Mr. Dicks, any other 
questions?
    I am pretty much finished. I just want to cover a couple 
last points. One to follow up with Mr. Fattah. I think more 
should be done on the situation of human trafficking, sexual 
trafficking.
    We have convinced U.S. Attorney MacBride to have a task 
force. He has one now. Every U.S. Attorney's Office ought to 
have a task force. And if you could do anything about that.
    Secondly, a group named Polaris gave me a list of 72 sites 
in the northern Virginia area where women are trafficked. I 
raised it with a number of people. And it just seems like they 
just sort of just say, well, you know this is interesting. I 
will get it over to you today. If your people can maybe come by 
the office, we can give you the list, addresses, places.
    They ought to be closed down. Now some people say well they 
make the cases so difficult. And we close them down today and 
they go over there. Okay. Close them down today, rescue the 
young women that are in there, and do something about it.
    If someone said in that location slavery is going on. And 
there is someone from the neighborhood's daughter in there, 
everyone would say let us go and deal with it. So I am going to 
give you the 72 locations. And hopefully the northern Virginia 
office can just look at it and talk to the Fairfax County 
Police.
    They ought to be shut down if they open up the next day. 
Also they ought to be tracking down who owns the building. The 
fire department should be able to do a fire inspection. The 
health department ought to do. But if there are women or 
children in there, then they ought to be shut down.
    And so we will supply that to you by the end of the day. 
And you can just walk by. At least I can give it to you. And if 
you could have your people look at it.
    Mr. Mueller. You mentioned 72 sites. And you also mentioned 
task forces. We do participate in human trafficking task forces 
around the country, in excess of 71. We are participating in 
the task force in addition to what we talked about in terms of 
the other initiatives we have.
    Mr. Wolf. Well that is good. Although, you know, I sense 
that people think the problem is in Albania when it is really 
in Annandale. And so I think in order to bring people back to 
it, I think every U.S. Attorney ought to have it. So I agree 
with what Mr. Fattah said.
    Also, just to plant in the back of your mind, there is a 
facility in northern Virginia. It is not in my congressional 
district, the Joe Gibbs home. It is Youth for Tomorrow. They 
have a number of beds available whereby when you go into these 
facilities, and you take, and you shut them down, there has to 
be a place.
    And so I would hope your people could find out about that. 
So as we tell the judges-- so if they don't know what to do. We 
can't put a young woman in prison or in jail. So there has to 
be a place for rehabilitation. So I would hope that somebody 
could let the U.S.----
    Mr. Mueller. We will check on that.
    Mr. Wolf. Okay. Check on that.
    Thirdly, if al-Qaeda had to pick coming across the northern 
border, or the southern border, or coming in at Dulles Airport 
and going through an inspection, they are going to come through 
the northern border or the southern border.
    So I think this, what Mr. Dicks and Mr. Culberson said, is 
a real concern. I mean they could affiliate with MS-13 and take 
them across.
    Lastly or next to last, do we have a legal attache in 
China?
    Mr. Mueller. Yes.
    Mr. Wolf. Okay, good. Lastly, I think if the administration 
and the FBI ought to be very careful with some of these people 
who are now going on television, Libyans, and expressing great 
solidarity with the rebels. It is like Paul having a conversion 
on the road to Damascus.
    These are people that were representing a fundamentally 
evil government. I will now say these ambassadors are flipping, 
because they don't want to go to jail, or they don't want to be 
deported. But people who are now, who may very well have been 
involved in the Lockerbie bombing, may well have been involved 
in the Berlin disco bombing discoteca, are now having this new 
feeling.
    And I see the one ambassador, I won't mention his name, he 
is on television almost constantly. And nobody ever says to 
him, the media never says, well, Mr. Ambassador, how did you 
for 33 years continue to work for Qaddafi during this period of 
time? Did you ever have a conscience? And what was the moment 
that you had your Paul-to-Damascus conversion? Was it when you 
saw what he did? I mean and frankly they are all fleeing for 
that reason.
    So I really don't want to see this administration give 
political asylum to these people who automatically are just 
trying to--who have been involved in some pretty fundamentally 
evil activities up to this point.
    Mr. Mueller. I can assure you that the people who deal with 
this day in and day out understand that.
    Mr. Wolf. Okay. I want to, again, thank you for your 
testimony. I think you have done an incredible job. And please 
thank the men and women of the Bureau. Also your people who 
work the Hill have done a very good job, so please thank them 
too.
    Mr. Mueller. Thank you. Thank you very much.
    Mr. Wolf. Okay, hearing adjourned.

    [GRAPHIC] [TIFF OMITTED] T7259A.100
    
    [GRAPHIC] [TIFF OMITTED] T7259A.101
    
    [GRAPHIC] [TIFF OMITTED] T7259A.102
    
    [GRAPHIC] [TIFF OMITTED] T7259A.103
    
    [GRAPHIC] [TIFF OMITTED] T7259A.104
    
    [GRAPHIC] [TIFF OMITTED] T7259A.105
    
    [GRAPHIC] [TIFF OMITTED] T7259A.106
    
    [GRAPHIC] [TIFF OMITTED] T7259A.107
    
    [GRAPHIC] [TIFF OMITTED] T7259A.108
    
    [GRAPHIC] [TIFF OMITTED] T7259A.109
    
    [GRAPHIC] [TIFF OMITTED] T7259A.110
    
    [GRAPHIC] [TIFF OMITTED] T7259A.111
    
    [GRAPHIC] [TIFF OMITTED] T7259A.112
    
    [GRAPHIC] [TIFF OMITTED] T7259A.113
    
    [GRAPHIC] [TIFF OMITTED] T7259A.114
    
    [GRAPHIC] [TIFF OMITTED] T7259A.115
    
    [GRAPHIC] [TIFF OMITTED] T7259A.116
    
    [GRAPHIC] [TIFF OMITTED] T7259A.117
    
    [GRAPHIC] [TIFF OMITTED] T7259A.118
    
    [GRAPHIC] [TIFF OMITTED] T7259A.119
    
    [GRAPHIC] [TIFF OMITTED] T7259A.120
    
    [GRAPHIC] [TIFF OMITTED] T7259A.121
    
    [GRAPHIC] [TIFF OMITTED] T7259A.122
    
                                         Wednesday, March 16, 2011.

                    DRUG ENFORCEMENT ADMINISTRATION

                                WITNESS

MICHELE LEONHART, ADMINISTRATOR
    Mr. Wolf. The hearing will come to order.
    Today we welcome Michele Leonhart, administrator for the 
Drug Enforcement Administration.
    We thank you for your appearance today. You are testifying 
for the 2012 budget request for the Drug Enforcement 
Administration.
    For fiscal year 2012, the DEA is requesting a total of 
$2.36 billion, an increase of $92.6 million or 3.6 percent 
above the fiscal year 2010 and fiscal year 2011 CR levels.
    Most of that increase is in the diversion control area, and 
that part of your budget is financed by fee collections. So the 
increase in your direct appropriations is actually much 
smaller, an increase of only $22 million or 1.1 percent.
    Your budget request includes some notable cuts including a 
proposal to eliminate your mobile enforcement teams, a recision 
of $30 million from balances in your salaries and expenses 
account, and a general efficiency reduction of about $8 
million. The committee will be interested to hear about the 
impacts of these proposed reductions.
    On the diversion side, you are seeking a $31 million 
increase for regulatory control and enforcement activities, all 
supported by fee collections. I understand the fee collections 
are falling far short of estimates this year, so I have some 
questions about how likely it is that these increases will 
materialize.
    Finally, we will have some questions about your ongoing 
operations in Afghanistan for counter-narcotics activities or 
overall part of the counter-terrorism effort. Your presence 
there was initiated there with emergency supplemental 
appropriations that relied since then on transfers from the 
State Department.
    Before you begin your testimony, I want to commend you and 
your employees for the important and often dangerous work that 
you do every day both here and overseas to protect American 
communities from the scourge of drug trafficking. So please 
pass along to your people our appreciation for their hard work.
    Before we recognize you to present your testimony, I would 
like to recognize my colleague, ranking member, Mr. Fattah, for 
any comments he would like to make.
    Mr. Fattah.
    Mr. Fattah. Let me thank the chairman.
    And let me thank you. I look forward to your testimony and 
the opportunity to ask a few questions. And like the chairman, 
I am interested in a number of the activities of the agency 
relative both to your overseas work for instance in Afghanistan 
and West Africa, but also to talk a little bit about issues 
closer to home, both the situation with the southwest border 
and other issues. But we will get into that after your 
testimony.
    Thank you.
    Ms. Leonhart. Thank you.
    Mr. Wolf. Well, you may proceed. Your full statement will 
appear in the record. Go ahead.
    Ms. Leonhart. Thank you, Chairman Wolf and Ranking Member 
Fattah and Members of the subcommittee. It is my honor to 
appear before you to discuss DEA's fiscal year 2012 President's 
budget request.
    First, I want to thank you for your continued support of 
our critical law enforcement mission. Your partnership is 
particularly appreciated in this difficult budget environment, 
when we are being asked to work harder and smarter and more 
efficiently, even as the challenges of drug law enforcement 
continue to grow.
    I would also like to highlight a few of DEA's recent 
achievements and our priorities for fiscal year 2012, and these 
include our efforts along the southwest border in cooperation 
with Mexico, our bilateral operations in Afghanistan and the 
nexus between drugs and terrorism, and prescription drug abuse.
    First about Mexico and the southwest border: the violence 
in Mexico is of great concern to all who care about freedom and 
stability in our hemisphere, and it presents fundamental 
challenges to Mexican governance, our border security, and the 
fight against dangerous drugs in the United States.
    However, our partnership with the government of Mexico is 
now more effective than ever before, and together we have 
inflicted tremendous damage on all of the Mexican drug cartels. 
And these efforts are directly supported by the DEA-led El Paso 
Intelligence Center, also known as EPIC.
    EPIC is a multi-agency tactical and strategic intelligence 
center consisting of almost 30 law enforcement organizations 
and now includes representatives from Mexico and Colombia. And 
our fiscal year 2012 budget request includes $10 million to 
expand that interagency participation at EPIC.
    About Afghanistan and narco-terrorism: unfortunately, drug 
trafficking from Mexico is not the only challenge that DEA 
faces. Drug trafficking and the associated crimes of narco-
terrorism and money laundering occur around the globe, and this 
is of particular concern because drug trafficking fuels 
terrorism. Nowhere is this more evident than in Afghanistan 
where narco-terrorists provide direct assistance to those 
fighting American soldiers. With 82 positions assigned to 
Afghanistan, DEA has a strong presence there and plays an 
integral part in the U.S. Government's overall strategy in the 
region. By working closely with our Afghan law enforcement 
counterparts, we are bringing to justice the most significant 
drug traffickers in Afghanistan and helping to build 
institutions capable of enforcing the rule of law.
    Our efforts to target narco-terrorists have yielded results 
in Afghanistan and beyond, and recently DEA and the Department 
of Treasury announced the designation of the New Ansari Money 
Exchange under the Kingpin Act. This network is a major money 
launderer for Afghan drug trafficking organizations. A week 
earlier, we identified the Lebanese Canadian Bank as a 
financial institution, a primary money laundering concern, and 
we also exposed links between this bank, international drug 
trafficking networks, and the terrorist organization Hezbollah.
    Of no less concern, though, is the fastest-growing drug use 
problem in the United States. It is not meth or marijuana or 
cocaine. It is the abuse of controlled prescription drugs. DEA 
has been aware of this trend for years, and we have been 
responding accordingly.
    The fiscal year 2012 President's Budget requests 291 
Special Agents for the Diversion Program. That is an increase 
of 273 agents from what we had working on this problem in 
fiscal year 2005. Some of this increase has come through 
enhancements approved by this subcommittee, and some have come 
through redirection of our existing agent workforce that we 
have implemented internally. The increase requested for fiscal 
year 2012 will enable us to expand our tactical diversion squad 
which combines Special Agents, Diversion Investigators, and 
task force officers to focus on enforcement activities. By 
approving this request, you will help us intensify the work DEA 
has already begun: aggressively closing pill mills, cracking 
down on the domestic production of meth and targeting illegal 
internet pharmacies.
    Enforcement efforts are an essential component of 
preventing the diversion of controlled prescription drugs and 
chemicals, but it is not the only thing that we can do. Careful 
consideration must be given to whether federal and state laws 
should be updated to require prescriptions for products that 
contain pseudoephedrine and ephedrine in order to reduce 
domestic meth production.
    DEA is also combating abuse and diversion by sponsoring 
National Take-Back days. Last year, the first Take-Back 
resulted in the collection of more than 121 tons of unused, 
unwanted, and expired prescription drugs. We will conduct the 
second Take-Back nationally on April 30th.
    Combined with the forthcoming implementation of the Secure 
and Responsible Drug Disposal Act, Americans will be able to 
dispose of prescription drugs in a safe and secure manner every 
day of the year.
    So in concluding, the threat from dangerous drugs is a 
continuous fight we must undertake for the health, safety, and 
welfare of our Nation. Traffickers are in the business to make 
money, and they do not care who gets hurt along the way. DEA 
has unwavering commitment to putting these traffickers out of 
business and fulfilling our mission to enforce our Nation's 
drug laws. Our efforts are paying off, but we must and will do 
more. And as we do so, I know we will have many more successes 
to report to you in the year ahead.
    Thank you for the opportunity to speak to you today, and I 
look forward to your questions.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259B.001
    
    [GRAPHIC] [TIFF OMITTED] T7259B.002
    
    [GRAPHIC] [TIFF OMITTED] T7259B.003
    
    [GRAPHIC] [TIFF OMITTED] T7259B.004
    
    [GRAPHIC] [TIFF OMITTED] T7259B.005
    
    [GRAPHIC] [TIFF OMITTED] T7259B.006
    
    [GRAPHIC] [TIFF OMITTED] T7259B.007
    
    Mr. Wolf. Thank you very much.
    Before I begin with some of the questions we have, I want 
to ask you a couple of general ones that were not in the list.

                   AGENTS KILLED IN THE LINE OF DUTY

    How many DEA agents have been killed in the last ten years 
and can you talk a little bit about where, and the danger that 
they face?
    Ms. Leonhart. Sure. It is not only DEA agents that have 
been killed in the line of duty, but it is also task force 
officers. I will start with three agents a year ago last 
October, three hard-working, very talented agents that died in 
Afghanistan on our Afghanistan mission.
    They were doing the duties. One was assigned to the Kabul 
country office and two were members of our FAS team who died 
after executing a search warrant in one of the western 
provinces in Afghanistan.
    Just shortly before that, a year before that, there was an 
FBI agent who was killed in Pennsylvania while working on a 
drug organization and serving search warrants.
    Prior to that, we had an agent who was attending a 
conference in New Orleans who was murdered by a crack addict.
    We went several years without losing anyone. We lost a 
pilot in 2005. So over the past ten years, we have lost agents. 
We have lost fellow federal agents from other agencies; and we 
have lost task force officers. And I am very concerned about 
the tempo, the assaults we have seen on not only federal 
agents, but especially state and local agents, this uptick over 
the last year after a 40- or 50-year low in deaths to law 
enforcement.
    Mr. Wolf. Okay. Can you submit for the record, get it to 
the staff maybe within the next two weeks, a report on how many 
DEA agents and other FBI and others in task forces have been 
killed, say, since the year 2000? And we can discuss why, but I 
would like to just submit them for the record too.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259B.008
    
    [GRAPHIC] [TIFF OMITTED] T7259B.009
    
    [GRAPHIC] [TIFF OMITTED] T7259B.010
    
    [GRAPHIC] [TIFF OMITTED] T7259B.011
    
    [GRAPHIC] [TIFF OMITTED] T7259B.012
    
                              VIKTOR BOUT

    Mr. Wolf. Secondly, I want to thank DEA for the Viktor Bout 
arrest and apprehension. And I'm going to submit for the record 
a Newsweek story ``Getting to Bout.''
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7259C1.001
    
    [GRAPHIC] [TIFF OMITTED] T7259C1.002
    
    Mr. Wolf. I was in Africa once. We were in the Congo and 
they said all those planes are Viktor Bout's planes and they 
are bringing in guns and weapons. And why were the Russians so 
anxious to keep Bout, known as the ``Merchant of Death,'' out 
of America.
    And so I just want to thank you and thank the DEA people 
for the outstanding job of staying with it because I think it 
would have been easy to give up on Bout and also I think in 
fairness to give credit to the Administration, I think 
Secretary Clinton and others who stayed with that and did not 
allow it to drop.
    Where is Viktor Bout these days and can you give us the 
status of his case?
    Ms. Leonhart. Sure. I can probably say that----
    Mr. Wolf. And tell us just in a couple sentences----
    Ms. Leonhart. I can probably say it----
    Mr. Wolf [continuing]. Some of the things that he did, so 
we understand how important this was.
    Ms. Leonhart. I can probably say that he is facing trial in 
New York. We got him extradited from Thailand in November. And 
he faces charges of attempting to sell weapons and missiles to 
people who he thought represented the FARC in Colombia and was 
even offering to give air access to help them to use these 
weapons to shoot down U.S. and Colombian aircraft.
    Mr. Wolf. And was involved in Africa. I mean, many people 
died in Africa because of his----
    Ms. Leonhart. Sure. His history is he armed many conflicts, 
especially conflicts in Africa. The charges that we were able 
to take him down on related to his willingness and his 
conspiracy to fund the FARC.
    Mr. Wolf. Well, I want to again thank you because had he 
not been--and also the Thailand government, too, for 
cooperating in the way they did. I know it would have been easy 
to walk away from it. But this Administration stayed with it to 
their credit and the DEA did. And I think it is very, very 
important.
    When is the trial scheduled?
    Ms. Leonhart. I believe October of next year.

                            MEXICAN CARTELS

    Mr. Wolf. Okay. October next year. Well, thank you.
    I want to ask about the drug threats from Mexico. I 
understand the Mexican cartels now control drug distribution in 
most cities and where they do not control them, they are 
gaining strength. The struggle against the cartels have gone on 
for years and the violence seems to be continuing unabated.
    Can you give us an update on the status of the joint 
efforts with the Mexican Government and describe the 
overarching strategy that DEA is using to disrupt and hopefully 
dismantle the cartels? And I am very sympathetic to the Mexican 
Government and to the Mexican people to see what we can do to 
be helpful. But if you could kind of do that, I would 
appreciate it.
    Ms. Leonhart. Thank you, Chairman, for asking about that. 
That is our number one priority at DEA.
    We have had significant successes in the past several years 
specifically since the Calderon administration started in 
December of 2006. We have had an unprecedented partnership with 
them and we are helping them on this struggle because it not 
only affects Mexico, it affects the United States. More than 90 
percent of the drugs entering this country come through Mexico, 
and that is of concern.
    And we have seen over the past several years where the 
seven Mexican cartels, with their domestic affiliates and cells 
working for them, have taken over drug markets all across the 
country and not just cocaine, but some heroin markets and 
methamphetamine. And then there is, of course, the collection 
of those funds, bulk cash going back down to Mexico, as well as 
weapons.
    So we have a strategy to work with our Mexican 
counterparts. We have the largest law enforcement presence in 
Mexico, and we are working around the clock with them to target 
those most responsible, not only for the cartels, but also most 
responsible for the violence.
    I will say that the successes include the recognition that 
those cartels we are breaking up. You know, like huge boulders, 
we are trying to break them into small pebbles, and that really 
is why you are seeing the violence that you are seeing. They 
are in disarray. They are acting out like caged animals. They 
are losing their routes. They are losing their money.
    We are seizing cash that they use to continue their 
operations, and we are having a great effect on attacking not 
only domestically those organizations that are trafficking all 
across the country, but tying the information and the 
intelligence we are getting from our domestic cases, bringing 
that down to Mexico, sharing it with our Mexican counterparts, 
and actually being able to act on that information.
    So for the kingpins, the highest level traffickers: last 
year, we arrested three CPOTs (Consolidated Priority 
Organization Target) with the Mexicans. The Mexicans, this 
year, acting on our intelligence, have already arrested three 
CPOTs and have taken off significant high-level leadership of 
every cartel in Mexico.
    Mr. Wolf. Now, were you saying all the cartels in Mexico 
have some relationship or are active here in the United States?
    Ms. Leonhart. Every cartel in Mexico has people, has 
affiliates, has members working in the United States, yes.
    Mr. Wolf. With regard to helping the Mexican Government, 
would you comment if you were to take Plan Colombia, the 
concepts behind Plan Colombia, because having seen Colombia 
where it was, if you recall, they even came into the Supreme 
Court and killed Supreme Court justices, to where it is to 
today, they have made tremendous gains, and we could hope for 
our friends south of the border the same success whereby the 
people of Mexico could live in peace and freedom similar to 
what is taking place in Colombia today versus how it was?
    Are there models or are you taking all of what was 
successful in Plan Colombia and applying it with regard to 
Mexico, of course with cooperation with the Mexican Government?
    Ms. Leonhart. We have been working with our partners in 
Mexico since the Calderon administration came in, to identify 
for them, especially with DEA's enforcement mission, what 
worked for us in Colombia, what was successful, and offer those 
same things to the Mexicans.
    We have done the same with bringing a partnership between 
the Mexicans, the Colombians, and our country. We signed an 
agreement in 2007 called the Tripartite Agreement where we 
agreed, our three nations would learn from each other and share 
with each other.
    And many pieces of Plan Colombia, the things that worked, I 
have been there because we have sponsored now eight tripartite 
meetings with our three countries. And we have seen the 
Colombians, with the current president, the former defense 
minister, Santos, and the Colombian national police, General 
Naranjo, actually walk through what they did during Plan 
Colombia, what they did to really turn around the drug 
trafficking and all the violence in Colombia.
    The Mexicans have taken some of that and have put that into 
practice. So we are constantly learning about things that have 
worked in Colombia and sharing those with the Mexicans, and 
have actually learned in Colombia how we stood up sensitive 
investigative units. We have done the very same thing with the 
Mexicans in Mexico, and that is why we are having these 
enforcement successes really over the last couple of years.
    Mr. Wolf. Now, how would you compare the seriousness in 
Mexico today with the seriousness it was in Colombia at its 
height, Mexico and violence at its height? Is there some hope 
for the Mexican people so they can see. Can you make a 
comparison?
    Ms. Leonhart. There is great hope for the Mexican people by 
looking at the Colombia experience. I would like to say that 
right now, even with all the violence in Mexico, President 
Calderon has about a 50 percent approval rating. And it is 
interesting that currently 73 percent of Mexicans think that 
the government of Mexico should continue directly confronting 
the drug trafficking organizations and weakening their 
organized crime.
    I have taken people down to Colombia who only know Colombia 
from the 1990s, and it is such a stark contrast. It is a 
different place now, and it is our hope and why we have 
prioritized our relationship and our enforcement operations 
with Mexico. It's our hope that we will be able to turn and see 
that after this relentless attack on the cartels, that we will 
then be able to bring that cartel problem to a regular law 
enforcement problem that can be dealt with by law enforcement 
officials and not need the military and not need some of the 
resources that President Calderon has had to call to attack the 
problem. So we are very optimistic.
    Our friend, the former attorney general, Medina Mora, who 
we keep in touch with, always used to warn us and used to say 
it still may get worse before it gets better. And I do not know 
at what point we say that, you know, it has turned, but I can 
tell you that those cartels are on the run. Leaders that used 
to be in charge and be able to corrupt high-level officials and 
corrupt police forces and corrupt entities to be able to move 
their drugs are in jail, are dead, or in the United States in 
jail. The average tenure of a plaza boss in Mexico, which used 
to be multiple years, is now about six months, and that is 
because the courageous Mexican Government has taken on those 
cartels like they have never been taken on before.
    Mr. Wolf. In your testimony, you describe Project 
Deliverance, 429 individuals who were arrested in 16 states in 
a single day.
    Can you describe how these Mexican cartels establish and 
operate such networks and to what extent are domestic gangs 
linked to the cartels, just not the cartels who are active, but 
to what extent is it actually connected?
    Ms. Leonhart. Deliverance was an operation that we worked 
with over 300 state and local police departments and all of our 
federal partners. It really allowed us to identify the 
facilitators, the people transporting, the truckers, the people 
moving money, the people that help those cartels. So it was the 
first time it did not concentrate on one specific cartel, but 
the operation targeted across the country those facilitators, 
those that help the cartel. Part of that operation was looking 
at what gangs in the United States are also helping. We 
concentrated a number of our operations down in the El Paso 
area.
    And we saw that, for instance, the Barrio Azteca prison 
gang operating on both sides of the border helped facilitate in 
many ways. In some ways, they were low-level drug traffickers 
themselves, but the cartels paid them in product and paid them 
to do the dirty business of the cartels to keep people in 
order, assassinate. So that really helped us see this 
connection between gangs operating on this side of the border 
and the other side of the border and their connection and what 
they do in the business, in the cartel business.
    Mr. Wolf. But when we say there is a connection, is there a 
connection just with gangs along the border? Is it a connection 
that takes all the way in throughout the United States?
    Ms. Leonhart. The best way for me to explain it----
    Mr. Wolf. The 50 states, how extensive would the connection 
be in all 50 states?
    Ms. Leonhart. I will tell you that most street gangs make 
the majority of their money by selling drugs. The drugs that 
they are selling are controlled and came into this country by 
the cartels. So there can be loose connections, but the cartels 
and the domestic cells that work for the cartels are supplying 
all of those street gangs. It does not matter if you are in Los 
Angeles, Seattle, Washington, New York, Philadelphia; those 
cartels are the suppliers for those gangs.

                      EL PASO INTELLIGENCE CENTER

    Mr. Wolf. One of the primary interagency law enforcement 
assets is the El Paso Intelligence Center. Your fiscal year 
2011 request included $42 million for permanent expansion and 
renovation to the EPIC facility to accommodate increased 
participation by a number of agencies.
    We still have no bill for fiscal year 2011, but your fiscal 
year 2012 request includes instead $10 million for modular 
buildings.
    How many agencies participate in EPIC and how many intend 
to increase their EPIC staff levels over the next few years?
    Ms. Leonhart. Thank you for that question.
    There are almost 30 agencies there.
    Mr. Wolf. Can you give us some examples?
    Ms. Leonhart. Sure. ATF, FBI, ICE, CBP. We have some state 
and local organizations like Texas Department of Law 
Enforcement, DPS. We have people from the Intel Community 
there. We also have representatives for the first time from 
Colombia and Mexico working in EPIC.
    There are nine agencies that would like to expand their 
presence at EPIC over the next six months to five years, so we 
are out of space at EPIC. We see great utility in expanding the 
operations of EPIC and that is why the request for the $10 
million.
    Mr. Wolf. Would the $10 million be enough to do what you 
have to do down there?
    Ms. Leonhart. Well, Chairman, these are very, very rough 
budget times, and we have all been asked to tighten our belts 
and to see where we can have savings, how we can do things 
differently.
    And the way I can explain this is instead of building an 
addition on a house to house people, we found other ways. We 
will bring in semi-permanent trailers. We are looking at going 
to 24-hour shifts to help with the space so that we can 
continue to bring those folks in.
    So we originally needed $42 million to do a full expansion. 
But in trying to do our part in helping with the deficit and 
the budget. The minimum, if we got the $10 million, we could at 
least expand. We originally were looking for 176 more people. 
With that $10 million, we will be able to bring in at least 100 
more people from these agencies.
    Mr. Wolf. And how fast? Pretty fast, the modular trailers?
    Ms. Leonhart. Some are actually committed and there now we 
are sitting on top of each other.
    Mr. Wolf. Right.
    Ms. Leonhart. But they are committed. We have good 
commitments. We have a couple of very time-sensitive operations 
or programs that we have planned that will especially help with 
our U.S. Mexico border situation, and we did not wait to at 
least start the planning of that. So the minute we get the 
money, expansion will start and the people will be coming in.
    Mr. Wolf. Okay. Mr. Fattah.
    Mr. Fattah. Thank you very much.
    Let me first of all thank you for all of the help of the 
agency in responding to a lot of the challenges in my home city 
of Philadelphia.

                            MEXICAN CARTELS

    But I want to start more generally. Can you give us either 
now or for the record what your agency's view is about the 
amount of revenue that is being generated by these 
organizations, for instance in Mexico from illegal drug sales?
    Ms. Leonhart. The United Nations does a study and they look 
at what illicit markets generate the most funding. And I did 
not bring, I should have brought the figures, but drug 
trafficking is so high above the next illegal market. We find 
around the world, if you look at what is happening in Africa 
for instance, these organizations, especially those that fuel 
terror, turn to drug trafficking because it is the most 
lucrative.
    The Mexican cartels are acting out because they are losing 
their routes and they are losing their supply, and that is 
cutting into their bottom line. They are losing money. So 
cartels and these transnational organizations operate; it is 
all about greed, they operate for money. When you have 
enforcement operations that attack or interrupt that, then we 
do significant damage to those cartels.
    [The information follows:]

                        UNODC 2010 Annual Report

    The UNODC (United Nations Office on Drugs and Crime) 2010 Annul 
Report and World Drug Report estimate for the global drug market is 
over $300 B.

                              AFGHANISTAN

    Mr. Fattah. Are most of the drugs that are coming out of 
Afghanistan going into Europe?
    Ms. Leonhart. That----
    Mr. Fattah. Is that our sense of the trading route? What 
market is it going to?
    Ms. Leonhart. Most of it is going to Europe. A lot is going 
to Russia. A lot is going to China. A lot is actually staying 
in the region. Fortunately, and we think that this has to do 
with our enforcement operations in this country, less than 5 
percent of the heroin on the streets of the United States 
actually comes from Afghanistan.
    Mr. Fattah. Now what could you tell the committee about 
your work and the agency's work, obviously in cooperation with 
others, in the efforts in Afghanistan? You have this effort to 
get farmers to change crops. You have a number of different 
efforts going on. But what can you tell us generally about the 
work that is going on there?
    Ms. Leonhart. Well I can tell you that our primary mission 
there is to help the Afghans stand up a narcotics force that 
will be capable. We call it the DEA of Afghanistan for the 
future. It is helping them stand up, collect intelligence, 
perform operations, identify the money flows, identify the 
biggest and the baddest, those drug kingpins in Afghanistan, 
and do cases on them. We have brought several drug kingpins to 
the United States to face trial. We work with the international 
community that is there within Afghanistan. We work with the 
military in Afghanistan. What we are most proud of is the three 
entities in Afghanistan that we stood up. That is the National 
Interdiction Unit of the Afghan National Police 
Counternarcotics. We stood them up and think of them like the 
SWAT team for Afghanistan. Then we stood up a special Sensitive 
Investigative Unit called the SIU, and more recently stood up a 
third entity called the TIU, the Technical Investigative Unit. 
We have a very robust wiretap program that we have set up with 
the Afghans in Afghanistan, and this is the group that does 
those wiretaps and has over a hundred translators collect all 
this intelligence and then we share it with the interagency.
    Mr. Fattah. In terms of your entire budget and your staff, 
what percentage of your resources or how many dollars are 
flowing through to this Afghan mission?
    Ms. Leonhart. Well in 2012----
    Mr. Fattah. Right.
    Ms. Leonhart [continuing]. DEA requested $88.6 million in 
transfer funding from the Department of State for our ongoing 
efforts in Afghanistan.
    [The information follows:]

                           S&E in Afghanistan

    In addition, DEA dedicates a little over $19 million of own 
Salaries & Expenses funding for our operations in Afghanistan. This 
supports our original 13 positions plus the FAST teams which perform 
120 day rotations.

    Mr. Fattah. Now given where the resulting trade is, the EU, 
Russia, China, do we have buy-in from these other countries who 
are the recipients of these illegal narcotics from Afghanistan? 
It would seem to me they have some interest in this matter and 
I am trying to understand to what degree you have a working 
relationship, or to what degree they are invested in the United 
States' effort. I mean, we have our own reasons. We do not want 
the dollars to flow to potential terrorist entities in 
Afghanistan so we want to cut off their supply of money. But I 
am trying to see whether we have any partners in this effort.
    Ms. Leonhart. We do. We have a number of partners. We are 
working with the RCMP of Canada. We are working with the Brits. 
We are working with the Germans. We are working with the 
French. More recently we are working very robustly with the 
Russians, where a lot of these drugs are going. So we have 
built partnerships there over the years, and we are doing joint 
enforcement operations, we are sharing intelligence.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259B.013
    
    [GRAPHIC] [TIFF OMITTED] T7259B.014
    
    Mr. Fattah. Are they sharing the resource side of this?
    Ms. Leonhart. Yes, they are. One example would be the 
Afghan Threat Finance Cell. It's a cell; it is a civilian and 
military operation. DEA was asked to run it, and we have 
Australians, Canadians, Russians who want into it. We have buy-
in from the international community, because this is the entity 
that is looking at those drug flows and looking at the 
corruption, and not only drug trafficking, but all crimes. 
There is interest by the international community and they have 
come to us to ask to be included in this center. So it is one 
of our success stories in Afghanistan.
    Mr. Fattah. Okay. We would like to learn more about the 
arrangements between the partners there. That would be helpful.

                       CARIBBEAN DRUG TRAFFICKING

    But let me get a little closer to home. I know that the 
chairman talked to you about Mexico. Let me talk to you about 
some of our friends in the Caribbean. And there has been a 
concern as to whether some of these law enforcement 
organizations and governments are starting to be influenced by 
the large activity of using some of these countries as 
transshipment points for drugs. What if anything could you tell 
us about the agency's work in the Caribbean?
    Ms. Leonhart. We are putting pressure on the Mexican 
cartels, and we are working more and more in Central America, 
in Colombia: for us our southwest border starts in Colombia. 
That is our concept of the southwest border. As we put more 
pressure on them, we are very concerned about that shift that 
we may see back up through the Caribbean, like we saw in the 
eighties and early nineties. But that being said, we have been 
able to stand up some units, and we have been able to develop 
some tremendous partners. I will say our partners from the 
Dominican Republic, for instance, are very, very concerned 
about drug loads going into their country from Venezuela. Very 
concerned about corruption. Very concerned about the money that 
has been showing up. So collectively we have worked on joint 
operations with them.
    We work very well in the Caribbean, in Jamaica, joint 
operations and in fact, we just brought out one of their major 
traffickers here a year ago. So the Caribbean, and they have 
worked very well together. They are very, very concerned when 
they see that Mexican traffickers have made their way to South 
America, have made their way to Europe, have made their way to 
Africa. They are very concerned about Mexican traffickers also 
showing up in their countries and starting to have a piece of 
the drug trafficking there. So we work with them on a daily 
basis. We have an office in San Juan, Puerto Rico that 
coordinates our offices within the Caribbean. And there are 
many success stories----
    Mr. Fattah. Good.
    Ms. Leonhart [continuing]. That we have out of there.

                        MEXICAN DRUG TRAFFICKING

    Mr. Fattah. Now when you get to the States, did you say 90 
percent of the drugs were coming via these Mexican cartels?
    Ms. Leonhart. Ninety percent of the drugs that end up in 
the United States----
    Mr. Fattah. Right.
    Ms. Leonhart [continuing]. Traffic through Mexico.
    Mr. Fattah. Okay. And then secondly we have this other 
problem which is the prescription drug issue, right?
    Ms. Leonhart. That is correct.
    Mr. Fattah. And a lot of our colleagues are also very 
concerned about meth and the robust nature of that problem, 
particularly in rural sections but also in urban areas like 
Philadelphia. So now we have the, the chairman asked you about 
street gangs, we have other organized groups moving these 
drugs. Can you tell us a little bit about who else is in this 
enterprise?
    Ms. Leonhart. Well like I said, the Mexican cartels have 
taken over the drug market all across the United States, 
Pennsylvania included. But they get the drugs to these areas. 
They get the profits from that. Street distribution differs 
from community to community. What we find in your area is often 
street gangs or community organizations, organizations that 
have been operating in your area for quite some time, still 
have control of distribution on the streets there, but they 
have cut out all those middle men that we used to have.
    Mr. Fattah. Mm-hmm.
    Ms. Leonhart. Like when I was buying drugs as an undercover 
agent, you would have to go through four or five people until 
you got to the source. Those have been cut out by the Mexicans. 
The Mexican traffickers have gone right to your community and 
are dealing directly with the major distributors in your city. 
So that has changed drug trafficking all across the country. 
And the other thing that has changed is, it is not just coke, 
it is not just meth; it is heroin. It is any drug that a 
community wants now. These are polydrug organizations that will 
sell whatever the community, the city, whatever the appetite is 
for, because it is all about making money.

                          INTERNET PHARMACIES

    Mr. Fattah. Well I want to thank you for your thirty-year 
career as a DEA agent. And I will have some more questions, but 
just as the last one in this round, you also have this new 
problem which I am not sure is in your lap. But we just had a 
major expose on 60 Minutes about drugs via the internet that 
are less than authentic, but are being sold. Can you comment on 
that?
    Ms. Leonhart. Sure. And it is interesting because some of 
our best internet cases actually came out of your area. I am 
thinking about Operation Cyberchase about four years ago, which 
was an experiment for us on how to go after these internet 
sites that were selling scheduled drugs. We have had great 
success. There have been some great laws that have been passed 
that have helped that, and what we see now is that the internet 
is being used more for non-controlled substances. I know I have 
seen a couple of the reports lately that are of concern. I know 
that our partners at HHS are concerned; CBP at their mail 
facilities are concerned. It is something that we do not get 
involved with everyday, but when there are controlled 
substances involved that is in our bailiwick.
    And the internet, there is a great success story to be told 
here about when we identified the internet as a problem, how a 
new law can change the trafficking, and how our strategy had to 
change. I think they will use that same strategy on the non-
controlled substances that are being sold over the internet. 
The other thing is most of these internet sites are not in the 
U.S. They are actually foreign internet sites which then make 
it even harder for us to target. So I think----
    Mr. Fattah. Yes, I want to yield back because I know we 
have a couple of other members. But I will get another chance. 
When we do come back I want to talk to you a little bit about 
juveniles and their involvement. So we will get to that. But 
thank you, Mr. Chairman.
    Ms. Leonhart. Thank you.
    Mr. Wolf. Thank you. Mr. Austria.

                        ARMING AGENTS IN MEXICO

    Mr. Austria. Thank you, Mr. Chairman. Administrator, thank 
you for being here today and your service to our country. I 
appreciate it. Let me, I think some of the questions I was 
going to ask have been hit on. But I want to follow up 
especially on the Mexican border and what is happening with the 
cartel, with the gangs there. Like many members of Congress I 
am very concerned about the safety of our farmers and American 
citizens who live along that border. And as you describe the 
amount of activity that is coming across to this country when 
90 percent of the drugs come through Mexico, and that there are 
a large number of people who work with these cartels in the 
U.S. It concerns me.
    And I want to follow up on that a little bit. But also our 
DEA agents that are working down there, and our ICE agents. And 
as you know, I think it was February of this year, two ICE 
special agents were driving in Mexico unarmed in a government 
vehicle when they were savagely ambushed by Mexican cartel 
members who fired eighty-three rounds at them. Special Agent 
Jaime Zapata was murdered and another agent was seriously 
injured. These agents had no way to defend themselves as they 
were not permitted to carry weapons. While the Mexican 
government has issued gun permits to some permanently assigned 
U.S. agents, those temporarily assigned receive no protection. 
And in my opinion just because a U.S. agent like the one that 
was killed are only in Mexico for a short time, maybe six 
months with detailed work, that does not mean that they are at 
any less risk sometimes than those that are there permanently.
    After the death of this agent, this ICE agent, and I know 
DEA also works down in that area, and with evidence that 
American agents have become targets for Mexican cartels, why 
are we still sending agents across the border into Mexico 
unarmed?
    Ms. Leonhart. Thank you, sir, for the question. I will say 
that DEA has been in Mexico for over forty years working in 
various offices, and we have expanded our presence there and 
are the largest law enforcement presence there. So this is of, 
you know, absolute great concern. Every day we talk about the 
safety of our people, and I will speak generally and say that 
there are protections in place or we would not have our people 
there. But to go into protections and to go into what we do to 
keep our people safe will put our people in danger, so I am 
very cautious about going forward with that. But I will tell 
you that it is of concern to me. I have had discussions many, 
many times with the Attorney General and the Deputy Attorney 
General and the former Deputy Attorney General. Our agencies 
from the United States that serve in Mexico we have actually 
collaborated in safety things that we can do to keep our agents 
safe.
    Mr. Austria. How many agents do we have assigned in Mexico, 
DEA agents?
    Ms. Leonhart. We do not give the numbers. Again, for safety 
issues. But I will tell you that it is a very large presence. 
It is the largest law enforcement presence, and we have offices 
scattered around Mexico.
    Mr. Austria. Are you able to share with the committee how 
they are able to defend themselves if they are not able to be 
armed and----
    Ms. Leonhart. What I would offer----
    Mr. Austria. Well you mentioned protections that are in 
place and, you know, I do not know in this committee setting 
what you are able to share. But it certainly would put----
    Mr. Wolf. If the gentleman would yield just for a second? I 
think you raise a really legitimate question, and I sense that 
what maybe we can ask you to do, if you could work out a time 
to come by to see Mr. Austria----
    Ms. Leonhart. I was just going to offer that.
    Mr. Wolf [continuing]. And myself, and I will come so we 
can really get to----
    Mr. Austria. I appreciate that, Mr. Chairman.
    Ms. Leonhart. I will do that very quickly.
    Mr. Wolf. Sure.

                              DRONE USAGE

    Mr. Austria. Let me jump to one other area along the 
Mexican border, the use of drones that are being used now. 
There was a recent article in the New York Times that 
highlighted the DEA's use of drones to gather intelligence. It 
helps to locate major traffickers, drug traffickers, and to 
follow their networks. Are you able to give us, or can you give 
this committee an overview of the challenges, successes, future 
opportunities of the DEA's use of drones? And is the DEA using 
drones domestically? And I think more specifically, are we 
using them along the Mexican border?
    Ms. Leonhart. Well I can tell you that the DEA does not 
have drones or Predators, so there is no use by DEA. But I can 
tell you that intel sharing and the collection of information 
that can be timely shared with our Mexican partners is of 
utmost priority to us. We have a number of ways, a number of 
methods to collect information, and we are always looking for 
new methods. But DEA does not have drones and predators.

                     PRESCRIPTION DRUG TRAFFICKING

    Mr. Austria. Mr. Chairman, one last just comment, I think, 
and you are welcome to comment. Mr. Fattah hit on prescription 
drugs and the problems we are having across this country and 
with meth labs. And I hear that a lot in my home state of Ohio, 
that our local law enforcement are just, a large portion of 
their budget, you know, from the Sheriff's Department, from the 
prosecutors, is being used to try to battle these meth labs, to 
try to battle the prescription drug problem we are having. I 
know Chairman Rogers has raised that question multiple times 
with Attorney General Holder. It is a very important issue that 
we are faced with at the local level and across this country 
and it seems like it is a growing problem. And I know the DEA 
did a very good job, I think, in arresting twenty-two people 
and seizing over $2.5 million in assets during a recent raid in 
Florida in which you were effective in that area. And I think 
that is a first good step. But it is also just a drop in the 
bucket compared to the magnitude of the outbreak of 
prescription drug abuse and the meth labs that are appearing 
across this country.
    Ms. Leonhart. Thank you, sir, for bringing that up because 
DEA's main priorities now are Mexico, Afghanistan, and 
prescription drugs. Unfortunately, this is a problem that is 
not just in one area; it is across the country. We have 
pockets. Right now Florida is the hotbed for the pill mills, 
but I am very concerned for your state and some of the Midwest 
states because of the impact of what has happened in Florida. 
We have a strategy, and I have some slides that at some point I 
hope I am able to walk you through that will talk about what we 
are doing because of the prescription drug problem.
    I am worried because 7 million Americans are abusing 
prescription drugs, and that means that every day there are 
7,000 new users, first time users. The other thing that really 
worries me for our children is that since 2008, it is more 
likely that a first time drug user will abuse prescription 
drugs rather than even marijuana. We have never seen that in 
our history before. So everything we are charting, everything 
we are looking at, tells us that prescription drugs are the 
problem of the future. It is the problem now, and DEA and other 
agencies are doing what we can to move in that direction and to 
be able to have an impact on it.
    Mr. Austria. Thank you, Administrator. Thank you, Mr. 
Chairman.
    Mr. Wolf. Thank you. To follow up on what Congressman 
Austria said, why do we not try to set up something the first 
week we come back? And we will make sure, we will build it 
around your schedule. But I think he raised some good 
questions. And maybe cover both of those issues, but 
particularly the first issue.
    Ms. Leonhart. Okay.
    Mr. Wolf. And we will invite all of the members of the 
committee at that time. Thanks.
    Ms. Leonhart. Okay.
    Mr. Wolf. Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman. Administrator, good 
morning.
    Ms. Leonhart. Good morning.

                             FY 2012 BUDGET

    Mr. Graves. I want to thank you for being here this 
morning. I know that your duties are great and I appreciate you 
taking the time to answer questions for us. And I know the 
challenges are mighty out there. And I guess, Mr. Chairman, I 
am really thankful that, you know, we have an agency who has 
actually brought in a request that is less, moving down and 
understanding the climate we are in. And I want to thank you 
for that. Because most of the time that we are hearing from 
agencies that are asking for additional funds, and certainly we 
all understand that. The missions of all the agencies are big 
and everybody needs more resources. So I want to thank you for 
that. And it looks like your request almost got to the 2008 
levels, and not far from that. And it is about a 9 percent 
decrease from 2010. Can you help us understand how you arrived 
at that and how your agency moved in that direction? Because it 
is a very positive move, I think, given the climate we are in. 
And we are grateful for that. And I would like to learn more 
about that.
    Ms. Leonhart. Well I can tell you it is not easy. We just 
feel a responsibility, however, to do our part. And you know, 
the Attorney General asked all of the Department of Justice 
agencies to take a look at our programs, take a look at what 
our critical needs are, take a look at our mission, and look at 
anything that is not critical to the mission and see where we 
can do some belt tightening. I think I have the advantage 
because I am a DEA agent. I know my agency very well, and I was 
able to, with my executive staff, take a look and find out what 
is left. We have had cuts over the years that have really, 
really hurt, and there is not much fat there. There is no fat 
there. So this year was extremely hard, because one of the 
things that we are saying we could do without is a program that 
is dear to us.
    But with the climate, we want to do our part, and in doing 
that we took critical looks at all of our programs. We 
identified where we had some overlap or where we could 
consolidate with another agency, or tweak something, and those 
were the cuts that we put forward.
    Mr. Graves. Right. Well I appreciate your willingness----
    Mr. Fattah. If the gentleman would yield? Is this the 
Mobile Enforcement Team, the program that you cut? Could you 
just make sure we are clear about what you are saying?
    Ms. Leonhart. One of the things we identified was the 
Mobile Enforcement Team. In doing that, it is really a trade 
off. The Mobile Enforcement Team, by offering that up, we save 
our 217 task forces that are working with states and locals all 
across the country. So we took a look and we said what is core 
to our mission, and then what is in the next ring? And we came 
up with this program as one program that we do not like to give 
it up, but in these very austere times, it is one of the things 
that will allow us to continue with our core mission. We have 
lost MET in the past, and we have just strategized about what 
we will do with our state and local partners to make sure that 
we are still there to help them.
    Mr. Graves. Right. Well, thank you. And maybe you can share 
with the committee at some point some of those decisions you 
made in detail. Because that helps us to see and offer 
recommendations to other agencies of areas you can look to or 
consolidate or be creative with some solutions. And something I 
am asking all agencies to do is provide us and really go, what 
you have done is incredible, and maybe go a step or two beyond 
that. Because we really do not know where it ends. We have got 
a lot to do fiscally to get the nation back on track. And so if 
the chairman does not mind I would like to submit a letter to 
the committee that just asks the agency to provide us with 
options that go 25 percent in cuts, and 20 percent as well, as 
you have already reached almost the 10 percent. To show us how, 
what impact that would have on your agency and if there are 
ways you can still focus on core missions that you are focused 
on. And I know those would be difficult to reach but I think it 
helps us in making decisions so that you are part of that 
process that we want you to be a part of. We are not making 
those decisions for you but we see where we might be able to 
join you in this partnership during a difficult time.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259B.015
    
    Mr. Graves. And so Mr. Chairman I do have that letter and 
we have one other question, if that is okay? We heard a minute 
ago about the pill mills and you brought that up and I 
appreciate you doing that, because we were in a hearing 
recently where Attorney General Holder was there and Chairmen 
Rogers and Wolf were questioning what was going on in Broward 
County, Florida. And I do not know, are you aware of any 
request by the chairman to look into that issue at all? Because 
I know that it is a discussion we had in committee.

                      PRESCRIPTION DRUG DIVERSION

    Ms. Leonhart. I do know that right after the Attorney 
General testified, we have been in discussion to provide a lot 
of background information so that the Department of Justice can 
get back to, I believe, Mr. Rogers on questions. But I would 
like to take the opportunity to tell you that prescription 
drugs, especially the pill mill situation in Florida, the 
charts I brought I thought would maybe help you understand that 
this is a priority for us, and this is a sense of urgency for 
us. What we have done and the budget we are requesting, 
especially for the diversion control piece, will have an impact 
on what is happening in your state.
    I worry about Georgia because Ohio and Georgia are the next 
pill mill states, but I think we can be ahead of that with some 
of these tweaks and some of these additions to our Diversion 
Control Program that we are asking for.
    Mr. Graves. Good. And I think that is something that we are 
all looking for. And if there was one takeaway for me from that 
committee meeting it was that the chairman, and I think 
Chairman Wolf as well, were very engaged in requesting somebody 
to look into this, and did not seem to be getting a lot of 
feedback as to whether something was going to happen. And I 
want to mention to the chairman here that, you know, in the 
Atlanta Journal-Constitution this morning it shows that the DEA 
reacts very quickly sometimes. In fact, after just two weeks of 
getting a request from an attorney they have, you know, moved 
into Georgia and taken over some controlled substance from the 
State of Georgia. And I am certainly not questioning whether 
that was right or wrong, but it just shows that they can act 
quickly when requests are made.
    Ms. Leonhart. Thank you.
    Mr. Wolf. Thank you, Mr. Graves.
    Let me follow up on a couple of those issues. I am going to 
do a letter and maybe I am going to be the only one that does 
it, to the new Republican governor of Florida to tell him he 
ought to get with the program.
    At a hearing that we held on OxyContin several years ago 
Mr. Rogers had people from his district come up, and it was a 
young man who was not a witness but was behind his dad who was 
a pastor I believe, and he had been addicted to OxyContin. I 
can still remember he had an electric blue coat on and he sat 
to the left, and Mr. Rogers' district has been devastated, and 
we set up a diversion program and helped and then a couple 
months later I asked Mr. Rogers how was the boy doing, and he 
said he had overdosed, he had died, and I saw the figure the 
other day, the number of people, it is something like 20,000 a 
year.
    So what we are going to do based, and hopefully Mr. Rogers 
may want to sign it, just ask the governor of Florida to adopt 
this program, because it is spreading.
    Has any action been taken on that specific request? Because 
we then called down to see did anyone go to Broward County? Was 
there anything specifically done with regard to that exchange 
with the Attorney General? And I appreciate Mr. Graves raising 
it here.
    Ms. Leonhart. I can tell you that after the hearing ended, 
we did get calls from the Attorney Generals office.
    Mr. Wolf. Okay, good.
    Ms. Leonhart. I think just the week before that we have 
been down to Florida, we have been working Florida for a year, 
and the papers do not report it. I felt bad that you, the 
Committee, did not know all that we have done, but since last 
February we have sent eleven separate tactical diversion squads 
from around the country. We have sent them down there and 
launched them down to Florida, and that is what helped this 
operation called Pill Nation, which identified that Tri-County 
area in this pill mills. I think to date we have closed twenty-
seven of them.
    Mr. Wolf. Well, is it fair to say that if it is not 
successful there is it coming to Georgia?
    Ms. Leonhart. It is already on its way to Georgia, already 
on its way to Ohio.
    Mr. Wolf. Why?
    Ms. Leonhart. Because action that we are taking in Florida 
is moving these owners. We know that many of these clinics are 
not even owned by doctors.
    Mr. Wolf. Who owns them?
    Ms. Leonhart. Some are owned by doctors, but of the pain 
clinics that we are having the biggest problem with are run by 
people, businessmen, out to make a buck. They saw an 
opportunity; some have felony arrests. So all that we have been 
doing over the last year, and then Florida passed a few laws, 
one being that no longer could these pain clinics advertise or 
promote the use, sale, or dispensing of a controlled substance.
    You have got to go down there and take that paper and look, 
it is four and five pages of ads for pain clinics.
    Mr. Wolf. And what counties for the record can we say so we 
know? Broward County.
    Ms. Leonhart. The primary, Broward, Miami-Dade, and Palm 
Beach.
    Mr. Wolf. And what papers are running the ads?
    Ms. Leonhart. When I was down there, and I am familiar with 
Los Angeles, this reminds me of the marijuana dispensaries, and 
so it would be the New Times in south Florida and Creative 
Loafing and Tampa Bay Times in Tampa they run ads.
    Mr. Wolf. Well, are the local officials not worked up about 
it or are the----
    Ms. Leonhart. They are very worked up. The law enforcement 
community on this has come together.
    Mr. Wolf. Why do you think the governor has taken the 
position he has taken then?
    Ms. Leonhart. We were very surprised.
    Mr. Wolf. But have you spoken to him? Has there been any--
because if it is drifting--I mean, frankly this ought to be 
shut down. I mean it ought to be just--do you believe they are 
in violation of the law?
    Ms. Leonhart. Absolutely.
    Mr. Wolf. So the newspapers in Broward County are carrying 
ads that are basically in violation of the law, what they are 
advertising. And we went through this here with regard to 
sexual trafficking.
    Ms. Leonhart. Uh-huh.
    Mr. Wolf. Major newspapers around the country were carrying 
ads in the sporting section about sex trafficking centers, 
legitimate papers. To their credit, to the credit of the 
Washington Post, to the credit of other papers, once brought to 
their attention they shut it down.
    So if you would tell me, if anyone wants to sign, fine, if 
they do not I will do it by myself, because 20,000--and if they 
are roaming north they are going to keep coming--I will write 
every newspaper down there personally and we will release it to 
the media asking them to stop running the ads.
    How many people have died? Was the 20,000 figure a year 
accurate that I saw in a publication?
    Ms. Leonhart. Well, it is probably accurate. I know seven 
people die a week. No, seven people every day.
    Mr. Wolf. From that region?
    Ms. Leonhart. In Florida alone.
    Mr. Wolf. Seven a day.
    Ms. Leonhart. Every day in Florida they are losing seven 
people a day.
    Mr. Wolf. Well, how does a reputable newspaper, and I am 
sure they are, I mean how do they then carry the ad? Do you 
think there is a disconnect that they do not understand?
    Ms. Leonhart. Let me premise this with, when we start 
attacking the problem in February of 2010, this was part of the 
problem.
    The State of Florida made some changes to the law, we 
started taking down these pain clinics, so the situation has 
changed a bit. I am talking about why it exploded. I will not 
say that there is any action for you to take on that right now 
because we believe Operation Pill Nation has completely changed 
what will happen in Florida. That is why I am worried about 
Georgia and I am worried about Ohio.
    Mr. Wolf. Why Georgia and Ohio and why not Alabama and 
North Dakota? Why do you mention those two?
    Ms. Leonhart. You asked about the new governor in Florida. 
Florida was on line to have a prescription drug monitoring 
program. It needed it, we did everything----
    Mr. Wolf. Yes, and Bill McCollum supported it.
    Ms. Leonhart. We did everything we could to say to State of 
Florida, this will help. I do not know why he made the 
decisions he did.
    Georgia does not have a prescription drug monitoring 
program. A number of residents from Georgia closest to Florida 
would go down there on these trips and get all these pills and 
bring them back to Georgia and sell them. So there is already a 
market there, already an emerging pill market, but also the 
people that own these clinics have moved up. They have started 
to do some recruitment of doctors out of Ohio and in Georgia. 
That is why we are working with you, because we believe that 
that is where it is headed next.
    Mr. Wolf. Would you see the deaths moving too? If you have 
the seven in Florida would you see the death issue moving to 
Georgia and Ohio?
    Ms. Leonhart. Well, we already saw Georgia, Ohio, 
Tennessee, Kentucky, West Virginia, the states where there was 
an explosion of a pill problem. These are people that are going 
down to Florida. It is like going to Atlantic City for a 
junket.
    Mr. Wolf. Right.
    Ms. Leonhart. Instead of gambling you go down there and you 
get as many pills as possible; come back and you start your own 
distribution network. So there are established distribution 
networks now in Georgia and in Ohio, and the rate in those 
states with prescription drugs and deaths are going up.
    On March 3rd my friend, the head of the Georgia Bureau of 
Investigation, held a summit that we helped them put on, a 
prescription drug summit in Georgia because he is so concerned 
about it. Ohio has jumped on it and they want to be ahead of 
the curve as well. But we are seeing the deaths from 
prescription drugs are not just in Florida, it is in Georgia, 
it is in Ohio, it is in California, it is in Houston. The three 
major hubs for these pill mills have been the tri-county area 
of South Florida, Broward Miami-Dade and Palm Beach counties, 
the Houston, Texas area, and Los Angeles, and there is a 
correlation between the deaths from prescription drugs and the 
explosion of these pill mills and doctor shopping.
    Mr. Wolf. Now the company that manufacturers the pills, 
what company? I mean there was a successful case in the Western 
District of Virginia, is it the same company?
    Ms. Leonhart. It is a little bit different than the 
OxyContin problem, and a lot of people think that the drug that 
is the number one drug out of the pill mills in Florida is 
OxyContin, and that is not correct.
    Mr. Wolf. What is it?
    Ms. Leonhart. It is the generic form, it is Oxycodone.
    Mr. Wolf. And who makes that?
    Ms. Leonhart. A number of companies. Roxicodone is the most 
popular.
    Mr. Wolf. Where are they from?
    Ms. Leonhart. And that is manufactured by Xanodyne 
Pharmaceuticals.
    Mr. Wolf. Where are they from?
    Ms. Leonhart. I am not sure. Joe, do you know the company? 
I am not sure where they are located.
    Mr. Wolf. And who else? Any other major drug companies?
    Ms. Leonhart. Roxy is the main drug.
    Mr. Wolf. If you can give us that and I will do a letter to 
the drug companies telling that, you know, basically I mean 
they are responsible for killing people and as the CEO goes 
home at night and looks at his wife or his son or his daughters 
or his grandkids he has to kind of think about that.
    Ms. Leonhart. I am sorry, I found it, I knew we knew. It is 
Newport, KY and Mount Arlington, NJ.
    Mr. Wolf. That is where the company is located?
    Ms. Leonhart. Yes. Yes.
    Mr. Wolf. Well, I mean, the thought of young people--if you 
could have seen this fellow, and I know the impact on Mr. 
Rogers' district has been devastating, and it has on other 
districts, I mean this is not just--for some reason it was 
gathered there, but I think where you have had construction 
jobs and different things it is-- and so it is a nationwide 
problem, unfortunately Mr. Rogers has borne the brunt of it and 
it was coming there, so what we will do and we will share the--
if you want to join the letter with us, what we will do is get 
a letter off to the governor of Florida and just tell him that 
we are asking him to take an effort to shut these things down, 
and then we will also write the newspapers that are involved.
    Ms. Leonhart. I am also aware that our drug Czar, Gil 
Kerlikowske, has written the governor, and I have as well.
    Mr. Wolf. Okay, so we will write them, and then if you have 
any other thoughts maybe we can write the newspapers too. We 
found the same thing on sex trafficking. Once they found out 
that they were basically centers for people that were being 
trafficked they responded quickly, so we will try to do that.
    Ms. Leonhart. Okay.
    Mr. Wolf. I appreciate Mr. Graves bringing that issue up.
    The figure that you have used, seven million we have it 
here, is it seven million? That figure has been kicking around, 
are abusing prescription drugs. You said more than the number 
that were abusing cocaine, heroine, and other hallucinogens. Is 
that figure an up to date?
    Ms. Leonhart. That is a 2009 figure, sir.
    Mr. Wolf. And how many people do you think die as a result 
of this activity of abusing prescription drugs? Because that is 
one of your major efforts now. How many people have died per 
year?
    Ms. Leonhart. We have looked at that. Some of the reporting 
is late, so the latest numbers we have are 2007. There was a 
298 percent increase in overdose deaths involving opioids, the 
pain killers, between 1992 and 2007. We have----
    Mr. Wolf. What is that in real terms of the number of 
people that have died?
    Ms. Leonhart. In 2007 11,499; however, I can get you some 
additional reporting that we have seen on drug deaths, and I 
can tell you that we are concerned because more people are 
dying from prescription drugs, in some states than from car 
accidents, and in other states more than people who have died 
of gunshot wounds.
    I would be glad to give you a fact sheet on prescription 
drug abuse that may be informative.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259B.016
    
    [GRAPHIC] [TIFF OMITTED] T7259B.017
    
    [GRAPHIC] [TIFF OMITTED] T7259B.018
    
    [GRAPHIC] [TIFF OMITTED] T7259B.019
    
    Mr. Wolf. That would be good. Do you think--and I think I 
should say this in fairness to the governor of Florida, because 
I do not know him, and I do not think it is fair to be critical 
of him unless he--do you think he understands the severity of 
this? Because he is a new governor in fairness and he has not 
been in there for a long time. Do you think they understand? 
Have your people--I mean to write a letter but have your people 
asked to sit down with him to talk? Have your DEA people in the 
State of Florida gone in to the governor's office?
    Ms. Leonhart. I believe our people in DEA have actually 
talked to some of his staff, but I know that the two letters 
that the drug czar has written have offered assistance.
    [The information follows:]

          Copies of Letters From ONDCP to the Florida Governor

    [Clerk's note.--The Department of Justice did not provide a copy of 
the letter indicated by the witness. The information follows:]

[GRAPHIC] [TIFF OMITTED] T7259C1.003


    Mr. Wolf. But just writing a letter, sometimes you write a 
letter to the Hill, it is irradiated, it comes in and somebody 
opens it--what I would recommend is that you call the governor 
in fairness to him and say we would like to send our people, 
and I think we owe this to the people of Georgia and all the 
other States where it is coming to, we would like to send 
someone down to sit down with you to explain----
    Ms. Leonhart. To be fair, it may be that he is just not 
aware of the entire problem.
    Mr. Wolf. Right.
    Ms. Leonhart. So what we are attempting to do, and 
obviously, would have gotten attention after this latest 
takedown in Pill Nation, we will offer, as we have done to so 
many other governors around the country, drug summits and some 
of the things that we are doing. We will make sure we 
prioritize a meeting with him or his staff to at least let him 
make a decision. We have been discussing with the Florida 
Office of Drug Control Policy, which he just disbanded, what 
seemed to work.
    Mr. Wolf. He expanded or disbanded?
    Ms. Leonhart. He disbanded the office. That is who we were 
dealing with.
    Mr. Wolf. But I think in fairness you really ought to speak 
to the governor's office.
    Ms. Leonhart. And we will.
    Mr. Wolf. Yes, and then if you could let me know what the 
response is, have you been able to get a meeting, or not. 
Because it is very easy to be critical and then find out that 
someone did not even know, and if they had known they would 
have done something. If you could let us know if you have had a 
problem getting in to see the governor too so we can have some 
sense.
    Ms. Leonhart. Okay.
    [The information follows:]

        Response to Letter Sent to the Florida Governor's Office

    DEA contacted the Governor's office after the March 16, 2011, 
hearing to request a meeting between Administrator Leonhart and 
Governor Scott, but the meeting was declined, and the state offered 
instead a Deputy Chief of Staff. Administrator Leonhart sent Governor 
Scott a letter on March 25, 2011 to request a meeting to discuss ways 
the DEA can work more closely with the State of Florida to combat 
prescription drug abuse.

    Mr. Wolf. And we will try to do the letter. We will make 
sure that the committee gets you the letter.
    Ms. Leonhart. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259B.020
    
    [GRAPHIC] [TIFF OMITTED] T7259B.021
    
    [GRAPHIC] [TIFF OMITTED] T7259B.022
    
    [GRAPHIC] [TIFF OMITTED] T7259B.023
    
    [GRAPHIC] [TIFF OMITTED] T7259B.024
    
    [GRAPHIC] [TIFF OMITTED] T7259B.025
    
    [GRAPHIC] [TIFF OMITTED] T7259B.026
    
    [GRAPHIC] [TIFF OMITTED] T7259B.027
    
    [GRAPHIC] [TIFF OMITTED] T7259B.028
    
    [GRAPHIC] [TIFF OMITTED] T7259B.029
    
    [GRAPHIC] [TIFF OMITTED] T7259B.030
    
    Mr. Wolf. Would it be helpful to do a letter to every 
governor to say that this is--I mean this is not a problem 
nationwide though is it?
    Ms. Leonhart. It is a problem in Los Angeles, Houston, and 
we see in the future Ohio, Georgia, that area. Most of these 
places, everyone is aware, and they have had drug summits and 
drug education.
    Mr. Wolf. Has there been a drug summit down in Florida? Why 
don't you put one on in Fort Lauderdale? Or where is Broward 
County? Is that Fort Lauderdale?
    Ms. Leonhart. Well, that is Miami, Miami-Dade.
    Mr. Wolf. Well, why don't you put one on down there?
    Ms. Leonhart. I will check, because I think there is a very 
good chance that we did.
    [The information follows:]

                         Drug Summit in Florida

    In conjunction with Operation Pill Nation, DEA conducted a training 
seminar with various Florida state and local law enforcement agencies 
in February 2010 and with state and federal prosecutors also in 
February 2010. DEA's Deputy Assistant Administrator for the Office of 
Diversion Control, Joseph Rannazzisi, participated in a prescription 
drug forum in Sarasota, Florida, on February 27, 2011, sponsored by 
Congressman Vern Buchanan.

    And one of the things with the National Take-back that we 
did in September, that was 4,000 locations, 3,000 law 
enforcement partners, many in Florida--in that we brought 
together and in one day collected 121 tons of pills, got them 
out of the medicine cabinet, because we know from kids, teens, 
that that is the number one place where they get the 
prescription drugs that they are abusing. That was the best way 
to educate this entire country about the problem, and I know 
that they had a very, very robust kind of messaging day and 
education piece in Florida. I will look and find out exactly in 
Florida who was a part of that and who participated.
    Now we have a great opportunity. April 30th we are going to 
do the second National Take-back, and this would be a good 
opportunity. We will make sure that we are working with the 
Governor's office in Florida and see if we can do something 
with him for that Take-back.
    Mr. Wolf. Now you know, with the take-back--we had thought 
that every drugstore ought to be the place that you could go, 
and it did seem that the restrictions were somewhat cumbersome, 
because there was fairly detailed regulation, and I understand 
you do not want take-backs at every corner store because you do 
not know what is going to happen, but if it is a Rexall or 
Rite-Aid--there were pharmacists in my district who wanted to 
participate but felt that the situation was too restricted.
    So would it not be a good idea to do a take-back day in 
every certified drugstore in the nation? Because if you are in 
a rural area and you happen to get your drugs through--like in 
Leesburg we have a local pharmacy, well-thought of, highly 
regarded, but they are not a chain, they wanted to participate. 
So would it not make sense to have that, to try it at least to 
be less cumbersome that every certified drugstore could be a 
take-back or at least one in every community?
    Ms. Leonhart. Two things on that, sir. There were a lot of 
drugstores that were a part of the take-back across the 
country. The cumbersome piece is that the way the CSA is 
written now, until the law changed, and we are doing the 
regulations, the only entity that could actually take in these 
prescription drugs was law enforcement. So the reason it was 
kind of restricted in certain communities, it was whatever the 
local police department felt that resource-wise they could do. 
So to do it in every registered pharmacy we would need a law 
enforcement department.
    Mr. Wolf. Would you really need--I mean couldn't you have a 
black box, a black metal box that on a continual basis could 
come in and burn it and they could----
    Ms. Leonhart. Not right now. That would be against the CSA; 
however, the beauty of the law----
    Mr. Wolf. Well, against the CSA, but maybe you should 
change it.
    Ms. Leonhart. We did. They passed the--the week after the 
take-back----
    Mr. Wolf. Yes.
    Ms. Leonhart [continuing]. Congress passed this Secure Drug 
Disposal Act and we are writing the regulations right now. We 
had an open hearing, and we had over 100 people gather to give 
ideas, and some of those ideas are that a pharmacy, or some 
people thought, a hospital, some people think police 
departments. We are working it, and we think by the end of the 
year, by early next year there will be----
    Mr. Wolf. That is a long while.
    Ms. Leonhart. Well, it has to be done right, because we are 
talking about safe disposal, and we will have these take-backs 
in between.
    Mr. Wolf. I have heard stories, and you might want to 
validate, of high school parties where people are going in and 
throwing them all in a bowl and young kids are----
    Ms. Leonhart. It is called pharming.
    Mr. Wolf. Can you tell us about that so we can educate the 
committee. If that is happening in some locality is it not 
better to move this thing quickly, better to have it in the 
local county hospital. Every county almost has a hospital. I am 
looking at my own congressional district, so you really know it 
is a reliable, dependable place.
    So the faster you do that, because it is better to have it 
there than in people's medicine cabinets. So the faster you do 
that and localize it whereby you can memorize it, oh yeah, I 
know that is still a county hospital I can take these by. Maybe 
somebody has an accident they are taking a pill, they take care 
of it, the operation has been successful, they want to get rid 
of these things, so they know precisely where to go, because 
maybe their doctor is connected with it.
    Can you educate the committee a little bit about what is 
going on in some of the schools and how this thing works with 
regard to prescription drugs?
    Ms. Leonhart. For at least the last three or four years, 
every questionnaire, every study, all the research that is done 
on teens that start abusing prescription drugs, when you ask 
the question, where are you getting them from?, has said they 
are getting them from their family medicine cabinet, a friend's 
medicine cabinet. They are stealing them when they are 
babysitting; they are getting it from homes, not the local drug 
dealer. So----
    Mr. Wolf. That is fairly prevalent?
    Ms. Leonhart. Very prevalent, and that is the reason for 
the take-back. When we started looking at that, because we 
originally thought it was the Internet. It may have been the 
Internet a few years ago for someone old enough to have a 
credit card and be able to order on the Internet, but when you 
look at these questionnaires that are given to young people, 
you get the sense that they start by stealing out of medicine 
cabinets, taking grandma's medication. That is why we did the 
National Take-back, to get those drugs out of the medicine 
cabinets, 121 tons worth, and what we found, I will give you an 
example.
    I went to one of the take-backs here at one of the local 
police stations in the district. While I am up there meeting 
people at the take-back, I am hearing what is going on at 
Potomac Mills shopping center. I am hearing about a couple 
people that pull up in a car and have garbage bags and they 
come and they go, ``Will you take these? I know it is a lot, 
but will you take them?'' And our folks said, this is what the 
take-back is about, and these people have been holding on to 
these drugs from a couple family members who passed away, and 
they have always been worried about how to dispose of them so 
they have just been holding on to them. And we learned that 
that one day, September 25th, was the best day of education 
around this country for the prescription drug problem. Everyone 
showing up not only had a way of disposing of their drugs, but 
got educated on why it is important to get this out of our 
medicine cabinets.
    We were very happy with Congress. About a week later they 
passed this bill, and we are working very hard to get the 
answers to be able to write the regulations. The idea is for 
every community, every person, every citizen to know 24 hours a 
day how they can get rid of and safely dispose of their 
medicine.
    Everybody took part in this. We had environmentalists so 
happy. They participated because they are worried about it in 
our water streams. So it is that in my 30 years on the job, 
this one day where I can say something good was done for every 
citizen of this country, and it was as simple as getting those 
drugs out of your medicine cabinet.
    So we will do it again April 30th, and we have people 
coming out of the woodwork to do this. And we worked with the 
International Association of Chiefs of Police. This next one we 
are working with NOBLE, National Organization of Black Law 
Enforcement Officers and the National Sheriffs' Association. We 
have got all of these partners and these community groups that 
ban together, and they do a take-back, April 30th.
    Mr. Wolf. Well, could it not be every day in the sense that 
if you had it at the county hospital?
    Ms. Leonhart. That is the idea of the safe disposal law.
    Mr. Wolf. Okay.
    Ms. Leonhart. That there will be--it will be in your 
community, it will be the county--it will be at the hospital.
    Mr. Wolf. Okay.
    Ms. Leonhart. There have even been people who have 
suggested the library. Everybody has a library. So there will 
be a way for disposal to be safe, easy, everybody knows it, 24 
hours a day.
    Mr. Wolf. Okay. I am going to go to--the last question and 
you know, you are a career person and I do not think it is fair 
to put you on the spot, but I do want to just say at our 
hearing with the Attorney General we discussed the department's 
plan to zero out the grant program to states and create state 
prescription drug monitoring programs. This is a part of the 
budget being cut, correct?
    Ms. Leonhart. As I understand it there was nothing in the 
President's Budget for the Department of Justice's----
    Mr. Wolf. That is a yes.
    Ms. Leonhart. Yes.
    Mr. Wolf. Yes. How many states have such programs, and does 
the existence of a state monitoring program correlate with 
reduction in prescription drug abuse?
    Ms. Leonhart. I can tell you that we have been raising our 
voices since they have started.
    Mr. Wolf. How many states have programs?
    Ms. Leonhart. Thirty-four, with nine starting a program or 
a program is pending, and the territory of Guam.
    Mr. Wolf. Okay. Well, I appreciate that Mr. Graves bringing 
that issue up, and you know, if that is the number one, I mean, 
all the attention gets on the drug cartels coming in, but if 
that is the number one issue we ought to be able to deal with 
it.
    Mr. Fattah.
    Mr. Fattah. Let me start where the chairman left off, and 
with this monitoring issue, because you have to bifurcate this. 
We are talking about legal drugs that are prescribed, and in 
this instance they are being abused, and in these pain clinics 
operating where the law allows them to somehow sell what would 
normally be legal prescription drugs in whatever quantity where 
there is no state regulation. Is that really the issue about 
why they locate in certain states?
    Ms. Leonhart. Well, a couple of things, Mr. Fattah. These 
are pain clinics. Now remember there are pain clinics that are 
legitimate pain clinics.
    Mr. Fattah. Okay.
    Ms. Leonhart. These are entrepreneurs. These are people who 
have seen a way to make money. Many are not doctors, and this 
is not about providing pain relief; this is about making money, 
so they will open these up somewhere in strip malls. They will 
open it up, but they will advertise as a pain clinic. Where 
else would you see people advertising for a doctor on 
craigslist?
    Mr. Fattah. No, I understand, but I am trying to understand 
how this correlates with the monitoring issue at the state 
level. So we were giving grants to states or some states may 
have been setting up monitoring on their own to monitor the 
availability of prescription drugs that have not normally been 
made available, right?
    So where states have regulations there are less of these or 
none of them and where states do not they are more active?
    Ms. Leonhart. I would say there is less diversion in states 
where they do have them, and they also allow the state 
regulators to take more action against a doctor who would be, 
you know, writing a number of prescriptions. It allows the 
doctor who writes the prescription to know if the person they 
are writing it for has gone to three other doctors and gotten 
the same prescription.
    Mr. Fattah. So you're not doctor shopping for a 
prescription, right?
    Ms. Leonhart. Yeah, so it helps doctors, and it helps 
pharmacies.
    Mr. Fattah. So in the Florida instance what you have is a 
governor who does not want a lot of regulations or promised not 
to do this and that is why there was this dispute. You say we 
have thirty-four states that have monitoring, nine more setting 
them up?
    Ms. Leonhart. Yes.
    Mr. Fattah. I am not sure how closely you are involved in 
the grant program from the Justice Department but was the grant 
program central in trying to get states to set these monitoring 
programs up?
    Ms. Leonhart. I believe that there are states that have 
prescription drug monitoring programs that also have serious 
diversion problems to include pain clinics.

                     JUVENILES AND DRUG TRAFFICKING

    Mr. Fattah. Let's go back to the issue I wanted to raise 
beforehand, which is the role of juveniles in the crack and 
cocaine epidemic. There were a lot of juveniles being utilized, 
moved from state to state to work in the enterprise, and now we 
see it with the southwest border. Some juveniles from the 
United States are being hired by cartels to be engaged 
particularly in enforcement or killing people and so on and 
this has been highlighted in the press.
    Are you--and if you want to look at this and supply it to 
the committee that is fine, but I am interested in whether 
there is more we should do in terms of federal legislation 
about the movement of juveniles across borders or across states 
for involvement in drug activity, and whether you have enough 
enforcement tools now or whether more should be done in that 
area.
    Ms. Leonhart. If we can get back to you, Mr. Fattah. I do 
know that there are enhanced penalties, and there have been 
laws passed recently with certain drug trafficking crimes that 
do increase the penalty for using juveniles, and I believe the 
last one that was passed--that is why I want to get back to 
you--covered a number of drugs that were not--trafficking that 
was not covered previously. Obviously something like that would 
help, but I believe there have been some laws that have been 
passed.
    [The information follows:]

         Federal Criminal Laws Addressing Endangering Children

    There are a number of Federal criminal laws that specifically 
address drug defendants who endanger children. These include 21 U.S.C. 
Sec. 858 (endangering human life while illegally manufacturing a 
controlled substance); 21 U.S.C. Sec. 860 (distribution or 
manufacturing in or near schools, playgrounds, youth centers, etc.), 21 
U.S.C. Sec. 861(a) (employing or using persons under 18 years of age in 
drug operations), and 18 U.S.C. Sec. 25 (use of minors in committing 
crimes of violence). In addition, drug crimes involving children carry 
enhanced sentences. Under 21 U.S.C. Sec. 859, distribution to a person 
under 21 years of age is subject to twice the maximum sentence. 
Similarly, 21 U.S.C. Sec. 860(b) doubles the maximum punishment for 
individuals who employ persons under 18 in drug operations, and 
Sec. 860a imposes an additional term of imprisonment for individuals 
who violate 21 U.S.C. Sec. 841(a)(1) by manufacturing or distributing, 
or possessing with intent to manufacture or distribute, methamphetamine 
on premises in which an individual under the age of 18 is present or 
resides. Furthermore, the Victims' Rights and Restitution Act (VRRA), 
42 U.S.C. Sec. 10607, and the Crime Victim Rights Act (CVRA), 18 U.S.C. 
Sec. 3771 prescribe certain rights and services which are available to 
victims of crimes. Although these statutes do not specifically address 
children, they would apply to child victims of crimes. Similarly, the 
Drug Endangered Children Act of 2007 provides funds that can be used 
for grants related to drug endangered children.

                      DRUG TRAFFICKING SUBMARINES

    Mr. Fattah. Okay. And one other thing. Now in terms of 
coordination with other agencies, under our subcommittee we 
have a number of agencies, some involved in scientific activity 
and others, but we also have NOAA. And part of the drug 
trafficking problem that has been in the news of late has been 
the use of submarines or underwater vehicles. Does the DEA need 
additional help in trying to think about how to address that 
issue?
    Ms. Leonhart. First of all the semi-submersible subs, and 
now fully-submersible subs, are a great threat to our nation, 
not just for drugs, but other things that they could be 
bringing in. So we took quick action. We actually have seized 
some in Ecuador--there was quick action on the part of 
Congress. They passed a law, I think probably a year and a half 
ago, two years ago, that makes it illegal to manufacture these, 
and we have had some successful prosecutions already with that. 
So we have been given the tools to help us with that. I think 
what we need as a law enforcement community, we have gotten 
together a couple times to talk about it, is what more can we 
be doing, and it really is more intel work on who is producing 
these.
    Mr. Fattah. Well, when you get a chance to talk to the 
chairman in this other briefing, there may be agencies that are 
not involved in law enforcement that have expertise that could 
be helpful in this particular regard, who monitor what is going 
on in the oceans and have observation and sensors that may not 
have been used in the past for this purpose, but could 
conceivably be helpful to you.

                             FY 2012 BUDGET

    Let me go to this issue that was raised by my colleague 
about you being able to cut the budget. Now the President asked 
all of the departments to cut $20 billion and there was a round 
of cuts, and then he came back and he asked for the departments 
to cut again and there was $119 billion, and now the Congress 
is coming, and you know, Congress wants more efficiencies in 
these departments. And my concern is that we do not cut in ways 
that are irresponsible.
    And so let me delve into this particular issue about the 
mobile enforcement terms, and there may be other cuts that I am 
not aware of that you have made. But the question here is that 
as best as my staff has been able to figure out, the estimation 
is that drug trafficking is about a $400 billion enterprise, 
and we are applying about $2.5 billion, a rounded number, to 
attack this problem. I do not know that there is a state, a 
city, a community, rural, urban, or suburban, that feels at 
this moment that the country has a handle on this problem. So 
while we are interested in efficiencies, I think we are much 
more interested in our children and our communities being safe.
    So I am interested in the cuts to the mobile enforcement 
teams. And I guess one of the ways I would phrase it is, if you 
had additional resources, where would you apply them in terms 
of your core mission, and where else have you cut other than 
the mobile enforcement teams?
    Ms. Leonhart. Thank you, sir. Let me talk about the other 
areas that we felt we could cut. They are not as big as the 
meth cut, but we looked at administrative efficiencies. We 
looked at things that we could do, costs for, mailing and 
anything that was a continuous cost to us. We looked at how we 
could consolidate and how we could streamline and cut back, so 
we offered that.
    We looked at our computer refresh, which right now is at 
every four years we try to refresh our equipment. It is kind of 
like your car. Okay, tough times, yeah, a car, you are thinking 
about trading it up for another car. Well maybe an extra year. 
You hope it doesn't break down. That is our position. We can 
stretch it out one more year and replace computers. We'll have 
a five-year cycle.
    Reduce our physical footprint, not only DEA but other 
Justice agencies. We are really looking at where we have 
offices to find out if there is some way that we could 
consolidate some of our offices. And we have some very small 
offices.
    Mr. Fattah. You are operating in some 62 countries?
    Ms. Leonhart. We have 82 offices in 62 countries, yes.
    Mr. Fattah. Okay.
    Ms. Leonhart. But domestically we have 226 offices. So part 
of the cut is looking at them and finding out where we have 
some small two-men posts of duty. Maybe we could save on some 
rent and some other expenses if we partnered up and moved in 
with the FBI or moved in with the ATF and in some areas, they 
will move in with us.
    So that is what we are looking at, how to consolidate some 
of the Department of Justice offices. We are not losing people, 
but we are shrinking the number of offices that we have.
    And then there is task force consolidation. We are doing a 
review, all of Justice did, of task force operations, to find 
out if there is a way that we can consolidate----
    Mr. Fattah. Like some of the task forces that you had 
operating in the city of Philadelphia?
    Ms. Leonhart. Philadelphia has a task force.
    Mr. Fattah. Which has been very successful.
    Ms. Leonhart. Yes, it has been.
    Mr. Fattah. In part because of the chairman's help we got 
additional resources there a few years ago. So now we are 
cutting back. Is that what you are saying?
    Ms. Leonhart. We have 217 task forces. We will be looking 
at all of them. We are not losing the people, and we are not 
losing the task force component. We might be able to find, and 
we believe we can find, some of those task forces that maybe 
are not as effective anymore or have kind of outlived their 
purpose, and move those resources into existing task forces, 
programs, or operations.
    Mr. Fattah. Well let me ask you this question. On the meth 
labs, for instance----
    Ms. Leonhart. Mm-hmm.
    Mr. Fattah [continuing]. Part of the problem is the 
contamination. And in that local enforcement sometimes is not 
in a position to understand the environmental hazard that is 
created when someone is operating a meth lab in a particular 
place, and this is a major problem. I know that prescription 
drugs is the number one problem. But meth is a major problem in 
our country.
    So I am trying to figure out how these mobile enforcement 
teams and the cuts there are going to impact our communities.
    Ms. Leonhart. Well, like I stated when we talked about 
cuts, it is just a very austere time. And we felt with our 
mobile enforcement teams, which we have lost in the past and 
got back, you know, that is probably the only program we have 
left that would not be----
    Mr. Fattah. How much was that last year?
    Ms. Leonhart. It is about a $39 million program.
    Mr. Fattah. Right. I don't want to belabor the point, 
because I know the chairman is looming with the time clock. In 
fact, we don't have one, so it is hard for us to gauge how far 
we should go with these things.
    But just so we are clear, I mean, we are spending $80 plus 
million in Afghanistan, right? It is not just a matter of 
austerity. It is a matter of priorities and not your 
priorities.
    But the Congress has to think through where our priorities 
lie, because if we have drugs coming from Afghanistan that are 
going to, for instance, Europe, but we have meth labs in 
Pennsylvania or other problems right here at home and we are 
cutting back, we have to think through what our priorities are 
if we are going to cut back, or we have to invest the money we 
need to cover all of our priorities.
    But I am not sure that the notion wasn't that charity 
should begin in Afghanistan. So I am just trying to figure out 
where we are and how we go about getting at these issues. Thank 
you.
    Ms. Leonhart. Thank you.
    Mr. Wolf. Thank you, Mr. Fattah. And, Mr. Fattah, Mr. 
Graves made a very good point about the budget issues. And Mr. 
Fattah makes a very good point. And I am not threading needle. 
I kind of agree with both of them to a certain extent.
    But fundamentally this administration really has to come 
forward and deal with these entitlement issues, because the 
money is in the entitlements. And if you continue to cut these 
things back as he is talking about.
    So Speaker Boehner wants the President, and I know you 
don't talk to the President every day. The President has to 
engage on this issue of the entitlements. And the Republicans 
in the House are prepared to engage with him. I think Speaker 
Boehner has made it very, very clear.
    And so as we deal with Medicare and Medicaid and Social 
Security to reform it in an appropriate way, we take the 
pressure off, because there are a lot of your programs we 
really can't cut.
    I mean, if you talk to a parent who has a child that has 
been addicted to drugs, and the pain, and the suffering, and 
the agony from the--I mean the flower of the youth just taken 
away. So I think Mr. Fattah makes a legitimate point.
    And now the whole issue on Afghanistan, I don't know what 
you are going to do. I mean, I oppose what some on your side 
are trying to do. But I have a resolution, a bill, that we are 
going to be putting in in a couple of weeks to set up an 
Afghanistan/Pakistan study group to look to see are we doing 
the right things in Afghanistan. Is it the right way? I don't 
necessarily want to get out, but I don't know.
    And he raised a legitimate point. Here we are perhaps 
aiding corruption in Afghanistan. I want the Afghans to have 
freedom, but yet if we are going to cut back what they are 
going to do in Philadelphia, or in Boston, or in Los Angeles?
    And so the administration has opposed my proposal. We are 
going to now put it into bill form, which would create an 
Afghanistan/Pakistan study group. I was the author of the----
    Mr. Fattah. I am for your proposal, Mr. Chairman.
    Mr. Wolf. Maybe we can cosponsor together, because I don't 
know what the answer is. But I think the answer isn't just to 
drip everything out and give you no resources or to be doing 
something maybe in Afghanistan where we shouldn't.
    And when he asked you the earlier question, I guess the 
question I wanted to ask is are the Chinese giving you any 
money? Are the Russians giving you any money? Are our allies or 
those who are not our allies but who want to participate, are 
they putting resources in? Is it ``big hat, no cattle'' that 
they are all interested and want to participate but have no 
money? And so are they giving money? So that is for the record. 
I want to know if they are.
    But I think both make a legitimate point. So you have got 
to deal with the entitlement issue. And then we have to look to 
see are we doing everything the appropriate way in Afghanistan 
to be successful. And if it came out that we are funding 
meritorious programs in Afghanistan but we are taking away from 
people that live right in the United States, then it is a tough 
issue.
    And I have a couple of meth lab questions. And I want to 
follow up on that. But did you want to say something?
    Mr. Fattah. Yes, just for one quick second. My whole point 
is you have one of the most dangerous jobs in the government. 
And you are going after some very tough people who are making 
$400 billion. We are giving you a budget of $2.2 billion and 
say, well, go get the bad guys, right? And then we say, well, 
we want you to cut here and cut here.
    And, you know, I just think that we have to be careful as a 
Nation not to cut to a point where it is really going to be 
more costly in the end. And I don't mean just financially. You 
know, when 34,000 people are losing their lives in Mexico in 
large measure because of the drug issue there, where we have 
seven to nine a day in Florida because of prescription drugs, 
the question of whether we can attack this problem on the cheap 
is a relevant question.
    We are spending $2 billion a week in Afghanistan. If we are 
going to do that, then we have to be big enough as a country to 
think about what our other priorities are too. Thank you.
    Mr. Wolf. And I agree with Mr. Fattah on that. For 
instance, a lot of people don't--I mean if you talk to a couple 
of members who were really excited about what you had done, by 
getting Viktor Bout, the number of people whose lives were 
saved and everything else. And you all stayed with it when 
others sort of dropped it.
    And so I think Mr. Fattah's point is a very appropriate 
one. And it gets back to we have just got to get the President 
to join with the leadership here to come together. Some of 
these programs will actually be increased. I mean I would 
increase cancer research. A lot of people from my family died 
of cancer. And I would increase research on autism.
    The tax bill, I found out later on, both of us apparently 
opposed it. They gave a 2 percent payroll deduction on the 
Social Security tax, which will cost the government $112 
billion. Imagine what you could do with $112 billion.
    So he makes a good point. So, again, we have got to deal 
with these entitlements and come together in a bipartisan way 
quickly, or else we are going to continue to see these 
problems.

                               METH LABS

    Can you submit for the record the statistics from the 
number of meth lab cleanups by states over the last three 
years? And do you know what the number would roughly be?
    Ms. Leonhart. Yes. There were over 10,000 meth labs----
    Mr. Wolf. Ten thousand.
    Ms. Leonhart. Last year, yes. And the number anticipated 
for 2011 was even more.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259B.031
    
    [GRAPHIC] [TIFF OMITTED] T7259B.032
    
    [GRAPHIC] [TIFF OMITTED] T7259B.033
    
    [GRAPHIC] [TIFF OMITTED] T7259B.034
    
    Mr. Wolf. Well then will the states and localities be able 
to engage such assistance on their own? And what do you expect 
will happen to these hazardous materials in the absence of 
funding for the DEA programs for the remainder of the year?
    Ms. Leonhart. Well, if I can explain for the committee, the 
money has always gone to the COPS Program. It has been a grant 
program.
    Mr. Wolf. Does the President's budget for fiscal year 2012 
include any funding in the DEA or the COPS accounts for meth 
lab cleanup?
    Ms. Leonhart. No.
    Mr. Wolf. No.
    Ms. Leonhart. No.
    Mr. Wolf. So if that answer is a no, coming back to the 
question will states and localities, we now know no is no. They 
would have to be able to engage such assistance on their own.
    Ms. Leonhart. A couple of things: the other grants they do 
receive, some of the Byrne Grants, we understand----
    Mr. Wolf. That may very well be in.
    Ms. Leonhart. Some of the Byrne Grants actually allow for 
that. Asset sharing money that we share with state and locals 
when they work on cases can actually be used for lab cleanup. 
And what is missed sometimes is that the cases that we are 
working jointly with them, that we have investigations on, DEA 
is authorized to clean those up, and we will continue.
    Mr. Wolf. I guess the point I am trying to make following 
up Mr. Fattah, do you expect there will be enough resources to 
do what has to be done if it is reduced at this level, knowing 
how the localities are having a very difficult time?
    Ms. Leonhart. I am concerned about the resources available 
to state and locals to be able to respond to the meth issue.

                        MOBILE ENFORCEMENT TEAMS

    Mr. Wolf. As you know, the committee had funds above your 
request in 2009 and 2010 to expand the mobile enforcement team 
programs, DEA teams that reside in field divisions that are 
available for TDY deployments. How many MET teams do you 
currently have?
    Ms. Leonhart. We have currently 16 MET teams.
    Mr. Wolf. And your budget proposals, the total elimination 
of the program; is that correct?
    Ms. Leonhart. That's correct, $39 million.
    Mr. Wolf. And is that because you were trying to reach a 
saving and this was the area that you thought that you could 
save in?
    Ms. Leonhart. This was about the only program. We feel 
strongly that it is worthwhile, but having to do our piece, 
this is about the only program that we thought was a little bit 
distant from our core mission, which is disrupting and 
dismantling the world's largest drug traffickers.
    Mr. Wolf. Okay. As I understand it, the rationale for 
cutting the MET program has been--it is basically an asset to 
localities. Is there a fundamental difference between the MET 
teams and Tactical Diversion Squads? And don't both of them 
target particularly acute localized drug problems and involve 
the participation of state and local officers? So why is MET 
terminated and TDS currently expanding? There seems to be a 
little bit of an inconsistency there.
    Ms. Leonhart. If I can correct you on that.
    Mr. Wolf. Sure. You can correct me any time. Go ahead.
    Ms. Leonhart. One of the things that the Tactical Diversion 
Squads, and if you will look at my slides when we are done if 
we don't get to go through them, one of the things it does, it 
brings task force officers into the program.
    Most of our MET teams do not have state and local task 
force officers in them. They go to a department, and they 
assist in whatever that department thinks are the biggest and 
the baddest in their community, but it is not a program that 
has task force officers in it.
    Mr. Wolf. Well would you acknowledge that this reduction 
may create some problems?
    Ms. Leonhart. I will acknowledge that there will be 
communities and police departments that we would like to help 
that we are not going to be able to help.
    Mr. Wolf. Okay. The Afghan issue, is DEA there primarily to 
advise and train the Afghans, or are DEA personnel conducting 
joint operations?
    Ms. Leonhart. It is both. We are there to help stand up the 
Afghan National Police's Counter Narcotics Police, so that 
they, at some point, will be fully functional on their own to 
conduct both their domestic and international drug 
investigations.
    But we are also there because there are major traffickers, 
high-level traffickers, major drug kingpins, that are a part of 
the problem for Afghanistan and the surrounding region. The 
corrupt governments. They are funding and are a part of the 
insurgency.
    So we play this dual role where we are developing 
counterparts. But we are also saving lives--U.S. military and 
coalition forces' lives--because as we are developing our 
informants in the country, we are passing on that information; 
on a number of occasions we have passed information to Special 
Forces, and they have been able to get troops out of the way. 
We have reported on rocket attacks planned on military 
installations. And with our passing that information, they have 
been able to prepare for it. Because of our drug enforcement 
activities in the country, we have been able to provide leads, 
tips and information to our Ambassadors and even President 
Karzai himself, which has allowed them to move people out of 
harm's way. So we are helping our own forces by doing our 
mission in Afghanistan.
    Mr. Wolf. Of your 82 positions in Afghanistan, how many are 
funded by DEA funds and how many by transfers from State 
Department?
    Ms. Leonhart. The $88.6 million for Afghanistan from the 
State Dept. supports 69 of the 82 positions.
    Mr. Wolf. Tell me from the State Department is how much?
    Ms. Leonhart. Well we asked for $88.6 million.
    Mr. Wolf. And so if that were not forthcoming, what would 
that mean?
    Ms. Leonhart. Well we are concerned, because it isn't 
forthcoming. They are now going to give us $38.1 million and an 
additional 12.7 million. So we are about $6 million short of 
what we reduced our request to, $56.8 million.
    Mr. Wolf. So will that mean you will have to pull out some?
    Ms. Leonhart. Very, very hard questions have to be asked if 
we do not have that $6 million. And we have 82 people in 
country, but they can't do operations, then we have to ask, you 
know, what good is it to have those people in a war zone if 
they can't conduct their operations.
    Mr. Wolf. When do you have to make--what date do you have 
to foresee making that decision?
    Ms. Leonhart. We were just notified by the State Department 
on Friday, and we have been in discussions every day since. We 
are going to be discussing with the Department of Justice our 
plans, because obviously something has to change with us not 
getting money for what we need.
    Mr. Wolf. Is there a drug problem in Pakistan? I don't hear 
too much about that. How does that compare with regard to the 
problem in Afghanistan? How does drug money and the drug issue 
impact them in Pakistan?
    Ms. Leonhart. Well I will say that both Afghanistan and 
Pakistan have a citizen drug problem, a growing citizen drug 
problem. And they have the problem of drug trafficking and 
these high-value targets, these kingpins. The ones that we have 
indicted, have brought to New York, and are prosecuting, what 
we find is, they jump across the border. They are operating not 
only in Afghanistan, but they are also in Pakistan.
    So what I did a couple of years ago is I set up our eighth 
foreign region, and I called it the Afghan/Pakistan region, 
because what we do in Afghanistan affects Pakistan and vice 
versa.

                                BOLIVIA

    Mr. Wolf. Sounds like my bill, the Afghan Pakistan study 
group to look at both. Two other questions. In 2008, President 
Morales of Bolivia ordered the DEA to leave the country. We 
understand you relocated staff to other Southern Cone 
countries.
    There were concerns at the time that this could be a major 
setback for counternarcotic efforts in Bolivia and in the 
region. We understand that the former head of Bolivia's 
antinarcotics police was recently arrested by the DEA in Panama 
for drug trafficking and brought to the U.S. for trial. Is that 
accurate?
    Ms. Leonhart. That is accurate.
    Mr. Wolf. I bet he was doing----
    Ms. Leonhart. I am sorry?
    Mr. Wolf. How did he get the job? Did President Morales 
know he had this problem?
    Ms. Leonhart. Let me say what our worries about Bolivia 
are. The region around it, the countries around it, have been 
very concerned, because there is an uptick in production and 
trafficking in Bolivia. You can question why did we really get 
thrown out of Bolivia.
    Mr. Wolf. Yes. Is there not a problem of drug use in 
Bolivia too?
    Ms. Leonhart. There is a growing, already bad, but growing 
drug problem in Bolivia, a coke problem.
    Mr. Wolf. And what does President Morales think of that?
    Ms. Leonhart. If you remember, he was a cocalero, so he 
looks at this through different glasses.
    Mr. Wolf. How would you characterize the level of 
cooperation you get today from the Bolivian government on 
counter-narcotics?
    Ms. Leonhart. We are having to, since we were removed from 
Bolivia, put our people in surrounding areas, surrounding 
offices, countries. We have what we call an outside-in 
strategy. We are having to work our operations from the 
outside, like this case on General Sanabria that just was taken 
down.
    We have had to develop informants outside of Bolivia. It is 
difficult, but President Morales has said several times that 
DEA will never return to Bolivia while he's in office.
    Mr. Wolf. What was he doing in Panama when he was arrested?
    Ms. Leonhart. This is an undercover operation. He was part 
of a conspiracy that negotiated to sell our undercovers I think 
150 kilos of cocaine.
    Mr. Wolf. And what is he charged with?
    Ms. Leonhart. He is charged with conspiracy to distribute 
cocaine.
    Mr. Wolf. Now will he have a public defender or will he 
have to get his own lawyer?
    Ms. Leonhart. He has arrived recently in Miami, and I don't 
know who is representing him.
    Mr. Wolf. Could you tell the committee what law firm 
represents him and the background of the people that represent 
him? Will it be a public defender or a prominent law firm in 
Miami or whatever? Who is representing your friend, Viktor?
    Ms. Leonhart. One of the reasons for the delay, we thought 
we were going to trial this summer. It has been delayed until 
October is because he has fired his attorney.
    Mr. Wolf. Who was his attorney?
    Ms. Leonhart. I don't know who it was. And I just heard the 
other day who he has gotten. I will get back to you on that. He 
has just hired a brand new attorney.
    Mr. Wolf. Was it a reputable law firm in the United States?
    Ms. Leonhart. I wasn't aware of the person.
    Mr. Wolf. Okay.
    Ms. Leonhart. Of the name, but I will get you that.
    [Clerk's note.--The Department of Justice did not provide 
the information regarding legal representation indicated by the 
witness. The information follows:]

[GRAPHIC] [TIFF OMITTED] T7259B.035

[GRAPHIC] [TIFF OMITTED] T7259B.036

[GRAPHIC] [TIFF OMITTED] T7259B.037

    Mr. Wolf. If you could let us know. Do you think the law 
firm--do you think it is a public defender, or do you think he 
is----
    Ms. Leonhart. No. I believe----

                              VIKTOR BOUT

    Mr. Wolf. Do you think the law firm knows of all the kids 
in Africa who have been killed because of Viktor Bout? Do you 
know if this firm knows of the pain and suffering and the agony 
he has brought to Sierra Leone, to the Congo, to Liberia?
    Ms. Leonhart. I don't know.
    Mr. Wolf. If you could do a one page, kind of two page on 
the pain and suffering that Viktor Bout has brought to the poor 
people of Africa, I would send the law firm. And then you give 
me the lawyer. What I will do is I will write him a letter and 
tell him that his client has been involved in all these 
activities and the pain, and the suffering, and the agony that 
he has created.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259B.038
    
    [GRAPHIC] [TIFF OMITTED] T7259B.039
    
    Mr. Wolf. With that, I have some others we are going to 
submit for the record. But, Mr. Fattah, do you have any last 
questions?

                             CYBERSECURITY

    Mr. Fattah. Let me just ask, because we have asked this I 
think of all of our other witnesses, about cybersecurity for 
your agency. Are there issues, challenges, and are there budget 
requests relative thereto? I heard you say something about not 
refreshing your computers. I am a little more interested in the 
security of your computer system.
    Ms. Leonhart. Well I will tell you that part of the budget 
request is $900,000. And that is to stand up, and I believe the 
FBI or a couple of other agencies may be requesting this as 
well, this is to help make sure our systems are secure. This is 
to check not only our automated systems, but this will be a 
program we can start to even check and see if we are being 
infiltrated anywhere from informants and employees. So it is 
$900,000 that would allow us to start a counterintelligence 
program, looking at our own operations.
    Mr. Fattah. Over the last year have there been attempts to 
illegally access your system?
    Ms. Leonhart. I believe for Justice as a whole that there 
are always people attempting to get into our systems.
    Mr. Fattah. So other than the generality of that, there 
have been no persistent or particular attacks on your security 
system, your computer system----
    Ms. Leonhart. I am aware----
    Mr. Fattah [continuing]. That you can talk about?
    Ms. Leonhart. I am aware of we have been shut down a few 
times to protect, because of an intrusion that is always 
caught. I am not aware of anybody that has actually been able 
to penetrate us.
    Mr. Fattah. Okay. And so you have this $900,000 request. 
And just for the record, I know my colleague raised this, there 
is a story in the New York Times today, about drones. They are 
not operated by the DEA. If they exist, they are operated by 
the Department of Defense or some other agency.
    Ms. Leonhart. We have none.
    Mr. Fattah. Okay. Thank you very much.
    Mr. Wolf. I thank you. I think that is all of the questions 
that we have. There will be a number for the record. And then 
if we can have the other follow-up information, like the law 
firms, that information, the prescription drug issues, so we 
can write the governor.
    Ms. Leonhart. Yes, sir.
    Mr. Wolf. And then if you could keep us informed after we 
write the governor whether he will meet with you.
    But if you can let us know what takes place with regard to 
that. And then keep us informed of these other things.
    With regard to that, thank you for your testimony. I 
appreciate the good work your people do. Thanks.
    Ms. Leonhart. Thank you for your help.

    [GRAPHIC] [TIFF OMITTED] T7259B.040
    
    [GRAPHIC] [TIFF OMITTED] T7259B.041
    
    [GRAPHIC] [TIFF OMITTED] T7259B.042
    
    [GRAPHIC] [TIFF OMITTED] T7259B.043
    
    [GRAPHIC] [TIFF OMITTED] T7259B.044
    
    [GRAPHIC] [TIFF OMITTED] T7259B.045
    
    [GRAPHIC] [TIFF OMITTED] T7259B.046
    
    [GRAPHIC] [TIFF OMITTED] T7259B.047
    
    [GRAPHIC] [TIFF OMITTED] T7259B.048
    
    [GRAPHIC] [TIFF OMITTED] T7259B.049
    
    [GRAPHIC] [TIFF OMITTED] T7259B.050
    
    [GRAPHIC] [TIFF OMITTED] T7259B.051
    
    [GRAPHIC] [TIFF OMITTED] T7259B.052
    
    [GRAPHIC] [TIFF OMITTED] T7259B.053
    
    [GRAPHIC] [TIFF OMITTED] T7259B.054
    
    [GRAPHIC] [TIFF OMITTED] T7259B.055
    
    [GRAPHIC] [TIFF OMITTED] T7259B.056
    
                                           Tuesday, March 15, 2011.

                         U.S. BUREAU OF PRISONS

                                WITNESS

HARLEY G. LAPPIN, DIRECTOR, U.S. BUREAU OF PRISONS

                            Opening Remarks

    Mr. Wolf. Welcome to the hearing. The hearing will begin.
    Over the past 25 years, the U.S. prison and jail population 
has skyrocketed to an all-time high, with 2.3 million people 
incarcerated. We are the world's incarceration leader, 
confining 23 percent of the world's prisoners.
    Our federal prison population is experiencing incredible 
growth. The Bureau of Prisons is nearly 40 percent over 
capacity and its population is expected to grow by an 
additional 14,000 inmates over the next two years at a cost to 
taxpayers of $27,000 per inmate per year.
    The President's budget requests increases of 10 percent for 
the prisons and detention accounts just to keep pace. The 
budget requests $6.8 billion for the Federal Prison System, 
more than $600 million over the current levels.
    I am sympathetic to the challenges the Bureau of Prisons 
faces as the inmate population continues to grow, because by 
law they must provide for the custody of all inmates. BOP does 
not control the number of inmates sentenced to prison and 
unlike other federal agencies cannot limit assigned workloads 
and thereby control operating costs.
    We must still seek ways to reduce costs and I think the 
Administration is not doing enough on this to be honest with 
you, nor did the previous Administration do enough. There is a 
lot of rhetoric, a lot of talk, a lot of talk about work, a lot 
of talk about Drug Courts, but nothing really ever changes 
except the situation gets worse and gets worse and gets worse.
    One serious problem influencing our prison population is 
recidivism. The Bureau of Justice statistics has estimated that 
two-thirds of all released prisoners will commit new offenses 
within three years of their release.
    I believe that Director Lappin and I likely share the goals 
of reducing costs of prison populations and crimes. Just a few 
weeks ago, this subcommittee held a hearing to discuss the 
growing body of evidence that suggested we can--if we really 
make an effort--turn around the failure rates associated with 
our outdated reentry system.
    Organizations like the Pew Center on the States and the 
Council of State Governments are promoting innovative efforts 
that are being tailored to specific populations and 
jurisdictions. I hope that some of these lessons, if not all, 
will be applied to our Federal Prison System.
    In light of this, I am pleased to see the emphasis that the 
budget request places on reentry programs, specifically 
residential drug abuse treatment and occupational education. 
And we have a number of questions to ask with regard to that.
    Before your testimony, let me just recognize the ranking 
member, Mr. Fattah.
    Mr. Fattah. Thank you very much.
    I look forward to your testimony. It is true, as the 
chairman said, that the percentage of prisoners in federal 
custody--if you go back to 1980, you had about almost 10 
percent of what you have now, so it is just growing each and 
every year.
    You do not have anything to do with how many people you 
have in custody, but it is obviously a very stark reality that 
among the 210,000 you have significant numbers involved in 
organized gangs and other levels of activity that lead many to 
believe that out there, after that average ten-year sentence, 
that there are going to be further challenges for society even 
once they are released.
    So I look forward to your testimony and I welcome you again 
to the committee.
    Mr. Wolf. Thank you, Mr. Fattah.
    Your full statement will appear in the record and you can 
proceed as you see appropriate.

                           Opening Statement

    Mr. Lappin. Thank you, sir. It certainly is a pleasure to 
be back. And good morning to you, Chairman Wolf, Ranking Member 
Fattah, and other Members of the subcommittee.
    Let me begin by thanking you for your strong support of the 
Bureau of Prisons. I appreciate the opportunity to appear 
before you today to discuss the President's fiscal year 2012 
budget request for the Bureau of Prisons.
    I assure you we will continue to exercise restraint and 
good judgment in executing the budget you provide by continuing 
to contain costs while maintaining a high level of service.
    Continuing increases in the inmate population pose 
substantial ongoing challenges for our agency. A net increase 
of approximately 5,600 inmates is expected in fiscal year 2012. 
We believe the inmate population will continue to grow for the 
foreseeable future and so will the Bureau of Prisons' 
challenges to provide for safe inmate incarceration and care, 
and for the safety of Bureau of Prison staff and surrounding 
communities.
    The fiscal year 2012 budget request builds upon the 2011 
Continuing Resolution level. For the Bureau of Prisons, this 
means the starting point for this budget is the fiscal year 
2010 enacted level. All adjustments to the base and program 
change line items are built to bridge from the fiscal year 2010 
level to the fiscal year 2012 requirements.
    The President's fiscal year 2012 budget request for the 
Bureau of Prisons is $6.724 billion for the Salaries and 
Expenses account. This request includes program enhancements to 
begin the activation processes at three institutions, FCI 
Berlin, New Hampshire; a secure female facility at FCI 
Aliceville, Alabama; one acquired facility USP Thomson, 
Illinois; also to increase current staffing levels at existing 
institutions; and to expand residential drug abuse treatment 
programs and provide occupational education.
    It also contains offsets including $41 million for a 
proposed legislative initiative which, if passed, would allow 
additional good conduct time credits for inmates.
    For the Buildings and Facilities, or B&F account, $99.4 
million is requested, and a rescission of $35 million in prior 
years' new construction balances is proposed.
    Our highest priorities continue to be ensuring the safety 
of federal inmates, staff, and surrounding communities; 
increasing on-board staffing at Bureau of Prisons' correctional 
institutions; reducing inmate crowding to help prevent violence 
by adding additional bed space; maintaining existing 
institutions in an adequate state of repair; maximizing the use 
of inmate reentry programs such as education and drug treatment 
in order to reduce recidivism; and seeking long-term strategies 
to control population growth.
    Crowding is of special concern at higher security 
institutions. These facilities confine a disproportionate 
number of inmates who are prone to violence.
    The fiscal year 2012 B&F budget request would not provide 
new beds for the projected future inmate population growth. In 
order to reduce crowding, one or more of the following must 
occur: reduce the number of inmates or the length of time 
inmates spend in prison; expand inmate housing at existing 
facilities; contract with private prisons for additional bed 
space for low-security criminal aliens; and acquire and/or 
construct and staff additional institutions.
    The continued professionalism and dedication of our staff 
has been critical to the Bureau's ability to continue to 
operate safe and secure facilities. We are managing many more 
inmates than our prisons were designed to house and also 
preparing more inmates to transition back into their 
communities.
    Currently, there is a hiring freeze throughout the 
Department of Justice and all of its components. As of January 
29, 2011, the Bureau of Prisons has 36,280 Salaries and 
Expenses staff on board, which is 90 percent of the fiscal year 
2010 authorized level.
    The challenges have never been greater. The Bureau is 
managing severely crowded institutions with more inmates who 
have histories of serious violence and more inmates who have 
proven to be confrontational, resistant to authority, and 
disrespectful of prison rules.
    Chairman Wolf, this concludes my formal statement. And, 
again, I thank you, Mr. Fattah, and the subcommittee for your 
support of our agency.
    As I have indicated in my testimony, the BOP faces many 
challenges as the inmate population continues to grow. The 
fiscal year 2012 President's request moves us a step further 
toward adequate staffing and bed space needed to meet the 
requirements of the increasing inmate population.
    I look forward to working with you, Mr. Chairman, and the 
Members of the subcommittee. I'd be happy to answer any 
questions you might have.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259B.057
    
    [GRAPHIC] [TIFF OMITTED] T7259B.058
    
    [GRAPHIC] [TIFF OMITTED] T7259B.059
    
    [GRAPHIC] [TIFF OMITTED] T7259B.060
    
    [GRAPHIC] [TIFF OMITTED] T7259B.061
    
    [GRAPHIC] [TIFF OMITTED] T7259B.062
    
    [GRAPHIC] [TIFF OMITTED] T7259B.063
    
    [GRAPHIC] [TIFF OMITTED] T7259B.064
    
    [GRAPHIC] [TIFF OMITTED] T7259B.065
    
    [GRAPHIC] [TIFF OMITTED] T7259B.066
    
    [GRAPHIC] [TIFF OMITTED] T7259B.067
    
    [GRAPHIC] [TIFF OMITTED] T7259B.068
    
    Mr. Wolf. Thank you.
    Mr. Fattah.
    Mr. Fattah. If the chairman would yield for one second.
    Mr. Wolf. Sure.
    Mr. Fattah. I have Secretary Chu, from the Department of 
Energy, testifying before Energy and Water and I am going to 
step out for a minute.
    Mr. Wolf. Sure.
    Mr. Fattah. And Congressman Schiff is going to take the 
ranking position.
    And I do share all the concerns of the chairman about 
reduced costs. And 26 percent of the people in your prisons are 
not even American citizens, so there is a lot for us to deal 
with.
    But, unfortunately, given the situation in Japan, I feel a 
necessity to go to the Energy and Water Committee.
    Mr. Wolf. Sure. No. I understand.
    Mr. Fattah. Thank you. All right.

                   Clarification of Opening Statement

    Mr. Wolf. Thank you, Mr. Fattah.
    You said it is a step. Is it a baby step or a giant step? 
You said in your testimony you are taking a step.
    Mr. Lappin. It is a small step.
    Mr. Wolf. A baby step kind of?
    Mr. Lappin. It is a step. It is not as big a step as I 
would like to have. And, again, I think it is all driven by, as 
you have indicated, the number of inmates that continue to come 
into the Federal Prison System.
    Mr. Wolf. Okay. Well, I could go more, but I think we will 
from some of the questions.
    It seems like we have been here before. Again, this is not 
directed toward you.
    Mr. Lappin. I know. I understand.

                 JUSTICE REINVESTMENT AND PUBLIC SAFETY

    Mr. Wolf. You know that. But it just seems that this is the 
way it has always been.
    Most state corrections systems begin their reform process 
by providing outside experts with corrections data to conduct 
comprehensive analysis. I believe it is imperative that experts 
at BOP and outside government fully understand the drivers of 
population, costs and recidivism so that we can address 
overcrowding, costs and reduce recidivism and increase public 
safety.
    You said that really in your testimony in some respect, but 
that is why I requested that you make available the BOP data 
that will be necessary for a thorough analysis.
    Have you read this?
    Mr. Lappin. I have, sir.
    Mr. Wolf. Great. What is your reaction to it?
    Mr. Lappin. I found it very favorable and----
    Mr. Wolf. Okay.
    Mr. Lappin [continuing]. Would love to work with you and 
others on a similar initiative.
    Mr. Wolf. Okay. What else can the Department do to advance 
the comprehensive analysis of both its own policies and 
establish the best practices that will ultimately reduce 
recidivism and corrections spending?
    Basically what I am trying to say is if you have got all 
the best ideas and you are going to be leaving in four years, I 
mean, I do not know, you are not going to be here 20 years from 
now, so----
    Mr. Lappin. No, sir.
    Mr. Wolf. You are a career person, you have a lot of 
expertise, I have a lot of respect for you, if somebody said, 
``okay, Lappin, you have got four years to turn this baby 
around, what are you going to do?''
    If you took the very best that was being done by Mitch 
Daniels in Indiana, by the governor of Texas and what they are 
supposedly doing, what Pew says, what the Council of State 
Governments says, what you know in your heart of hearts, what 
would you do?
    Mr. Lappin. You know, you are supposed to start these out 
with an easy question.
    Mr. Wolf. But that becomes, fundamentally that is the 
whole----
    Mr. Lappin. I wish I had all the answers. And I appreciate 
your confidence certainly in the Bureau of Prisons and how we 
have managed in the past. But I think we can learn a lot from 
this exercise, from this process.
    In my opinion, it involves more than just the Department of 
Justice and the Bureau of Prisons. I look forward to providing 
you the information you have requested. It is going to be large 
in volume. It is going to be complicated. But we really welcome 
the opportunity to work with you on analyzing and assessing 
that data to look for the direction to go.
    I think it involves more than just the Bureau of Prisons 
and the Department of Justice. As reflected in there, it needs 
to include representatives from the judicial system and from 
the legislative branch because it appears to me that they 
collectively worked together on a number of the initiatives 
that were of benefit to them and resulted in their success.
    It is clear that a lot of the work that they did was in the 
earlier stages of the criminal justice process with pre-trial 
detention, diversion, with probation, with a number of other 
issues.
    I think in the federal system, we have to step back and 
take a look at sentencing. As indicated by Congressman Fattah, 
30 years ago, we had 26,000 inmates. Today we have 210,000 
inmates. I think there are two common factors there.
    One, the passage of the Comprehensive Crime Control Act 
that resulted in longer sentences for the inmates that were 
coming to the prison system at the time; and then second was 
the addition of federal offenses, traditionally state offenses 
that became federal offenses with the addition of longer 
sentencing and mandatory minimums. And consequently we saw 
these two waves of significant increases.
    So I think it needs to be a collective effort on the parts 
of the executive, legislative, and judicial branch. I think we 
need to reach out to the Sentencing Commission, to the 
Administrative Office of the United States Courts. We work 
closely with them as we analyze this data to look at what 
vehicles we may be able to pursue to alleviate some of the 
crowding and some of the ongoing increases of inmates into the 
federal system.
    I could not agree with you more. You have been year after 
year after year, along with Congressman Mollohan, supportive of 
``determining, once they are in prison, what should we be doing 
for them?'' Especially for those willing participants who 
recognize the skills they lack such that we can provide the 
programs to improve those skills and consequently see fewer of 
them coming back to prison.

                GOOD CONDUCT TIME LEGISLATIVE PROPOSALS

    And so I think we need to, for those that end up in prison, 
we need to continue to emphasize participation in programs. As 
referenced in my full testimony, there are a couple of pieces 
of legislation that the Administration has moved forward that 
you should have, if you do not have them yet, that would 
encourage more participation in these programs.
    And it is leverage that I think would be overwhelmingly 
supported in moving forward, urging more inmates into programs 
that we know improve skills--like working in Prison Industries, 
getting a GED, getting a vocational certificate, getting drug 
and alcohol treatment, addressing some of their social skills, 
decisionmaking, anger management that many of them lack--such 
that when they do leave prison and we can provide a more 
supportive transition, they are more likely to be successful.
    Mr. Wolf. Well, why can't you force that?
    Mr. Lappin. We----
    Mr. Wolf. You know, they are in prison. They have done 
something. They violated the law. They are not a group of boy 
scouts. They are in prison. So you are in prison. You are going 
to work. We are going to get you your GED. We are going to have 
rehabilitation. We are going to be tough on you.
    But the purpose of being tough on inmates is almost the 
same in some respects, as you are with your children, in order 
that they will be better persons. So when you get out, you can 
have a family and live happily ever after.
    I mean, when I go to the prisons, no one is working 
anymore. If someone goes to a federal prison, they ought to be 
working, period. And I do not mean the laundries. If they do 
not have their GED, GED class ought to be mandatory, absolutely 
mandatory.
    Why can't we do that? They are in prison. They are in your 
custody. It is not like you are doing something bad to them. 
You are actually pulling them along. Most people are 
redeemable. There are some that are not redeemable. We all know 
that. We cannot go into this with a kind of pollyannaish view, 
but there are a number that are redeemable. And so it is sort 
the initiative, you know. You get them here and you do this. 
And, finally, these people turn into good citizens. I mean, why 
can't we force that?
    Mr. Lappin. First of all, all the inmates do have jobs that 
are medically able to work. It is complicated----
    Mr. Wolf. I walked through one of your prisons a couple of 
years ago. There were a lot of guys sitting around playing 
checkers, doing this, doing that. I think they had a little 
morning kind of drill, but they were not really learning 
anything that when they got out, they could say, okay, I am 
going to go and work for Siemens or I am going to work for X.
    Mr. Lappin. Again, there's work, education, and vocational 
training, three separate programs, so let's just focus on work. 
And it may be----
    Mr. Wolf. Now, if we're looking at the optimum, the summum 
bonum, how many are doing work, rehabilitation, and how many 
are meeting the capacity to really turn this criminal into a 
good citizen, who would have an opportunity to make a 
contribution and live a normal life when they get out? So if 
they are the three cylinders, are the cylinders going up to 87 
percent, 93 percent, 13 percent? Where are they?
    Mr. Lappin. Based on my experience, about seven out of the 
ten inmates in our custody are willing to participate in those 
programs.
    Mr. Wolf. But, I mean, how many are not willing? How many 
are really doing what they could be doing to turn themselves 
into a decent----
    Mr. Lappin. I can give you the statistics of how many are 
participating in programs and how many are working. I would say 
of the seven out of those ten, the majority of those seven are 
participating to a great extent in work, education, and 
vocational training. There are three out of ten who tend to 
resist.
    Could I force them into a classroom, could I make them go 
in there and sit down in the classroom even though they did not 
want to be there? We could. It would probably be detrimental to 
the other participants.
    Mr. Wolf. Well, couldn't you say to them, folks, you are 
not going to participate, but you will spend every single day 
that you have been sentenced here, and then you who want to 
participate, we are working on good time----
    Mr. Lappin. Correct.
    Mr. Wolf [continuing]. We are working on this.
    Mr. Lappin. Correct.
    Mr. Wolf. You are going to be able to get, I mean----
    Mr. Lappin. That is correct. There is little flexibility 
for us under the current statute.
    Mr. Wolf. Well, nobody----
    Mr. Lappin. They get----
    Mr. Wolf. Nobody from the Administration has come up and 
said to me, Wolf, but we want to--I mean, maybe they have to 
Mr. Schiff. They have not to me. We want to really deal with 
this issue, so this is a priority. We are pushing this. We have 
been by to see Lamar Smith fifteen times. We are talking to 
you. We are talking to Mr. Conyers. This is our priority. I do 
not think that is happening, not under this Administration, nor 
under the previous Administration.
    Mr. Lappin. I think that is happening under this 
Administration more so than the prior administrations. I think 
you have two pieces of legislation that reflect that.
    One, to increase the original statute of good time from 
what they now get, 47 days----
    Mr. Wolf. Now, how fast is it moving? Where is it?
    Mr. Lappin. I think both pieces of legislation have been 
sent over to The Hill.
    Mr. Wolf. But have hearings been held?
    Mr. Lappin. I do not believe they have, no.
    So there are two pieces of legislation. One to increase the 
amount of good time under the current----
    Mr. Wolf. Everything you are testifying on is predicated on 
the idea that they are going to pass, correct?
    Mr. Lappin. You are absolutely correct. Right now the 
budget reflects that it will pass and they have already taken 
$41 million assuming it does pass. And----
    Mr. Wolf. And can you guarantee us that it will pass?
    Mr. Lappin. I cannot. I cannot without a doubt. Certainly, 
I am hopeful and I am encouraged by it because the first piece 
is more of a relief valve. For inmates who are behaving, for 
inmates who are complying, they get out a little earlier. The 
second----
    Mr. Wolf. Well, it is just a little earlier, too, isn't it? 
I mean----
    Mr. Lappin. It adds seven days----
    Mr. Wolf. For a year.
    Mr. Lappin [continuing]. For a year. I mean, is it 
significant? No.
    Mr. Wolf. No.
    Mr. Lappin. But is it helpful? Yes.
    Mr. Wolf. But why if it was----
    Mr. Lappin. The second piece adds another 60 days on top of 
that 54 days. To earn that good time, to earn that 60 days, you 
must be participating in the programs that we recommend you 
participate in, just as you have indicated or else you do not 
get that good time.
    So when they come into the prison system today, they get 
assessed, and we identify the skills they lack. There are nine 
skills we assess. We look at daily living skills, mental 
health, wellness, interpersonal, academic, cognitive, 
vocational, career, leisure and character skills.
    They do an assessment. We identify those skills that they 
lack. We then will provide programs at every location that they 
can participate in to improve those skill sets.
    If they participate in those programs successfully, they 
can earn that 60 days. If they do not, they cannot earn the 60 
days.
    Mr. Wolf. If the bill passes?
    Mr. Lappin. If the bill passes, that is correct.
    If they earn the good time because they participated----
    Mr. Wolf. Has the bill been introduced in the Senate yet?
    Mr. Lappin. I do not believe so.
    If they do earn the 60 days and then misbehave, we can take 
that good time away.
    That's one thing we did not foresee back in the 1980s when 
we, the Federal Prison System had more flexibility on good 
time, the granting of good time and the removal of good time. 
When that was eliminated, a consequence today is that we do not 
have as much leverage with inmates not only for those who 
behave, but for those who misbehave, because the only severe 
type of punishment today in prisons is isolation.
    Mr. Wolf. Does this bill take you back to the 1980s?
    Mr. Lappin. Not quite.
    Mr. Wolf. Well, why----
    Mr. Lappin. It will not drop below two-thirds.
    Mr. Wolf. But why wouldn't you want to go back to when you 
had that flexibility?
    Mr. Lappin. Obviously given the--is this risky? This is 
risky for everyone.
    Mr. Wolf. Well, what percentage of----
    Mr. Lappin. And we are trying to take small steps----
    Mr. Wolf. What percentage are violent and nonviolent? I 
mean, the violent guys, it is a different story.
    Mr. Lappin. It is. And we are probably about six out of 
ten, 60 percent probably fall into the violent category.
    Mr. Wolf. Okay.
    Mr. Lappin. Yes.
    Mr. Wolf. So 40 percent----
    Mr. Lappin. About 40 percent, my guess is, are not as 
violent. It depends on how you want to define violence.
    Mr. Wolf. And I was going to say----
    Mr. Lappin. If you define violence as carrying a weapon----
    Mr. Wolf. Yeah.
    Mr. Lappin [continuing]. Then probably more than that. But 
if you define carrying a weapon without using it in the 
commission of a crime, probably more 60/40. So, again, on the 
other hand, we know that these programs that we provide, as we 
have done the research over the years, have a positive impact 
even on violent inmates.
    So even the violent inmates who participate and improve 
those skills tend to be far more successful upon release than 
those that do not. So there is really no differentiation 
between nonviolent and violent. Certainly there is a 
perception, a concern of that, but certainly the research we 
have done on inmates who participate in these programs reflects 
that it has had a positive impact on both groups of inmates 
upon release from prison.
    Mr. Wolf. So why wouldn't you go back and say we are going 
to take one prison in the west, one in the east, and we are 
going to go back and use the 1980s standards and then we are 
going to take----
    Mr. Lappin. Those are certainly options that can be 
considered.
    Mr. Wolf. I do not know that your bill is going to pass 
though. Nobody----
    Mr. Lappin. I have no idea.
    Mr. Wolf. Nobody up here----
    Mr. Lappin. You are absolutely correct.
    Mr. Wolf. Nobody up here is talking to me. Nobody is 
saying, boy, this is--nobody from the Administration has been 
by to see me. I am a Republican, so maybe they do not want to 
deal with me. But nobody has been by to say this is really a 
priority.
    And when the Attorney General testified last week, I did 
not sense that there was a fervor that he was really committed. 
We are at a crisis. And if Pew and others can do this, if some 
of the governors can do it--and you probably have more 
resources than the average state has. You certainly have 
better-run prisons than many of the states.
    Mr. Lappin. Let me tell you, Mr. Chairman, it has taken 
eight years to convince somebody to go down this route. This 
Administration has agreed to do this. I think that is 
significant.
    Now, it is early in the process. This is not the first time 
we have had this debate about the need to step back and 
reevaluate who is going to prison and for how long. I agree 
with you. There has been resistance on both sides.
    This is the first group that has gotten this far to agree 
to draft and submit, and maybe it is just getting over here, 
and maybe it is yet to come, the interaction from them on that 
issue, but I am encouraged by it. I am not overly optimistic 
yet because you are right. It has not passed. But certainly for 
the last 20 years, 25 years, the alternative has only been 
build, build, build. And I question whether we will ever build 
our way out of this.
    So, I am thankful that they are stepping back, reevaluating 
as this report urged people to do, maybe not to that degree 
yet, but I think it is a good first step towards reevaluating 
how many get incarcerated and for how long.

              THE NATIONAL SUMMIT ON JUSTICE REINVESTMENT

    Mr. Wolf. Well, why couldn't you take this report and apply 
it to the Bureau of Prisons?
    Mr. Lappin. I can. I think we can do that. I do not think 
it can just be done by the Bureau of Prisons. It is going to 
take support of----
    Mr. Wolf. Why doesn't the Attorney--is there anybody here 
from the Attorney General's Office?
    Mr. Lappin. I know the Attorney General has met----
    Mr. Wolf. Why doesn't the Attorney General put together a 
group on a fast march to apply the principles of the Pew and 
the Council of Governments and try to get this--I mean, this 
ought to be a bipartisan or kind of a nonpartisan thing.
    I consider myself a conservative Republican and tough on 
crime. You know, my dad was a policeman. So if I can do it, 
maybe you and Representative Conyers from the other side would 
do it.
    Why couldn't they take this and say, ``okay, we are going 
to replicate, if not across the whole prison system, in a 
couple prisons to see if this would really work? Is it working? 
Has Indiana really done as good a job and have some of the 
states done a pretty good job that you look at those and you 
yearn to see if you had that same ability and that same''----
    Mr. Lappin. That is being assessed. I know the Attorney 
General has met with these folks. But I want to back up here a 
minute. Again, this is more than a review or reform of prison 
systems.
    Mr. Wolf. Well, get the judges in there too.
    Mr. Lappin. This has to be a criminal justice initiative.
    Mr. Wolf. Well, get the judges in there too.
    Mr. Lappin. Because once they are sentenced to a period of 
incarceration, our options are minimal.
    Mr. Wolf. But you have an easier time because you have the 
federal judiciary, and you can call the chief justice and ask 
him to make this a priority with regard to the judicial system. 
You have the Justice Department. It is the Attorney General of 
the United States in addition to the judicial conference, if 
you will.
    And, you know, I think you would call the Supreme Court, 
the chief justice, and say we would like the priority of the 
court system to be on a force march to do this by the end of 
this year. I do not mean by the end of the summer but by the 
end of this year. So we have that flexibility and this ability 
to do it.

                GOOD CONDUCT TIME LEGISLATIVE PROPOSALS

    Now, I am going to go to Mr. Schiff, but let me just ask 
one or two more questions on the inmates. Currently inmates who 
participate in Federal Prison Industries, educational programs, 
and occupation and vocational training cannot earn sentence 
reduction opportunities in exchange for their successful 
participation.
    Would this legislation change that?
    Mr. Lappin. I am sorry. What----
    Mr. Wolf. Currently inmates participating in Federal Prison 
Industries, as little as there now currently are----
    Mr. Lappin. Right.
    Mr. Wolf [continuing]. Educational programming and 
occupational and vocational training cannot earn sentence 
reduction opportunities in exchange for their successful 
participation.
    You allege that a proposal would change this?
    Mr. Lappin. Yes.
    Mr. Wolf. Has that ever been done before? Was that the way 
it was in the 1980s?
    Mr. Lappin. You know, I do not exactly recall how it was 
framed in the 1980s. But inmates who participate in work-
related skills building activities, education, vocational 
training, other treatment programs would benefit from this good 
time credit as long as they sincerely participated and 
completed the programs. They could earn up to the 60 days. So 
that would change.
    There are a couple of groups that it would not affect 
because they are already getting reductions. So if you are 
already getting credit for drug treatment, you cannot double 
dip. So there are a few exceptions, but most of the inmates out 
there who participate in these programs would earn credit for 
their participation. And those that did not would not get it. 
And, again, if you earned it and you misbehaved, you could lose 
it. And I think that is some of the leverage that----
    Mr. Wolf. Give me the optimum of somebody in there for ten 
years, if they were hitting on every cylinder and went to the 
Prison Industries and were involved in GED or doing everything 
that they could be doing, they were an A student, if you will, 
what would happen to that ten-year sentence?
    Mr. Lappin. Reduced by 600 days. So they could earn--I do 
not say they get the entire credit because they have got to 
participate for a while for----
    Mr. Wolf. But the max they would get would be----
    Mr. Lappin. The max someone could get would be 60 days, an 
additional 60 days per year. So that is about 600. That is 
about a couple years.
    Mr. Wolf. And how was that number picked? Was that 60 
days----
    Mr. Lappin. This was the first step. No different than the 
information we are providing you to do the analysis. This is 
kind of the first step.
    Mr. Wolf. So that was just a number? Somebody said let's 
pick 60? It sounds like it is----
    Mr. Lappin. Well, no. We looked at what--we are trying to 
be reasonable.
    Mr. Wolf. Any studies done and other----
    Mr. Lappin. We did not want to raise the ire of the folks 
that are concerned about letting people out too quickly.
    Mr. Wolf. Well, I do not want to do that either and let me 
just stipulate: I am very tough on crime. And so I am not 
looking at letting people out there----
    Mr. Lappin. I know.
    Mr. Wolf [continuing]. That are violent. Also, though, I 
will tell you, and I have talked to prisoners that tell me they 
believe the prison system is a graduate program to learn how to 
do crime. We are putting some young people in, particularly on 
a first offense, that are going into prison and learning about 
crime. One, they are joining MS-13. They are joining gangs. 
Some of these prisons, you join a gang or you are in trouble.
    And I have been disappointed. I have just got to say it. I 
was not going to say it. But on this whole prison rape thing, 
the failure of the Attorney General and the Justice Department 
to aggressively move on that.
    I saw a piece the other day. It is so long. I can submit it 
in for the record, but--and I want to make sure I am right. I 
will correct it if I am wrong. It said that the failure to move 
will result in, the last sentence said, over 200,000 being 
raped in prison for the failure to aggressively move. If I were 
the Attorney General, man, I would have moved on it.
    So 60----
    Mr. Lappin. They would serve, at minimum, they have to 
serve 67 percent of their sentence.
    Mr. Wolf. Now, if----
    Mr. Lappin [continuing]. Under these two proposals, inmates 
must serve at least 67 percent of their sentence.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259C1.004
    
    [GRAPHIC] [TIFF OMITTED] T7259C1.005
    
    [GRAPHIC] [TIFF OMITTED] T7259C1.006
    
    [GRAPHIC] [TIFF OMITTED] T7259C1.007
    
    [GRAPHIC] [TIFF OMITTED] T7259C1.008
    
    [GRAPHIC] [TIFF OMITTED] T7259C1.009
    
    [GRAPHIC] [TIFF OMITTED] T7259C1.010
    
    [GRAPHIC] [TIFF OMITTED] T7259C1.011
    
    [GRAPHIC] [TIFF OMITTED] T7259C1.012
    
    [GRAPHIC] [TIFF OMITTED] T7259C1.013
    
    [GRAPHIC] [TIFF OMITTED] T7259C1.014
    
    [GRAPHIC] [TIFF OMITTED] T7259C1.015
    
                       INMATE WORK OPPORTUNITIES

    Mr. Wolf. And my last question before I go to Mr. Schiff, 
if everyone said, okay, Mr. Lappin, we are signing up, we are 
going to be a model, do you now have the work for them? Has the 
Prison Industries been so decimated?
    Today, if everyone says they are lining up in all the 
federal prisons around the country to participate in Harley 
Lappin's program, do you have the work for them to do? Decent 
work where they can learn a skill?
    Mr. Lappin. Today?
    Mr. Wolf. Yes.
    Mr. Lappin. Not with more inmates housed in prisons than 
they were built to hold. So that is the complicating factor of 
work, productive work opportunities. When you have more inmates 
housed in a prison than it was designed to house--to have to 
manage, it is complicated. It is--you end up having to make 
work. You do not want to do that.
    So are there meaningful work opportunities today? I do not 
think they are as meaningful as they should be, in part because 
there are more inmates housed there than was intended and 
consequently there are only so many jobs that you can create in 
a 30-acre site. And so, I mean, it is reality. I mean, those of 
us running prisons face this every single day when we have more 
inmates in prisons than they were designed to house. We are in 
that situation right now.
    So can we provide the work? Yes. Is it as meaningful as we 
would like it to be? I do not think that it is, but that goes 
back to the basic problem, you know, your concern over these 
young men and women coming to prison for the first time. Again, 
I think that is where the justice reinvestment initiative plays 
an important role. Is that the only option? But that has to be 
decided before someone is prosecuted, convicted, and sentenced 
to a period of incarceration.
    That is why it has to be a collective involvement of the 
judicial, legislative, and executive branches to deal with this 
aspect of who goes to prison and, if so, for how long. And I 
agree there are probably cases where there may have been 
alternatives. They currently may not be available in the 
federal system. Should they be available? In my opinion, they 
probably should be available. And we have got to work towards 
that situation.

                       FEDERAL PRISON INDUSTRIES

    Mr. Wolf. Okay. Well, if I could just, Mr. Schiff, just 
follow-up on that one question. I have a whole series on Prison 
Industries.
    But if Federal Prison Industries entered into partnerships 
with private businesses, we could bring some manufacturing 
back. I had a bill in that would allow the prisons, the Federal 
Prison Industries to work with companies to bring back products 
that were no longer made in the United States. We called it 
Operation Condor. Remember the condor bird that was extinct and 
we brought the bird back? We had different people oppose it.
    Would you support that whereby we could aggressively have 
arrangements with the private sector to make and manufacture 
products that are no longer made in the United States, so you 
are not in competition, and if you do, do you have that 
capacity now to move ahead based on this legislation that you 
are sending up?
    Mr. Lappin. We would have the capacity to do that given how 
Prison Industries operates with non-appropriated funds. We have 
the factories. And, yes, I would support any legislative 
initiative that would allow us to create more productive work 
opportunities for inmates in prisons as long as it does not 
negatively impact businesses in our own communities.
    Mr. Wolf. How could it have a negative impact if you are 
making something no longer made in the United States. So if you 
were making television sets--we had Emerson at one time that 
was interested in coming into Lorton Reformatory which was a 
hell hole. People opposed this. I mean, you are not competing 
with any company that is currently making that product. So the 
unions would not be hurt. The business would not be hurt. I 
just do not see how it would have a negative----
    Mr. Lappin. You and I have had this discussion, and I know 
how supportive you are.
    Mr. Wolf. But nothing ever happens.
    Mr. Lappin. There is another side to this story that I am 
sure we will encounter.
    Mr. Wolf. What is the other side of the story? What is it?
    Mr. Lappin. There will be an argument that we are affecting 
some businesses, some professions in the United States. It has 
happened in virtually every product area that we have, even as 
sensitive as we have been to that issue. But we need to explore 
this. We need to look at legislation that would allow us to do 
this.
    Do I think it can be done? I do. And I think there may have 
to be an agreement to striking a balance, because this is a 
societal issue. I mean, if we do not teach these young men and 
women, and some of them are older men and women, work skills, 
and I am not talking about getting into a factory and learning 
how to sew or learning how to do this, I am talking about just 
like you said, you set your alarm clock, you arrive at work on 
time. When you are at work, you produce, and you are held 
accountable for a quality product. When you are at work, you 
have a relationship with peers, that you make good decisions 
even when you do not agree such that you can be successful in 
the workplace. You learn to work under a supervisor. You take 
direction even if you do not necessarily agree with that 
supervisor. These are the skills that they learn in those 
environments.
    Mr. Wolf. What was the high number of people working in 
Federal Prison Industries at its zenith and what is it now?
    Mr. Lappin. Well, in the recent past, three years ago, we 
had 23,000 inmates working in the factory every day.
    Mr. Wolf. When?
    Mr. Lappin. Three years ago.
    Mr. Wolf. And what is it now?
    Mr. Lappin. Fifteen thousand.
    Mr. Wolf. And what was it, 23,000? What was it at its 
zenith?
    Mr. Lappin. I mean, years ago, before we had this huge 
surge, we had probably 40 percent of the inmates who were in 
federal prison working in Prison Industries at one time.
    Mr. Wolf. And now what----
    Mr. Lappin. But this is back when we were small.
    Mr. Wolf. And now what percentage is working?
    Mr. Lappin. Nine percent.
    Mr. Wolf. Forty to nine. Wow.
    Mr. Lappin. Yes.
    Mr. Wolf. Okay. Mr. Schiff.

                     INMATE PROGRAMS AND RECIDIVISM

    Mr. Schiff. Thank you, Mr. Chairman. Thank you, Director, 
for being here. You have a tough job. I do not envy your 
responsibilities. And I know that when you get first time 
offenders, you know, a lot of the damage has been done. You 
have little role in preventing the first time offenders from 
getting there and little opportunity to affect them once they 
leave. But you have an important role in the interim. And I 
think the chairman is right to focus on recidivism because that 
is something that you have some power to influence. I mean, 
obviously when people are released from your facilities what 
kind of wrap around services they get whenever they are 
released to wherever they are released will have a big impact, 
maybe a bigger impact. But I am curious about a couple of 
things. What is the average period of incarceration in a 
federal facility?
    Mr. Lappin. I think we are at about nine years now.
    Mr. Schiff. Nine years? Wow.
    Mr. Lappin. Yes.
    Mr. Schiff. Wow.
    Mr. Lappin. Yes.
    Mr. Schiff. In your view, what is the most significant two 
or three things that you can do while you have someone during 
those nine years to affect the recidivism rate?
    Mr. Lappin. You guys are supposed to give me a little 
easier questions. You cannot do any of this, folks, without 
safe prisons. If people are unwilling to walk out on that 
compound on their own every day and participate in the programs 
that are offered, you have got a problem to begin with. We have 
had a problem with this in the last three years. One reason why 
we have been urging people on this Thomson issue, and I will 
get to that in just a minute, but the first thing any prison 
system I think will tell you is, you are not going to run 
programs and provide those opportunities unless inmates are 
willing to walk out and participate openly. Fortunately, most 
of our inmates are. There is a small percentage that are 
unwilling and resist.
    Beyond that, you have got to have the programs available, 
and they have got to be credible, quality programs. You know, 
it is not just show up and hang out in the classroom.
    Mr. Schiff. But I guess what I am trying to get at is, if 
you identify by type, what is the most effective thing you do 
to attack recidivism? I will give you my gut impression. You 
can tell me if I am way off. I would put very near the top of 
the list drug treatment. If you have somebody that goes into 
custody with an addiction, and that addiction is not treated, 
and they are released back into the population, we ought to be 
surprised when they do not recidivate. So I would say one of 
the most effective things we could do is make sure that anyone 
who has a drug problem gets drug treatment. Work skills, you 
know, might be at the top of the list. But I do not know, I am 
guessing.
    Mr. Lappin. I understand now. Beyond a safe environment, 
beyond a rule oriented environment, because that is the first 
thing you have got to get people to do. They have got to 
understand that while you are here you are going to follow the 
rules. So you have got to have a discipline program and an 
understanding of that.
    Once you get beyond that without a doubt our drug treatment 
opportunities, the mental health opportunities, have a huge 
impact. And I think that is reflected in the number of inmates 
that participate in our intensive residential drug treatment 
program. And to give you an example, about 40 percent of the 
inmates in our custody we believe have a drug and/or alcohol 
addiction. And of those, 92 percent are volunteering for 
treatment in the drug and alcohol treatment program even though 
not all of them get any time off their sentence for it. So, of 
that group that is participating, of the 18,000, about 60 
percent actually get some time off their sentence. But 40 
percent get no time off their sentence. They are there because 
they understand they have a problem and over the years they 
have observed the positive impact this program has had on 
peers. So I think you have to attract them.
    GED and vocational training without a doubt have impact. We 
do not get as much eagerness in some of those programs. But any 
of those programs that focus on daily learning, living skills, 
good decision making, many of which these programs incorporate, 
are effective. UNICOR, I have described. I mean, it is a bit 
controversial. But when inmates arrive in UNICOR their 
expectations are set from the very beginning. One, you are 
going to show up, you are going to participate, you are going 
to be a team player. You are going to get along with your 
peers, and you are going to deal with your supervisor. If they 
do not do that, they lose that privilege. We have very few 
inmates who, once they get into UNICOR, lose their jobs. 
Because they like the environment, they like the fact that they 
are making a little more money. Consequently, they learn these 
skills.
    Mr. Schiff. And does the BOP, I assume you have statistics 
on what the recidivism rate is for people who were in drug 
treatment and what the recidivism rate is for people who were 
not in drug treatment? You know, based on your statistics what 
are the most effective programs that you have at attacking 
recidivism?
    Mr. Lappin. We see about a 16 percent reduction in 
recidivism for inmates who participate in drug treatment 
compared to inmates similar to them.
    Mr. Schiff. Yes.
    Mr. Lappin. Who do not participate in it.
    Mr. Schiff. And----
    Mr. Lappin. We see a 33 percent reduction in inmates who 
get a vocational skill.
    Mr. Schiff. I am sorry, 33 percent?
    Mr. Lappin. 33 percent, compared to inmates who, just like 
them, who do not get a vocational skill.
    Mr. Schiff. So the job skills are twice----
    Mr. Lappin. That is right.
    Mr. Schiff [continuing]. Twice as effective as even the 
drug treatment?
    Mr. Lappin. Sixteen percent for all education in general, 
and we look at education and vocation, when you combine it, it 
is about 16 percent. And a 24 percent reduction in people who 
work in prison industries. So we are seeing a reduction of, 
beyond our standard recidivism rate of about 24 percent for 
those inmates who work in prison industries, I think even for 
as little as six months.
    Mr. Schiff. Explain if you would, you mentioned vocational 
ed as being 30 percent and job training as being twenty-
something percent. Is that on top of the 30 percent? Or are 
those a subset of one or the other? How are you dividing 
between vocational and jobs?
    Mr. Lappin. And jobs? We see jobs being work related skill 
enhancement.
    Mr. Schiff. Yes.
    Mr. Lappin. We see vocational as being--I am teaching them 
something that they can leave prison and use to get a job. Now 
they may learn that in their job as well.
    Mr. Schiff. Yes.
    Mr. Lappin. But the vocational education is I am teaching 
them a skill. I am teaching them to be a plumber----
    Mr. Schiff. Yes.
    Mr. Lappin [continuing]. A carpenter, a draftsman, an auto 
mechanic, whichever it is we provide. Some places we have 
cosmetology. There is a variety of vocational training. So it 
is teaching them a skill that can transfer from that experience 
to a job in the community.
    Mr. Schiff. And that is even more effective than the actual 
on the job training that you have?
    Mr. Lappin. And unfortunately it has probably the least 
participation. Because what happens is, they do not get paid. 
Okay? So here they have got a job in prison industries, or they 
have got a job elsewhere, and they are making money. And they 
have to leave that job, they become part time workers, to do 
the vocational training. Now some inmates who are wise, they 
will get a job in the evening because, as you mentioned, you 
went into a prison and the inmates were not working. Well there 
are evening and morning jobs. So some inmates will do both. 
They will say, ``I want this job so I can go to school here.'' 
And we certainly work with them on that. On the other hand, we 
do a lot of half day work, half day school, in part because it 
helps keep inmates more productive through the course of the 
day. And so it is a variety of things that work. We work with 
the inmates to try to address those needs. Believe you me, if 
they are coming in wanting to do those things, those are the 
easy ones. You know? Those are the ones that are much simpler 
because they have a desire.
    Mr. Schiff. Now is there room, take drug treatment, do you 
have the capacity to provide drug treatment to every inmate who 
wants it?
    Mr. Lappin. We do now. There were two years in the recent 
past where we did not. And tragically we released 1,500, or 
1,600 inmates in each of those years who volunteered, and we 
did not have enough seats at the table. It was tragic. It is 
not the case today. Now we are still not there yet, I will be 
honest with you. Why do we want another $15 million? Because I 
want them to get the treatment earlier so they can get more, 
for those that are eligible, get more time off their sentence 
so they are out of the prison.
    So right now, given the backlog that we have, we are 
getting everybody treated. But we do not get them treated to 
take full advantage of the time they can get off their 
sentence. So they are sitting in prison three, four, five 
months longer than what they normally should be. We want to get 
enough drug treatment specialists and programs, and we can do 
that with this additional money, such that they finish that 
treatment in advance of them being eligible for what time they 
can have off their sentence.
    Mr. Schiff. And do you have the capacity to provide the 
vocational training to all that want it?
    Mr. Lappin. Yes, we do.
    Mr. Schiff. So you have the capacity, although there is a 
backlog on the drug. You have the capacity and no backlog on 
the vocational training.
    Mr. Lappin. There are backlogs on vocational training but I 
think we have the capacity. I think the one that concerns me 
the most are productive work opportunities, especially when you 
have more inmates. When we are at 37 percent over rated 
capacity, you have got, there is only so much you can squeeze 
out of one place and only so many jobs. So let me give you an 
example----
    Mr. Schiff. Well let me ask you this. This gets to the 
chairman's question. Within the space that you have, have you 
maximized the job opportunities? Or because of the resistence 
and the competition with jobs in the private sector, you still 
have a lot of opportunity for growth in terms of what you could 
do in the space you have that is unoccupied?

                       FEDERAL PRISON INDUSTRIES

    Mr. Lappin. Yes. We have the space, I think, work wise. It 
is, on the prison industries it is acquiring the work. You have 
got to have the work to--I mean, prison industries is a non-
appropriated program. It is a company that must make a profit. 
And so, they are no different than anybody else out there. They 
have got to be a well run company. But we have got to have the 
work.
    And so, for example, tragically, we have closed nineteen 
factories in the last two years. So there's nineteen factories 
right now sitting empty, where if we had the work we would be 
employing thousands more inmates.
    Mr. Schiff. Now I remember when this issue came up in 
Judiciary years ago, and you know, there were those that came 
in to oppose it because of the competition in the private 
sector. Can you remind me what the arguments are? Because as 
the chairman points out there are a lot of products we do not 
make here anymore. And it is hard for me to see, you know, in 
the case of a television set, you know, there may be 
competition I suppose in people that import TVs, distribute 
TVs, a foreign manufacturer. But now you have a cheaper prison 
made product. But there has to be a distribution network for 
those TVs, too, so you would think that the private sector 
would have a role to play there. So what is the argument that 
has been used against this?
    Mr. Lappin. Well there are, let us exclude for a minute the 
folks that are very extreme and just do not want people working 
in prison. And let us deal with the folks that are amenable to 
that but they want to protect certain interests.
    Mr. Schiff. Well and right now you can imagine how powerful 
that argument is.
    Mr. Lappin. Absolutely, yes.
    Mr. Schiff. Law abiding people trying to find a job, and--
--
    Mr. Lappin. Absolutely.
    Mr. Schiff [continuing]. You know, I was just talking to 
my, wrote a note for my staff considering that the recidivism 
rates and the amount we have to pay per year to incarcerate, it 
would be cheaper to pay ex-cons to stay out of jail. If you 
gave them a monthly stipend that they could get as long as they 
stayed out of jail, it would be cheaper than what we do now. Of 
course, you could never do that. But, but yeah, tell me what--
--
    Mr. Lappin. Look, I can give you a couple of examples.
    Mr. Schiff. Other than the philosophically, yeah.
    Mr. Lappin. Certainly, we make furniture and it has been a 
controversial area. There are pieces of furniture that are not 
made in this country. And we would argue that, well, let us 
make those pieces that you are buying from another country and 
we will stop making furniture. Let us focus on those things 
that we all know are not made in this country. We do not have 
to make the whole desk. We can make the pedestal. We could make 
the wheels. Whatever it is. But I think you have to get over 
this, the philosophical issue of the impact this has on an 
individual's success upon release versus the fear that somebody 
is going to produce something. You open this door, and somebody 
is going to produce something that is going to compete with me 
and they can do it cheaper. We have to be concerned about that, 
without a doubt.
    On the other hand, it is not easy to run factories in 
prisons. Even though the labor is less expensive, it is very 
complicated to account for tools, equipment, material, where 
things are. So, those added expenses oftentimes result in us 
finding it difficult to compete with some of those businesses, 
because of the added burdens of running a factory in a prison 
given the security nature. So some of that is offset. But I 
think, you know, the argument continues to be that we are 
potentially going to take work away from other law abiding 
citizens' businesses. And we should limit that as much as we 
can. I think there are ways we could do that if people are 
reasonable and sit down at the table and look at the options, 
the advantages, the disadvantages, I think we could get there. 
I am very confident.
    I assure you that the Bureau of Prisons and Federal Prison 
Industries will be a very flexible and willing participant in 
that discussion. We really do not care what job we do.
    Mr. Schiff. Right.
    Mr. Lappin. You know, that is not important. The issue is, 
we want the inmates in a factory. We want them coming to work. 
We want them producing something. I mean, I will be honest with 
you, some places you know what we do? We sort hangers. You 
know, we have partnered with a company. These hangers were 
going to the trash. Now the hangers come to a prison and we 
sort those hangers, we separate them. It is not complicated. 
But you know what it is? It gets them back in that environment. 
You are coming to work, here is your job for the day. Are they 
going to be able to transfer that skill into the community? 
Probably not. But they certainly can transfer the work skills 
they learn.

                GROWING PRISON POPULATION AND RECIDIVISM

    Mr. Schiff. One last question. You mentioned the increase 
in the prison population over the last ten or twenty or thirty 
years. And it being again part of the function of mandatory 
minimums, and federalizing of otherwise state crimes. How much 
though has the recidivism rate changed? What was the recidivism 
rate twenty-five years ago? What is it today?
    Mr. Lappin. We have seen about a 4 percent reduction. We 
are at about 40 percent on our last assessment. But you and I 
have talked a couple of times on the phone about how difficult 
a discussion this is. Because we have done this global 
recidivism research that reflected that we have seen a 
reduction of about, I think it is about 10 percent. It went 
from 44 percent to 40 percent over a ten year period. But as we 
discussed, there are so many factors that impact recidivism 
that are completely outside the control of the people running 
prisons. You are right. Today, you release an inmate and they 
are going out into an environment where there are not many jobs 
available. And they are competing with other very quality 
people.
    Mr. Schiff. Recidivism is down 4 percent in the last ten 
years?
    Mr. Lappin. We were about 44 percent the last time we did 
this, which was in the late nineties. Our recidivism rate was 
about 44 percent. In the aftermath of that we were at 40 
percent in the federal system.
    Mr. Schiff. And what were we twenty-five years ago?
    Mr. Lappin. I do not know if we even have that research. 
Yes, my concern, since the last study we have got more 
crowding, we have got more violent offenders. So I am not sure 
where we would be today. But my research guy says earlier than 
that we were in the mid forties. So we were probably at 45 
percent, 46 percent, and it came down to about 40 percent. I am 
not sure where we would be today.
    Mr. Schiff. Yes, but recidivism has stayed fairly stable 
for the last two or three decades.
    Mr. Lappin. Yes.
    Mr. Schiff. So it is not the situation where we have had a 
doubling in the recidivism rate?
    Mr. Lappin. No. No.
    Mr. Schiff. Okay. Thank you, Mr. Chairman.

                       FEDERAL PRISON INDUSTRIES

    Mr. Wolf. Thank you, Mr. Schiff. I am going to go to Mr. 
Austria. But you know, I think you are giving up too fast on 
the prison industry issue. It is really a bogus argument to say 
it is in competition with U.S. businesses. Since PNTR was 
given, China has taken 6 million jobs from this country. And to 
have a man working on hangers is better than nothing but you 
cannot transfer that out. And we could, I could if I were head 
of Prison Industries I could find the necessary businesses that 
were no longer operating in the United States, and there are so 
many, that I could have these men and women working. And 
frankly, you will never deal and you will never solve the 
recidivism rate and the violence of people coming out. Never, 
ever, in a Republican administration, in a Democratic 
administration, until you deal with the issue of work. 
Biblically, work is dignity. It is dignity. It is a biblical 
fact of life. A man or a woman without work does not have the 
dignity. And then you also give them the ability to transfer 
when they come out, and also to have a little bit of money so 
when they are in there they are sending it to their wife, to 
their children. They also have the potential for an element of 
restitution. There is also putting the money aside so when they 
get out you are not, and I know a prisoner that got out, you 
guys let him out, Saturday night, Anacostia, ten o'clock at 
night, with I forget how much he had in his pocket. And this 
was about a year and a half ago. Man, no chance. Back to the 
old neighborhood, back to Barry Farms, it is over. It is, I 
mean, that guy is coming back. Guaranteed, you put money on it, 
you would almost win.
    So unless you go and deal with that, and so you have got to 
stand up to the Congress. You have got to stand up to the 
administration. If there is no work the program will 
fundamentally fail, and these people are going to come out, and 
they are going to be violent, and they are going to do very, 
very bad things. Because you are not even telling the committee 
how many people go to prison, federal and state and local, and 
join gangs. How many go in, not part of MS-13, and join gangs? 
Three a year? Or many, many a year? Is gang----

                            GANGS IN PRISON

    Mr. Lappin. Gang participation is up significantly in the 
Bureau of Prisons.
    Mr. Wolf. No, I know, but they have nothing, you know----
    Mr. Lappin. I am not sure it is because they come to prison 
and then join a gang. I think many of them are coming from the 
streets already in the gangs. But Mr. Chairman, you and I agree 
wholeheartedly on this issue.
    Mr. Wolf. But I know you do, and that is why----
    Mr. Lappin. One hundred percent. So do not let my 
comments----

                       FEDERAL PRISON INDUSTRIES

    Mr. Wolf. Well I may offer an amendment to this and have 
this out on the floor. I mean we are not the authorizing 
committee, we are the Appropriations Committee. And frankly, I 
have not seen a change as I have watched this thing over the 
last ten years. The only change that I have seen has been for 
the worse and not for the better.
    Mr. Lappin. You and I agree on this. I am just cautioning 
you that there will be another side to this story from those 
that do not agree with you and me on the inherent value of 
work.
    Mr. Wolf. But there is not really another side to it, there 
really is not. Because we are not talking about furniture.
    Mr. Lappin. You are preaching to the choir.
    Mr. Wolf. We are talking about things that are no longer 
made in the United States. And then you are creating a job for 
the truck driver who has to drop the equipment off. And if they 
are using wire you are creating a job for an American company 
that is manufacturing the wire. If they use a piece of, a lathe 
or something, you are creating a job for that. So you are 
actually creating jobs. You are not in competition.
    Mr. Lappin. I could not agree with you more.
    Mr. Wolf. Yes. Mr. Austria.

                    THE INCREASING INMATE POPULATION

    Mr. Austria. Thank you, Mr. Chairman. And thank you, 
Director Lappin, for your service, for being here today. I 
know, I agree with Mr. Schiff that you have a very difficult 
job. Let me just begin by saying that, you know, I too would 
like to see some more specifics on how you are going to meet 
the demands of adequate staffing, bed space, with the 
increasing inmate population. Especially the demands that are 
within the budget----
    Mr. Lappin. Right.
    Mr. Austria [continuing]. The 2012 budget, and I would like 
to see those specifics as well. One of the areas I know, when I 
served in the state legislature I chaired the Judiciary 
Committee. And there was always a debate, an argument, about 
mandatory sentencing versus discretionary sentencing, 
especially with violent criminals. And you mentioned that 60 
percent of your population is violent criminals, which 
certainly brings uncertainty I know to the prison system when 
you may have one judge sentence a sex offender for seven years, 
another judge sentence another individual who committed the 
exact same crime for twenty years. But if I heard you correctly 
the average stay is now nine years, is that correct? Okay. And 
your population growth has grown from 30,000 some years ago to 
now 210,000? How many of those inmates are repeat offenders 
that go back into the system?
    Mr. Lappin. Well again, our recidivism is about 40 percent, 
about four out of ten coming back.
    Mr. Austria. Is about forty?
    Mr. Lappin. I have to give you an idea here recently on 
another point, the supervised released violators, as kind of an 
indication. You know how many people are out there under 
supervised release that are returning to prison?
    Mr. Austria. Right.
    Mr. Lappin. In 2009, 13 percent of the new admissions were 
supervised release violators, and in 2010 12.7 percent. So 
those are folks that are out on supervision and have violated. 
May not have committed a new crime, but those are the ones 
returning off of supervised release. But then again, with 
recidivism of about 40 percent, we are seeing about four out of 
ten returning to prison probably under a new conviction.
    Mr. Austria. Under a new conviction?
    Mr. Lappin. Probably. Wouldn't you say, Tom?
    BOP Staff. Yes.
    Mr. Lappin. Yes.
    Mr. Austria. Okay. And now you have gotten this increase in 
inmate population. You are trying to deal with this.
    Mr. Lappin. Yes.

                       PRIVATELY OPERATED PRISONS

    Mr. Austria. And looking at your testimony, you have 116 
facilities that house approximately 171,000 inmates, which the 
total capacity is 127,000. Eighteen percent are now going to 
contract care or to privately operated prisons. And I know with 
many of the states are going through very, very difficult 
budgets. And you and I just talked a little bit about Ohio, and 
I know you knew the former director in Ohio. You know, what is 
your opinion as far as, and let me ask you as far as the cost. 
You have got 18 percent that are going to privately operated 
prisons. What is the cost factor of doing that? And what is 
the, you know, rationale behind many of the states looking at 
that?
    Mr. Lappin. We see minimal savings. It is a little 
different in our system versus the state systems, because we 
have identified a particular group of inmates who will be in 
private correctional facilities. So the vast majority of the 
27,000 that are in those private contract facilities are non-
U.S. citizens. So they are, virtually all of them, are non-U.S. 
citizens and virtually all of them are going to be deported. So 
what we buy from them is a little different than what we offer 
in our own low security institutions. But even with that, even 
though we are offering more programming opportunities in our 
own prisons, the costs of incarceration are very close in, per 
day, per inmate. So we are within a few dollars of each other 
when you compare the inmates that are currently in the private 
contract facilities with inmates who are in our low security 
institutions. So, comparatively speaking we are about the same.
    Mr. Austria. But are you comparing the same prisoners in 
both facilities here? I mean----
    Mr. Lappin. Well, we cannot as easily because our 
facilities have a combination of U.S. citizens and non-U.S. 
citizens. Okay? So in our institutions----
    Mr. Austria. Sure.
    Mr. Lappin [continuing]. We do not have institutions that 
are all non-U.S. citizens. So you are right. It is not an equal 
comparison. And we offer more and provide more program 
opportunities at our own institutions than are required in the 
private contract facilities, so it is not an apples to apples 
comparison. The cost per day, though, is pretty close to the 
same.

                     CONTINUING RESOLUTION PROBLEMS

    Mr. Austria. Let me ask you as far as your operating 
expenses right now dealing with these CRs, and we have another 
CR that will expire on Friday. Can you just describe maybe the 
strain, a gap in funding, you know, that it might be having on 
the prison system today and how you are dealing with that?
    Mr. Lappin. We are dealing with that by constraining costs 
in every area we can. We are not hiring anybody. So we are in a 
hiring freeze with a few exceptions at some locations where 
there is significant turnover. We could not function unless we 
hired people, because in some more urban locations we have 
higher turnover than in some of the rural locations.
    But there is a hiring freeze. We have limited that and we 
have limited travel. We have tried to manage our costs as 
closely as we can. We will not get through this fiscal year at 
the 2010 level. We cannot get through this fiscal year at the 
2010 level given the fact we have more inmates, we have more 
prisons, and we have more staff than we did last year.
    Mr. Austria. What does that do to your future budgets, when 
you move into 2012 and you move forward?
    Mr. Lappin. It is a challenge, without a doubt. We have got 
to plan well. We have got to look at how we can gain 
efficiencies, which we have done over the years. But as you 
know, the longer the CR goes on, the harder and harder it is to 
gain efficiencies. And there is only so far you can go. On 
medical, what we are trying to do on medical, is just keep it 
from going up faster than it has. Because it is the most 
expensive thing we do other than watching inmates. The most 
expensive thing we provide to inmates other than watching them 
is medical care. Those expenses continue to go up. Utility 
expenses continue to go up. So we get a gas bill and an 
electric bill every month, just like everybody else does. They 
are getting bigger. And we are trying to absorb that increase. 
To be honest with you, it has to come out of salaries.
    When our operating budget is about 74 percent salary 
driven, and about 26 percent operations driven, you can only 
squeeze so much out of the operations side. Food, medical, 
utilities, those types of things. So we have to offset that 
increase in cost on the operations side by hiring fewer people. 
And that is how we have, over the years, whittled down to only 
filling about 90 percent of our positions. A few years ago we 
were only filling about 86 percent. We corrected that. We 
reorganized. We gained efficiencies. We are now hired up to 
about 90 percent. But the bottom line is most of what we save 
has to come from salaries given the fact that the majority of 
our budget is salary driven.
    Mr. Austria. And again that, going back to my original 
request, is, you know, I too want to see specific plans on how 
you are going to be able to provide this considering the 
budgets that you are faced----
    Mr. Lappin. Right.

                          THOMSON, IL FACILITY

    Mr. Austria [continuing]. That we are going into a deeper 
and deeper hole it seems like. But one last question, and I 
brought this up when the Attorney General was in, about the 
Thomson facility. And, you know, the request from the U.S. 
Bureau of Prisons includes funding for 896 positions for 
activation of the Thomson facility in Illinois. The only 
problem is that the federal government does not own the 
facility. And I understand there was funding in the 2011 budget 
that requests the purchase of the facility, but as you know we 
are, and we just talked about, we are operating under a CR that 
it is highly unlikely that there will be, the case for the 
remainder of the fiscal year 2011. Can you tell this committee 
why the Thomson facility is needed? And how does the U.S. 
Bureau of Prisons plan on moving forward with the Thomson 
facility while operating under a CR? And what additional costs 
will the taxpayers incur if the purchase of the Thomson 
facility is delayed?
    Mr. Lappin. That is a great question. I appreciate you 
asking that. Before I do, let me go back and tell you one thing 
we are doing to curb costs. We are not activating two prisons 
that we own currently. So we have a facility in Mendota, 
California and a facility in Berlin, New Hampshire that are 
partially activated. We have hired some people. But we have 
stopped the activation. So we are going to save millions of 
dollars by not continuing activation. On the other hand, we 
cannot add those beds either. So there is a negative 
consequence. So that is an example of some of the things we are 
doing.
    Thomson, you know, here is the core issue here. I mentioned 
earlier about seven out of the ten of the inmates tend to 
cooperate. It is the three out of ten that we are dealing with 
needing Thomson. It is the three out of ten that do not comply 
that are, or a portion of that, it is not all of them. That are 
combative, that are violent even in prison, that carry weapons. 
And tragically, after eighty years, mostly in the last three 
years, we have seen this surge in the number of inmates coming 
into the federal system who are acting in that manner.
    So, consequently two years ago, we realized, we saw it 
evolving in our penitentiaries because we saw more assaultive 
behavior. We had an increase in the number of assaults on staff 
and inmates. When inmates got into trouble and staff arrived, 
there were other inmates coming to the rescue, like they are 
going to break them out of trouble, you know? So the whole gang 
mentality. We began about two years ago removing this group of 
inmates and today we have removed 1,800 inmates from our 
general population facilities and created Special Management 
Units, SMU, to house and manage those inmates in more 
controlled, more restrictive conditions. Not as restrictive as 
ADX Florence, if you have been to ADX, if you have heard of it, 
it's much more restrictive. So it is a step between a high 
security institution and ADX. But the bottom line is they are 
controlled wherever they move. It is very restrictive. They do 
not, in the initial phases of this program, they do not rec 
together, they do not eat together. And they have to show 
progress in behaving through the other phases to get to the 
point that they can begin to do those types of activities 
successfully, and then work their way back out to a general 
institution.
    So we have had to take offline general population bed 
space. We have taken the entire facility in Lewisburg, 
Pennsylvania, which was an open general population facility and 
created a Special Management Unit, and we have taken four small 
units within other existing facilities to create the 1,800 
beds.
    We are not there yet, and we are not there yet because 
whenever I look at the weekly report I continue to see inmates 
acting out, not as often as they were before, but continuing to 
act out in that manner. We must have more of this SMU type of 
bed space. Not only this type of bed space, we need more ADX 
bed space.
    In 1995 we opened ADX Florence, which is our most 
restrictive, controlled housing in the Bureau of Prisons. There 
are about 430, 440 cells there. At the time, we had 95,000 
inmates, and it served us well for a number of years. Today we 
have 210,000 inmates, we have got the identification of these 
difficult inmates, so we need space for this small group, the 
difficult group, not a large group, but we need space. Thomson 
would do that.
    I am going to tell you, it is going to happen one way or 
the other. If we do not get Thomson, we have no choice but to 
go take another general population facility off line, retrofit 
it for those SMU types of inmates--although it's expensive--and 
manage it in that fashion. A consequence of that will be that 
we are going to displace more inmates than we are going to 
create space for. So consequently we are going to overcrowd 
even more. But as I said before, you cannot run safe prisons 
with inmates like this running amok, they have to be removed 
and they have to be managed.
    We either get Thomson and we fulfill that need, or we take 
another prison somewhere else, convert it to this operation, 
and in doing so we solve that problem, but we further 
exacerbate the crowding problem in our other general population 
facilities.
    It is expensive, folks. Fortunately there are not a lot of 
them. I think we need about 2,500 beds, maybe 3,000 between 
SMU, Special Management Units, and ADX Housing, because we have 
1,800 of them now. I was just up at Lewisburg a few weeks ago. 
Granted we have some inmates successfully transitioning through 
that, but there are 160 inmates sitting up there that cannot 
get it. They have been there for a year and a half. They are 
still in phase one or phase two. They need to be going over to 
the ADX, they need to go through a more structured, more 
controlled, more difficult environment. This problem exists; we 
have got to solve it.
    Mr. Austria. And it is a problem and we got to fix it. We 
have an overcrowding problem.
    Let me ask you one last question. I know I said that 
before, Mr. Chairman, if I can.
    Is there any plan in place or are you aware of any plan in 
place by the Department of Justice to allow Guantanamo Bay 
detainees to be detained at the Thomson facility?
    Mr. Lappin. Our plan is to run the entire facility, the 
entire facility, all 1,600 cells within the Bureau of Prisons.
    Right now I have been told the entire facility would be 
ours. Our activation plan is to open and operate the entire 
1,600 cells as Bureau of Prisons beds.
    Mr. Austria. With no plans to have any detainees at Gitmo 
being housed?
    Mr. Lappin. Not right now, no. Was there a plan? There 
certainly was, but that is not the case now. I have been told 
the entire facility would be a federal prison used for federal 
inmates and we are planning accordingly. I need every one of 
those cells.
    Mr. Austria. Thank you, Director, thank you Mr. Chairman.
    Mr. Wolf. But you have not told the full story, because the 
confidence level in the Attorney General and in the Bureau of 
Prisons and the Administration on this issue is not very high, 
because they were going to go there. You know, the reality is 
they were going to go there. You said not right now. Let the 
record show that when people research this hearing record they 
will say you felt, your conscience, you are a good man, felt 
you had to say ``not right now.'' Not right now, but next week.
    But the Attorney General of the United States was coming up 
here and testifying, we were raising the issue of people from 
Guantanamo Bay who were picked up and had been picked up in an 
Al Qaeda run training camp in Tora Bora, and you know where 
they were going to release them? You remember where they were 
going to release them? They were going to get out of Guantanamo 
Bay and they were going to live in northern Virginia, and the 
Justice Department denied, called me up and said, Mr. Wolf, 
``when the Attorney General comes up please do not raise this 
question,'' and my sense was that they meant that we are going 
to resolve this issue and everything else and all of a sudden 
on a Friday afternoon I am traveling through my district and I 
get a call, and a person tipped me off that they are going to 
release these guys in northern Virginia. They had actually 
rented an apartment for them.
    So here they were they were going to release people picked 
up in Tora Bora who had gone through an Al Qaeda run training 
camp, they were going to go to Route 7 in Falls Church near 
Bailey's Crossroads.
    So let the record show he said, ``not as of now.'' There is 
no confidence in this Administration that you will keep your 
word. Frankly, I do not believe them. I do not think this 
Congress is ready. I think you ought to start rehabbing the 
other places now, because I do not plan on it because I do not 
trust it. I want to trust everybody, but I have been seeing it. 
We cannot even get an answer back.
    This Justice Department, we saw a report on Freedom of 
Information Act, some groups, very liberal groups get a 
response back in one day and two days and three days, I get a 
response back in five months from Freedom of Information Act 
and some I do not even get a response back.
    Frankly, if we want to save money we can wipe out the 
congressional relations from this administration at the Justice 
Department and give you all the money, because they never 
answer letters.
    So they were going to move them to Thomson, and it is 
integrity, it is trust. It is not only what you say, it is what 
you do, and what they have done is not trustworthy, it is not 
honest. And so for me to appropriate Thomson--I believe you. I 
mean, I think you are a good person, but I do not trust them 
and I think that, you know, an election will be held in 2012 
and all of a sudden they will be booking them out, and they 
were going to send Khalid Sheikh Mohammed to New York City. 
They were even looking at Alexandria. Moussaoui was in 
Alexandria you know for almost what four years? The trial went 
on--so from an integrity trust form there may be some up here, 
but I certainly do not have it with regard to this 
administration on the issue of Guantanamo Bay, and to even 
think that they would take someone who had served in Guantanamo 
Bay, and I do not know who had been picked up in training camp 
in Tora Bora or run by Al Qaeda, but they were going to be 
released in northern Virginia.
    So boy, Thomson, I do not think unless, you know, something 
happens up here that I do not know about, I think for the next 
two years I just could not. And if money got put in somewhere I 
would get down on the floor day in and day out.
    I mean, I want to see the Bureau of Prisons do the right 
thing, but not to bring people from Guantanamo Bay to the 
United States. Thirty people died in the attack on the Pentagon 
that were from my congressional district. The first person 
killed in Afghanistan was a constituent of mine, a CIA officer, 
Michael Spann, so.
    Mr. Lappin. I know this is a really emotional issue for 
everyone.
    Mr. Wolf. Well, it is an emotional issue because----
    Mr. Lappin. Yes, but as you all know I am not part of that 
discussion.
    Mr. Wolf. Oh, I know you are not part of it, but I think 
you are an honest man, because you felt you had to say--because 
of your integrity--``not right now.''
    Mr. Lappin. But I think the reality is it is illegal for 
them to bring them in. I am not going to get into this 
discussion.
    Mr. Wolf. Well, because the Congress has acted, but 
Congress can change back and forth and so I do not think the 
Bureau of Prison ought to get so wrapped up into Thomson, 
because I think what we ought to get wrapped up in is work, is 
job rehabilitation, early release, things that really make the 
Bureau of Prisons a go.

                 GOOD CONDUCT TIME LEGISLATIVE PROPOSAL

    Now I looked and checked last week. Your legislative 
package is up here, is anyone cosponsoring it? Do you have a 
cosponsor yet?
    Mr. Lappin. I am not sure.
    Mr. Wolf. Well, can you call us----
    Mr. Lappin. Yes.
    Mr. Wolf [continuing]. When you have a Republican on the 
Committee on it and a Democrat on the Committee and the same 
way in the House and the Senate? Just give the committee staff 
a call and say we just got a person that is behind this and 
they will put it in, because I think we have got to begin to 
move this so we can get back to the issue of really dealing 
with the overcrowding.

                     ELDERLY OFFENDER PILOT PROGRAM

    Now the Second Chance Act authorized a pilot program within 
BOP to determine the effectiveness of allowing certain elderly 
non-violent offenders to serve the remainder of their sentence 
in home detention. Has this program been implemented, and if so 
has it been evaluated?
    Mr. Lappin. It has been implemented.
    Mr. Wolf. And how many?
    Mr. Lappin. The conditions for qualifying were so 
restrictive believe it or not, out of 210,000 inmates we had 
500 apply, 75 inmates qualified, only 75 inmates qualified.
    Mr. Wolf. And what has been the result?
    Mr. Lappin. And 70 have been released of those 75.
    Mr. Wolf. And of the 70 that have been released have any 
returned?
    Mr. Lappin. Not that I am aware of. Again, personally I 
think we need to reconsider this, I think there is potential 
here.
    Mr. Wolf. Well, why don't you?
    Mr. Lappin. I think it is part of the discussion we are 
having on the whole issue of how we offset the growth.
    On the other hand, sir, let me tell you, we are not going 
to let people go that cannot manage and that is part of the 
problem.
    Mr. Wolf. I know you are not.
    Mr. Lappin. Some people were not approved because they did 
not have the wherewithal in the community. They did not have a 
family that could support their health condition, or they did 
not have the resources. We are not going to dump that type of 
person on the community. So it was only those 70 that had the 
wherewithal to do it.
    I think the qualifying criteria needs to be re-evaluated, 
we are doing some of that now, we will probably make some 
recommendations once we have further review of that.
    Mr. Wolf. And you have the authority to do that on your 
own?
    Mr. Lappin. No, I think we would have to have some help. I 
think it is in the statute what the criteria are, and I think 
the biggest dilemma is that you had to serve 75 percent of your 
sentence or 10 years, whichever was less--whichever was 
greater, I am sorry. You either had to serve a minimum of 10 
years or 75 percent of your sentence and be over a certain age.
    Mr. Wolf. What is the age?
    Mr. Lappin. What is that?
    Mr. Wolf. What is the age?
    Mr. Lappin. Sixty-five. There is not a whole lot of people 
that fall into that category, because a lot of these older 
folks come into our custody, did not get a long enough sentence 
or just have not been in custody to meet those criteria.
    Mr. Wolf. So are you looking at a legislative change?
    Mr. Lappin. We are looking at some of those options.
    Mr. Wolf. And that will be sent up before the Judiciary 
Committee?
    Mr. Lappin. I do not know. We were really focused on the 
good time first. We wanted to give this a little more time to 
play out because this has only been in effect for a little less 
than a year or so.
    Mr. Wolf. But you are of the opinion that these people are 
non-violent.
    Mr. Lappin. Yes, they meet all the other criteria. And to 
be honest with you, sir, they are very expensive people to 
incarcerate.
    Mr. Wolf. Because of their health care and everything else?
    Mr. Lappin. Correct. And if there are ways to appropriately 
do it in the community we would be in favor of letting them go 
a little earlier.
    Mr. Wolf. Well, I urge you to tell the Department to send 
that up as an amendment to the bill that came up that no one 
has yet introduced.
    Mr. Lappin. We are working on it.

                          BOP FURLOUGH PROGRAM

    Mr. Wolf. In the Inspector General's audit of the Bureau of 
Prisons furlough program, one unresolved issue was a need for 
the BOP to have a more effective means to coordinate with the 
union on policy changes. According to the audit, BOP's 
collective bargaining agreement expired nine years ago. Is that 
true?
    Mr. Lappin. Well, the agreement expired nine years ago, but 
there is a clause in that agreement that keeps it in effect 
until a new agreement is approved and ratified.
    So we are still under the old agreement. We still have an 
agreement.
    Mr. Wolf. Okay. Still awaiting implementation there is a 
policy that would assure the victims of crime are notified when 
an offender is approved for a medical furlough. This 
notification has waited seven years for implementation? Must it 
wait until a new agreement is finalized?
    Mr. Lappin. Yes, the furlough policy was being 
renegotiated, it was on the list for seven years, it was 
finished in October and November, it has now been implemented.
    Mr. Wolf. But isn't that a no-brainer? I mean if you are 
going to release an offender should you not just tell the 
victim? I mean----
    Mr. Lappin. There was another program statement that was 
not recognized in the report on victim witnesses that required 
that, so victims were still being notified even though the 
furlough policy was not in place.
    So there is another program statement that covered this 
issue that required staff to notify victims, and victims were 
being notified.
    Mr. Wolf. They were, okay.
    Mr. Lappin. Yes. Just in all fairness, to get it all on the 
table, there are times when they are not notified if it is an 
emergency situation. So, if someone is having a heart attack we 
do not wait to call the victim, we are heading for the 
hospital.
    And so reality is these really short-term releases, and 
typically most of those are escorted, so most of them are 
notified, you know. Especially if they are on a furlough 
medical trip, so we are going to put the person on furlough and 
send them down to the hospital. Those are done in advance. So 
that was continuing to occur even though that program statement 
had not been negotiated and in place because there was another 
program statement that required it.

                            GANGS IN PRISON

    Mr. Wolf. Could you tell us about prison gangs? An update 
on trends and gang growth and discuss what you are doing to 
disrupt gang recruitment?
    Mr. Lappin. As I indicated earlier, we are seeing an 
increase in the number of gang and security threat group 
members in our prisons. We are probably up, I would say, 
between 35,000 and 40,000 known participants. So we have seen 
an increase.
    Mr. Wolf. Thirty-five to 40,000 out of a population of?
    Mr. Lappin. Two hundred and ten thousand. Now those are the 
ones that we are aware of.
    Mr. Wolf. What would that number have been 30 years ago?
    Mr. Lappin. Thirty years ago, a few hundred. I mean 30 
years ago we only had 26,000 inmates. My guess is we had 
probably an almost smaller percentage. I am not sure exactly. 
We could go back and probably get that number for you. But 
certainly it's a growing concern, especially the gangs and 
security threat groups coming from other countries--non-U.S. 
citizens. Who have a whole different outlook on what prison 
life should be--and it has created some problems for us.
    [The information follows:]

         Percent of BOP Inmate Population in Gangs 30 Years Ago

    In 1994 (the earliest date for which data is available), 2,483 
inmates or 3 percent of the BOP population was identified as affiliated 
with a security threat group (identified as part of a disruptive group 
which includes gangs). In February 2011, there were 15,661 inmates or 
6.77 percent affiliated with a security threat group.

    Mr. Wolf. Are they merged with the general population?
    Mr. Lappin. It varies from group to group. Even Hispanic 
groups who will not associate because one group is from Mexico 
and other groups are U.S. citizens from the United States. Some 
of those will not merge, they will not get along, and so it is 
complicated.
    I can tell you right now that many, many of the inmates in 
the Special Management Units and many of the inmates at 
Florence are gang members or security threat group members, and 
one reason why we need to expand that space is because more of 
these people are coming into our system and are being 
troublesome.

                       THOMSON ILLINOIS FACILITY

    And so that's one reason why I am disappointed to hear your 
issue on Thomson. On the other hand, we will have to create 
this space somewhere. This again would be----
    Mr. Wolf. Well, you are not surprised on the Thomson.
    Mr. Lappin. No, I am not surprised. On the other hand I----
    Mr. Wolf. And was Thomson at one time by the administration 
considered to be a place for Guantanamo Bay detainees?
    Mr. Lappin. Obviously that is how it was introduced. That 
has changed, but I will not go back into that. But the bottom 
line is that we need to find space for these folks that we can 
use when they act out, when they misbehave, when they are 
threatening, when they are orchestrating inappropriate behavior 
in institutions. We need to be able to remove them and handle 
them accordingly.
    Mr. Wolf. Is there a decision being made at the department 
that you are waiting to see whether the Congress acts on 
Thomson?
    Mr. Lappin. I really do not know at this time. I mean, I am 
waiting to see what the Congress----
    Mr. Wolf. I doubt very much that Congress will act.
    Mr. Lappin. I understand.
    Mr. Wolf. So if you have that sort of indication it may be 
good to just begin to----
    Mr. Lappin. We will certainly do that, once we are clear 
that it is not going to happen.
    Mr. Wolf. Well, I think you know, I mean my sense is it 
probably is not.

                         PRISON RADICALIZATION

    On the issue of domestic radicalization. The full extent of 
the problem of prison radicalization is now known but is a 
concern as a scholar named James Brandon. Do you know who James 
Brandon is?
    Mr. Lappin. No, I do not.
    Mr. Wolf. Does anyone in the audience know? He points out 
that prisons bring together disaffected people who may be 
receptive to anti-social messages.
    A few years ago the Bureau established a counter-terrorism 
unit that among other activities monitors communications of 
high-risk inmates.
    Can you bring the committee up to date on the continuing 
operation and results from this unit and from the Bureau's 
efforts?
    Mr. Lappin. Yes, I can, and I do not know Mr. Brandon, but 
I certainly agree that prisons are a place where radicalization 
can occur at all levels, whether it is for religious or other 
reasons.
    So the potential is always there, and the creation of the 
counter-terrorism unit was to assist us in precluding that from 
happening. Not only the counter-terrorism unit, but the 
operations and the procedures we put in our prisons to one, 
make our staff aware of those who are potential radicalizers; a 
classification system to remove those who have a greater risk 
and house them in more restrictive controlled conditions, which 
is occurring. But specifically the counter-terrorism unit has 
been hugely beneficial in helping us monitor the communications 
of inmates in general, not just those associated with terrorist 
activities.
    So today that group is monitoring in excess of 3,000 
inmates, both phones, visits, and mail. A huge cost on 
translation services. We are spending about $16 million a year 
just at the counter-terrorism unit on the management of mail, 
phones, visits, and other coordinated activities with the 
institutions.
    So it is a valuable resource to help us to do a better job 
of monitoring communication. But day in and day out it is the 
work of the staff in the prisons who are monitoring the inmates 
who have tendencies to radicalize other inmates to these types 
of philosophies, or gang orientation, or acting out in other 
ways and to put a stop to that. To either discipline them or 
remove them if necessary to preclude that type of 
radicalization from occurring. And so it is a daily 
responsibility throughout every prison that we operate, but 
certain the counter-terrorism unit has helped us focus on the 
more risky inmates, those who have greater risk, those who have 
violated institution rules, those who have broken laws by 
circumventing these procedures, such that we have far more 
control than we did a few years ago.

               PREVENTING COMMUNICATIONS WITH TERRORISTS

    Mr. Wolf. Now can you bring the committee up to date? I 
vaguely recall there was a communication between prison 
population with the terrorists in Spain. Can you educate us?
    Mr. Lappin. Sure. In the aftermath of that, and you and I 
met and we talked about it quite directly, we soon thereafter, 
initiated the counter-terrorism unit, which is a piece of that. 
We also activated two communication management units. And so 
our classification system breaks down these more risky 
offenders into the highest risk, and those with the highest 
risk, most of them are housed at ADX Florence in very 
controlled structured environments, not much access not only to 
outside communication, that is--they can communicate 
externally, but it is only through controlled means. They do 
not have a lot of access to other inmates.
    We created communication management units for inmates who 
are not as risky as that, and really did not require that level 
of supervision, that level of control. I took a housing unit 
within a prison, it is a self-contained unit and those that are 
in the mid-range, not as risky as the high-risk folks, 
certainly more risky than the low-risk inmates, are housed 
there and they can be out of their cells during the day. They 
can participate in education, vocational, religious programs, 
but we can control their communications. We schedule when they 
use the phone, we determine whether or not there will be 
somebody listening on the phone when they use the phone, we 
schedule their visits, we monitor their visits, we manage their 
mail.
    So it is controlled, but they are not physically restrained 
to the degree that they are at ADX, so it is much more 
conducive to a more normal operation. And so that has allowed 
us the ability to--and again, these units do not house just 
terrorists, you have got people in there who are sex offenders 
who try to reach out to their victims, you have people in there 
who have threatened judges and congressmen and other government 
officials. We need to be able to manage--and they do it through 
the mail or over the phone.
    So you have got a combination of people. We have room for 
about 100 at those two housing units, and I think we are up 
around 80. We have the other high-risk folks at ADX Florence.
    So those are some of the procedures we have put in place to 
better control communication and manage this difficult group of 
offenders.

                           PROPOSED CHEF ACT

    Mr. Wolf. Okay. Congresswoman Richardson testified last 
week, and I said I would ask the question, regarding the 
testimony of Congresswoman Laura Richardson last Friday. She 
said she introduced the bill, H.R. 5984, called the CHEF Act. 
CHEF stands for Cooking Helps Elevate Futures Act. The 
inspiration for the legislation she said is Chef Jeff 
Henderson, who developed a passion for cooking while 
participating in a work program at Terminal Island Federal 
Prison in L.A. The Bill would establish a pilot program that 
provides inmates with opportunities to learn certified culinary 
skills during the normal cafeteria process and would include a 
study of the program success rate and job placement and 
recidivism.
    The question she wanted us to ask was to what extent are 
BOP vocational re-entry programs focused on teaching food 
service skills and how could a program be enhanced by the 
addition of a certified culinary instruction and training?
    Mr. Lappin. I think it is a great idea. I will get the 
exact number. I think we have probably got seven or eight 
culinary arts vocational training programs, and we have hired 
instructors. They learn everything from not only how to cook, 
but how to cost out a meal, how to serve a meal, you know, all 
the nuts and bolts associated with running a restaurant or 
working in a restaurant.
    [The information follows:]

            Number of BOP Culinary Arts Vocational Programs

    While every BOP institution has a food service operation/cafeteria, 
almost half of our 116 facilities offer formal culinary arts and/or 
food service preparation occupational training and/or apprenticeship 
programs. Programs can range from a 90-hour certificate program in food 
handling to a two-year degree program designed to prepare students to 
work as professional chefs. Local resources and proximity to vocational 
schools or schools of higher education are important factors in 
determining course offerings.
    Congresswoman Laura Richardson's ``CHEF Act'' or H.R. 5984 would 
establish a pilot program that provides inmates with an opportunity to 
learn certified culinary skills during the normal cafeteria process, 
and would include a study of the program's success rate in job 
placement and recidivism prevention. A funded program, focused on food 
service skills and affording inmates an opportunity to receive industry 
and employer recognized certificates, could greatly enhance or expand 
the BOP's inmate training and reentry efforts. If combined with a job 
placement component and supported by research geared to measure 
employment and recidivism outcomes, the program could also serve to 
highlight the value and need for correctional education. However, if 
additional funds were not appropriated to support H.R. 5984, the BOP 
would not be able to fund the pilot program with existing resources.

    So look forward to looking at that legislation. It is news 
to me, but----
    Mr. Wolf. We will give it to you, and then if you could be 
in touch with her office.
    Mr. Lappin. We can do that.
    Mr. Wolf. Mr. Austria, do you have any questions?

                             GANG ACTIVITY

    Mr. Austria. Mr. Chairman, I think you have hit on areas 
that I was going to question as far as gang activity, and also 
going into the terrorist side, just to put this to rest.
    You mentioned that a lot of the gang activity--these are 
individuals that come in from gangs to the prison system. How 
much of that is gang related that comes in, and how much in 
your opinion is being operated or is gang activity in the 
prisons being operated out of the prisons, and what are you 
doing to interfere with that and stop that?
    Mr. Lappin. These questions are supposed to get easier as 
we go through this, sir. As a fellow Ohioan I thought you may 
take a little break on it. But any way, I do not know that I 
have the percentage of inmates coming into the system who are--
I think we might be able to determine that, we will check, 
versus how many get involved in gangs once they arrive. We will 
see if we can get that information.
    [The information follows:]

Number of Offenders Who Are Gang Members Inside the Prison vs. Outside 
                               of Prison

    In February 2011, there were 15,661 inmates in BOP custody (6.77%) 
affiliated with a security threat group (identified as part of a 
disruptive group which includes gangs). The BOP does not have 
statistics on the number of inmates who were gang members prior to 
their incarceration.

    Our numbers are growing. Certainly as I referenced, a 
concern of ours are the gangs coming, especially out of Mexico, 
that are being troublesome. Because what we have learned, and 
we have learned it the hard way, because we were housing people 
from different states of Mexico in the same prisons, and once 
we began to develop a relationship with the Mexican Corrections 
Department we learned the difficulties of trying to house these 
people together.
    So now not only are we looking at where inmates from the 
United States are from and the concerns associated with where 
they are from, we are now looking at where citizens from 
Mexico--what states they are from in Mexico and determining the 
likelihood of our ability to house them in the same 
institution. So it is very complicated.
    What we continue to do is one, we try to identify them. The 
other problem with some of the Hispanic gangs out of Mexico is 
they do not identify, they are not very well organized. So you 
may know who the leadership is, you may think you have got 50, 
but on a day something kicks off you may have 200, because the 
others are loosely connected, who all at once become 
associated, once there is a problem in a prison between a 
Hispanic group and another rival group.
    So it is--we have added more intelligence staff not only in 
our institutions, but we have staff on the National Joint 
Terrorism Task Force. We have enhanced resources at the 
National Gang Intelligence Unit in Sacramento which serves the 
federal system and states to begin identifying and tracking 
these offenders. A lot of phone monitoring, a lot of mail.
    So even though the Counter-Terrorism Unit has this 
responsibility for about 3,000, in our institutions the wardens 
and their staff have the authority to put restrictions on 
inmates' mail and correspondence locally. So if you go to an 
institution, based on who they have there, the warden has 
probably imposed other restrictions on inmate's mail and 
correspondence and visits such that they can manage it locally 
rather than nationally.
    So that is probably occurring in a vast majority of the 
institutions that house gang members, that they have got 
another group that they are managing locally with phone 
communication. So we have the ability to listen in. When they 
make a phone call, it says right on the phone, this phone call 
can be monitored. And so there are some inmates where the 
warden will say, you know what, I want to listen to every one 
of his phone calls, and he has staff sitting there monitoring 
phones.
    When that person picks up the phone and goes to make a 
call, a light goes on that tells them this guy is on the phone. 
They will drop everything else they are doing to listen to that 
phone call. All of their mail will be monitored.
    It is not perfect because they can circumvent some of those 
procedures, and when we catch them circumventing those 
procedures that is when we move them to the CMU or the ADX.
    Mr. Austria. Do you monitor visits as well?
    Mr. Lappin. We can monitor visits. We can when there is a 
need to do that, and sometimes we will--we do not do it a lot, 
but we will have non-contact visiting so we can monitor those, 
so we do a lot of that.
    Mr. Austria. Okay. Thank you, Director, thank you, Mr. 
Chairman.
    Mr. Wolf. Thank you. Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman.

                       SUPERVISED RELEASE PROGRAM

    Director, the supervised release program, is that run 
through BOP?
    Mr. Lappin. It is not, it is run by the United States 
Probation Service. So once they leave prison that 
responsibility transitions to the judicial branch with the 
United States Probation. Now we have a great relationship with 
them. In fact, if you do not mind, some of the skills I 
mentioned in our creation of that we had U.S. probation staff 
on our committee because they had a lot of insight into, hey, 
when these guys come out of prisons here is what we see they 
struggle with. So we have a great relationship with them. We 
meet with them routinely, and they come into our prisons 
frequently.
    Mr. Schiff. The reason I ask is I have been involved in 
trying to expand the Project Hope effort out of Hawaii, and I 
was interested to see whether that model could be used by the 
federal authorities, and I will follow up with the other agency 
on that.
    Mr. Lappin. We would be happy to join you when you meet 
with them and assist any way we can.

                          SOLITARY CONFINEMENT

    Mr. Schiff. Thank you. One of my staff brought to my 
attention a New Yorker article about the impact of solitary 
confinement in terms of the psychological impacts on 
rehabilitation, and you know, I realize there are cross-cutting 
interests here, one in having some kind of a method of 
punishment in the institution in which you cannot deprive 
someone of liberty because they have already been deprived of 
that, on the other hand, at least according to this article, 
there was some kind of demonstrable impacts in terms of 
recidivism, and I do not know if that is because it is the type 
of person that gets into trouble in prison, is going to be more 
likely to recidivate anyway, or whether there is an added 
impact of the solitary, but can you talk a little about your 
policy in terms of prolonged solitary?
    Mr. Lappin. We want to use it as little as we can. That is 
why sometimes you have to use it more than you would like to 
create a safer environment for those inmates who are willing to 
cooperate and live by the rules. So we monitor closely how long 
people are in special housing, you know, housed alone. And I 
will be honest with you, if you go to the majority of our 
special housing units throughout the Bureau of Prisons, they 
are not housed alone. We do not have the luxury. They are 
housed with another inmate or two, even though they are in 
trouble, and without a doubt some of them should be housed 
alone, we just do not have that luxury.
    So the only locations you are going to find somebody 
totally alone every time you visit is ADX Florence, and that is 
what it has been reserved for, those inmates who given the 
nature of their conduct, their behavior, the situation, we have 
no other choice than to do that, but we do--that does not mean 
there is no interaction. Our staff routinely visit and they 
have programming in their cells through closed-circuit 
television. They do come out of their cells to recreate, so 
that extreme level of isolation we try to use minimally and 
only for as long as is necessary, but I am not denying, there 
are some inmates who end up being in those conditions for five 
years and beyond.

                          USP MARION, ILLINOIS

    Mr. Schiff. Back in my federal prosecutor days, I went out 
to Marion, Illinois to interview a potential witness, it was 
not a very successful visit, but is that prison one of the 
higher level security facilities, and how has that changed 
since?
    Mr. Lappin. Marion at one time was our ADX. When we opened 
ADX Florence in '95 we transitioned that mission from Marion to 
ADX, so today Marion is a medium security institution, open 
population.

                       THOMSON ILLINOIS FACILITY

    Mr. Schiff. Wow. And tell me a little bit more about the 
situation in terms of Thomson. You know, I take a different 
view than the chairman on the overarching issue, which I know 
you are not here to debate, but I think we need to have some 
kind of mechanism to detain people that we are going to 
prosecute in Article III court, and you know, we have a 
residual problem at Gitmo, but we are going to have a 
prospective problem with other people who are apprehended in 
the future who will not be sent to Gitmo and have to be sent 
somewhere.
    So tell me what niche Thomson would fill now and what the 
capacity is elsewhere in the institution.
    Mr. Lappin. The niche for Thomson really would be to help 
us with these disruptive inmates, not to say that if a 
terrorist, international terrorist convicted in federal court 
came into our custody he may end up housed at Thomson. Right 
now what is happening is, like I said, there are 450 beds at 
ADX Florence. Traditionally those beds were reserved for the 
most disruptive, the most difficult inmates in the federal 
prison system. Those that assaulted staff and inmates, those 
that tried to escape from even our most secure facilities. But 
over the last few years we have had to use some of those beds 
for other inmates, such as some of the international terrorists 
who are not acting that way, but given the conditions of their 
confinement, because the Attorney General in some cases imposed 
special administrative measures, we really do not have a choice 
but to house them at a location of that type.
    So there is little contact with other inmates. There are 
total controls on phone, mail, all those other things. And in 
our opinion these are the more risky inmates for potentially 
radicalizing other inmates or other persons.
    So without a doubt our ADX bed space is compromised a 
little bit by the addition of this new function. There is 
another group, U.S. citizens, who are potential risks in a 
general population facility because of their skill set. Bomb 
makers, other folks who are smart enough to take what they can 
get at a general population institution and use it in a way 
that would be detrimental to safety and security in an 
institution like that. So you have got a little subset of those 
folks out there.
    So we are using some of that space for purposes other than 
what is really intended, and that is why we would look at 
Thomson, given the design of that facility as being an 
immediate advantage for us adding that type of specialty space 
not only for ADX, but for Special Management Unit needs.
    So that is why we were attracted to it from the very 
beginning because of its design, and it is not a general 
population facility. You could convert some of our general 
population facilities to an administrative/SMU design. Very 
difficult in my opinion to convert Thomson to a general 
population facility given the design of that institution. It 
was built to be more of a lock down institution. So it marries 
up naturally with what the mission would be. And unfortunately 
ADX Florence is not large enough anymore to accommodate our 
needs, and we are going to have to find space.
    Mr. Schiff. And what are the most difficult from a security 
point of view classifications of it? Can you tell us a little 
bit about the relative security risks for example of detaining 
someone who has murdered a prison guard in another facility 
compared to a Timothy McVeigh compared to a mid-level Gitmo 
detainee compared to someone apprehended in Europe plotting an 
attack in Seattle? Which of those pose the greatest problem as 
a prison authority?
    Mr. Lappin. It is hard to make such broad generalizations 
because each of them come to us with unique characteristics and 
have to be evaluated on a case by case basis.
    We have got 259 international terrorists currently in our 
custody. We have got 35,000 gang related offenders. And then we 
have got a lot of other little individual groups. And I tell 
you, and this is just my opinion, the ones that give me most 
pause are the more serious gang related members, you know, the 
more traditional gangs. In part because they have, as well as 
some of the drug cartel leaders we incarcerate given their 
wherewithal, the financial support that they have. But what 
concerns me most about the gang folks are that they are 
established in our communities, and they frequently visit our 
institutions. They are friends, related people. Those pose huge 
security concerns.
    To be honest with you, we do not get very many visitors for 
international terrorists, and when we do they are closely 
monitored.
    So those that are just walking in off the street that have 
ties to people who we know have traditionally been disruptive 
now, who are acting out now, and they disrupt that way in our 
prisons, give me pause when we are allowing them, as they have 
a right to do, to visit prisons, call inmates, they have 
networks within the community. Without a doubt illegal business 
could be taking place. I have to say it, but on occasion crime 
is occurring over the phones, through the mail, through visits. 
It could be anyone, but I suspect it on a larger scale from 
these more organized disruptive groups than we see from others.

                            DRUGS IN PRISONS

    Mr. Schiff. How much, and I know this is tough to quantify, 
how much drug availability is there in a federal prison?
    Mr. Lappin. It's available, and it's unfortunate that it 
is, but it is available. Let me give you some facts to kind of 
help put it in perspective. I'll have to get my glasses for 
this because the print is too small.
    Mr. Schiff. You know, I just got these. I just turned 50 
and I held off until now, but boy did my eyesight go south. The 
minute I turned 50, two things happened. My eyesight went to 
Hell, and I kept getting those darned AARP cards in the mail.
    Mr. Lappin. Right, right.
    Mr. Schiff. I don't know how much, you know, they spend on 
those mailings, because they go right into the bin, but----
    Mr. Lappin. Wait a minute, maybe I can. The drug tests?
    We do random tests and we do suspect tests, and my guess is 
we do in excess of 100,000 tests a year, and our rate of 
positive results is 0.5 percent.
    So, I'm thankful for that. On the other hand, I'm telling 
you, it is available, and we need to do a better job. Now I'll 
tell you it's improved in the last ten years because we have 
limited what mail comes into prisons. No packages, fewer and 
fewer things that a family can send in. We've eliminated those 
things. So we've done a lot better job of controlling what 
comes into prisons. Tragically, with as good of an employee 
base that I have, very good employees, I've got a small group 
of employees who break the law and bring in drugs and alcohol 
and sell it to inmates. I hate to say it, but this is, you get 
it all when you get me. I mean, you're going to get the good 
and the bad, and it's unfortunate that it happens, but it does 
happen.

                      PRISON RAPE ELIMINATION ACT

    Mr. Schiff. My last question is on something that the 
Chairman has raised today, but for many years and that's the 
prison rape problem. What's necessary to make a major impact on 
that, and what, what really has to happen?
    Mr. Lappin. Well, let me begin by saying we want to 
eliminate all of it. I mean, our goal is zero incidence of 
this. It's a difficult goal, under any circumstances. I don't 
want to get into another debate with the Chairman because I 
know how he feels about this. I feel as though the Attorney 
General has really done a great job trying to balance this 
very, very difficult issue. But from the very beginning I told 
him I thought I believe there are three things, to sum it up 
really quickly. You need to have a policy, and there are many 
agencies that don't have a policy on what to do when you become 
aware of an assault of this type.
    You need to make sure that everybody understands that 
policy. You've got to have training, for your staff, and you've 
got to have training for the inmates. And you've got to have a 
vehicle by which inmates can convey to someone who can do 
something about it when an incident occurs, or they become 
aware of it, and you've got to have some oversight. You've got 
to make sure that people are complying with what they said 
they're going to do in this policy.
    That sounds simple? It's more complicated than that because 
it's, you know, we have a very thorough policy. I'm happy to 
share with you the policy that we have. Beyond that, it comes 
down to how well you run your prison, and believe you me, the 
more inmates we squeeze in there, and the fewer staff you have 
watching them, it impacts our ability to successfully overcome 
some of these doings.
    Mr. Schiff. Is it a common problem that someone gets raped 
in prison, and they know that if they go to the prison 
authorities that what they'll get will be worse, if they're 
considered having ratted out the person that raped them?
    Mr. Lappin. I'm sure that could be perceived, I hope it 
doesn't happen. I know that it's an issue that has to be dealt 
with. But again, I think that training and understanding is 
key.
    Mr. Schiff. But I mean for every person that's raped in 
prison, how many more do you think are raped that will, that 
are too scared to ever report it?
    Mr. Lappin. I can't, I don't know, and again, our numbers 
are, that we've reported in the last year are very small. Do I 
know that that's all the cases? I don't. My guess is there have 
been some unreported cases. I don't have an idea, I mean, it's 
not unlike in the broader community.
    Mr. Schiff. Thank you, Mr. Chairman.
    Mr. Wolf. Thank you, Mr. Schiff, and can you get a copy of 
that article? Yeah, we'll send you a copy and we'll send you a 
copy, too.
    It's a pretty significant number, and I've had people tell 
me that they're reluctant. Obviously if you go forward, and the 
guard and the warden or whoever the supervisor for the shift, 
you have to basically charge them. There have even been 
reports, I think when Pat Nolan testified, and I know you know 
Pat Nolan, and I could have it wrong but I think he was saying 
that there was one time in a California prison that they were 
telling a person, ``Listen, if you don't cooperate we're going 
to put you in here, and we almost know what is going to 
happen.'' So it is used as an intimidation factor, but then 
also when it happens, there's a great reluctance in certain 
cases to go forward, and some of the people who have been raped 
in prison have ended up with HIV/AIDS.
    So I think Mr. Schiff has a, really a good question and 
we'll supply both of you with an article. What was that 
magazine?
    Mr. Schiff. It was the New York Review of Books.
    Mr. Wolf. The New York Review of Books just came out. We'll 
get a copy to both of you, and so, and it's less in the federal 
prisons than it is in----
    Mr. Lappin. But I urge you to look at the research that now 
has been done by the Department of Justice, probably some of 
the best and most thorough research that's been ever done.
    I don't believe everything I read in the papers, I'll be 
honest with you. I don't agree with all of these numbers that 
they're putting out there. Based on what I'm reading on the 
research that's been done most recently and continues to be 
done because of this Act, I urge you to take a look at those 
reports from the Department of Justice on this very issue. Not 
only are they surveying prisons, they're going in and talking 
to inmates. So I think you'll have to look at all of that 
material.
    Mr. Wolf. The Department said, by their own Department 
figures--and most of the figures they have is because the 
prison rape bill passed--that 216,000 were raped. It wasn't 
that the Department initiated this because they are wonderful 
people and wanted to do something to get out ahead. It was 
because of the bill that Bobby Scott, Senator Kennedy, Senator 
Sessions and I had.
    Mr. Lappin. No. That's why I think you've got to go back 
and look.
    Mr. Wolf. Well, that they were sexually assaulted.
    Mr. Lappin. That doesn't, well, okay, okay.
    Mr. Wolf. I withdraw that. But if you're put in prison for 
robbery, that doesn't mean you all should have to go----
    Mr. Lappin. I couldn't agree with you more. But I think you 
normally need to look at what is the clue in that 216,000.
    Mr. Wolf. True, and let the record be corrected from that. 
But sexual assault in prison is not exactly a very positive 
thing to happen to someone, and so we can differentiate between 
the two, and there's some of these prisons, I mean, you know.
    Mr. Lappin. I'm going to testify in two weeks at the Prison 
Rape Review Board. I look forward to doing that. I am fortunate 
that I am testifying on the positive side because we were one 
of the institutions selected that are doing a really good job. 
But this is an important issue, and it's not something that we 
can overlook. On the other hand, I think you need to look at 
all of the facts.
    Mr. Wolf. Right. Let the record show that Mr. Lappin 
defended the Attorney General earlier in his comments.
    Mr. Lappin. Several times.
    Mr. Wolf. Several times. With vigor and enthusiasm had we 
been able to we could underline and put it in italics so that 
it would be clear, and we're going to end on this, but I think 
it is an important issue because you are a key player. I mean, 
you're sort of a quarterback for this issue. Congress affirms 
its duty to protect. We all know that. The much delayed notice 
of proposed rule making published in the Federal Register 
proposed a new standard, you all know that, in light of the 
fact that monitoring, monitoring and evaluation will be two 
keys to the success of the future standards.
    The Department is considering three possible approaches for 
the system of audits. These include audits every three years, 
random audits, and an auditing system triggered by indications 
that a facility may be out of compliance. Which of these three 
approaches to audits do you believe will have the most 
beneficial affect?
    Mr. Lappin. Again, it may be, you're talking about a prison 
rape issue?
    Mr. Wolf. Right.
    Mr. Lappin. It may be a combination of all three, sir. I 
mean, we audit ourselves every three years without question. 
But there are times when I, based on what I'm seeing, what 
indicators show me, I tell somebody, ``I want you to go look at 
this program now.'' Whether it's been three years or not.
    So, I think this is a critically important issue and I know 
the Attorney General realizes how important this aspect of this 
requirement is, and we're working together to figure out how 
best to move forward with that. But I know this is a very 
important issue, and it is a very important part of the follow-
up that needs to be done. I'm not sure exactly where we're 
going to land, but certainly it may be a combination of all 
three of those to really provide the adequate oversight.
    Mr. Wolf. Would it be good if we had the IG audit this?
    Mr. Lappin. I don't know.
    Mr. Wolf. Somehow though so you're not auditing yourself.
    Mr. Lappin. Yes, I understand that. You know, right now 
there are, and I'm not saying that can't be done, but we are 
audited now by a number of auditing agencies who have contract 
people who do this. I don't think we should ignore that, that 
they've done it for a long time. They've done a really good job 
of it, and whether or not there could be some partnership there 
as to how to go about doing that and in doing so, maybe at less 
expense in the long term, because of the travel and other 
things associated with it.
    Mr. Wolf. Sure. Direct staff supervision and video 
monitoring are two methods of achieving the same goal: reducing 
the opportunity for abuse to occur unseen. Is it possible to 
craft a formula that would set appropriate staffing levels with 
video monitoring standards for all federal prisons, or to what 
degree and under what circumstances is flexibility needed?
    Mr. Lappin. I thought by now you'd be giving me an easier 
question. I'll be honest with you. I mean, I wish there was a 
formula, there's not. I'm going to tell you why. It's more so 
because of the variety of designs that there are in most prison 
systems.
    We operate prisons that are as old as 110 years old and one 
day old, and any technology is going to be impacted by the 
design of that prison, as well as staffing. I mean, if you go 
back to our older institutions you're going to see a much 
higher staffing level given the design of that prison. I've got 
to have more people in there to watch the same number of 
inmates, compared to our more modern designed prisons that we 
built in a way that, not only can I have fewer people because I 
can stand in one place and see and hear everything, but when I 
put a camera or two in there, I can cover a whole lot larger 
area.
    I mean, you can over rely on cameras. You've got to have 
people looking at these things sometimes. We had this very 
discussion as we looked at that part of the Prison Rape 
Elimination Act, the one standard on direct supervision. It's 
so difficult to do, given the variety of prison designs and the 
different types of inmates to come up with a formula. I think 
it's done--now if I look at, do I have certain prisons that 
should be the same? Absolutely, because I have prisons that 
were designed exactly the same, housing similar types of 
inmates, and certainly we can do something like that in a 
system, a large enough system that has many facilities of the 
same type and same design, and same type of inmates. But 
realize, many State systems are really small, and they aren't 
going to have that type of similarity, and they've acquired 
prisons I mean, no different than us.
    We have prisons that weren't built to be prisons. We have 
prisons that were military bases. We have prisons that were 
monasteries, that we have converted to prison use, not 
conducive, you know, to technology and to staff supervision 
compared to our new prisons that we built that were designed to 
be prisons and done so in a more efficient, more effective way.
    Mr. Wolf. Okay. The last question on that issue, the 
published standards diverge in several instances from the 
Commission's recommendations. One example is in regard to 
cross-gender strip searches. The Commission proposed strict 
limits in this area. However, during the initial comment phase, 
many agencies objected to the limitations on the ground that it 
would require agencies either to hire significant numbers of 
additional male staff, or to lay off significant numbers of 
female staff, due to their overwhelmingly male inmate 
population and substantial percentage of female staff.
    How do you feel about the Commission's recommendations?
    Mr. Lappin. On strip searches? I think that strip searches 
should be done only by members of the same sex, unless you're 
in an emergency situation and you have no choice. That happens 
very, very seldom.
    I feel otherwise on pat searches. The only way we can run 
safe prisons though is when inmates are uncertain about when, 
how, and where they are going to be confronted, either through 
an electronic device, through a verbal confrontation, or 
through a physical pat search, and we don't give our staff a 
whole lot to protect themselves and most prison systems don't. 
They, most of them, roll in there with a set of keys, a radio 
with a body alarm, and we give them the skills to verbally and 
analytically determine when they've got a problem and when they 
should leave and when they should react. Pat searches are one 
of the main reasons we can run prisons safely today. I believe 
they can be done appropriately by members of the opposite sex 
and should be trained to do so.
    But it concerns me greatly when somebody tells me that a 
staff member is not going to be able to pat search an inmate at 
the moment they think an inmate needs to be pat searched.
    Mr. Wolf. I understand.
    Mr. Lappin. So, I know this is an issue for some. On the 
other hand, I'm looking first at safe prisons. I want it done 
properly. I want it done appropriately, and as I convey to our 
staff, we have to create uncertainty in prisons. We're more 
successful when inmates never know. It's kind of the old police 
philosophy of omnipresence. They just don't know what to 
expect.
    So when they're walking through that unit, they will be 
uncertain as to whether they're going to get frisked with a 
hand-held metal detector, walk through a metal detector, be pat 
searched, wouldn't be strip searched. But if they're going to 
be strip searched, I want a member of the same sex.
    And the better job we can do of that, the better we can run 
safer prisons. Because inmates, see, most inmates appreciate 
that, because the better you do that, the more confident they 
are there's not something in there that's going to hurt them if 
they're out in the population.

             CORRECTIONAL STAFF KILLED IN THE LINE OF DUTY

    Mr. Wolf. No, I understand. How many prison guards federal, 
state and local, have been killed in the last several years? Do 
you know? A number.
    Mr. Lappin. We lost one two years ago, unfortunately, and--
--
    Mr. Wolf. Was that the Florida one?
    Mr. Lappin. No, he was in California. But you've had every 
year----
    Mr. Wolf. Why don't you supply that for the record?
    Mr. Lappin. Sure. Every year you have states losing--we 
lost I think, 24 in our history, in the line of duty.
    [The information follows:]

             Numbers of Correctional Workers Killed on Duty

    During the last 10 years, the BOP lost one Correctional Officer in 
the line of duty. Jose V. Rivera was killed on June 20, 2008 at USP 
Atwater, CA.
    The BOP does not have statistics on state and local correctional 
workers killed in the line of duty.

    Mr. Wolf. And I'm sure it would be much higher as you're, 
in the State prisons in the sense of----
    Mr. Lappin. Could be. There are some extremely well run 
State prison systems. There really are. Granted, there are some 
that aren't as well funded, aren't as well run. But you've got 
some really good State systems. But it's tragic.

                              PRISON FARMS

    Mr. Wolf. Was the concept that agriculturally, like at 
Lorton, they----
    Mr. Lappin. Yes.
    Mr. Wolf. Was that a bad idea or a good idea, assuming it, 
I mean, now----
    Mr. Lappin. It's not a bad idea. It depends on the 
population. Although, I'll be honest with you----
    Mr. Wolf. I love working in the----
    Mr. Lappin. You're talking to a former farmer, okay? It's 
not inexpensive getting on a large scale to do it efficiently.
    Mr. Wolf. But you are training somebody. I'm not talking 
about just----
    Mr. Lappin. It's work again, and the other thing is, many 
of our inmates, see, we have no problem finding productive work 
opportunities for inmates in camps. We are not inclined to take 
inmates out of secure prisons to work on farms. Some states 
still do that. It is risky, risky business.
    Mr. Wolf. And is that the same way with regard to the road 
gangs that work on----
    Mr. Lappin. Yes. Risky business. When you, you know, it's 
appropriate in our opinion for inmates who are more trustworthy 
in our minimum security institutions. But the reality is, we 
have no problem finding ample work for that group, and it's not 
a very large group. We are resistant to taking people out of 
prisons who we believe belong behind the fence, risking public 
safety by putting them out in the community and potentially 
losing them, or having a conflict that would result in somebody 
getting hurt.

                            Closing Remarks

    Mr. Wolf. Well, I respect that. You're an expert, and I'm 
going to end and if Mr. Schiff has any last questions, I will 
go to him. But one, I want to thank you and your people for 
your service. I think you do a good job and it's very tough. 
You live in a tough neighborhood and so I want you to know how 
I feel about that. Two, I would urge that you really do try to 
take whatever principles--I want to give again credit to Mr. 
Mollohan who, with the hearings that he had in the previous 
Congress, sort of set the stage for this briefing--to see what 
ideas that they have, and how you can implement them at that 
level. Third, I hope that you'll push the bill. You ought to 
get your congressional relations guys to start pushing it 
because the real danger is that you're going to run out of time 
and if you don't do it in this year, next year is an election 
year, and so that ought to be moving fast.
    Fourth, on the prison industries, I think you're really 
going to have to be bold. I think you should take your 
regulatory authority and stretch it and push it. There have 
been members on both sides of the aisle who have been problems 
for you on this whole prison industry issue. But I think it's 
relatively easy to find products that are no longer made in the 
U.S., and I think you would be doing a service to the American 
taxpayer. You would be reducing the cost.
    Mr. Lappin. It doesn't cost the taxpayer a penny. We're 
saving money.
    Mr. Wolf. Yeah, you're saving money.
    Mr. Lappin. If we didn't have those factories running, 
those 15,000 inmates would be out in the institution being 
watched by correctional staff and in other programs.
    Mr. Wolf. Right. So and secondly, it's good for, to reduce 
the recidivism rate. Thirdly, it gives them some resources. So 
I think the more you push on this, at this particular time, 
because with the economic situation and the lack of funding and 
everything else, people may be more willing, and then you don't 
get yourself into the whole issue of early release and 
everything else. This is a person who is in prison, but they're 
making a contribution.
    So I hope you really move and I don't know what authority 
we're going to have here to kind of put this in the 
appropriations process. But we're going to try to push it as 
far as we possibly can. But we're not the authorizers in this, 
so I hope you'll talk to them both on the House and the Senate 
side. With regard to that, Mr. Schiff, do you have any last 
thing?
    Mr. Schiff. Well, thank you, Mr. Chairman. I concur with 
those sentiments and I just want to thank you for this.
    Mr. Lappin. Thank you both for all of your support.
    Mr. Wolf. Okay, thank you very much.
    Mr. Lappin. Appreciate it.

    [GRAPHIC] [TIFF OMITTED] T7259B.069
    
    [GRAPHIC] [TIFF OMITTED] T7259B.070
    
    [GRAPHIC] [TIFF OMITTED] T7259B.071
    
    [GRAPHIC] [TIFF OMITTED] T7259B.072
    
    [GRAPHIC] [TIFF OMITTED] T7259B.073
    
    [GRAPHIC] [TIFF OMITTED] T7259B.074
    
    [GRAPHIC] [TIFF OMITTED] T7259B.075
    
    [GRAPHIC] [TIFF OMITTED] T7259C1.016
    
    [GRAPHIC] [TIFF OMITTED] T7259C1.017
    
    [GRAPHIC] [TIFF OMITTED] T7259C1.018
    
    [GRAPHIC] [TIFF OMITTED] T7259C1.019
    
                                         Wednesday, March 30, 2011.

                       OFFICE OF JUSTICE PROGRAMS

                                WITNESS

LAURIE O. ROBINSON, ASSISTANT ATTORNEY GENERAL
    Mr. Wolf. Good morning. The committee will come to order.
    We want to welcome Ms. Robinson. We appreciate your being 
here today to testify regarding the Department of Justice's 
fiscal year 2012 budget request for the Office of Justice 
Programs.
    As always, I strongly support funding for the Department of 
Justice programs that assist state and local efforts to fight 
the scourge of drugs, gangs, and violent crime.
    However, it is unlikely that the Congress will be in a 
position to provide increases to these programs. The fiscal 
crisis facing the Nation is real and will require a level of 
austerity that goes beyond the President's budget request.
    We will be asking you to help us prioritize funding needs 
within the Office of Justice Programs as we head into the 
deliberations on fiscal year 2012.
    I'm pleased to see that the budget devotes a portion of its 
resources to the issue of domestic radicalization. I recently 
testified before the Committee on Homeland Security regarding 
the importance of fostering cooperation between law enforcement 
and peaceful, law-abiding Americans of the Muslim faith.
    We need to look no further than a number of individuals who 
have radicalized in northern Virginia over the last several 
years for an indication of the extent of this problem and the 
serious need to address it. So we are pleased that you are 
willing to move ahead to look at some of that.
    We are all concerned about the Administration's decision to 
divert funding away from some critical proven programs in order 
to experiment with new programs. For example, the department's 
abandonment of the Prescription Drug Monitoring Program is a 
major deficiency in this budget request.
    In the opinion of myself and the chairman of the full 
committee, Mr. Rogers, this cut will be devastating to 
communities ravaged by prescription drug abuse.
    The DEA administrator, before the recess, testified before 
this committee that prescription drugs have overtaken marijuana 
as the drug of choice of first-time drug users. Moreover, 
deaths from prescription drug abuse are on the rise as new 
distribution networks are emerging particularly in Florida, 
Georgia, and Ohio.
    In addition, this budget significantly reduces funding for 
the Prison Rape Elimination Act. This as the department has 
finally put forth regulations with what states and localities 
soon will be required to comply.
    We look forward to asking you questions. Before that, I 
recognize the gentleman from Pennsylvania, Mr. Fattah, for any 
comments.
    Mr. Fattah. Let me thank you, Mr. Chairman. And let me 
thank the witness for appearing. Thank you very much.
    Mr. Wolf. Thank you.
    Ms. Robinson, your full statement will appear in the 
record. You can proceed to summarize and go as you see fit.
    Ms. Robinson. Chairman Wolf and Ranking Member Fattah, I am 
very pleased to be here to discuss the President's 2012 budget 
request for the Office of Justice Programs.
    And I would like to begin by thanking the subcommittee for 
its leadership in addressing the public safety concerns of the 
American people.
    And I particularly wanted to thank you, Mr. Chairman, for 
your leadership in helping the Nation work toward creating a 
smarter, more effective criminal justice system. I think your 
work on justice reinvestment, in particular, is to be 
commended.
    I believe we are at a critical moment for public safety in 
the United States. State, local, and tribal public safety 
agencies across the country are clearly facing significant 
budget challenges and I think that threatens their ability to 
do their jobs.
    It seems to me that we have a responsibility at the federal 
level to see that they have the tools and the knowledge they 
need to fight crime in the most effective way possible.
    OJP's mission is to help reduce crime and improve the 
administration of justice by promoting innovation, supporting 
research, and providing strategically targeted assistance.
    The President's fiscal year 2012 request reflects three 
central themes: enhancing partnerships, strengthening evidence-
based programs, and ensuring effective stewardship of federal 
funds.
    Our first step is to build on partnerships we have already 
established with the criminal justice field. The Byrne Memorial 
Justice Assistance Grants Program, I think, epitomizes the 
federal-state-local partnership in public safety--I view it as 
our flagship program.
    Since 2009, we have placed a heightened emphasis on 
supporting evidence-based projects under Byrne JAG. The 
President's budget request for 2012 includes $519 million for 
this program, the same amount enacted in 2010, and requested by 
the President in 2011.
    The request also includes $100 million under the Second 
Chance Act. Inmate reentry is arguably the most significant 
criminal justice challenge in America today. And I know you are 
very well aware of this, Mr. Chairman, because of the work you 
have done in this area.
    The Administration views this as a major priority for 
funding in 2012--to support both adult and juvenile reentry 
work across the country.
    The President's budget also requests a commitment to 
strengthen our basic knowledge about what works in preventing 
and controlling crime. I think this is a central federal role 
in public safety.
    The Attorney General last fall appointed an 18-member 
Science Advisory Board for OJP that is helping to guide our 
efforts in developing evidence-based policies and programs.
    The President's budget request is committed to science by 
including a three percent set-aside of OJP grant and 
reimbursement funds for research, statistics, and evaluation 
purposes.
    I have put a strong emphasis on improving our understanding 
of what works in preventing crime and in using that information 
to fight crime more effectively.
    In line with that, the President's budget request includes 
a request for an on-line ``what works'' clearinghouse and a 
diagnostic center to help jurisdictions develop and then 
implement evidence-based strategies.
    The President's budget request reflects a strong effort to 
maximize federal resources and be sure we are as effective as 
possible. This is an area I really care about. In spite of a 
heightened workload, resulting from grants under the Recovery 
Act, of which more than 3,300 continue to be administered, 
salaries and related expenses represent only 7 percent of our 
total request, and the total request represents a net decrease 
of some $125 million from the fiscal year 2011 Continuing 
Resolution level.
    Since I returned to OJP in January 2009, I have focused 
aggressively on ensuring strict accountability of federal 
funds. So we have established policies, procedures, and 
internal controls to ensure sound stewardship, strong 
programmatic and financial management, and effective monitoring 
and oversight of our grant programs.
    I have worked very closely with the Inspector General's 
Office to strengthen our monitoring and oversight functions. 
Last year, we closed 151 of the 288 open single and OIG audit 
reports. This represents a return of $3.3 million to the 
Federal Government for unallowable or unsupported costs.
    In oversight testimony before this subcommittee in 
February, the acting Inspector General noted the positive steps 
the Department had taken to improve its grant management 
practices. She called our efforts to implement the Recovery Act 
``extraordinary''. And it is unusual for the IG to be that 
praising.
    We will continue to work closely with the IG to make sure 
OJP's grant administration process is fair, transparent, and 
effective.
    In conclusion, Mr. Chairman, with this budget, OJP looks 
forward to working with you, the subcommittee, and Congress to 
ensure that funds appropriated to OJP are used wisely and 
effectively to support states and localities and to promote 
smart-on-crime approaches.
    Thank you so much. And, of course, I am happy to answer 
your questions.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259C.001
    
    [GRAPHIC] [TIFF OMITTED] T7259C.002
    
    [GRAPHIC] [TIFF OMITTED] T7259C.003
    
    [GRAPHIC] [TIFF OMITTED] T7259C.004
    
    [GRAPHIC] [TIFF OMITTED] T7259C.005
    
    [GRAPHIC] [TIFF OMITTED] T7259C.006
    
    [GRAPHIC] [TIFF OMITTED] T7259C.007
    
    [GRAPHIC] [TIFF OMITTED] T7259C.008
    
    [GRAPHIC] [TIFF OMITTED] T7259C.009
    
    [GRAPHIC] [TIFF OMITTED] T7259C.010
    
    [GRAPHIC] [TIFF OMITTED] T7259C.011
    
    [GRAPHIC] [TIFF OMITTED] T7259C.012
    
    [GRAPHIC] [TIFF OMITTED] T7259C.013
    
    [GRAPHIC] [TIFF OMITTED] T7259C.014
    
    [GRAPHIC] [TIFF OMITTED] T7259C.015
    
    [GRAPHIC] [TIFF OMITTED] T7259C.016
    
    Mr. Wolf. Thank you.

                          JUSTICE REINVESTMENT

    We appreciated your participation last year in the January 
2010 summit on recidivism reduction. Earlier this year, Pew and 
the Council of Governments released a final report of the best 
practices.
    Have you had a chance to go through the report?
    Ms. Robinson. Yes. In fact, I was extremely impressed with 
the report. I read the entire thing, Mr. Chairman, and I think 
it provides a wonderful blueprint for states and counties 
moving forward.
    We have been excited to work in concert with the Council of 
State Governments, Pew, and other technical assistance 
providers here and with counties and states. And we are now 
seeing wonderful response back with the work we are doing with 
the funding from 2010.
    Mr. Wolf. Well, what can you do using the Pew 
recommendations working with state and local governments? What 
can OJP do?
    Ms. Robinson. We now have----
    Mr. Wolf. What do you plan on doing?
    Ms. Robinson. We have applications, Mr. Chairman, from 13 
states and 23 local communities and we are planning in the next 
two weeks to go forward with applications.
    Mr. Wolf. Are these as a result of the Pew? Can you tell us 
what states they are?
    Ms. Robinson. I am not----
    Mr. Wolf. For the record or----
    Ms. Robinson. No, because those decisions have not been 
made final, so I am not in the position to announce those here. 
But we would love to have you be part of that announcement if 
you----
    Mr. Wolf. Oh, I do not have to be. I am just curious about 
which states. Is the State of Virginia a participant or have 
they approached you at all?
    Ms. Robinson. I think they are a part of the applications 
indeed, yes.
    Mr. Wolf. A participant in that?
    Ms. Robinson. Yes. But we are excited about that. I think 
what is particularly good about the summit report that came out 
in January is the specificity of the recommendations in there.
    For example, the recommendations about supervision of 
offenders in the community, I thought it was--and I have been 
in this field for 35 some years--one of the best reports I have 
seen because of the detail that it goes into about the data-
driven approaches and supervision of offenders.
    We focus so much attention on offenders when they are in 
prison, but we have got to connect that back into the 
supervision in the community. And I thought it was a terrific, 
detailed report.
    Mr. Wolf. How many states are currently implementing these 
strategies to improve reentry and reduce recidivism?
    Ms. Robinson. We have 200 active reentry demonstration 
programs in the community or in states around the country. I 
will have to get back to you about how many states themselves 
have those programs.
    [The information follows:]

              Reentry and Justice Reinvestment Strategies

    Through its Justice Reinvestment Initiative (JRI) and the 
implementation of seven Second Chance Act programs, BJA is supporting 
many states and localities in improving reentry and reducing 
recidivism. Through close coordination with the Pew Center on the 
States and five technical assistance (TA) providers (the Vera Institute 
of Justice, the Council of State Governments, the Center for Effective 
Public Policy, Community Resources for Justice, and the Urban 
Institute), BJA is currently providing five states (Alabama, Indiana, 
Louisiana, North Carolina, and Ohio) with support in justice 
reinvestment analysis and recommendation development. Additionally, BJA 
has provided three local justidictions (Travis County, TX; Allegheny 
County, PA; and Alachua County, FL) with initial justice reinvestment 
planning support. It is worth noting that additional states are 
utilizing the justice reinvestment model with direct support from Pew 
Center on the States. It is exciting to see these initiatives taking 
root in so many jurisdictions around the country, and to have forged to 
a public-private partnership to support these initiatives.
    Looking to the future, BJA has received 30 letters from 
jurisdictions requesting initial justice reinvestment assistance (12 
States and 18 localities) and has received 6 applications (1 State and 
5 localities) from jurisdictions requesting technical assistance and 
``seed'' funding to support implementation of justice reinvestment 
recommendations, BJA is in the process of working with the Pew Center 
on the States and its TA partners to make recommendations on sites 
selected to move forward. BJA anticipates making these decisions in 
June, 2011.
    Through Second Chance Act programming, BJA has provided resources 
to state, local, and tribal governments; and non-profit organizations 
to provide comprehensive reentry planning and services for reentering 
offenders. In fiscal year (FY) 2009 and 2010, more than 250 awards were 
made to or within 47 states and the District of Columbia. Except in the 
case of mentoring grants, priority was placed on jurisdictions 
targeting higher risk offenders for services and those that proposed 
the use of effective correctional practices including both pre- and 
post-release service provision. In addition to focusing on 
implementation grants, FY 2011 resources will support National 
Institute of Justice research and evaluation efforts.
    An interactive map at http://www.nationalreentryresourcecenter.org/
national-criminal-justice-initiatives-map identifies active reentry 
grants in each state. Second Chance Act grants, Justice Reinvestment 
grants, as well as others supported by the Department of Lab or, 
Education, and Health and Human Services are all available on this map.

    But we had over 1,000 applications under the Second Chance 
Act last year. Tremendous response from around the country.
    We had, just at the end of February, a conference in 
Washington for our reentry grantees from around the country. We 
had over 800 attendees there working and getting technical 
assistance on how to work most effectively with returning 
offenders.
    Mr. Wolf. Well, since the report is so new and fresh, 
although the subcommittee sent a copy to all 50 governors, and 
I think we have only heard back from one.
    Ms. Robinson. Really?
    Mr. Wolf. Of course, the mail delivery here is always not 
the best and everything else, but it did not overwhelm me with 
the response that we have gotten back. And I do not want to 
miss this----
    Ms. Robinson. Right.
    Mr. Wolf [continuing]. This wave that is coming into sea. 
So is there a way maybe you could follow-up, get the committee 
to give you a copy, the subcommittee to give you a copy of the 
letter that went out to the governors?
    Ms. Robinson. Yes.
    Mr. Wolf. And you could then follow-up with the governors 
saying that you have been asked to follow-up and if you are 
willing to be helpful and participating to see how they can 
move ahead because it has gotten such rave reviews.
    But the longer it is out there and people do not begin to 
move on it, particularly in these economic times, so if you 
could help us there, maybe look at the letter. We will get you 
a copy of the letter----
    Ms. Robinson. Yes.
    Mr. Wolf [continuing]. Signed by both of us here. And then 
you can see if you can follow-up with them.
    Ms. Robinson. Yes. I think that would be great. And if I 
can make another suggestion, one of the things that might be 
good: I think you know that the Attorney General established a 
Reentry Council with the other cabinet members on the domestic 
side of the cabinet. We would suggest that each of the 
governors establish something like that as well.
    Mr. Wolf. Well, why don't you get it. We will give you the 
letter and you can tell us how you think you might move ahead 
to----
    Ms. Robinson. Wonderful.
    Mr. Wolf [continuing]. Get them.
    Ms. Robinson. We would be delighted to do that.

                        PRESCRIPTION DRUG ABUSE

    Mr. Wolf. According to your budget priorities, OJP, unlike 
the Drug Enforcement Administration, does not feel that 
prescription drug abuse is an urgent national priority in the 
realm of state and local enforcement.
    Is that a fair statement or what is your feelings about 
that?
    Ms. Robinson. Mr. Chairman, we do think that prescription 
drugs abuse is a very serious problem. And I know from the 
Attorney General's testimony here that there was a lot of 
discussion about this issue.
    With the Byrne JAG----
    Mr. Wolf. He did not seem very motivated on it, though. He 
seemed----
    Ms. Robinson. I will tell you that Jim Burch who is the 
acting director of BJA and I are very concerned about this 
issue.
    And we have actually, since 2002 when this program was 
established, put in a great deal of time and attention to--
well, I have not been here that long, but Jim has. And I 
remember when Mr. Rogers chaired the subcommittee talking with 
him about this issue in the late 1990s because he was very 
concerned about it, in Kentucky, about the problem at that time 
before the program was officially established.
    So I have been very well aware of this issue and concern 
for many years. Through discretionary funding, through Byrne 
JAG, we will continue to focus on this, to provide training and 
technical assistance.
    Some 47 states have set up PDMPs, the Prescription Drug 
Monitoring Programs. We will continue to focus on this issue 
and this problem because it does continue to be of great 
concern. And I know that.
    I know that Florida has applied and received $800,000 under 
this program in the past. I know this is a great concern in 
Florida, in Broward County and other parts of Florida. We will 
not take our eyes off this problem.
    Mr. Wolf. Well, we are sending a letter to the governor of 
Florida today on this issue. I am not so sure Florida has moved 
nearly as aggressively as you think they have.
    In 2009, there were seven million people abusing 
prescription drugs. And in some states, more people are dying 
from prescription drug abuse than from car accidents or 
gunshots. According to the National Institute on Drug Abuse, 
nearly one in twelve high school seniors reported nonmedical 
use of codeine and one in twenty reported abusing Oxycodone.
    What are the reasons then to eliminate the Prescription 
Drug Monitoring Program?
    Ms. Robinson. As I think you said in your opening 
statement, Mr. Chairman, there are not enough dollars to go 
around for everything. And these were tough decisions that the 
Administration was faced with.
    And among other things, the Byrne JAG money--which we tried 
to preserve at the existing levels--is funding that can be used 
for a variety of purposes. The decision was made in some 
instances that that funding could be used to cover other 
purposes. This was one of the programs that the decision was 
made that it could be covered by Byrne JAG.
    Mr. Wolf. The Prescription Drug Monitoring Program supports 
state electronic databases which collect data on controlled 
substances that are dispensed.
    As of July 2010, this figure seems to differ, 34 states we 
believe now have monitoring programs, from you.
    Ms. Robinson. Uh-huh.
    Mr. Wolf. Sixteen states including Florida still do not. So 
what was your basis on the figure that you mentioned with 
regard----
    Ms. Robinson. Well, they have received in the past 
$800,000. It is up to the State then to fully implement that.
    Mr. Wolf. And have you been in touch with them based on 
what----
    Ms. Robinson. BJA has been in touch, yes.
    Mr. Wolf. What have they done with the money?
    Ms. Robinson. Well, we will have to get back to you on 
those details. I do not know off the top of my head the 
specifics on that. But at a certain point, it is up to----
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259C.017
    
    [GRAPHIC] [TIFF OMITTED] T7259C.018
    
    Mr. Wolf. But that is----
    Ms. Robinson [continuing]. The states to carry forward.
    Mr. Wolf [continuing]. That is important because Florida is 
the leading State for pill mills.
    Ms. Robinson. Yes.
    Mr. Wolf. And it is currently experiencing an average of 
seven deaths each day.
    Ms. Robinson. Yes.
    Mr. Wolf. So by the end of today, seven more people will 
die in Florida. If a program like this is eliminated, what is 
the likelihood that states like Florida will implement a 
monitoring program or that rural states like Kentucky will be 
able to maintain the ones that they have?
    Ms. Robinson. Right. No. I agree with you that this is a 
serious problem.
    Mr. Wolf. There is an article which we would put in the 
record at this time from a Florida newspaper.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259C.019
    
    [GRAPHIC] [TIFF OMITTED] T7259C.020
    
    [GRAPHIC] [TIFF OMITTED] T7259C.021
    
    [GRAPHIC] [TIFF OMITTED] T7259C.022
    
    [GRAPHIC] [TIFF OMITTED] T7259C.023
    
    [GRAPHIC] [TIFF OMITTED] T7259C.024
    
    Mr. Wolf. I would quote it, but the figures may be a little 
wrong. Ninety percent of the Oxycodone that was prescribed came 
out of Florida.
    Ms. Robinson. Yes.
    Mr. Wolf. Ten percent came out of the other 49 states.
    Ms. Robinson. Yes.
    Mr. Wolf. And I would like to urge you, if you would--do 
you have contacts in the State of Florida?
    Ms. Robinson. Of course, yes.
    Mr. Wolf. If you could call them----
    Ms. Robinson. Yes.
    Mr. Wolf [continuing]. See what their plans are. We will 
share with you.
    Ms. Robinson. Yes.
    Mr. Wolf. Maybe what you can do is get the article, have it 
sent over. So we can give you, so you can read it before you 
leave or you can take it with you.
    Ms. Robinson. Of course. Yes.
    Mr. Wolf. And then who is your contact in the State of 
Florida?
    Ms. Robinson. We work with a number of the police chiefs 
down there, with people at the state level.
    Mr. Wolf. At the state level, who at the state level?
    Ms. Robinson. I cannot tell you off the top of my head, but 
we can certainly follow-up with you. We work with people in the 
state police. We work with the state Attorney General.
    [The information follows:]

             Florida's Prescription Drug Monitoring Program

    Please refer to the previous insert as its response is the same.

    Mr. Wolf. Okay. If you would maybe call the head of DEA to 
get the background.
    Ms. Robinson. Of course.
    Mr. Wolf. Read the article----
    Ms. Robinson. Yes.
    Mr. Wolf [continuing]. That we will give you before you 
leave.
    Ms. Robinson. Uh-huh.
    Mr. Wolf. And then if you could call the State of Florida 
and talk to whoever are your contacts and get back to us and 
let us know----
    Ms. Robinson. Okay.
    Mr. Wolf [continuing]. What because if seven people a day 
are dying----
    Ms. Robinson. Of course.
    Mr. Wolf [continuing]. The impact on the young people 
there.
    Ms. Robinson. Uh-huh.
    Mr. Wolf. Mr. Fattah.

                     MISSING AND EXPLOITED CHILDREN

    Mr. Fattah. Thank you, Mr. Chairman.
    Let me start with the missing and exploited children 
program.
    Ms. Robinson. Yes.
    Mr. Fattah. Now, we are at $70 million and----
    Ms. Robinson. Yes.
    Mr. Fattah  [continuing]. The proposal is that we go to $60 
million. Where would the $10 million be cut from?
    Ms. Robinson. That funding goes across a number of 
different programs. It is not simply the National Center on 
Missing and Exploited Children, but covers a number of things 
including the ICACS and other programs in this broad area.
    Mr. Fattah. I went out and visited the National Center.
    Ms. Robinson. Yes, I recall that. Ralph Martin on my staff 
I know was with you.
    Mr. Fattah. Yes.
    Ms. Robinson. The National Center is a program that I am 
very familiar with. I have known Ernie Allen for many years. He 
is a good friend. I think very highly of it.
    This is an area where along with so many other programs 
across the Department of Justice, across the Administration, 
and across OJP where there was funding that had to be trimmed 
because, as the Chairman noted, we are in a tough budget year. 
So even with programs that are priorities, things had to be 
shaved off.
    Mr. Fattah. Well, I would hope that as we work to finalize 
the appropriations for this year----
    Ms. Robinson. Yes.
    Mr. Fattah [continuing]. That we will work to make sure 
that this is not one of the areas that is trimmed----
    Ms. Robinson. Right.
    Mr. Fattah [continuing]. Because I think that missing and 
exploited children and the--it is not something where we can 
afford----
    Ms. Robinson. Right.

                            PRISONER REENTRY

    Mr. Fattah [continuing]. To make a cut. But let me ask you 
about this Reentry Council that the Attorney General set up. 
Now, you have 16 different, 17 different federal agencies----
    Ms. Robinson. Yes.
    Mr. Fattah [continuing]. Interacting around the question of 
reentry. Now, we have, based on your testimony, almost 800,000 
people being released from prison each year----
    Ms. Robinson. Yes.
    Mr. Fattah [continuing]. 750,000 or so. How is the Reentry 
Council's work going to impact making reentry as meaningful as 
possible for these people returning to various communities? 
What is the plan of the council in terms of----
    Ms. Robinson. Yes.
    Mr. Fattah [continuing]. Getting more buy-in from other 
non-Justice Department agencies?
    Ms. Robinson. That is a very good question. I have been 
involved either directly in government or outside of government 
over three and a half decades and this is one of the most 
impressive kinds of collaborations across government I have 
seen over that long career.
    On January 5th, Attorney General Eric Holder in his 
conference room convened seven different cabinet officials 
around his table and, rather than their sitting there reading 
talking points, they were really engaged and very excited about 
the notion of working on reentry.
    So Shaun Donovan from HUD talked about his work in New York 
City when he headed housing there and how they had worked with 
Marty Horn who was the head of corrections in New York City, 
and how they worked to ensure that offenders coming out of jail 
there actually had a place to live.
    And Kathleen Sebelius from HHS talked about the community 
health centers and how they could really work to ensure that 
returning offenders had a chance to engage with health services 
when they were coming out.
    And General Shinseki from Veterans Affairs talked about the 
need to make sure that we knew who the returning offenders are 
who, in fact, are veterans. He said we are not sure we are 
connecting with them and have that information.
    So we were able to help make connections on that. So it is 
a problem solving type of situation to connect the dots, to 
really make those connections.
    And beyond that--the cabinet level body--there is the staff 
level, with 17 agencies regularly meeting, headed by two of my 
staff members. That is where a lot of the day-to-day work gets 
done.
    Mr. Fattah. Let me drill down on that for one more layer 
then. Let's take the issue of veterans.
    Ms. Robinson. Yes.
    Mr. Fattah. We know that a disproportionate number of these 
young people end up homeless, end up involved in certain 
antisocial and illegal activities and end up in our prison 
system.
    Ms. Robinson. Yes.
    Mr. Fattah. And we say we do not know. Are we doing 
something because of the Reentry Council to now know? Are we--
    Ms. Robinson. Yes.
    Mr. Fattah [continuing]. Creating a data process in which 
we can extract that information and know how many veterans are 
incarcerated, how many are being released, and what types of 
services they may need?
    Ms. Robinson. Yes. More than that, we are trying to connect 
them with services that veterans hospitals and other clinics 
provide, so we are trying to actually connect services. We are 
trying to lift restrictions. We are trying to make those 
services available.
    Mr. Fattah. Well, I would be very interested. I had 
sponsored some report language in the past to try to do a kind 
of census on veterans----
    Ms. Robinson. Wonderful.
    Mr. Fattah [continuing]. And this population. So whatever 
information you could supply that would be of help----
    Ms. Robinson. Great.

                    PUBLIC SAFETY OFFICERS BENEFITS

    Mr. Fattah [continuing]. To understanding where you are and 
what we might do to do even more in that regard. Now, one of 
the increases in the budget is in the death benefits for law 
enforcement; is that correct?
    Ms. Robinson. Yes. The Public Safety Officers Benefits 
Program.
    Mr. Fattah. Right. And is that because we have had an 
increased number of fatalities?
    Ms. Robinson. Yes, yes. Last year alone, we had a 40 
percent increase in fatalities, mainly from shootings of law 
enforcement officers, very sadly. This is really just to keep 
up with what we have seen.
    Mr. Fattah. Are we satisfied that the level of benefit is 
sufficient to help the family?
    Ms. Robinson. Yes. We think that this will calibrate with 
the need.

                              HAWAII HOPE

    Mr. Fattah. Okay. All right. And the reentry efforts now, 
we have funded it at $100 million and that is where the request 
is now. And some 250 programs have been funded.
    You are kind of moving a number of things around here, but 
the Hawaii program that you identify, the Hawaii Opportunity 
Probation----
    Ms. Robinson. Yes.
    Mr. Fattah [continuing]. Enforcement Program, can you tell 
us a little bit about this? We have a program in Philadelphia 
called the Youth Violence Prevention Program which is an 
intensive interaction with youthful offenders----
    Ms. Robinson. Yes.
    Mr. Fattah [continuing]. Who, based on evidence, there 
would be a higher probability of them being involved in a very 
serious crime in the near future. They get a very intensive, 
focused effort and it has been very successful.
    But if you could tell the committee a little bit about the 
Hawaii program that you have identified, which you say is 
having remarkable success even with meth users. So tell us a 
little bit about this.
    Ms. Robinson. Sure. It is the Hawaii HOPE Program as you 
mentioned. And it was started by a former U.S. attorney in 
Hawaii who is now a state court judge, Steven Alm. I knew him 
back in the 1990s when he was the U.S. attorney there.
    And it has some alignment with the Drug Courts, but it is 
not as treatment intensive. It is a probation program. I always 
think of the analogy that it keeps the offenders on a short 
leash. They have to come back and report in very regularly 
before the judge. And so it is basically using that very 
regular monitoring before the judge with sanctions if they are 
not coming back clean.
    So it uses regular drug testing and it only sends them to 
treatment if it is clear that they cannot stay drug free 
without treatment. So it is a less expensive program than Drug 
Court.
    Judge Alm found that this Hawaii HOPE Program was, with our 
evaluation through the National Institute of Justice, basically 
reducing recidivism by 50 percent. So that is a pretty dramatic 
reduction.
    Mr. Fattah. It is remarkable. The question becomes how we 
take this here. I assume this means this has something to do 
with your request for a clearinghouse on what works----
    Ms. Robinson. Yes.
    Mr. Fattah [continuing]. At least to highlight these types 
of programs.
    Ms. Robinson. Correct.
    Mr. Fattah. And let me end my questioning because I am 
aware of your work and with the University of Pennsylvania and 
with Jerry Lee----
    Ms. Robinson. Right.

                       EVIDENCE-BASED APPROACHES

    Mr. Fattah [continuing]. On this question of evidence-based 
approaches. Are there things that we now know that could be 
saving taxpayers money, making communities safer, and helping 
people turn away from a life of crime that we have not yet 
taken to scale, that we could find ways to help maybe provide 
incentives to take them to scale?
    That is, are we past the point of finding something over 
here that works and studying it and that what we need to do 
is--I think one of the things that the chairman always points 
to is that the communications to governors and other things, do 
not seem to get the response that we would hope.
    But are there things that we now know work in terms of 
diverting juveniles from the criminal justice system and some 
of these other larger issues that have been studied for a very 
long time?
    Ms. Robinson. Yes. Your point is very well taken, Mr. 
Fattah. I firmly believe that we can make government more 
effective with that kind of smart-on-crime spending.
    As you point out, the work that Jerry Lee and others have 
fostered, that is my reason for proposing this ``what works'' 
clearinghouse. We have set out in the budget proposal to 
highlight for practitioners and policymakers, not in academic 
journal articles, but in very crisp summaries the things that 
governors, or mayors or busy practitioners can see, a framework 
for the things that they can easily adopt at the state and 
local level. I think that is the way forward in a tight budget 
environment.
    Mr. Fattah. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Serrano.

                          STUDY OF HATE CRIMES

    Mr. Serrano. Thank you, Mr. Chairman.
    Welcome. Thank you for your service.
    For fiscal year 2010, we inserted language in this bill 
asking for a study of hate crimes against immigrants and 
Hispanics, in some cases these crimes against Hispanics because 
some folks--I mean, there is no reason why they should be, but 
some people perceive them to be undocumented, as some people 
would say illegal aliens. So how is that going?
    When do you think that study will be completed and is there 
anything you can tell us now about what you are finding?
    Ms. Robinson. Thank you very much for the question, sir.
    The study is underway by our National Institute of Justice. 
We do not have findings at this point to report to you, but the 
study will be available by September of 2012 and we look 
forward to sharing it with you all in the subcommittee.
    Mr. Serrano. And the request came from this committee, but 
I am sure there has been other discussions of this.
    Do you have any information on the reporting of these 
crimes or crimes that people feel are hate crimes against 
immigrants?
    Ms. Robinson. I do not have that information, but we will 
be happy to do some further inquiry and get back to you.
    I know that NIJ is looking at existing information because, 
when you undertake a study of this kind, you always look at 
what they call the literature review. So we can certainly get 
back to you on that.
    [The information follows:]

                     Hate Crimes Against Immigrants

    The literature in this area is sparse, and more research is needed 
that takes a serious and rigorous look at hate crimes against 
immigrants in America.
    The Congressionally directed study on hate crimes against 
immigrants will be completed by September of 2012, and will provide 
some of the much needed information on this subject. The study's 
contractor, Abt Associates, is conducting an analysis of existing 
national data and other data from California, Texas, New Jersey, and 
Michigan, to determine if there has been an increase in reports of hate 
crimes against new immigrants, individuals who are perceived to be 
immigrants, and Hispanic-Americans. Abt Associates will also complete a 
more in-depth look at the four selected states, including surveys of 
law enforcement and focus groups.
    A preliminary overview of findings regarding trends, as well as 
details on how participating states were selected, will be available in 
May 2011.
    The National Institute of Justice maintains an active topical 
webpage on the issue of hate crimes at http://www.nij.gov/topics/crime/
hate-crime/welcome.htm, and will continue to update this page as more 
information becomes available.

    Mr. Serrano. Okay. Well, we would appreciate that because 
that is an issue of great concern. We have an immigration 
issue, but a violence related to it that should not be allowed. 
And we need to know more about it, not to mention the fact, and 
this is kind of a touchy subject to discuss, but there are 
people being hurt because they are perceived to be immigrants 
which was, you know, the concern that----
    Ms. Robinson. Of course.
    Mr. Serrano [continuing]. The Latino community and many 
others had with the Arizona law, that it allowed police 
officers----
    Ms. Robinson. Uh-huh.
    Mr. Serrano [continuing]. To stop you if they thought you 
might be here illegally. And so it is a real big problem.
    Let me ask you about with regard to the proposed new race 
to the top.
    Ms. Robinson. Yes.

                            JUVENILE JUSTICE

    Mr. Serrano. Funding for juvenile justice. If given full 
funding in fiscal year 2012, how many states do you envision 
getting awards? How many states currently get awards under the 
program?
    This initiative is replacing the Juvenile Accountability 
Incentive Block Grant Program and the Part B Formula grants. 
Will some states be hurt by reductions in funding if we 
transfer many of our current state formula initiatives to this 
race to the top?
    You know, Mr. Chairman, I could add to this and say that 
these grants become even more important now that another source 
of local funding we used to have is no longer around, but I do 
not want to get into that discussion at this time out of 
respect to all of us. If anybody else knows what I am talking 
about, we can discuss it later.
    Ms. Robinson. Mr. Serrano and Mr. Chairman, I want to tell 
you that we have had a great deal of feedback from the states, 
from Capitol Hill, and from juvenile justice groups since the 
release of the President's budget about this juvenile justice 
proposal.
    As you are probably aware, during the development of the 
President's budget, it is a rather internal process within the 
executive branch, so you do not have time for a collaboration 
process, and so in many ways, that consultation process begins 
after the release of the President's budget.
    We have learned a great deal since the release of the 
President's budget and we have taken that consultation to 
heart.
    So I have been authorized to say at this point, at this 
time, during this testimony that we have reconsidered the 
President's budget request as initially proposed and that we 
are now suggesting and proposing that this program move forward 
in a different fashion and that 90 percent of the funds be 
under the existing Formula Program of the original Juvenile 
Justice and Delinquency Prevention Part B and the Juvenile 
Accountability Block Grant Program--and so that would be $110 
million of it, and that $10 million would be for a 
demonstration program.
    So we would be pulling back from the ``Race to the Top'' 
proposal as initially proposed.
    Mr. Serrano. Okay. Well, I thank you for your testimony. I 
thank you for your answers to these questions.
    You know, we are going through a difficult time here. I do 
not have to tell anyone. And I think we have reached the point 
where both sides agree there has to be cuts. The question is 
how to apply those budget cuts.
    And while you may not be one of the most famous agencies in 
the Federal Government, your department is certainly one that 
has a huge impact on a lot of folks. And I know the chairman 
understands that because he has spoken in the case of the 
juvenile justice programs, he has spoken about gangs for many 
years----
    Ms. Robinson. Of course.
    Mr. Serrano [continuing]. And other issues. And he knows 
that issue well. So I wish you well and we will in any way that 
we can be helpful.
    Ms. Robinson. Thank you so much.
    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Wolf. Thank you, Mr. Serrano.

                        PRESCRIPTION DRUG ABUSE

    The article we have to give you, I will go back to the 
issue before we go on, on Oxycodone, it says consider this. 
This is from War--Kids and Drugs, the war races on with no 
cease fire or surrender in sight by Bill Cornwell. We will 
submit it for the record.
    Consider this. David Aronberg, a former state senator who 
is now a special prosecutor with the State Attorney General's 
Office in charge of tackling the pill mill problem, recently 
noted in the first six months of 2010, going slow so this can 
filter in, 41.2 million doses of Oxycodone were prescribed in 
Florida. The total prescribed doses of Oxycodone in every other 
state combined was 4.8 million. In other words, almost 90 
percent of the Oxycodone prescribed in the United States is 
ordered by Florida physicians.
    So I hope you can--we will give you this--that you can move 
ahead on this quickly.
    And we are releasing a letter today asking the governor of 
Florida who happens to be a Republican governor, and I guess 
the letter could be viewed as critical, to kind of deal with 
this issue. And I hope the Justice Department and you can kind 
of cooperate.

                           DEFICIT REDUCTION

    On this issue of the deficit, I have just got to. I was not 
going to say it, but I am going to say it now after looking at 
this article, too. We have record deficits under this 
Administration. That is a fact. This month it will be another 
record.
    The comments that I saw the other day, yesterday about 
Chuck Schumer to sort of put this in a context of playing a 
political game of crib sheets that had a comment on something 
is very depressing. It demonstrates that the Democrats, some 
Democrats in the other body are trying to make political hay 
out of dealing with this issue.
    Thirdly, until we deal with the issue of getting this 
budget out of the way, coming together on a bipartisan basis 
which I think can be done----
    Ms. Robinson. Uh-huh.
    Mr. Wolf [continuing]. But also dealing with the whole 
entitlement issue, of reforming the entitlements, no excuses, 
let's just come together in a bipartisan way. And I was 
disappointed that the President and the Administration have 
failed to step forward and provide the leadership on this 
issue.
    And this article today, when you have the Deficit Reduction 
Commission signed by Senator Coburn and Senator Durbin, if 
those two can come together.
    Now, Senator Coburn is willing to push this thing and that 
is what they call the gang of six in the Senate and now Coburn 
is being attacked by Grover Norquist, but Coburn is pushing 
back and, yet, where is the President?
    Ms. Robinson. Uh-huh.
    Mr. Wolf. And where is the Administration? They are AWOL. 
They are silent. So the Senate leadership is silent on 
continuing to try to come together in a bipartisan way.
    Speaker Boehner has laid this thing out. We want to resolve 
this thing. We do not want to see the government shut down. I 
think it is fair to say now that Chuck Schumer wants to see the 
government shut down.
    And so if this government shuts down, the blame should be 
on Chuck Schumer. The fact is if the government shut down, and 
I am opposed to the government shutting down----
    Ms. Robinson. Uh-huh.
    Mr. Wolf [continuing]. Every person who calls my office, I 
am going to tell them Chuck Schumer was responsible for the 
government shutting down. And the failure of the Administration 
to come together and deal with this entitlement issue in a 
bipartisan way, the way that Senator Simpson and Erskine 
Bowles, two people who I think we owe a debt of gratitude to--
--
    Ms. Robinson. Uh-huh.
    Mr. Wolf [continuing]. So I know you are not--this is not 
your portfolio----
    Ms. Robinson. Uh-huh.
    Mr. Wolf [continuing]. But I think anyone who has a 
political appointment when given an opportunity ought to tell 
the White House the Congress expects, is urging, pleading for 
the President to come forward to provide the leadership, the 
same way that Senator Coburn. If Senator Coburn can stand up to 
Grover Norquist, then the President ought to be willing to 
participate in this. But to be silent is really not good 
leadership.
    So if the government shuts down, we can blame Senator 
Schumer. And if these programs are cut, which I do not want to 
see them cut----
    Ms. Robinson. Uh-huh.
    Mr. Wolf [continuing]. We can blame the Administration for 
not being willing to come forward to deal with a bipartisan 
package similar to the Erskine Bowles-Simpson Commission, that 
we need to get on with this, get on with resolving the 
continuance so we give some sense of order to government----
    Ms. Robinson. Uh-huh.
    Mr. Wolf [continuing]. As to what we can do and also to 
come together before the end of this year with a comprehensive, 
bipartisan, I stress the word bipartisan, and I think the fact 
that Coburn and Durbin could come together, I think if they can 
come together, I think the whole Congress ought to be able to 
come together.
    Ms. Robinson. Uh-huh.

                             NICS AND NCHIP

    Mr. Wolf. The budget request proposes to support both the 
NICS Program and the National Stalker and Domestic Violence 
Reduction Program, which supports state and local domestic 
violence databases, under the funding for the National Criminal 
History Improvement Program, but in consolidating these 
programs, there is a significant net reduction.
    The National Stalker and Domestic Violence Reduction 
Program is targeted for elimination for a savings of $3 million 
and the NICS is reduced by $8 million, yet a mere $500,000 
increase is proposed for the NCHIP.
    Will this proposal realistically support all these 
activities given the net $11 million reduction? So if you are 
increasing by only $500,000 and you are going to have the other 
cuts, the $8 million into $3 million, how do you deal with 
that?
    Ms. Robinson. I did not know if you were finished.
    Mr. Wolf. I am.
    Ms. Robinson. Okay. These are also, of course, important 
areas and particularly as we look in the aftermath of the 
Tucson shootings. We do have a total of $24 million between the 
two programs that we have requested.
    And I would also note, Mr. Chairman, that we have $10 
million in carryover under NICS from 2010. Only nine states 
currently qualify for NICS funding and we were not able, 
despite out best efforts in outreach to the states, additional 
states were not able to qualify last year.
    We are hoping more will qualify for the solicitation that 
is currently out on the street right now for 2011, assuming 
appropriations come through for that. But right now we have a 
$10 million carryover in the account. So that money is 
available currently.
    Again, budgets have been tight, but we are seeing some good 
growth in the number of mental health records, for example, 
that are coming into the NICS system. So we are optimistic 
about the degree to which states are continuing to build those 
records in the system.
    BJS has done, I think, a good job in the outreach, working 
with FBI and with ATF and working with states. It is a slow 
process of getting those records, both domestic violence and 
the mental health records on line.
    A lot of these states started out slowly--I think back to 
when NCHIP started back in 1994. We actually saw some states 
out there that were still maintaining their criminal history 
records on index cards, literally in shoe boxes.
    So we have come a long way, but there is a long way 
admittedly that we have to go. So clearly we could use a lot 
more money, but it is a tight budget year.
    Mr. Wolf. Well, the Administration bragged that their 
example of working together in a bipartisan way with the 
Republicans in the House and Senate last year was to pass the 
tax bill which gave a 2 percent payroll tax into social 
security which gave Jimmy Buffett and Warren Buffett a big 
break in their Social Security, which cost $112 billion to the 
Social Security system, and that was described as great 
leadership. It is not very tough to give candy away even if you 
are giving candy to Jimmy Buffett and Warren Buffett, it is the 
other side of the coin of how do you get control?

                              PRISON RAPE

    Since Congress affirmed its duty to protect inmates from 
sexual abuse, and I think that--I have been disappointed with 
the Attorney General on this issue, I thought he would be much 
more sympathetic particularly since he has served as a judge 
with Judge Walton, but apparently not.
    Since Congress affirmed its duty to protect inmates from 
sexual abuse by enacting the Prison Rape Elimination Act the 
national prison Rape Elimination Commission has studied the 
cause of sexual abuse in confinement, developed national 
standards for the reduction of such crimes, and set in motion a 
process for eliminating, once and for all, prison rape.
    In a much delayed notice of proposed rule making, the 
department published its own version of the Commission's 
national standards for combating sexual abuse in federal, 
state, and local correctional and detention facilities and it 
includes comments on many more standards for inclusion in the 
final rule.
    The Prison Rape Elimination Act authorizes grants for 
staffing, training, and technical assistance to prevent and 
prosecute prison rape and it makes it clear that the Department 
of Justice should provide assistance to states--many who 
resisted this--so that budgetary circumstances do not 
compromise efforts to protect inmates, yet this budget is 
reducing funding for the program from $15 million in fiscal 
year 2010 to $5 million. Can you tell us why?
    Ms. Robinson. Yes. Mr. Chairman, in the fall of 2010 we 
provided a $13 million cooperative agreement, a grant, to the 
National Council on Crime and Delinquency for a resource center 
on this subject to provide technical assistance and training 
for implementation of the standards that would be provided to 
the states and to localities, and that is a three-year grant.
    So that, coupled with funding that is in the budget, we 
thought would be sufficient going forward.
    Mr. Wolf. Do you think it really will be to deal with this 
problem, the budget reduces funding from $15 million to $5 
million?
    Ms. Robinson. That was our best projection.
    Mr. Wolf. With a growing problem that it is, and have you 
read the report of the National Commission?
    Ms. Robinson. Yes, I have.
    Mr. Wolf. They do not seem to think it would be enough.
    Ms. Robinson. We also will have technical assistance from 
the National Institute of Corrections, and we can use other 
technical assistance through BJA. So that was our best 
projection looking forward.
    Mr. Wolf. To what extend will OJP be deploying other 
resources to get the necessary reforms? What do you plan on 
actually doing with regard to getting the reforms under way?
    Ms. Robinson. You mean in terms of PREA?
    Mr. Wolf. Yes.
    Ms. Robinson. Yes, I think that there are other things that 
we can do. I think through broader technical assistance and 
training.
    Mr. Wolf. What will you do since this is a pretty 
significant budget cut? What do you plan on doing?
    Ms. Robinson. We have done a great deal of work over the 
years in corrections.
    Mr. Wolf. But the problem has increased, it has not really 
decreased, and----
    Ms. Robinson. I think there is a great deal that we can and 
will do with regard to training and technical assistance. We 
can pull together people in a conference and do training that 
way. We can work with the National Institute of Corrections, 
which is a highly regarded body. I serve on their advisory 
board.
    Mr. Wolf. Do they support all the recommendations of the 
commission?
    Ms. Robinson. I could not speak for the National Institute 
of Corrections, so I do not know, but they have been very 
closely involved with it, so I would guess they would be very 
supportive.

                           DNA AND FORENSICS

    Mr. Wolf. With DNA and forensic analysis programs, the 
budget request would eliminate the Coverdell Forensic Science 
Improvement Programs and also reduce funding for the DNA-
related and forensic initiatives by $51 million and roughly by 
one-third.
    These programs fund state and local efforts to address the 
backlog of unanalyzed DNA samples, including activities 
authorized by the Debbie Smith DNA Backlog Grant Program.
    They also support non-DNA forensic science activities and 
assist law enforcement with solving cold cases in efforts to 
identify deceased persons.
    Will the elimination of these programs affect the 
achievement of the goals of the President's DNA initiatives, 
specifically ensuring that forensic DNA analysis reaches its 
full potential to solve crimes?
    Ms. Robinson. I am sorry, Mr. Chairman, I could not hear 
the last--
    Mr. Wolf. Will the elimination of these programs affect the 
achievements or the goals of the President's DNA initiatives, 
specially ensuring that forensic DNA analysis reaches its full 
potential to solve crimes?
    Ms. Robinson. Thank you so much.
    Again, we are not happy about the need to cut back on these 
programs.
    The DNA initiative at $161 million was one of the highest--
if you are looking across the entire OJP budget it was one of 
the top three or four highest in dollar amount items in the 
entire budget. So not surprisingly probably, it was one of 
those that did get trimmed back.
    One of the things that we have seen in the last number of 
years--between 2005 and 2009--was that state and local DNA labs 
greatly increased their capacity to process DNA cases, a 
tremendous increase in their capacity, I think 3.7 fold. At the 
same time, the field has grown much more sophisticated about 
the use of DNA. They see so much more potential in DNA.
    For example, from NIJ research they know that DNA can now 
be used in property cases--in burglaries--so there is a lot 
more DNA business coming in the front door of the labs.
    So there are still a lot of backlogs in those labs, but it 
is much better than it was.
    So the answer to your question is that things are better at 
the state and local level in the forensics and lab area, but 
the needs still are big. So we are in a better place than we 
were several years back.
    This funding--$110 million--is still a significant amount 
of money to do a lot in both the DNA and the non-DNA forensic 
areas. I think we can still make a significant contribution 
here.
    In addition to this, there is a request in the 3 percent 
research set aside for $10 million for forensic science, so 
that is an additional piece here that should be recognized as 
well.
    So together, I think, these things can make a very 
significant contribution to the science both in the DNA and the 
non-DNA forensic areas.
    Mr. Wolf. My last question then I will go to Mr. Fattah, 
and I appreciate Mr. Bonner, I will be coming back.
    To what extent then do you expect the NIJ will be able to 
maintain the DNA analysis services in the absence of a 
Coverdell? With the absence of Coverdell what does that mean?
    Ms. Robinson. I think the Coverdell money is certainly an 
important one in helping support lab infrastructure, but it is 
an area where I think we have to, at some point, turn back to 
the states and say this is something that they, in a tight 
federal budget year, need to support. I think that if you have 
one or the other, the federal support on the science side is 
the more important area to be covering.
    Mr. Wolf. Well, the follow up to go one more. With the 
National Institute of Justice, the National Research Council 
criticized NIJ's mandated involvement with forensic programs 
saying that programs like Coverdell ``diminish NIJ's stature as 
a research agency,'' and divert considerable time away from its 
core mission.
    Was the decision to eliminate this program a response to 
the report?
    Ms. Robinson. No, although that is actually a very good 
question. It was not--though I think that that could be taken 
in that way--it was not in response to the National Academy of 
Sciences' report, it was really more around federal versus 
state functions.
    I think that is a separate question that can be addressed, 
however, the question of who handles that function within OJP--
whether that Coverdell program should be transferred, for 
example, to BJA--would be, I think, the proper question to be 
asked.
    Mr. Wolf. What do you think?
    Ms. Robinson. I think that is probably a good question, and 
that perhaps it should be transferred, if it is funded, to BJA.
    Mr. Wolf. Mr. Fattah.
    Mr. Fattah. I have had a round so would be glad to yield, 
if you want, to our colleague.
    Mr. Wolf. Okay. I am going to go to Mr.----
    Mr. Fattah. Yeah. And then I will----
    Mr. Bonner [presiding]. I have got a few questions, but 
Chairman Wolf has an appointment. My name is Jo Bonner from 
Alabama.
    Ms. Robinson. How are you, sir?
    Mr. Bonner. Does my friend from the Bronx have a question?
    Mr. Fattah. I was not yielding to the guy from the Bronx.
    Mr. Bonner. Or you were not yielding.
    Mr. Fattah. I was yielding to you.
    Mr. Bonner. Okay. Well, I appreciate that.
    Mr. Fattah. Go right ahead.
    Mr. Bonner. And I guess the yield to me was with 
restrictions that I could not yield to my friend from the 
Bronx.
    Let me get a couple questions in----
    Ms. Robinson. All right.

                       GRANT PROGRAM FLEXIBILITY

    Mr. Bonner [continuing]. And then we will see if Mr. 
Serrano has some.
    Ms. Robinson, I want to follow up and echo the concerns 
that Chairman Wolf was raising with regard to the DNA backlog 
issue. I do not know how familiar you are, but I hope after our 
visit I can encourage you to become more familiar with the 
Department of Forensic Sciences in my home state of Alabama and 
the good work that they are doing. It is important work, and 
they, like many others around the Nation have benefitted from 
this strong partnership with OJP.
    And so my question is really along this line. Short of a 
miracle occurring, the money issues that we are facing today, 
the financial crisis that we are facing today we will be facing 
next year and the year after. We are looking at a deep, deep 
hole to dig out of, and yet I do not think there is many 
programs in the Department of Justice that have a better track 
record and a more direct relationship to state and local law 
enforcement than the programs that you are responsible for.
    Have you all been able to in anticipating that there is not 
going to be a lot of new money for these vital programs this 
year or in the out years, have you been able to spend any time 
looking at what flexibility you can give to the states and to 
these others that are seeking these grants, either extending 
deadlines or other ways to give them more flexibility to 
participate in the programs and the limited learning that are 
available?
    Ms. Robinson. Yes, as a matter of fact we have.
    First of all, the Byrne JAG funding, of course, is probably 
the most flexible funding I have ever been aware of in my many 
years working either inside or outside government, so with 
Byrne JAG we give the states maximum flexibility both in 
categories and in the pretty broad number of years they have to 
spend that funding. So that would be one thing.
    But, secondly, the Administration has just come to us and 
asked us if we can look at existing guidelines and regulations 
for grant programs--if there are ways that we can either, 
through internal regulations and guidelines or through proposed 
changes that we might suggest to Congress to look at ways to 
make them more flexible for states and localities, and we just 
got this assignment recently from the White House. My chief of 
staff, Thomas Abt, who is here, is heading that for us at the 
Justice Department. I take that very seriously. Because having 
been on the outside of government and applying for grants 
myself, I know it is a tough thing to do and you want to make 
this very user friendly for people who are applying and who 
have to grapple with dealing with the government.
    Sometimes, Mr. Bonner, I sit in my conference room at the 
Justice Department and I am dealing with the folks in the 
agency and I say how many people in this room have written 
grants, and I and my deputy, Mary Lou Leary, we are sometimes 
the only people in the room raising our hands. But you know, 
having that consumer perspective is important to have in the 
room. We want to make this flexible, we want to make this work 
for people who are our consumers.
    So I hope that is responsive to what you are saying.
    Mr. Bonner. It is. And a natural follow up would be, and 
maybe Tom could give you some idea or you may know, how long do 
you anticipate taking to look into the scope of this challenge 
and being able to report back not only to the Administration 
but perhaps to this committee as well?
    Ms. Robinson. We are going to turn this around pretty 
quickly, but I will tell you one thing that would help would be 
suggestions--suggestions from the field from your constituents 
as to things that would be helpful to them. So we would love to 
get some ideas.
    Mr. Bonner. Okay. I will make sure you get some with a 
southern accent.
    Ms. Robinson. Excellent. Thank you so much.

                     TRIBAL CRIMINAL JUSTICE NEEDS

    Mr. Bonner. Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman.
    I wanted to ask you one last question and I also want to 
reference the success over the last two years in the reduction 
of the crime rate nationwide.
    The Attorney General and the department have to be very 
proud of the achievements in terms of the reduction in the 
murder rate, which is now over a 7 percent reduction 
nationwide. In each of the major categories there have been 
reductions, but in the tribal law enforcement area I think that 
there are still very significant challenges. I know you 
mentioned this in your prepared testimony, but if you would 
take an opportunity to talk about what we are doing to assist 
in terms of tribal law enforcement.
    I know this is a high priority for the Attorney General, 
for the Administration, and for our committee, so if you could 
comment on that, that would be helpful.
    Ms. Robinson. Yes, thank you so much.
    Yes, this is indeed a very high priority for the White 
House, for the Attorney General, and for the Associate Attorney 
General, who is my immediate boss, Tom Perrelli.
    Not just in OJP but the COPS Office and the Office on 
Violence Against Women--those are two separate entities from 
OJP--we have tried to collaborate across all three of these 
offices to coordinate our tribal assistance.
    One thing we have heard from the tribal nations is that 
applying to many separate grant programs is often very 
difficult for them. So both last year and this year we have 
issued a joint solicitation called the Coordinated Tribal 
Assistance Solicitation. Because everything in the government 
has an acronym, it is called CTAS. So this year the CTAS, the 
coordinated solicitation is right now on the street and will 
close the third week in April.
    We learned some things from the CTAS last year to make it 
more streamlined and simpler for them to apply for and have 
incorporated those kinds of ``lessons learned'' in this year's 
CTAS application.
    This makes it easier for the tribal nations to apply and it 
coordinates their ability to have the application come in and 
meet their specific needs that are respective to their 
interests.
    We are doing the same thing with training and technical 
assistance. In fact just yesterday the Associate Attorney 
General told all of us that he is going to be looking at how we 
can do an even better job of coordinating all of the tribal 
technical assistance and training across, again, COPS, OJP, and 
the Office on Violence Against Women.
    So we have worked very hard to do this. Because as you 
point out, Mr. Fattah, the problems of crime, and especially 
crimes against women, sadly, are very severe in a number of 
areas in Indian country.
    Mr. Fattah. Thank you very much. Thank you, Mr. Chairman. I 
have concluded.
    Mr. Bonner. Thank you, Mr. Ranking member.
    Mr. Serrano. Mr. Chairman, I only have one more question 
and I am going submit it to the record.

               BYRNE CRIMINAL JUSTICE INNOVATION PROGRAM

    Mr. Bonner. Okay. Great. Well, let me get a few more 
questions in.
    Ms. Robinson, you mentioned the Byrne Grant Program and the 
success that it enjoys, and I think many people around the 
country would agree with that, so let me focus a little bit 
more on the Byrne grants.
    The budget requests $30 million for a new Byrne criminal 
justice innovation program.
    Ms. Robinson. Yes.
    Mr. Bonner. This is not an authorized program as I 
understand it, so the department will not be limited by statute 
with regard to its scope; is that correct?
    Ms. Robinson. That is correct. This would be authorized 
through the appropriation.
    Mr. Bonner. This program would be a component of a 
government-wide neighborhood revitalization initiative to be 
coordinated with the Department of Housing and Urban 
Development and other agencies.
    Can you tell the committee what its over arching goal is 
and what is the specific role of the departments of the Justice 
Department and the necessity of Justice Department funding?
    Ms. Robinson. Of course, I would be happy to.
    It really builds on the success of the Weed and Seed 
Program that I know has been very active and very successful in 
Alabama--in Mobile, for example. I have talked many times with 
Senator Sessions about the Mobile Weed and Seed Program.
    It is an evidence-based, place-based program that is a 
collaboration, in collaboration, and in coordination with 
efforts at the Departments of Education, HUD, Treasury and HHS.
    Again, looking back over the decades of my career, I have 
seen efforts at coordination with other departments across the 
executive branch, but this is one of the most successful of 
those collaborations.
    There is a lot of lip service given to coordination, but to 
see it actually take place in a way that works for localities.
    You know, we often expect local jurisdictions, in fact we 
tell them as a requirement of applying for grants, that they 
have to have a memoranda of understanding with other entities, 
you know, the police department has to get the local public 
health agency and this one and that one all together, but at 
the Washington level we do not do as good of a job.
    In this case the departments have actually worked together 
on the applications. In most cases the locality will only have 
to file one application. They will not have to apply 
separately. They can have one braided and blended application 
to get funding, and I think that will make it much easier. 
Again, this is the whole point of being consumer oriented for 
the localities.
    The focus will be on neighborhoods that are in bad shape, 
and the goal will be to help with things like housing and 
business development and to get them in better shape. But one 
of the things we have stressed is you cannot get businesses in, 
you cannot get housing to be built, if you do not have safety 
in the neighborhood.
    So Justice has got to be a key component here. This was 
certainly a lesson with Weed and Seed that we learned early on. 
So justice has got to be a key component at the table here.
    So it is a multi-part, cross-departmental initiative.
    Mr. Bonner. So you would file one application and then from 
that all of the participating agencies would receive their 
funding.
    Ms. Robinson. Yes.
    Mr. Bonner. Look forward to getting a status record on 
that. I am sure Senator Sessions would as well.

                             ADAM WALSH ACT

    Let me switch gears to the Adam Walsh Act. The Sex Offender 
Registration and Notification Act, which is a component of the 
Adam Walsh Act, establishes a comprehensive set of minimum 
standards for sex offender registration and notification in the 
United States.
    I understand that the cost of complying with the 
requirements of this program are a substantial hurdle for the 
states to overcome. What accounts for the fact that complying 
with this act is so challenging from the states from your 
perspective?
    Ms. Robinson. That is a very, very good question.
    When I came to OJP--or I should back up for a minute. I 
worked on the Obama transition in November of 2008 and as part 
of that I met with about 90 outside organizations, different 
interest groups, National Governors' Association, National 
Conference of State Legislatures, and others. The issue I heard 
more about than any other was the Adam Walsh Act, which kind of 
surprised me.
    At that time, by the way, I had no intention of going into 
the government. I had a nice position at the University of 
Pennsylvania teaching, and I had no intention of going in. Mr. 
Fattah is smiling because I knew him from up there.
    But I heard more about it. I ended up, in fact, going into 
the Department, and one of the first things I did was to meet 
with the staff in the SMART office, which is responsible for 
working on the Adam Walsh implementation. I said to them--and 
they are a very devoted staff, very passionate about working on 
this subject--and I said to them, how can we be more flexible 
in working with the states within the four corners of the 
statute, and how can we be most flexible in working with them? 
And they were terrific and they said, let's see how we can do 
that.
    I think one thing by the way, for whatever set of reasons, 
in the last Administration it took them a while to get the 
guidelines out. The guidelines took about two years to get out, 
so that, maybe, was one issue here.
    Beyond that, we were able this past year to get out some 
supplemental guidelines which have been again, within the 
statute, more flexible and have provided some help.
    We have four states, one territory, Guam, and two Indian 
tribes, that now are in compliance. We have some additional 
states that are near coming into substantial compliance, and so 
we have states that are moving toward this, but there are some 
areas that states are having difficulty with.
    One is cost, one is on juvenile registration, one is on the 
offense versus risk assessment and the tiering, one is on 
retroactivity. So there are areas on the policy end where there 
are differences, and I think the budget crisis at the state 
level is causing consternation or a barrier, I guess I would 
say, but we are working hard and we are in close collaboration. 
We have met with John Walsh about it and Ernie Allen at the 
National Center on Missing and Exploited Children has been very 
helpful and a very strong supporter.
    So we are committed to it, we are passionate about it, and 
working hard on it, but at some point the states need to make 
their decisions about it--whether they want to do it or not.
    Mr. Bonner. But you mention I think that there were four 
states and one territory that were in compliance.
    Ms. Robinson. That is correct.
    Mr. Bonner. So there are 248 jurisdictions that are working 
to implement the requirements, and is Puerto Rico one of--the 
territory that is compliance or was it Guam?
    Ms. Robinson. No, it was Guam.
    Mr. Bonner. Okay. I know my friend, Mr. Serrano would be 
interested in making sure that all of the territories are able 
to fully participate.
    Am I correct though that the rest of the jurisdictions face 
penalties for non-compliance if they do not come into 
compliance by this July?
    Ms. Robinson. Yes, that is correct.
    Mr. Bonner. And if so, going back to the previous question, 
what type of flexibility can these jurisdictions, states, and 
others hope to receive from the Department of Justice? July is 
just around the corner, you attributed that there were some 
problems in the previous administration in terms of getting the 
guidelines out.
    Ms. Robinson. By statute we have no flexibility; however, 
the 10 percent that they would lose of their Byrne JAG funding 
can be given to them to work toward the compliance. So they can 
use it to work toward that.
    Mr. Bonner. And would you be able to keep the committee 
informed in terms of how you proceed between now and July in 
terms of others that do come into compliance?
    Ms. Robinson. Of course.
    Mr. Bonner. It just seems to at least this member that 
there are a lot more that are struggling to get into compliance 
and those that have already found a way to be there.
    Ms. Robinson. Of course, we would be happy to do that.
    Mr. Bonner. A few more questions until the chairman comes 
back, and he may have some additional ones and I apologize for 
shifting gears.

                        DOMESTIC RADICALIZATION

    Mr. Bonner. Domestic radicalization.
    Ms. Robinson. Yes.
    Mr. Bonner. Of the $45 million requested for youth 
mentoring grants----
    Ms. Robinson. Yes.
    Mr. Bonner [continuing]. $5 million is proposed to be set 
aside to support domestic radicalization grants. What types of 
programs could such grants support?
    Ms. Robinson. Of course. What we are contemplating here 
would be the kind of thing like an after school program, 
something that would be perhaps for a basketball program, you 
know, any kind of athletic program, or maybe some kind of 
vocational training. It could be any kind of thing.
    Mr. Bonner. And has OJP identified any promising evidence-
based efforts for preventing domestic radicalization among our 
youth?
    Ms. Robinson. This request for 2012 includes $2 million for 
the National Institute of Justice to do some research in this 
area because there is not a lot of research that exists that we 
are aware of, so we are requesting funding to explore that.
    Mr. Bonner. And who are some of the likely candidates that 
would apply for this grant?
    Ms. Robinson. This is the kind of area that we would do, as 
we do in many such programs, and that is to look to the state 
and local level to consult. We would turn to the U.S. 
Attorneys, who know their districts; we would look to state and 
local law enforcement; we would look to mayors; and through the 
normal solicitation process to ask for applications and then go 
through the peer review process as we do on competitive grants 
and see what comes back to us.
    Mr. Bonner. So the U.S. attorney in Mobile, Kenyen Brown, 
might suggest a Boys and Girls Club that would be interested in 
would be a good partner for that, just hypothetically?
    Ms. Robinson. Right. Yes, exactly.
    Mr. Bonner. Okay. The budget also proposes two and a half 
million dollars for community engagement to address 
radicalization and a set a side of $2 million for domestic 
radicalization research through NIJ.
    With regard to your proposal for a program of community 
engagement to address radicalization what can this program do 
to improve cooperation between communities and law enforcement, 
and how can it address the potential for radicalization in 
places where it exists?
    Ms. Robinson. What we are anticipating or hoping for here, 
Mr. Chairman, is as I indicated before--and by the way, there 
would also be in the budget request $2.5 million for the COPS 
Office for a complementary effort that would draw in their 
expertise on community policing. This part in OJP, and 
specifically in BJA, would draw on our expertise in working, 
for example, in Weed and Seed, the kind of on the ground work 
that OJP has done over the years in working with communities.
    It is the kind of outreach that I think we do quite well, 
that we do in kind of listening sessions and going into a 
community and working on the ground as we have done with gang 
work, outreach involving ministers and parents, and local 
police chiefs, in going in and doing the kind of outreach--and 
this is not necessarily targeted to any particular ethnic or 
religious group per se. We will wait and hear what comes back 
from the field with particular areas that are identified as 
problems--but doing that kind of outreach, and what we hear 
back with looking at what kind of fairness and procedures can 
be developed.

            AUTOMATED VICTIM IDENTIFICATION AND NOTIFICATION

    Mr. Bonner. And let me shift gears one more time if that is 
okay. I am going to focus our attention on the automated victim 
identification and notification.
    The budget proposes to eliminate statewide automated victim 
identification and notification program for a savings of $12 
million. This program helps protect victims of crime and 
insures that their legal rights are upheld by providing 
important information relating to criminal proceedings, 
including offender release. It increases victim safety while 
minimizing the cost associated with keeping victims informed.
    Is it your expectations that the states, I think all but 
maybe one or two which are under severe financial pressure as 
well, that they will be able to sustain these programs on their 
own, and if so, how many do you think will be able to?
    Ms. Robinson. This is an example, Mr. Chairman, in a tight 
budget year where we looked back at funding history and track 
records. In 2009, we ended the fiscal year with money left on 
the table. In other words, we did not have enough applications 
to even spend the money that had been appropriated by Congress.
    This past fiscal year, in 2010, we did not have any new 
applications that came in, only requests for enhancements of 
existing programs.
    So when you have a situation like that you wonder whether 
when Congress asks you where to cut and you have very tight 
money, whether it makes sense to request new funding.
    Mr. Bonner. And please do not take this as a scolding for 
finding ways to cut the funding, I just wanted to have a good 
understanding about the type of participation that the states 
have had.
    Ms. Robinson. Sure.

                                  RISS

    Mr. Bonner. The last question that I have for the record, 
and I am sure the members will have additional ones that will 
be submitted, focuses on the Regional Information Sharing 
Systems.
    Ms. Robinson. Yes.
    Mr. Bonner. As you know this is a secure environment that 
allows law enforcement, public safety officers, and private 
sector partners to share critical information.
    Your budget proposes to cut this from $45 million to $17.5 
million. What is your justification for such a sizable 
reduction to this program?
    Ms. Robinson. I would say first of all that Jim Burch, who 
is the acting director of BJA, and I are huge fans of RISS.
    As you know RISS has been around since 1974. It has been an 
important part of the law enforcement landscape for a long 
period of time. This has been a very tough budget year, and I 
know I have said that any number of times here, as I think all 
of us have.
    This is an area where the Department of Justice has 
provided over the last decade $335 million to RISS; it is a 
very substantial amount of money that we provided. Congress has 
provided to RISS over the last----
    Mr. Bonner. The American people have provided.
    Ms. Robinson. Yes. Very well stated, Mr. Chairman.
    And in a tight budget year this is a scenario where we felt 
we could provide something, but perhaps not as much as we have 
in the past. So it is an important initiative to continue to 
support.
    How would we suggest that be supported? Perhaps through a 
couple of methods. One would be based on it's over 8,000 
members. Could there be some kind of user fees charged? That 
would be one potential suggestion.
    Two, would there be some way that the JAG Byrne state 
agencies could provide some support? So those would be the two 
suggestions I would offer.
    Mr. Bonner. And is OJP planning to work with the RISS 
centers to implement a user fee type of system?
    Ms. Robinson. Absolutely. Jim Burch and I have both met 
with their policy board very recently and said we would 
collaborate with them in every way we could.
    Mr. Bonner. Okay. Then the last comment, not a question, I 
think you said earlier that you report directly to Tom 
Perrelli.

                              Tom Perrelli

    Ms. Robinson. Yes.
    Mr. Bonner. If you will extend greetings from this member, 
if not this committee, I have had the pleasure of working with 
Mr. Perrelli on the frustrations that those of us--I hope the 
ranking member will forgive me for excelling the virtues of a 
justice department employee that has really become a hero to 
South Alabama.
    Mr. Bonner. We have been very frustrated that in the 
creation of the Gulf Coast Claims Facility that the 
administration pushed hard for and that Mr. Feinberg was named 
the head of that there are still so many unanswered questions 
in terms of making sure that the people who were harmed by the 
worst environmental impact in our Nation's history are 
struggling just to survive.
    Tom Perrelli--and I told this to the attorney general when 
he appeared before the full committee earlier--is the only 
person that I can say in Washington that has now been a part of 
the privilege of putting his name on a ballot who really has 
stepped forward and has put pressure on Mr. Feinberg to do the 
right thing, to fulfill the promises that President Obama made 
and that BP made in the creation of that.
    So if you will tell him we continue to say thank you for 
the work he is doing on behalf of the Administration and on 
behalf of the American people.
    Ms. Robinson. I would be delighted to.
    Mr. Bonner. Mr. Ranking Member, do you have any other 
comments?
    Mr. Fattah. Just again let me thank you for your testimony 
and let me thank the Attorney General and the department for 
two years of crime going down.
    I know we are in a tough budget year, but we cannot eat our 
own seed corn as the saying goes, so we are going to have to 
reconcile the President's request with what we think as a 
subcommittee is the direction we ought to go in and hopefully 
we can keep those crime numbers continuing to go in the right 
direction.
    Thank you.
    Mr. Bonner. And again I know Chairman Wolf regrets that he 
had to leave for a few minutes and it was noted from the staff 
that he would be detained longer, so thank you for your 
testimony today and for visiting with us and for the good work 
you are doing at the Office of Justice programs.
    Ms. Robinson. Thank you so much.
    Mr. Bonner. This hearing is concluded.

    [GRAPHIC] [TIFF OMITTED] T7259C.025
    
    [GRAPHIC] [TIFF OMITTED] T7259C.026
    
    [GRAPHIC] [TIFF OMITTED] T7259C.027
    
    [GRAPHIC] [TIFF OMITTED] T7259C.028
    
    [GRAPHIC] [TIFF OMITTED] T7259C.029
    
    [GRAPHIC] [TIFF OMITTED] T7259C.030
    
    [GRAPHIC] [TIFF OMITTED] T7259C.031
    
    [GRAPHIC] [TIFF OMITTED] T7259C.032
    
    [GRAPHIC] [TIFF OMITTED] T7259C.033
    
    [GRAPHIC] [TIFF OMITTED] T7259C.034
    
    [GRAPHIC] [TIFF OMITTED] T7259C.035
    
    [GRAPHIC] [TIFF OMITTED] T7259C.036
    
    [GRAPHIC] [TIFF OMITTED] T7259C.037
    
    [GRAPHIC] [TIFF OMITTED] T7259C.038
    
    [GRAPHIC] [TIFF OMITTED] T7259C.039
    
    [GRAPHIC] [TIFF OMITTED] T7259C.040
    
    [GRAPHIC] [TIFF OMITTED] T7259C.041
    
    [GRAPHIC] [TIFF OMITTED] T7259C.042
    
    [GRAPHIC] [TIFF OMITTED] T7259C.043
    
    [GRAPHIC] [TIFF OMITTED] T7259C.044
    
    [GRAPHIC] [TIFF OMITTED] T7259C.045
    
    [GRAPHIC] [TIFF OMITTED] T7259C.046
    
    [GRAPHIC] [TIFF OMITTED] T7259C.047
    
    [GRAPHIC] [TIFF OMITTED] T7259C.048
    
    [GRAPHIC] [TIFF OMITTED] T7259C.049
    
                                            Tuesday, April 5, 2011.

                       LEGAL SERVICES CORPORATION

                               WITNESSES

JAMES J. SANDMAN, PRESIDENT
ROBERT J. GREY, JR., MEMBER OF THE BOARD OF DIRECTORS
    Mr. Wolf. The hearing will come to order.
    I want to welcome both witnesses here today.
    James Sandman was appointed president of Legal Services 
Corporation this past January. Mr. Sandman brings more than 
three decades of legal experience to the LSC. He had over a 30-
year career at Arnold & Porter before becoming general counsel 
for the District of Columbia Public Schools in 2007.
    I think the public is going to miss Michele Rhee, the fact 
that she left.
    Welcome, and congratulations, I think, on your new 
position.
    Mr. Sandman. Thank you.
    Mr. Wolf. Our other witness, Robert Grey, Jr., was 
nominated to serve on the board of directors of Legal Services 
Corporation by President Obama in August of 2009. He has served 
as president of the American Bar Association. And he is a 
Virginian having received his undergraduate degree from 
Virginia Commonwealth University, which we are sorry did not 
make it to the game last night, but I watched the game the 
other night and I thought they were going to win up until the 
last five minutes. He got his law degree from Washington and 
Lee University.
    I appreciate both of you being here to testify regarding 
the Legal Services Corporation fiscal year 2012 budget request.
    Throughout my career, I have been a supporter of Legal 
Services for Americans who would not otherwise have adequate 
access to civil legal assistance. In the mid 1990s, I fought to 
protect the LSC from efforts to eliminate the agency.
    As chairman of this subcommittee, I worked closely with LSC 
leaders in the past to mitigate partisan issues that endanger 
the corporation. Most recently I opposed an amendment to H.R. 1 
that would have completely eliminated funding for LSC basic 
field grants.
    Yet, today the country is facing an extremely challenging 
budgetary environment. The American people have made clear that 
they want Congress to rein in federal spending as part of the 
solution to reducing the unsustainable debt and deficit.
    I am keenly aware that the pending budget cuts cannot come 
at a worse time for those in need of legal assistance. 
Foreclosure, unemployment, and other recession related cases 
are more common than ever in the offices of LSC grantees.
    Rather than wait out the uncertainties of the budget 
process, I encouraged the legal community to seize the 
opportunity to mitigate the effects of potential funding 
reductions now.
    That is why in January I reached out to the American Bar 
Association requesting that they work closely with LSC to 
augment the provision of Legal Services during this period of 
budgetary austerity.
    I am grateful for your willingness to engage in a dialogue 
about how we can best maintain the support for indigent 
Americans and I am pleased that LSC is planning to establish a 
pro bono task force.
    I am concerned, however, that yet another audit of LSC has 
uncovered material weaknesses in LSC's governance and internal 
controls. This comes just one year after LSC testified to its 
commitment to aggressively implementing GAO's recent 
recommendations for improving its oversight.
    And I was dismayed by a State Legal Aid publication that 
has come to my attention--a publication that contains needless 
political representations.
    We look forward to asking you some questions about these 
issues and about your efforts to address unmet needs such as 
your support for efficient and cost-effective automated legal 
services.
    But before we recognize you, I want to recognize the 
ranking member, Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman.
    And let me thank you again for your holding this hearing 
and for your long-term support for these and other issues under 
the jurisdiction of the subcommittee.
    Since President Nixon, the country, a host of presidents 
and Congress has had a commitment to Legal Services and there 
are some 50 plus million Americans who are eligible for 
services under the Legal Services Corporation.
    And my understanding is that last year, you closed more 
than a million cases. Three out of four of those seeking 
services by the Legal Services Corporation are women and you 
have also done extraordinary work in terms of providing legal 
services to veterans.
    It is impossible to escape the fact that under our system 
of laws there is no real opportunity for justice absent a 
lawyer being able to take your case. And so for many, 
particularly these three out of four who are women who are 
facing domestic abuse in need of a restraining order or facing 
foreclosure, you really stand as the last line of defense of 
our American system of justice in ensuring that there is 
representation in civil litigation in our country.
    So I want to thank you for your service.
    And obviously as a person whose both wife and daughter are 
attorneys, I do not want any debates at home. I do not want any 
with my chairman, you know, but I am happy to be here.
    I did note Mr. Grey, that your team had a great coach with 
a great name, Shaka Smart. I just thought it was a great name 
and now I understand he has announced he is going to stay at 
Virginia Commonwealth versus chasing dollars in some other 
program somewhere, which I think is an extraordinary 
commitment.
    I would note that he got his start in Pennsylvania and 
coached there and got his graduate degree at one of our 
universities, Mr. Chairman, California State University of 
Pennsylvania.
    But this is serious business. And, you know, in our bill, 
we have close to $70 billion. We spend a lot of money on a lot 
of different things, on satellites and fish and fish 
hatcheries, and we have our NASA efforts, but there is nothing 
more important, there is nothing that even comes close to our 
constitutional responsibilities of ensuring justice in the work 
of the Justice Department, the federal courts and prison 
systems, but most importantly for the huddled masses, the Legal 
Services Corporation.
    So I want to thank you for the work that you are doing on 
behalf of our Nation and I look forward to the hearing.
    Thank you.
    Mr. Wolf. Thank you, Mr. Fattah.
    Mr. Sandman, you can summarize. Your full statement will 
appear in the record.
    Mr. Sandman. Chairman Wolf, Congressman Fattah, thank you 
for holding this hearing and for inviting us to testify on the 
fiscal year 2012 budget request of the Legal Services 
Corporation.
    It is my privilege to appear before you for the first time 
and to be joined by Robert Grey, a long-time champion of pro 
bono services for low-income Americans.
    I joined LSC at the end of January and as you have noted, 
Mr. Chairman, I spent most of my career in the private sector 
before entering public service a few years ago.
    I look forward in this new position to making the best 
possible use of my management experience and my time as 
president of the District of Columbia Bar.
    These are hard times for low-income Americans. Requests for 
legal assistance are increasing and the poverty population is 
growing. We estimate that more than 63 million Americans are 
now eligible for legal assistance from LSC programs. Twenty-two 
million of them are children.
    Since 2008, the eligible population has increased by more 
than 17 percent. The clients at LSC programs are the poorest of 
the poor. Every day Legal Aid attorneys and pro bono volunteers 
help families facing foreclosure and individuals who have lost 
jobs and find themselves sliding into poverty and entangled in 
serious legal problems.
    Last year, LSC programs closed nearly one million cases 
which affected 2.3 million people. Another five million 
received legal information and self-help services.
    The caseload of LSC programs reflects the impact of the 
economic downturn. Last year, foreclosure cases increased by 20 
percent. Unemployment cases rose by ten and a half percent and 
domestic violence cases increased by five percent. Programs 
also closed more cases involving landlord-tenant disputes, 
bankruptcy and consumer-related matters.
    We started an awareness and training program to assist 
veterans. With the assistance of a technology initiative grant 
from LSC, a national website, statesidelegal.org, has been 
created to provide information to veterans about their rights.
    LSC programs help communities avert more costly 
interventions. When a family escapes domestic violence, we save 
on the cost of medical care for injured victims and the follow-
up counseling for affected children. When we resolve landlord-
tenant disputes, we keep families together and avoid 
homelessness and emergency shelter costs. When we create 
automated standard legal forms, we save time for lawyers and 
courts.
    LSC is the single largest funder of civil legal aid in 
America. LSC programs receive other funding from non-federal 
sources, but those sources have been essentially flat or 
declining in recent years.
    Interest on lawyers' trust accounts, or IOLTA, for example, 
has declined from 13 percent of total funding in 2008 to only 
seven percent in 2010. State and local grants and United Way 
contributions have also declined.
    For fiscal year 2012, LSC requests an appropriation of 
$516.5 million. Ninety-four percent of our requested 
appropriation, $485 million, would go directly to LSC programs 
as basic field grants to fund legal assistance for low-income 
Americans.
    Our request also includes $6.8 million for technology 
initiative grants to expand Legal Services in rural areas and 
develop additional self-help forms for unrepresented litigants.
    In addition, we seek funds for our Student Loan Repayment 
Assistance Program, for grants oversight, and for our Office of 
Inspector General.
    LSC is a steward of public funds and I am committed to 
running a tight ship. I believe the tone at the top is 
important and I will work to foster a culture of integrity, 
accountability, and commitment to high standards of performance 
and quality.
    Mr. Grey will provide you with an update on our work with 
the GAO. I want you to know that LSC management is committed to 
implementing the recommendations of the GAO.
    Federal funding for civil legal aid is critically 
important. LSC is at the center of the Nation's access to 
justice efforts and the progress we have made will be 
jeopardized if access to justice is denied.
    We know that you value equal access to justice regardless 
of income. We request your support for our budget request.
    Thank you for all you have done for our programs.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259C.050
    
    [GRAPHIC] [TIFF OMITTED] T7259C.051
    
    [GRAPHIC] [TIFF OMITTED] T7259C.052
    
    [GRAPHIC] [TIFF OMITTED] T7259C.053
    
    [GRAPHIC] [TIFF OMITTED] T7259C.054
    
    [GRAPHIC] [TIFF OMITTED] T7259C.055
    
    [GRAPHIC] [TIFF OMITTED] T7259C.056
    
    [GRAPHIC] [TIFF OMITTED] T7259C.057
    
    [GRAPHIC] [TIFF OMITTED] T7259C.058
    
    [GRAPHIC] [TIFF OMITTED] T7259C.059
    
    Mr. Wolf. Thank you.
    Do you have a comment, Mr. Grey?
    Mr. Grey. Mr. Chairman, if you do not mind, I would like to 
share a few thoughts with you.
    First of all, thank you again for inviting us.
    Congressman Fattah, thank you for your support as well.
    I am delighted to be here with Jim Sandman. The Board of 
Legal Services, as you know, is a bipartisan group. And I have 
got to tell you when you first start working with each other, 
you learn a lot about your colleagues.
    We have formed a very strong board. We work very well with 
each other. We listen to each other and we respect each other's 
views. I am very happy to be a member of the board, very 
honored to be nominated to be on the Legal Services Corporation 
Board.
    Mr. Chairman, you have been a great supporter of Legal 
Services. I want to personally thank you for that because I 
have had a chance to talk to you from time to time about it.
    We are here because of your efforts during the 1990s. We 
appreciate your continued support. And the board is committed 
to be vigilant about looking after the dollars that we have. As 
stewards of this budget, we are going to maintain a very 
careful eye over this.
    The chairman, John Levi, and the board through me are 
expressing to you and the Congress that we are going to be 
there and we are going to report to you. We are going to be 
held accountable for what we do.
    All 17 of the recommendations from the GAO report of 2007 
have been implemented. In addition, 13 recommendations out of 
the 2010 report regarding grant awards and program 
effectiveness have been implemented and documentation has been 
provided to GAO while keeping informed of our full 
implementation of those recommendations.
    As a new board member, we had an important task in front of 
us and that was identifying the CEO. We cannot be more pleased 
with Jim Sandman who stepped forward to accept that 
responsibility. We are very confident in him. And I am sure you 
will agree with us that we made a good decision.
    Now, the chairman before John Levi said, you know, one of 
the first things we are going to do is we are going to put our 
arms around the issue of fiscal responsibility and I am going 
to appoint an oversight committee.
    As the new chairman of the finance committee, I am one of 
the co-chairs with Vic Maddox who is the chair of the audit 
committee. We have got a fantastic group that we are working 
with. Three senior executives of Fortune 500 companies, six 
leaders from national foundations, two experienced accounting 
executives, two former inspector generals are on this group.
    We have had a couple meetings. They had some very detailed 
questions. I think we have got a good start in helping and 
providing assistance to our grantees to understand their 
responsibility in managing with oversight and auditing the 
money that is given to them.
    We expect to have a recommendation this summer, sometime in 
July. And as soon as that is available, we want you to know 
about it.
    I know you are champions of pro bono, Mr. Chairman, and it 
is something that is near and dear to my heart. And it is part 
of something that I have done my entire legal career. And I am 
vice chair of the pro bono committee as I sit here today.
    We have got some challenges, though, but we have also got 
great opportunities as well. Indeed, 12.5 percent of every LSC 
grantee budget requires them to go out and to work with the 
private Bar in establishing pro bono programs. They do that 
with training and they maintain that relationship that is so 
important.
    As a matter of fact, as we have had these increases in our 
budget over the last few years, we have also increased the 
level of pro bono activity that has occurred as well so that 
leverage has provided us with the opportunity to engage the 
private Bar and they have gone from 10 to 12 percent of the 
cases that have been closed by LSC.
    The pro bono task force, Mr. Chairman, that you mentioned 
is going to be chaired by Martha Minow, who you know is the 
dean from Harvard Law School, and Harry Korell, a member of our 
board, a private attorney.
    And they will be looking at as many ways in which we can 
engage the private Bar. We do not need to reinvent the wheel. 
We have done a pretty good job over the years of doing that, 
but we have got technology and, quite frankly, we have got some 
challenges.
    And one of the challenges is expressed and outlined in the 
handout that we provided you that illustrates that the 
concentration of lawyers is generally in metropolitan and urban 
areas, but the vast majority of those that are in need are 
outside of those areas.
    And so, for example, in Georgia, that concentration of 
lawyers is in five counties and 69 percent of those lawyers are 
in those five counties. When you get outside of that, you have 
got six counties with no lawyers, 29 counties with one to five 
lawyers, and the vast majority of those people are underserved, 
even by the private Bar.
    So we have got to figure that out. And the task force is 
looking at more creative and innovative ways to not only use 
technology but to engage the private Bar to do that.
    One of the great things about the private Bar is they can 
be creative. A couple of examples: Hunton Williams, where I now 
am employed has three offices, one in Richmond, one in Atlanta, 
one in Charlottesville, that are storefront shops in low-income 
communities, and our lawyers populate those storefront 
operations that we have and invite the community there through 
the LSC offices so that we can manage their cases. That 
presence is important and the opportunity to do that is very 
gratifying not only to our lawyers but to the population that 
we serve.
    Joint relationships between corporations and the clients at 
the law firms have been a great help. We have got a partnership 
in northern Virginia with Exxon Mobil that has given us the 
opportunity to do wills for the elderly and now and 
representing victims of domestic violence is a part of that 
partnership.
    For the first time, for the last two years, 800 lawyers at 
Hunton Williams have now contributed 100 percent, each attorney 
contributing time to pro bono services. That was a goal that we 
tried to achieve last year and we got it. And we did it again 
this year.
    That is the kind of effort I think you are looking for for 
us to encourage and we are looking forward to providing those 
best practices and enlarging the opportunity for the private 
Bar to do pro bono work.
    Mr. Chairman, thank you very much for allowing me to make 
these remarks. I stand ready to answer any questions you might 
have.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259C.060
    
    [GRAPHIC] [TIFF OMITTED] T7259C.061
    
    [GRAPHIC] [TIFF OMITTED] T7259C.062
    
    [GRAPHIC] [TIFF OMITTED] T7259C.063
    
    [GRAPHIC] [TIFF OMITTED] T7259C.064
    
    [GRAPHIC] [TIFF OMITTED] T7259C.065
    
    [GRAPHIC] [TIFF OMITTED] T7259C.066
    
    [GRAPHIC] [TIFF OMITTED] T7259C.067
    
    [GRAPHIC] [TIFF OMITTED] T7259C.068
    
    [GRAPHIC] [TIFF OMITTED] T7259C.069
    
    [GRAPHIC] [TIFF OMITTED] T7259C.070
    
    [GRAPHIC] [TIFF OMITTED] T7259C.071
    
    [GRAPHIC] [TIFF OMITTED] T7259C.072
    
    [GRAPHIC] [TIFF OMITTED] T7259C.073
    
    [GRAPHIC] [TIFF OMITTED] T7259C.074
    
    [GRAPHIC] [TIFF OMITTED] T7259C.075
    
    [GRAPHIC] [TIFF OMITTED] T7259C.076
    
    [GRAPHIC] [TIFF OMITTED] T7259C.077
    
    [GRAPHIC] [TIFF OMITTED] T7259C.078
    
    [GRAPHIC] [TIFF OMITTED] T7259C.079
    
                           POLITICAL ACTIVISM

    Mr. Wolf. Thank you both.
    Temporary agriculture workers, H-2A, are one of the only 
categories of non-citizens that LSC grantees are permitted to 
represent. A ``know your rights'' booklet published by Legal 
Aid of North Carolina featured on its web page contains an 
unflattering caricature of President Bush in a cartoon in which 
he is depicted as burying, or lowering, the wages of H-2A guest 
workers into a grave.
    The booklet goes on to declare that President Bush and 
North Carolina farmers want to lower wages for H-2A workers, 
while the Obama administration and the North Carolina Legal Aid 
supports federal efforts to increase wages.
    Is this an appropriate use of federal funds and why should 
Congress be asked to pay for this grantee's political activism?
    It is currently on their website now and if you look at it, 
just for people who do not have it in front of them, it lists 
their telephone number as 1-800-777-5869. I was almost going to 
call them up during the hearing and ask them about it.
    One page says, if you look at it, in Spanish, we had to 
translate it, ``If you have been coming to the United States 
under H-2A contract for many years, you know that in the past 
few years, the pay has not been as high as before. Why has the 
pay changed?''
    ``Four groups have had an effect on the pay, those who want 
lower wages, the Bush administration, ranchers, and 
associations such as the North Carolina Growers Associations, 
and those who want higher wages, the Obama administration and 
farm workers and friends such as Legal Aid.''
    Your comments.
    Mr. Sandman. Mr. Chairman, I was not aware of this. I will 
look into it and would like to supplement the record with a 
response when I have an opportunity if I could.
    Mr. Wolf. Well, this ``know your rights'' H-2A booklet goes 
on to create discord between willing, legal guest workers and 
their employers by depicting H-2A workers passed out from 
exhaustion, living in squalor, being poisoned by pesticides and 
suffering numerous other injustices at the hands of their 
employers.
    In contrast, none of the information for non-H-2A farm 
workers depicts such uncharacteristic suffering at the hands of 
an employer.
    Do you agree that such representations are defamatory in 
nature and border on political activism? And Bush is no longer 
the President. This is dated 2010. This is part of the problem.
    There was a tape years ago that was circulated where Legal 
Services got together and were talking about what Member of the 
Congress they were going to defeat. The Member of Congress that 
I worked for when I was a staff person was Congressman Pete 
Biester who worked very hard in helping to establish the Legal 
Services.
    But what is your reaction about this?
    Mr. Sandman. I think I share your reaction, Mr. Chairman. I 
do not think it would be appropriate for an LSC-funded program 
to be using LSC funds to engage in political statements on 
their website.
    Mr. Wolf. Mr. Grey, do you have any thoughts?
    Mr. Grey. Mr. Chairman, you know, this is something that as 
a new board, we are committed to looking at and engaging 
grantees in the work of LSC.
    Things outside of that parameter of trying to evoke other 
kinds of responses from the community are not in our 
wheelhouse. I think what we want to try to do is get people 
focused on what they do best and that is representing the poor.
    Mr. Wolf. I understand that. Years ago, we worked with Mr. 
John Erlenborn, he has since passed away, who was a Member of 
the House, who really brought sort of an element of sanity back 
into this issue, took it out of the political process, and then 
everyone felt very, very comfortable.
    And when I became the chairman of this committee before, 
back in the year 2000, we literally removed the political 
controversies that surrounded the Legal Services. There are 
some Members, you know, who are never going to be happy with 
Legal Services. I mean, I understand that. There will always be 
an element when an amendment comes on the floor.
    But things like this just set it back. It is dated 2010 and 
it is inflammatory. I guess the other question I would ask with 
regard to this is, is there anything else like this that we 
should know about that we do not know?
    Is there anything else out there like this that you could 
tell us before we find out about it.
    Mr. Sandman. Mr. Chairman, I am not aware of anything else 
like this.
    Mr. Wolf. Mr. Grey.
    Mr. Grey. I am not either.
    Mr. Wolf. Okay. Well, you know, these things always 
eventually come to light. Sometimes they come early. I would 
say that if you do find there is anything like this going on, I 
would ask you respectfully to come and tell both Mr. Fattah and 
myself before it comes out and hits the media because I 
guarantee you there is somebody somewhere that will tell 
someone here and it will be on the floor of the House in a 
raging debate.

                        PRO BONO LEGAL SERVICES

    And what can you tell us about the American Bar 
Association's effort to help respond to the increasing need for 
pro bono legal services since January when I reached out to 
them and encouraged them to get more involved in this cause 
than they already have?
    And I would insert in the record at this point the letter 
that we sent to the American Bar Association.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259C.080
    
    [GRAPHIC] [TIFF OMITTED] T7259C.081
    
    Mr. Wolf. We also wrote every State Bar Association. We did 
not hear from many of them. I think we heard from four, but we 
can submit them for the record. But there are a number that we 
did not.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259C.082
    
    [GRAPHIC] [TIFF OMITTED] T7259C.083
    
    [GRAPHIC] [TIFF OMITTED] T7259C.084
    
    [GRAPHIC] [TIFF OMITTED] T7259C.085
    
    [GRAPHIC] [TIFF OMITTED] T7259C.086
    
    Mr. Wolf. What have you heard from them?
    Mr. Grey. Mr. Chairman, I can tell you that I think you are 
absolutely on the right track and that we will follow-up with 
the ABA. We are going through our regional meetings. The board 
meetings are actually in the regions that we serve. And when we 
do that, Chairman Levi has been very particular about making 
sure that we reach out to the private Bar each time we go out.
    I can tell you they are coming to Richmond this month. And 
we have a group of law firms called Firms in Service that is 
putting on a presentation in terms of what they are doing to 
support pro bono activities. So it is now a critical part of 
what we do.
    But specifically I happen to know the president of the 
American Bar Association and when I leave here today, he is 
going to get a call from me about the letter that you sent. I 
will tell you what he says.
    Mr. Wolf. Okay. What percentage of your funding comes from 
non-federal sources?
    Mr. Sandman. Fifty-seven percent of our programs' funding 
in 2010 came from non-LSC sources.
    Mr. Wolf. Okay. And could you tell us, for instance, the 
top three or four or five categories?
    Mr. Sandman. The top categories would be state and local 
appropriations, IOLTA funds, interest on lawyers' trust 
accounts, although that is----
    Mr. Wolf. Which is down?
    Mr. Sandman. Down considerably over the last few years with 
the decline in interest rates. Private and foundation support. 
Those are the principal categories.
    Mr. Wolf. Okay. How many of the law firms or how many of 
the lawyers in the country, and I know everyone does not 
practice law in the traditional sense, but of those who are 
practicing, how many participate with Legal Services or in pro 
bono work? Do you have any sense? Have there been any studies 
by anyone?
    Mr. Sandman. The American Bar Association has attempted to 
estimate that, but there are many different kinds of pro bono 
work, everything from working with our grantee programs to 
people representing Boys and Girls Clubs and doing unpaid legal 
work for their local churches.
    It is difficult for any one organization to capture all the 
different kinds of pro bono work that different lawyers do, but 
I do recall an American Bar Association survey that said that 
70 percent of American lawyers were doing pro bono work.
    Mr. Wolf. Okay. Is that a pretty tight definition or do you 
think it is a pretty liberal definition? Because there are some 
people that really do not have the time to do it and they are 
not going to do it. And you understand because you may be a 
sole practitioner some place. But has there been any thought of 
some sort of assessment?
    You know I am a member of the D.C. Bar and I pay my Bar 
dues. I am a member of the Virginia Bar and I pay my Bar dues.
    Is there any assessment that any of the Bar associations 
add on to that? You may very well be an attorney, with only two 
or three people in your firm and no time to donate. Some people 
give in different ways. They give with their time and others 
will give with their resources.
    Is there a mechanism whereby the Bar associations have 
looked at some sort of assessment like the combined federal 
campaign? Does Legal Services compete or participate in the 
Combined Federal Campaign?
    Mr. Sandman. Our individual programs and their local 
jurisdictions are often members of United Way and I believe the 
Combined Federal Campaign. There are things that Bar 
associations do. Some of them allocate a portion of their 
mandatory dues.
    Mr. Wolf. How many do that? Do you know?
    Mr. Sandman. I do not know off the top of my head, Mr. 
Chairman. I also know that here in the District of Columbia, 
the courts, both the federal court and the local courts, have 
recommended to lawyers that if for any reason they are not able 
to engage in pro bono work that they make an annual 
contribution of at least $750 to a local Legal Aid 
organization. One of the----
    Mr. Wolf. Is that mandatory or is that----
    Mr. Sandman. It is recommended, but it is not mandatory. 
The State of Maryland I know requires that lawyers report 
annually as a part of their registration how much pro bono work 
they have done in the prior year, so that gives the Bar 
authorities a way to assess who is doing how much pro bono 
work.
    Mr. Wolf. Do many other Bars do that, Bar associations?
    Mr. Sandman. Some do. I do not think it is widespread, Mr. 
Chairman.
    Mr. Wolf. Would it be a good idea to have some sort of 
cooperative arrangement whereby it is an either/or? You may 
want to spend your time and someone else may be in a situation 
where they cannot for whatever reason, but they would make a 
contribution.
    Mr. Sandman. That is the theory of what the courts in D.C. 
have recommended, but not required.
    Mr. Wolf. How widespread is that? Nationwide?
    Mr. Sandman. I think what has been done here is uncommon. I 
have been involved in the committees that have recommended to 
the courts that they adopt that recommendation and I have not 
seen a lot of comparable initiatives in other jurisdictions.
    But there are a lot of lawyers who do find it difficult to 
do pro bono work. Only 15 percent of American lawyers work in 
big law firms. The vast majority of them are solo practitioners 
or in small law firms. And sometimes their financial 
circumstances, the demands on their time are such that it is 
difficult for them to take on a pro bono case.
    Mr. Wolf. Oh, I understand that. That is why I am not being 
critical of that. But if they had an option of either/or, could 
not the Bar Association put that in as a requirement.
    Mr. Sandman. Uh-huh.
    Mr. Wolf. If every lawyer nationwide gave a very small 
amount, I mean, if D.C. Bar wants to add on to my--I have not 
practiced for years, but if they want to add on, it would be 
fine to add on. They could add on a couple dollars. And I think 
if you did that, that would make a big difference. Lawyers 
could give it to either the National Legal Services Corporation 
and you could disburse it or give it to the states.
    Is that one of the things you are looking at in this pro 
bono group?
    Mr. Grey. As the president said, that actually happens. 
And, Mr. Chairman, you ought to know that each one of your 
suggestions is a suggestion that in some form or fashion is 
incorporated in every Bar Association around the country.
    It is not a centralized approach because each State Supreme 
Court is responsible for the rules of practice in those states. 
And each Bar Association may or may not be the governing body 
reporting to the Supreme Court.
    And so the mechanism for getting that done is not the same 
in each State, just as the IOLTA funds are mandatory in some 
states going to Legal Services and other states, it is not.
    Mr. Wolf. So did I write to the wrong group? Should I have 
also written to every Supreme Court justice, State Supreme 
Court justice?
    Mr. Grey. Yeah. I think that in terms of understanding the 
landscape that the chief justices of the State Supreme Courts 
have the ultimate responsibility over the practice of law in 
those states. And it is not the American Bar Association that 
determines how you practice. They provide what are commonly 
called the model code----
    Mr. Wolf. Right.
    Mr. Grey [continuing]. For how you do it. But it has to be 
implemented at the state level.
    Mr. Wolf. So it is the State Supreme Court? Well, if you 
can give me a list or we can find it through our own mechanism.
    Mr. Grey. We have got that.
    Mr. Wolf. I will write each chief justice and ask if they 
would they consider implementing something whereby every member 
of the Bar Association or however--you can help me word it 
because you would know better than I would.
    Mr. Grey. They have got a conference. There is a conference 
of chief justices. And I think that would be, Jim, I think that 
is probably the best place to get access to all of them in a 
way that would be effective. But we would be happy to work with 
you on that.
    Mr. Wolf. Who is the head of that now? Who is the chairman 
of it?
    Mr. Grey. I do not know.
    Mr. Sandman. I know that later this year, the chief judge 
of the D.C. Court of Appeals is going to become the head of 
that conference. It is the Conference of Chief Justices. It is 
the most efficient way to reach them all at once.
    Mr. Wolf. If you can give us that, we will do a letter.
    Mr. Sandman. Be happy to.
    Mr. Wolf. I will do a letter to all of them and ask them.
    Bill Mims was my administrative assistant for a number of 
years and I will contact Bill and ask him that Virginia lead 
the way.
    Mr. Grey. We could do that.

                             IOLTA FUNDING

    Mr. Wolf. Virginia has led the way in so many other ways. 
This is my last question and then I will go to Mr. Fattah. The 
IOLTA funding has been in a steep decline since 2008 when it 
was nearly $284 million.
    How much were IOLTA revenues in 2010 and do you have a 
reliable projection for what they will be in 2011?
    Mr. Sandman. I do not know the absolute number in 2010 off 
the top of my head, Mr. Chairman. I can get that for you. I do 
know that IOLTA funds as a percentage of total funding for LSC 
programs has declined from about 12 percent a few years ago to 
seven percent last year. And I also know that the projection 
for this year is that the funds will be no better than they 
were last year.
    Mr. Wolf. Solely because of interest rates? Is that the 
main----
    Mr. Sandman. Solely because of interest rates. Also, some 
of the IOLTA programs had set aside reserves anticipating that 
interest rates might fall at some point. But their reserves are 
depleted now and their ability to tap them, which has seen them 
through the last few years, is now much more limited than it 
was.
    Mr. Wolf. Okay. Mr. Fattah.

            LSC IN THE CONTEXT OF THE OVERALL FEDERAL BUDGET

    Mr. Fattah. Thank you, Mr. Chairman.
    I will share this with your staff, but I want to provide it 
for the record. This is a statement from the group that is 
going to receive your letter, the Conference of Chief Justices. 
And it just is in support of Legal Services, but I think it 
lays the foundation for the fact that they like to try to find 
ways to support this very worthy activity.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259C.087
    
    [GRAPHIC] [TIFF OMITTED] T7259C.088
    
    Mr. Fattah. Let me start in a couple different places all 
at once. I am a politician. We can embellish as we go.
    So, you know, we have in our subcommittee a lot of critical 
agencies. I mentioned this in my opening statement, NASA 
handles our activities in space. And I am very committed to 
their work and so are the chairman and others.
    But they had a satellite they were launching a couple of 
weeks ago. It is called Glory. And it just did not work out. It 
did not make orbit. That is a $500 million deal. It did not 
work out.
    We are going to send more satellites and, you know, we are 
never going to be in a situation where success is guaranteed. 
But we spent $500 million on that effort, right? And we are 
going to spend a billion dollars on marine life and the NOAA 
agency.
    I just put this in perspective because of the million plus 
cases that you settle, and what this means. I read about some 
of these cases.
    I read about a woman who was badly assaulted by her 
husband, and had to come to Legal Services to get a restraining 
order. And she did not live in Pennsylvania. I mean, this was 
not a constituent of mine. I just read it.
    But I think that it is so very important that we understand 
what is at stake here. And the Congress, rightfully as stewards 
of taxpayers' money, has to ask important questions.
    I was one of the cosponsors of the bill that created the 
IG's operations and GAO has to do audits and so on.
    But it is amazing to me because I was down in the Capitol 
Visitor Center earlier this morning for a meeting. This is a 
building that we were going to put up for $260 million. It came 
in at $621 million. The cost overruns were enormous, right? 
This is an activity of the United States Congress.
    So I just think that we need to put these things in 
perspective as we go forward here because we are talking about 
the life chances of tens of millions of Americans who are in 
the balance, their access to a fair hearing in court.
    And I say this as a father of three daughters. When you 
have three out of four of the clients of Legal Services being 
women who are already--I mean, they are in poverty, that is why 
they are eligible for services, so they are already in the 
shadows of our society. They are in a desperate situation. They 
need access to redress in the courts, which is ensured under 
our Constitution.
    And the way that, since Nixon, we have done this is through 
the work of the Legal Services Corporation. So, when I look at 
your request--and I know that we talk about this being a tight 
budget year, you may not have noticed this, but we spent a 
little bit of money in Libya over the last ten days, and nobody 
has a calculator out. Nobody is saying, well, you know, 
Tomahawk cruise missile, $1.1 million every time we send one 
off, you know.
    And we are spending $2 billion a week in Afghanistan. We 
have spent more than your budget in Iraq just in trying to 
create a legal system so that Iraqi citizens could have a court 
system they could have access to. Now, this is on the 
generosity of American taxpayers.
    And this pro bono work is critically important and I want 
to work with you to encourage it. I know people who provide pro 
bono work.
    Ken Frazier is a neighbor of mine. He has moved up in the 
world. He is the CEO of Merck. But in his spare time every 
summer, he takes a case and usually in the deep south handling, 
you know, some of the ugliest cases in the world, a criminal 
case, and he does his pro bono work when he is not running one 
of the world's largest pharmaceutical companies.
    A lot of attorneys provide pro bono work and they do it on 
the criminal side. The difference with Legal Services is that 
your work is on the civil side. And I would say that we have 
seen lawyers who are volunteering to represent and they should, 
you know, people in Guantanamo and on and on and on.
    But when a woman is being abused by her husband, almost 
beaten to death and needs a restraining order and needs a 
lawyer to help get one, we just need to make sure that the door 
of Legal Services is open.
    And I do not think you can get any auditor to do an audit 
in which they do not find something. That is what they get paid 
to do. They come back and they have got some recommendation--
and we have been through this. I have been in this committee 
for years and there is always something.
    But I know that we see this in these other agencies. The 
FBI has spent tens of millions of dollars on an IT system that 
just has not worked out very well. And $150 million or so 
later, it is like, well, okay, we are going to try something 
different.
    And when we come to poor people, I think that we need to be 
balanced in our approach on these issues because we cannot give 
people justice on the cheap. We can encourage pro bono work, 
but we should not have this woman's opportunity to get a 
restraining order contingent on the generosity of some lawyer 
who is trying to figure out how to pay their--you know, my 
daughter who is trying to figure out how to pay her bills from 
law school, right?
    You have got to be careful that we keep the courthouse door 
open. And that is what this all about. This is what the 
chairman, --and he has been true to the support of this agency 
from my first days on this committee, and there have been some 
tough political times. But the politics, we need to push it 
aside because there is no--as best as I can tell in these 
million clients, nobody is trying to figure out whether they 
are Ds or they are Rs or independents.
    They are in the main, women with, in many instances, this 
particular case, with children who need to be protected. And 
the only way that they can find that protection is through the 
work that you are doing.

                             LSC STRUCTURE

    So I want to get to my question. My question is not in the 
North Carolina instance. I was trying to look at this Web site. 
I have not found this document yet. But the way Legal Services 
works is this is not a top-down operation. These are local 
decisions made by local communities and local boards.
    So in Philadelphia, decisions are made about what is an 
important priority, what cases are going to be handled, and so 
forth and so on so that the first thing is that--and I think 
that, in a bipartisan way, we think decisions are better made 
at a local level.
    So I want you just to talk for a minute about the structure 
of how the board is working on the dissemination of these 
grants and how decisions are made about which agencies are 
going to have a veterans' outreach effort and which are going 
to get technology grants and how this is working from the top 
down.
    Mr. Sandman. Congressman Fattah, our 136 programs, the 136 
programs that LSC funds, each is a separate 501(c)(3), an 
independent corporation. We are a grant maker, but we do not 
control them. We do have restrictions associated with the money 
that we grant and we monitor our grantees' compliance with the 
restrictions that Congress has mandated go along with LSC 
funds.
    Each of the programs does have a local focus. They are 
required each year to do a local needs assessment and do 
priority setting based on what the needs of the population they 
serve are. And those needs vary. The needs in rural areas are 
different from those in urban areas. The mix of cases can vary 
from one grantee to another.
    And we do not attempt to mandate from a national level 
exactly what the mix of cases for any individual grantee should 
be. We do think that is a decision that is best made at the 
local level by people who know their local communities.

                      LEGAL SERVICES FOR VETERANS

    Mr. Fattah. Now, this veterans work that is being done, 
this is an important issue. More than a million of our young 
men are rotated through battlefields in Iraq and Afghanistan 
and they come home and they have a lot of challenges.
    So can you talk a little bit about what is being done 
particularly in terms of veterans by Legal Services.
    Mr. Sandman. Our veterans' initiative has two components. 
We have a web site, statesidelegal.org, which was the creation 
of Pine Tree Legal Services in Maine in cooperation with 
Arkansas, the Arkansas Legal Services Partnership.
    And that is a web site that contains information of 
interest to veterans and military families. It also has 
information about state and local issues of interest to them.
    The second component is outreach to what are called 
readjustment counseling centers that the VA runs, facilities. 
There are about 300 of them around the country where veterans 
can go for assistance.
    And we have done outreach to them so that they are familiar 
with the availability of legal services by the area Legal 
Services providers, the LSC grantees, so that they can make 
referrals and connections and so that we can go to where the 
clients are and get connected to the veterans who are likely to 
need the services of our local Legal Services programs.
    Mr. Fattah. Now, are many of these services related to 
foreclosures and other kinds of challenges that these veterans 
are facing?
    Mr. Sandman. Yes. We have seen situations where returning 
veterans are facing financial difficulties. They have been out 
of the civilian workforce for some time. They are coming back 
into an environment where the economy is depressed and where 
jobs are hard to find. And they are facing issues like 
foreclosures or evictions if they are in rental housing, real 
subsistence issues.
    Mr. Fattah. I met with a group that is providing some 
effort to work with veterans in the Philadelphia area. What was 
amazing to me is that, Mr. Chairman, the number of suicides has 
risen almost to the level that we have lost young people on the 
battlefield itself.
    So the numbers are like parallel now. And it is because, in 
large measure, they face an extraordinary set of dynamics in 
the war, but some of them are losing their homes while they are 
away. And they are getting notifications and so on from loved 
ones about it. So they have a lot of challenges.
    So I think this work is vitally important. I want to know 
whether you--you said you are working with these 300 local 
readjustment counseling centers. Are there other efforts of 
coordinating between the VA and Legal Services to make sure 
that whatever can be done is being done?
    Mr. Sandman. We are working on that. We have started with 
the 300 centers, but we have made contacts at high levels in 
the Veterans Administration to be sure that we are doing all 
that we can to make veterans aware of the availability of Legal 
Services and our programs and to figure out how we can better 
serve their legal needs.

                           LEGAL AID CLINICS

    Mr. Fattah. Now, along the line of this pro bono side, a 
number of law schools have set up clinics, Legal Aid clinics. I 
know at Temple Law School, they are now trying to create one 
focused on healthcare law because a lot of people are running 
into challenges in that respect.
    But does Legal Services work in conjunction with law 
schools in the establishment or staffing or utilizing the 
resources of law students who may be able to help people with 
some what we would consider more mundane matters?
    Sometimes when you are in a difficult circumstance, what 
may seem simple to one person is a very complex matter to 
someone else.
    Mr. Sandman. Yes. Our programs do reach out to the law 
schools and their communities to try to connect to the clinics 
that they are operating and to use the law students as a source 
of pro bono legal assistance.
    I know, for example, that our program in southern Arizona 
has an active outreach program to the law schools and actively 
involves law students in their work.

                         IMPACT OF BUDGET CUTS

    Mr. Fattah. Now let's talk about the budget numbers 
themselves, the appropriations request. So your request in 
fiscal year 2012 is the same as it was in fiscal year 2011.
    The cuts that have been suggested by the Congress, can you 
tell us how the board, Mr. Grey, or the Administration would 
handle it if you had to deal with these cuts, how you would 
proceed in making what would be unpleasant--what would be the 
results of the cuts as outlined around this $70 million number?
    Mr. Sandman. Well, if we were to look at the impact of the 
$70 million cut provided in H.R. 1 for the current fiscal year, 
that would come entirely out of what we call our field grants 
to the programs, the 136 programs around the country that serve 
poor people.
    Our best estimate is that that would require the layoff of 
370 full-time Legal Aid lawyers, that it would reduce the 
number of cases we could handle by 60,500, and the number of 
people who would not get legal services would be about double 
that, about 121,000.
    I think it would have a devastating effect on service. The 
particular consequences would depend on each individual program 
and to what extent it gets its funding from LSC.
    On average, our grantees get 43 percent of their funding 
from LSC, but that varies. Our program in Alabama gets 86 
percent of its funding from us. So obviously the impact there 
would be much greater than in the average program.

                              JUSTICE GAP

    Mr. Fattah. Let me just conclude with this question. It is 
about what we call the justice gap, and that is that 
notwithstanding your best efforts, there are people who are not 
getting help, right?
    So part of the impetus was trying to create more pro bono 
opportunities. It is not to fill budget cuts, but it is to 
reach out to people who are not yet being able to be helped 
with the limited amount of dollars that you have.
    So can you talk a little bit about what the gap is, how it 
literally plays itself out in communities throughout the 
country.
    Mr. Sandman. There have been different studies trying to 
measure the gap. I think the most conservative was one that was 
done a few years ago by LSC itself and it estimated that the 
justice gap is at 50 percent, that we are meeting only 50 
percent of the legal needs of poor people. And that is a 
generous estimate of how well we are doing. Studies at the 
state level have set the figure much lower than that in 
different areas of the country.
    But the matters that we handle for the clients that we see 
and those that we would like to be able to serve but cannot are 
often matters of safety and subsistence. They have to do with 
the availability of housing, avoiding eviction or foreclosure, 
being out on the street and being in a homeless shelter. They 
have to do with the safety of abused women.
    I was up in Pennsylvania the week before last in one of our 
programs out in western Pennsylvania, the Laurel Program. And a 
six county area handles virtually all of the civil protection 
orders sought by poor women in the area. Almost none of them 
were served by the private Bar. These are the matters that we 
handle.
    Unemployment compensation, these are matters that are often 
life or death matters to our clients and that if we can have an 
appropriate legal intervention and get people the help they are 
entitled to, we can save society other costs.
    Mr. Fattah. All right. Thank you very much.

                           POLITICAL ACTIVISM

    Mr. Wolf. Thank you.
    I am going to go to Mr. Austria. But before I do, I want to 
make a couple comments.
    We will give you a copy of the whole article, the whole 
publication, and I want you to get a copy too. And, you know, I 
mean, it just goes after Bush. It is a replay of what has gone 
on before.
    I happen to have been here for 30 years. I am not going to 
take a back seat to anybody here in this place, no one, zero, 
Democratic side or the Republican side on this issue. I am not 
going to do it.
    But this becomes the issue that people go at. 171 people 
voted to eliminate funding for LSC. I thought we helped protect 
Legal Services very much in this. There were times we told the 
staff protect this, and let's try to take it from other areas.
    Secondly, the political activity hurts. I mean, if I am the 
only one who agrees, fine. If you all do not agree with it, 
fine. I agree with it. I know it is the way it is because I 
have watched it over the years. We have taken it out of the 
political process and people want to put it back in. It hurts. 
And if nobody believes it hurts, then they can keep doing it 
and keep violating the law, but it hurts.
    And, again, there were 171 Members that voted to eliminate 
funding. I have already had letters criticizing me for voting 
for not zeroing out Legal Services from people that I know and 
like. They are saying, Wolf, you missed an opportunity. You 
should have been for that. And I did not do it.
    Third, regarding all this talk about the poor, in my 
neighborhood, 70th and M, we did not have a lawyer. I did not 
know a lawyer growing up. I did not know anyone who was. I do 
not think there was a law firm in my neighborhood. So I 
understand that. And I think for the cases that you are 
supposed to work on, there is a compelling need.

                         KHALID SHEIKH MOHAMMAD

    In contrast, some big law firms--silk stocking firms--made 
a big deal that they represented Khalid Sheikh Mohammad at 
Guantanamo Bay. Khalid Sheikh Mohammad beheaded Daniel Pearl. 
That is their pro bono work? Their pro bono work should be to 
help the poor here in the United States with so many unmet 
needs. Instead, they were tripping over themselves to represent 
Khalid Sheikh Mohammad, a man who brought about the death of 30 
people from my congressional district, who brought about pain 
and suffering in this country in 2001, on September 11.
    And just look at some of the big law firms. They brag that 
this was their pro bono work. But they do not go down into the 
ghetto and help and they do not come to southwest Philadelphia 
and help and they do not come out into the Winchester area and 
help. It was like of the liberal left kind of felt good by 
saying that it represented Khalid Sheikh Mohammad.
    I mean, I did not watch it, but there is a video of a 
terrorist literally beheading Daniel Pearl. That is pro bono 
work? Everyone in this country deserves the right to 
representation.
    But if you have got an opportunity to assist the poor in an 
inner city or in a rural area versus Khalid Sheikh Mohammad, I 
think you should choose to assist the poor. To choose Khalid 
Sheikh Mohammad, Dietrich Bonhoeffer calls that cheap grace. 
That is cheap grace. If that makes you feel good and you are 
with a big law firm and you can go to your cocktail parties and 
tell them that you are representing people who devastated this 
country and brought around pain and suffering and agony at the 
World Trade Center and at the Pentagon and in Pennsylvania, 
then so be it. That is every right under this.
    But what we want to do is make sure there is not this 
political process, which I have to assume both of you do, 
because you said you do. There was not a raging debate on the 
floor on this issue because we funded LSC at the number it 
ought to be rather than coming in low knowing that there would 
be efforts to increase it. But you have got to get rid of this 
political stuff that goes on. It has gone on over a long period 
of time.

                      INCREASING PRO BONO SERVICES

    And, lastly, I think most lawyers are good people. I will 
stipulate they are. They would want to help if given an 
opportunity. And I know there are going to be some cuts. I know 
it. Do I like it? No. But I know there are going to be some.
    So how can we help Legal Services to meet the needs, to 
meet the poor, and, yet, see if we can bring in some of the law 
firms?
    There is a policy here that if you invite the preacher to 
give the opening prayer, they will take you into the speaker's 
office and you get a picture taken. I had not invited this 
gentleman in, but the former congressman whom I replaced had 
invited him in. And I remember Tip O'Neill had a group of us in 
the ceremonial office. Of course, I had just arrived here. I 
did not really know the speaker.
    And two things stick out in my mind. One is I was standing 
on the edge of the picture and he pulled me in the middle. He 
said never stand on the edge because they can crop you out.
    And he was talking about the story of when he ran for 
office. He did not get the vote of the lady across the street. 
And he said something to the effect of ``Ms. McGillicuddy, why 
didn't you vote for me'' and she said, ``Tip, he asked me for 
the vote.''
    And sometimes you have to ask. And I think what I want you 
to do is to ask the law firms who are made up of good people if 
they can help supplement.
    And so that is why I wrote all the Bar associations. That 
is why I wrote the ABA. There is going to be an effort. Let's 
see if we can maintain it. Let's see if we can bring in the pro 
bono and, lastly, not give the opportunity for people to throw 
rocks at it by having things where we do caricatures of 
President Bush and get into the political process that used to 
bring controversy here. That is not going to be good for the 
poor.
    And the programs you have all mentioned ought to be helped 
and people that are in those circumstances, they ought to be 
helped. But some of those guys who took the time to represent 
Khalid Sheikh Mohammad ought to consider going into the inner 
city and helping some of the people that need the help in the 
inner city or the rural areas.
    Mr. Austria.

                              LSC SPENDING

    Mr. Austria. Thank you, Mr. Chairman.
    Mr. Sandman, Mr. Grey, thank you for being here.
    Mr. Chairman, I think you are hitting right on the line of 
questioning that I had. And I know Mr. Fattah started to go 
down the budget route. And I wanted to talk a little bit more 
about that because there has been debate and there is going to 
continue to be debate.
    When you look at the budgets that have been rolled out with 
this Congress with H.R. 1 and the reductions that were in H.R. 
1, the $350 million, I believe it was, an amendment on the 
floor to pretty much eliminate, my understanding was, to zero 
out the program.
    Certainly there is a perception here versus the President's 
budget request at $450 million in fiscal year 2012 for LSC 
which is, my understanding, 7.1 percent above 2010 enacted 
level and 28.6 percent above 2008 enacted level.
    And I just want to say during these difficult budget times 
that, you know, expansion of any program by 28 percent for a 
fiscal year, it does not matter how large or small, in my 
opinion is not sustainable even in good times, but especially 
when we are borrowing 42 cents on every dollar in the Federal 
Government and we are trying to get our spending under control 
here in Washington.
    And you have talked about some of the justifications, some 
of the needs that you have out there, but help me better 
understand how you expect to continue to grow at what I am 
considering unsustainable rates while we are asking other 
agencies and more importantly the American people to tighten 
their belts and tighten their budgets and reduce their budgets 
at this time?
    Mr. Sandman. I appreciate the question, Congressman 
Austria, and it is something that our board wrestled with in 
terms of what the right amount to put in our budget request for 
the fiscal year 2012 was.
    The board was focused on the two purposes that the Legal 
Services Corporation Act established for the corporation. One 
is to provide access to justice and the other is to provide 
high-quality legal services to low-income Americans.
    The request is driven by the need and also I think by the 
special place that access to justice has in the pantheon of 
American values. Hard times test values. And this is a test of 
what the country places a priority on.
    The very first line of the Constitution says that 
establishing justice is a purpose of the Federal Government. 
The framers mentioned establishing justice even before they 
mentioned providing for the common defense or ensuring domestic 
tranquility.
    The last three lines of our Pledge of Allegiance, justice 
for all, that was our focus, that compared to other matters, 
the types of things that Congressman Fattah mentioned, it is a 
matter of setting priorities. And we believe that access to 
justice needs to be a paramount national priority.
    Mr. Austria. Well, help me understand then what 
efficiencies and what accountability measures are Legal 
Services Corporation putting into place to save taxpayer 
dollars. And how is Legal Services Corporation working with 
other states and local governments, as you described, to reduce 
the overall cost of civil legal services? And we have talked a 
little bit about the pro bono side of things, but if you could.
    Mr. Sandman. We do work hard to coordinate with all of the 
players in the Legal Services delivery system, the state and 
local appropriators, the state IOLTA programs, the judiciary. 
It is a cooperative effort to try to identify what the needs 
are and to be sure that they are met as efficiently as 
possible.
    We do leverage our federal money very successfully. On 
average, as I mentioned, the funding for the programs that we 
made grants to, only 43 percent of that comes from LSC. The 
rest is coming from other sources which I think is a sign of 
the effectiveness of the federal dollar as an investment with 
the programs that we fund.
    Our programs make good use of technology to try to reach 
poor people in rural areas, to make forms easier to understand, 
forms available to people, to provide on-line resources for 
those who might not be able to make it into a Legal Aid office.
    We do have rigorous oversight of our grantees. We visited 
72 of our 136 programs last year, more than half, to monitor 
their performance and to oversee their compliance with our 
regulations and with the requirements of federal law.
    So we are very focused on getting bang for the buck and 
getting the best value that we can out of the money that the 
Congress invests in our programs.
    Mr. Austria. All right. Well, let me just say, you know, as 
we go through these difficult times, I mean, cuts are 
inevitable. We are looking at each program, the efficiencies, 
what plans are in place as far as operating within sustainable 
budgets over the long term.
    And I certainly want to continue to work with you and keep 
an open line of communication on what plans you have as far as 
in the future as far as trying to reduce these costs in 
addition to the services that you are providing.
    So with that, Mr. Chairman, I will yield back. And thank 
you.
    Mr. Wolf. Thank you, Mr. Austria.

             RESTRICTIONS ON COLLECTION OF ATTORNEYS' FEES

    In fiscal year 2010, Congress removed the restrictions on 
LSC grantees related to the collection of attorney fees.
    Can you give an estimate of approximately how much in 
attorneys' fees have been recovered by LSC grantees in the 
period since?
    Mr. Sandman. Yes, Mr. Chairman. 2010 was the first full 
year in which we could see the impact of the lifting of that 
restriction and we saw an increase in 2010 of $540,000 in 
attorneys' fees recovered by our programs. Averaged across our 
136 programs, that was about $4,000 a program. I think it is 
still too early to tell what the long-term impact of the 
lifting of that restriction might be, but that was the figure 
last year.

                      TECHNOLOGY INITIATIVE GRANTS

    Mr. Wolf. Okay. We have one more question we will ask on 
that. But the technology initiative grants, the budget requests 
$6.8 million for technology initiative grants for fiscal year 
2012, a figure that is twice the current level.
    While the program has been credited with increasing access 
to legal representation, in December, LSC's Office of Inspector 
General released an audit of the program and they found 
appropriate internal controls over the grant funds to be 
lacking.
    I think you briefly mentioned that in your opening 
statement. As a result, the IG recommended that LSC suspend its 
awarding of these grants until an adequate internal control 
system could be designed and implemented. What is the current 
status?
    Mr. Sandman. The suspension has been lifted and we have 
begun the process for----
    Mr. Wolf. How long was the suspension in effect?
    Mr. Sandman. It started before I became president, sir. I 
am not sure exactly when it became--in December, I believe.
    Mr. Wolf. And have you met all the concerns of the IG and 
is your IG convinced that that has been resolved?
    Mr. Sandman. The IG made 36 recommendations in December. We 
have closed 12 of those. We are working closely with our 
inspector general to address the others. I think we are making 
good progress.
    Mr. Wolf. If you could keep us informed then.
    In 2010, LSC awarded 42 TIG grants including grants for the 
development of mobile phone applications. As your budget 
justification notes, Montana Legal Services is developing a 
mobile website platform to provide information by phones and 
hand-held computers. The platform you hope will be replicated 
in 27 other states.
    Does that mean these applications are being developed for 
people with BlackBerries and iPads or what does that mean?
    Mr. Sandman. For some of the clients that we are trying to 
reach, their telephone is the most effective way of reaching 
them. It is part of our effort to get to where clients are as 
best we can.
    Mr. Wolf. So it is more for telephones and not for----
    Mr. Sandman. It is for whatever application will reach them 
most effectively, Mr. Chairman.
    Mr. Wolf. But they are designed to serve the indigent who 
need the help?
    Mr. Sandman. Absolutely, yes.
    Mr. Wolf. In light of LSC's efforts to adopt and implement 
GAO's recent recommendations, did the results of the IG's audit 
come as a surprise?
    Mr. Sandman. The TIG audit?
    Mr. Wolf. Right.
    Mr. Sandman. That was before I started, Mr. Chairman. I am 
not able to answer the question.
    Mr. Wolf. Okay. One of the major concerns of the IG was 
that LSC did not properly apply its sub-grant rules when 
grantees paid TIG funds to third parties. Sub-grants must be 
submitted to LSC for approval and must contain certain terms 
specified by regulation including a term to ensure compliance 
with LSC restrictions such as prohibition against lobbying.
    This deficiency is certainly a concern as Congress takes 
the LSC restrictions seriously. Did the IG find that any LSC 
funds were used by sub-grantees engaged in activities 
prohibited by the LSC restrictions?
    Mr. Sandman. I am not aware of any finding to that effect, 
Mr. Chairman.
    Mr. Wolf. Is the IG here now?
    Mr. Sandman. Yes, he is.
    Mr. Wolf. Did they find any?
    Mr. Schanz. No, sir. We did not drill down quite that far. 
We were taking it more from the internal control point of view 
to make sure that controls were in place to ensure the 
stewardship of the funds that were being applied to the 
technology grants.
    Mr. Wolf. Okay. Since you are here, if you would just 
identify yourself for the record.
    Mr. Schanz. I am Jeff Schanz, the inspector general for the 
Legal Services Corporation.
    Mr. Wolf. And also, if you would take a look at this North 
Carolina----
    Mr. Schanz. I would be happy to. When I first saw that, 
that we do risk assessments to leverage our resources and that, 
of course, is right on top of the list.
    Mr. Wolf. Yeah. We have some questions about that. If you 
would look at it and get back to us and see if there is any 
other activity like that.
    How long have you been the IG?
    Mr. Schanz. I have just passed my third year.
    Mr. Wolf. Okay. Are the relationships better than it was 
with the previous IG? I know they were rocky.
    Mr. Schanz. Mr. Chairman, I think significantly so. I came 
to this job after 34 years with the Department of Justice, the 
last 30 years of those with Glenn Fine, the IG of the 
Department of Justice. So I came to this job trying to make a 
difference. And we are making a difference.
    Mr. Wolf. Okay. We will get you a copy of the booklet----
    Mr. Schanz. Okay. That will be very helpful. Thank you.

                            FISCAL OVERSIGHT

    Mr. Wolf [continuing]. Before you leave. I am going to just 
ask a couple more and then go to Mr. Fattah.
    In 2010, the LSC Board established a special task force on 
fiscal oversight to review its oversight responsibilities.
    Who makes up this task force?
    Mr. Grey. Mr. Chairman, I am co-chair of that with Vic 
Maddox. Included in my materials submitted are the members of 
that task force. In the testimony I provided, I talked about 
the work that they do in the private sector. It is I think by 
all accounts a pretty impressive group.
    We have got senior executives of Fortune 500s, six with 
foundations, two with accounting experience, and we have two 
former inspector generals on this committee. So from the 
standpoint of expertise, I think we are well suited to 
undertake the responsibilities of looking at the oversight 
responsibility of LSC with its grantees.
    Mr. Wolf. And when will there be a report released?
    Mr. Grey. I am looking to July as the opportunity to 
provide a draft.
    Mr. Wolf. Is it your intention that the task force will 
cease to operate when the review is concluded or when the 
report is issued?
    Mr. Grey. We would cease to conclude once it has performed 
its responsibility, but we expect that there will be ongoing 
activities in terms of training and monitoring of the 
recommendations that are provided.
    Mr. Wolf. Okay. Last question and then we will go to Mr. 
Fattah.
    The budget requests an additional $2.5 million over the 
current level for grants management and oversight. That is an 
increase of 15 percent.
    How would that additional funding be used?
    Mr. Sandman. A good portion of it, Mr. Chairman, would be 
used for training activities for our programs to help them do a 
good job of fiscal oversight and compliance with federal 
requirements.
    Mr. Wolf. Okay. Mr. Fattah.
    Mr. Fattah. I will have some questions I can submit for the 
record, Mr. Chairman.
    Thank you.

                            PUBLIC LIBRARIES

    Mr. Wolf. I just have a few more and then we will just 
conclude. We will have some others for the record too.
    But in response to the surge of pro se litigants, Legal Aid 
programs and libraries are working in partnership to help 
library patrons obtain legal services.
    To what extent can libraries help to alleviate the workload 
of Legal Aid offices?
    Mr. Sandman. They can do a good job in conjunction with the 
Legal Aid offices. People often go to libraries looking for 
information when they do not know about the availability of a 
Legal Services office down the street. The librarian is often 
the general information source for people.
    So we worked to reach out to librarians through our 
programs to make sure that they are aware of what online 
resources are available that people can access right there in 
the library and what is available down the street at a Legal 
Aid office.
    Mr. Wolf. So do all your Legal Aid people go to libraries 
and tell them that here we are, we are here, and is that a 
formal program or is it just that if somebody takes the 
initiative and does it, fine, but----
    Mr. Sandman. I think it is going to vary from program to 
program depending on what their local circumstances are. As I 
mentioned, each program is independent and different from one 
another, but it is an emphasis that we are trying to----

                         PERFORMANCE STANDARDS

    Mr. Wolf. Are there standards, though, that every program 
should meet to be certified though? I mean, I know they are 
different, but is there----
    Mr. Sandman. We do have performance standards that we use 
in evaluating our programs and that are the guide that our 
teams use when they go out to visit programs and assess them.
    Mr. Wolf. Have any ever been dropped?
    Mr. Sandman. Yes.
    Mr. Wolf. Can you tell us for the record who?
    Mr. Sandman. I cannot name names of particular programs off 
the top of my head, Mr. Chairman.
    Mr. Wolf. Can you just supply it for the record?
    Mr. Sandman. Yes.
    Mr. Wolf. Can you give an estimate of the percentage of 
grantee clients who are aided by self-help resources such as 
forms or advice regarding the availability of internet-based 
information?
    Mr. Sandman. I am not able to give a number, but it is a 
very significant percentage of the clients that we serve.
    Mr. Wolf. Okay. You know, the others we will just kind of 
submit for the record.
    [The information follows:]

    1. Can you give an estimate of the percentage of clients 
who are aided by self-help resources such as forms or advice 
regarding the availability of internet-based information?
    Answer: Last year, LSC grantees closed nearly 1 million 
cases, involving households of approximately 2.3 million 
people. In addition, another 4 million people received pro se 
assistance from a variety of sources that included court 
kiosks, self-help materials posted on websites, and distributed 
at workshops and clinics in 2010.

    Mr. Fattah, do you have any last questions before we leave?
    Mr. Fattah. No.
    I thank you for your testimony.
    Mr. Fattah. It was a western Missouri case related to a 
husband who tried to kill his wife and their daughter by 
setting the house on fire. And when his wife ran from him, he 
found her and smashed her head in with a gun causing serious 
brain injury. Legal Aid of western Missouri enrolled her in the 
State Protection Program and helped her get a divorce and sole 
custody of her daughter. And there are an ample number of other 
cases.
    But, again, I want to thank you for the work you are doing. 
I know that the chairman and the committee will work hard to do 
the best we can with your appropriations request. Thank you.
    Mr. Wolf. Mr. Grey, you wanted to----
    Mr. Grey. Mr. Chairman, just one thing to add. Having been 
the president of the ABA at one point in my life, I think it is 
important just to observe that the association takes pro bono 
work very seriously. It has a standing committee on Legal Aid 
and indigent defendants and also works to establish a summit on 
an annual basis. And it is my understanding that the chairman 
also plans to have the ABA representative on this task force.
    So what we understand to be the way you have championed 
this is similar to our approach to this is that we want to have 
the players involved with us as we make this happen. But I 
would like to do a little bit more research and work to assist 
you in reaching out because I think your outreach is important 
as well.

                  PRO BONO REQUIREMENTS IN LAW SCHOOLS

    Mr. Wolf. Well, we will share. If you can assist us, 
because you understand better than I do. We will share with you 
the letters, and we will share with you the responses that we 
get.
    The other thing is in law school, they had some pro bono 
program, but it was really not serious. It was----
    Mr. Grey. It has changed.
    Mr. Wolf. And it has changed a lot.
    Mr. Grey. Oh, yeah.
    Mr. Wolf. So like----
    Mr. Grey. It has changed a lot.
    Mr. Wolf. Would a whole course involve, for example, being 
with a Legal Services provider in south Philadelphia?
    Are there any that are so intense that way?
    Mr. Sandman. Oh, yes. There are a number of law schools 
that have mandatory pro bono hours as a requirement for 
graduation. Also some of the law schools are very generous in 
providing loan repayment assistance to graduates who go into 
Legal Services. They will forgive portions of their law school 
debt depending on the----
    Mr. Wolf. How do they do that?
    A young woman who worked for me for a number of years just 
graduated from a good law school. And she is going with a big 
firm here in town. And she says that because of the cost of 
tuition, she really does not have any other choice.
    Mr. Sandman. The loan repayment assistance programs have 
been very important in allowing law students who might not 
otherwise be able to afford to to go into----
    Mr. Wolf. How many have that? How many law schools have 
that?
    Mr. Sandman. I do not know how many of the law schools have 
it. I know that the bigger, wealthier law schools have very 
generous programs. Part of our funding request also is----
    Mr. Fattah. If the gentleman would yield. I know, for 
instance, the great law school in Philadelphia, the University 
of Pennsylvania Law School, that my wife graduated from, it 
does have a mandatory, Mr. Chairman, requirement for credit, 
where the third-year student must do this pro bono work as part 
of their activities.
    Mr. Wolf. Well, that is good.
    Mr. Sandman. That is my law school too.
    Mr. Wolf. The closest I got to Penn is a weekend--they let 
me play in the sandlot football team on their practice field 
down by the Schuylkill River if you recall.
    Well, that is good. I think the more you are reaching out 
to the major law schools with regard to the payment of tuition 
the better.
    Very seldom do you go with a big law firm in New York City 
or Washington or Philadelphia and then leave to go out and 
practice either in a district attorney's office or practice in 
a Legal Services program. It is usually you do that for a 
couple years and then you go the other way.
    So it would be interesting to see for the record how many 
law schools actually give help with regard to the repayment of 
loans.
    What is the traditional time that people stay with Legal 
Services?
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7259C.089
    
    [GRAPHIC] [TIFF OMITTED] T7259C.090
    
    [GRAPHIC] [TIFF OMITTED] T7259C.091
    
    Mr. Sandman. The average tenure, I am not certain of. It is 
difficult, though, because the starting salary at the programs 
we fund averages $43,000 a year and after 10 to 14 years, the 
lawyer might be averaging $59,000 a year.
    So we do see significant turnover at the bottom. We also, 
though, have many long-serving people who stick it out for 
decades. But there is significant attrition after those first 
three or four years because of the financial burden that people 
bear when they decide to go into Legal Services.
    Mr. Wolf. So when they go into Legal Services, do they sign 
a contract for a specified period of time and then they 
continue or is it just you just join and maybe stay six months, 
maybe stay six years?
    Mr. Sandman. They typically would not have a fixed 
commitment except that if they are getting loan repayment 
assistance----
    Mr. Wolf. Right.
    Mr. Sandman [continuing]. Either from a law school or from 
us. Part of our funding request is for loan repayment 
assistance so that our grantees can attract people who 
otherwise----
    Mr. Wolf. How much is in your budget request for loan 
repayment?
    Mr. Sandman. A million dollars is our request.
    Mr. Wolf. So if you could give us for the record what the 
normal course of time of the average attorney spends with Legal 
Services.
    Mr. Sandman. Yes.
    [The information follows:]

    3. What is the traditional (or average) amount of time that 
lawyers stay with Legal Services offices?
    Answer: Based on data collected from LSC grantees for 2010, 
on average, staff attorneys stay in their positions at LSC-
funded program from six to seven years.

    Mr. Wolf. Okay. With that, we thank you for your testimony.
    Mr. Sandman. Thank you.
    Mr. Wolf. The hearing is adjourned. Thanks.

    [GRAPHIC] [TIFF OMITTED] T7259C.092
    
     [GRAPHIC] [TIFF OMITTED] T7259C.093
    
     [GRAPHIC] [TIFF OMITTED] T7259C.094
    
     [GRAPHIC] [TIFF OMITTED] T7259C.095
    
     [GRAPHIC] [TIFF OMITTED] T7259C.096
    
    [GRAPHIC] [TIFF OMITTED] T7259C.097
    
     [GRAPHIC] [TIFF OMITTED] T7259C.098
    
     [GRAPHIC] [TIFF OMITTED] T7259C.099
    
     [GRAPHIC] [TIFF OMITTED] T7259C.100
    
     [GRAPHIC] [TIFF OMITTED] T7259C.101
    
     [GRAPHIC] [TIFF OMITTED] T7259C.102
    
     [GRAPHIC] [TIFF OMITTED] T7259C.103
    
     [GRAPHIC] [TIFF OMITTED] T7259C.104
    
     [GRAPHIC] [TIFF OMITTED] T7259C.105
    
     [GRAPHIC] [TIFF OMITTED] T7259C.106
    
                                         Friday, February 11, 2011.

 ASSESSMENT OF REENTRY INITIATIVES, RECIDIVISM AND CORRECTIONS SPENDING

                               WITNESSES

ADAM GELB, DIRECTOR, PUBLIC SAFETY PERFORMANCE PROJECT, PEW CENTER ON 
    THE STATES
THE HON. MARK L. EARLEY, MEMBER OF THE BOARD, PRISON FELLOWSHIP 
    INTERNATIONAL, AND IMMEDIATE PAST PRESIDENT, PRISON FELLOWSHIP USA
MICHAEL THOMPSON, DIRECTOR, JUSTICE CENTER, COUNCIL OF STATE 
    GOVERNMENTS
R. SETH WILLIAMS, DISTRICT ATTORNEY, CITY OF PHILADELPHIA
    Mr. Wolf. Good morning. The hearing will come to order.
    Over the past 25 years, the U.S. prison and jail population 
has skyrocketed to an all-time high with 2.3 million people 
incarcerated. We are the world's incarceration leader confining 
23 percent of the world's prisoners. Therefore, it has become 
imperative that the U.S. modernizes expensive, unsuccessful, 
and unsustainable corrections policies.
    The Nation spent $68.7 billion on corrections in 2006, a 
$660,000 increase from 1982. In fiscal year 2010, we spent $100 
million on reentry programs at Justice and today, the Justice 
Department oversees the Second Chance Act grants, and numerous 
other federal agencies oversee others. And we are really not 
sure what the response has been.
    Despite the dramatic increase in corrections spending over 
the past two decades, re-incarceration rates for people 
released from prison are largely unchanged. And as the report 
points out, by some measures, they have worsened. National data 
show that about 40 percent of released individuals are re-
incarcerated within three years.
    As the acting inspector general of the Justice Department 
reported recently, because of certain design flaws, it is 
difficult to determine the effect that some of our programs 
have had on reducing recidivism.
    As this report states, ``if a program does not reduce 
recidivism, agencies are wasting their investments.'' Clearly 
what we need are strategically designed programs based on 
demonstrated evidence with vigorous evaluation components to 
alert us to what is and is not working.
    The report released early this week is a culmination of 
nearly two years of collaboration between the Congress and 
these private foundations to identify the best practices in 
recidivism reduction and reentry programs.
    Two years ago, in this subcommittee, Alan Mollohan, 
Chairman Mollohan, held some of the best hearings that I have 
been involved in, and I know Mark and others were here during 
that time, on correction reform.
    The witnesses demonstrated that a number of state and local 
governments have taken the lead in correction reform. There are 
innovative policies that have dramatically reduced recidivism 
and reduced spending on corrections.
    The testimony confirmed to me that it is time to stop 
studying this issue and instead start widely implementing the 
best practices from these successful reforms.
    At the end of this hearing, I challenged the hearing 
witnesses to host a national summit to bring together the best 
minds from state and local governments to identify the best 
practices for reform. The national summit was held in the 
Capitol one year later on January 27, 2010, with more than 300 
experts and policymakers from the state and federal 
governments.
    The excellent information that was presented at the summit 
has now been distilled into the report that is being released 
this morning. This report has been written to serve as a best 
practices manual for policymakers and correction practitioners. 
It is a practical resource that will serve as a handbook for 
reform.
    The report is a rich summary of the growing body of 
evidence that suggests that we can turn around the failure 
rates associated with outdated reentry efforts. It describes 
promising innovative efforts that are being tailored to 
specific populations and jurisdictions. And I hope the lessons 
can be applied to our federal prison system.
    I am encouraged by this pursuit of real solutions that I 
believe can achieve the critical objectives of reducing costs, 
prison population, and crime because things need to change. We 
need to actually make a difference.
    With that, I am pleased to welcome our four witnesses here 
today. Mr. Adam Gelb is the director of the Public Safety 
Performance Project at the Pew Center on the States which helps 
states advance fiscally sound, data-driven sentencing and 
correction policies that protect public safety, hold offenders 
accountable, and control correction costs. He was recently 
executive director of the Georgia Sentencing Commission and 
vice president of the Georgia Council on Substance Abuse.
    The Honorable Mark Earley, a former state senator and 
Attorney General of Virginia, and somebody who really made a 
great contribution to the State, is the immediate past 
president of the Prison Fellowship USA, having served for more 
than eight years as president of the Nationwide Ministry 
founded by Charles Colson. He is currently a member of the 
board of directors of Prison Fellowship International which is 
now active in over 110 countries.
    Mr. Michael Thompson, director of the Justice Center at the 
Council of State Governments, Mr. Thompson has worked on 
criminal justice policy issues with the Council of State 
Governments since 1997 where he has launched and overseen 
various initiatives to improve outcomes for people with mental 
illness in the criminal justice system, enhance the ability of 
people released from prisons and jails to succeed in the 
community, and increase public safety while reducing the 
spending for corrections.
    The last witness, who I will defer to Mr. Fattah to 
introduce, will be Seth Williams of the City of Philadelphia. 
And with that, I will just defer to Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman, and thank you for 
convening this important hearing today. It is a very important 
subject in our criminal justice system.
    And to contribute, I have invited and you have agreed to 
hear testimony from the district attorney of the City of 
Philadelphia, Seth Williams, who I have known since the mid 
1980s. He went to Penn State. He was the head of the student 
government there. And you have some affinity for this school, 
and I served on the board of trustees.
    Mr. Wolf. Have the colors on today, blue and white.
    Mr. Fattah. I did not matriculate there, but I did get a 
chance to serve at some later point on the board of trustees. 
It is a great university.
    But Seth is a product of the Philadelphia public schools. 
He runs a 600-employee shop of the district attorney's office 
responsible on the front line of protecting one and a half 
million citizens from crime and prosecuting wrongdoers.
    But he has taken an unusual interest in this issue of 
reentry because we have literally hundreds of people released 
from prison back to Philadelphia every week and they are trying 
to figure out how not to have them victimize others and return 
to prison. We have a 70 percent recidivism rate in the 
Philadelphia area.
    So Seth is a major in the JAG Unit for the Army Reserve, 
and I will stop there because I could go on forever. He is an 
extraordinary young man who is making a real impact in 
Philadelphia. I am glad he is here and I want to welcome him.
    Mr. Wolf. Well, thank you.
    And I want to welcome you, too, and I looked at, as we 
mentioned earlier, your bio. I went to John Barshom High School 
which is pretty close to where you live and went to Penn State 
and also went to Georgetown Law School.
    Mr. Williams. You made a good choice.
    Mr. Wolf. Yes. I admit to the Georgetown law thing, you 
know. And at one time, I actually considered returning when I 
graduated from law school, returning to Philadelphia to run 
actually for district attorney. It had been a dream that I had. 
My dad had been a Philadelphia policeman.
    No, I am not going to go back. I fell in love with 
Virginia. But, you know, really got interested in this issue 
and I am glad you are here.
    Mr. Fattah, I was a probation officer, parole officer for 
the county courts of Philadelphia and, you know, and maybe we 
can help work with Philadelphia to make this a model to see, 
but I think in the recidivism rate and to do what we can. So I 
am glad somebody with your practical experience is here, and I 
appreciate Mr. Fattah, you know, in inviting you.
    With regard to that, we will just sort of open up and maybe 
go in order. And then, you know, we will have a lot of 
questions. Maybe just go down.
    Mr. Gelb. Great. Thank you.
    Good morning, Mr. Chairman. Thank you and Ranking Member 
Fattah and other Members of the subcommittee for the 
opportunity to testify this morning. I am Adam Gelb with the 
Pew Center on the States and run the Public Safety Performance 
Project as you described.
    All of us at Pew applaud you for your leadership in drawing 
attention to promising strategies for reducing crime and 
victimization in America. States increasingly are moving toward 
the adoption of cost-effective solutions to pressing 
corrections issues and the Federal Government has played and 
has an incredible opportunity to continue to play an important 
role in that.
    Mr. Chairman, you cited some of the statistics here. Over 
the past three decades, the United States has built a prison 
system that is the largest and most expensive on the planet. 
There is no question that violence and career criminals need to 
be locked up and for a long time.
    But as we reported in 2008, with those 2.3 million 
prisoners and jail inmates we now have one in a hundred adults 
in this country behind bars. That is the equivalent of locking 
up every single person in Virginia Beach, Louisville, Kentucky, 
Pittsburgh, Seattle, and Cincinnati, every single person in 
those states and those cities.
    The cost of this has been consuming state budgets. State 
prisons now cost over $50 billion a year. It has been the 
second-fastest category of state spending, trailing only 
Medicaid, and it now accounts for one in every fourteen state 
general fund dollars, twice the share it did about 20 years 
ago.
    And even though two-thirds of the offender population is in 
the community, about 90 percent of the corrections spending is 
on prisons. And at this point, about one in eight state 
government employees works for Department of Corrections.
    What have we gotten for all this spending? No question 
crime rates have fallen since the mid 1990s, and research shows 
that increased incarceration can claim a modest part of the 
credit. The crime rate is still too high, particularly in 
certain areas, and recidivism rates, as you said, do not appear 
to have come down.
    The average inmate released today spends a good bit longer 
behind bars, but is not necessarily any less likely to come 
back than he would have been 25 years ago.
    The good news, though, is that we now have solutions, new 
strategies revealed by research that can both cut crime and 
lower costs for taxpayers. More than a dozen states have now 
engaged in a comprehensive data analysis and planning process 
that we call justice reinvestment.
    With this assistance from Pew, other funders, and certainly 
the Bureau of Justice Assistance at the Justice Department and 
the Congress, states are making significant shifts in policy, 
making better decisions about who goes to prison, how long they 
stay, and how they can do a better job reducing the recidivism 
rate.
    Now, there is a presumption, I think out there, that states 
are sort of being forced to do these kind of things because of 
the budget situation. They are sort of holding their nose and 
saying we have got to find budget savings and sort of make some 
bad policy decisions. And we are out there on the ground 
working with them and can just say unequivocally that is not 
the case. There is much more to the story.
    There is no question that the fiscal pressure is partly 
responsible for the interest in these approaches, but states, 
particularly tough on crime states like Texas and South 
Carolina, would not be engaged in justice reinvestment just to 
save money. They are simply not folks who are going to try to 
balance their budgets on the back of public safety. And, in 
fact, a number of states including Texas started down this road 
well before the recession started in 2007.
    What instead is going on is that states are realizing that 
they can deliver taxpayers a better public safety return on 
their corrections dollars and they can do it because we do so 
much more today than we did 30 years ago when we started down 
the prison building path when prisons became our weapon of 
choice in the war on crime. We know so much better about how to 
stop the cycle of recidivism. I am just going to list a few 
things.
    We have much more accurate risk assessments than we did. 
Volumes of data have been analyzed and we are much better able 
these days to distinguish between high and medium and low-risk 
offenders, who needs to go to prison and at what levels to 
supervise people.
    Second, there have been tremendous advances in supervision 
technology. The short time you were in the system as a parole 
officer, there was no such thing, you could not have dreamed of 
a GPS tracking system, rapid result drug tests that turn around 
those results instantly. And those things just did not even 
exist. We have them now, ignition interlocks for drunk drivers, 
et cetera, ATM-like kiosks for low-risk offenders, all kinds of 
things that did not exist before.
    Third, we have improved our knowledge about how to change 
behavior. The treatment programs today are not the kind of 
treatment programs that were around, the effective ones anyway. 
They use cognitive behavioral therapy. They use motivational 
interviewing and swift and certain sanctions. They are much 
more effective.
    One example of a program that sort of brings these pieces 
together that collectively are known as evidence-based 
practices is the HOPE Program in Hawaii which I think, Mr. 
Chairman, you are familiar with. It is showing dramatic results 
with large numbers of offenders including those who have 
problems with meth.
    HOPE was started by Judge Steven Alm, the former U.S. 
attorney who was really frustrated with the revolving door. He 
said, let's stop, let's do things differently. We are going to 
test drug offenders twice per week and if they are dirty, they 
are going to go to jail immediately for two days, no ifs, ands, 
or buts. We are not going to wait for them to test positive 15 
or 20 times and then at some arbitrary point sort of throw down 
the hammer and end up in prison for two years for a costly 
prison term. But each and every time, it is swift and certain. 
And if offenders do not stop and cannot stop on that testing 
and sanctions regime with swift and certain jail terms, then at 
that point, they are referred for treatment.
    The results have been powerful. There was a randomized 
controlled trial, sort of the gold standard research 
evaluation, and HOPE probationers were 55 percent less likely 
than the control group to be arrested for a new crime, 72 
percent less likely to test positive for drugs, and they used 
about 50 percent fewer prison and jail bed days.
    So with these kind of results, states and localities across 
the country are beginning to adopt and experiment with the HOPE 
model. Pilots are up and running in Alaska and Arizona and 
under consideration in Virginia, in Fairfax County, in 
Kentucky, Arkansas, California, and Alabama.
    But in order to realize the fiscal benefits which are 
estimated at between four and eight thousand dollars per 
probationer, states need the technical assistance and start-up 
funds that are currently in short supply. So if we had even a 
modest investment in the HOPE model with those kind of results, 
we could make a profound impact on crime and drug abuse and on 
overall correctional costs.
    There is still one more reason why states are pursuing 
alternate strategies and that is public support. Last year, we 
worked with Public Opinion Strategies and the Benson Strategy 
Group to conduct comprehensive research on public attitudes 
towards crime and punishment. The survey found that without 
question, voters want a strong public safety system that holds 
criminals accountable and metes out consequences for illegal 
activities.
    At the same time, voters believe that such a system is 
possible while reducing the size and the cost of the prison 
system. And I will just give you one question from the poll. We 
asked whether voters agreed or how much they agreed with the 
following statement: ``It does not matter whether a nonviolent 
offender is in prison for 21, 24, or 27 months, what really 
matters is that the system does a better job of making sure 
that when an offender does get out, he is less likely to commit 
another crime.'' Ninety-one percent of the respondents agreed 
with that and 75 percent strongly agreed with that statement.
    So with that kind of support, it is clear to us the 
American public is ready for a shift from simply building more 
and more prisons to smarter strategies that actually make them 
safer.
    So in sum, the economic crisis is bringing states to the 
table, but it is not the meal. The demand we are seeing for 
justice reinvestment and better recidivism reduction strategies 
is happening because policymakers from both sides of the aisle 
increasingly know that there are research-based strategies for 
nonviolent offenders that produce less crime at less cost than 
prison.
    Thank you.

    [GRAPHIC] [TIFF OMITTED] T7259C.107
    
    [GRAPHIC] [TIFF OMITTED] T7259C.108
    
    [GRAPHIC] [TIFF OMITTED] T7259C.109
    
    [GRAPHIC] [TIFF OMITTED] T7259C.110
    
    [GRAPHIC] [TIFF OMITTED] T7259C.111
    
    Mr. Wolf. Thank you.
    Mr. Earley.
    Mr. Earley. Congressman Wolf and Ranking Member Fattah, 
thank you for having us this morning. And along with my 
colleagues, I thank you for keeping the attention on what I 
think is probably one of the most significant pressing domestic 
issues in the country.
    I would like to begin just by sharing a little bit of my 
own personal story. I have had a bit of an evolution on 
thinking about the whole criminal justice system. I can do this 
fairly quickly.
    When I was first elected to office in 1987 as a state 
senator in Virginia, crime was a wedge issue in politics at 
almost every level in the United States, mayor, state 
legislature, governor, attorney general, Congress, even 
President. And so it was a hot topic and basically everyone 
pretty much tried to out-toughen everybody else.
    And there were some reasons people were responding to that. 
There was a pretty significant breakdown of the family going 
on. The high drug use was beginning to happen. And so there 
were a lot of things, percolating around the 1970s and 1980s.
    When I was elected, I was sort of right in the middle of 
that. And during my ten years in the Senate in Virginia, we did 
what everybody else in the Nation did, we got touch on crime. 
And it happened in Congress too. And, quite frankly, it was a 
pretty bipartisan effort across the board.
    And as a result of that, when you step back and look now 
back 25 years later, we went in America from having less than 
500,000 people incarcerated in total to today having over two 
million.
    And as Adam shared, one out of one hundred adults in the 
United States are incarcerated. We incarcerate at a greater 
rate than any other nation and we have more people behind bars 
than any other nation, which is ironic based on how we perceive 
ourselves as a Nation and what we hold as some of our 
fundamental values.
    I was and am a social conservative if you had to describe 
me, I suppose. And so the things that were important to me were 
things like liberty and freedom, obviously wise stewardship of 
taxpayer dollars, and also limited government.
    And when I look back now, I see that the policies that we 
used, which was primarily viewing prison as probably the most 
effective tool in doing something about crime, going down that 
road led to a tremendous national loss of personal liberty and 
freedom. It led to one of the biggest growths in any government 
program we have seen in the last 50 years, which is 
corrections. And it is really spending an incredible amount of 
money and getting no better results. You know, we still have 
the same recidivism rates today that we had 25, 30, 40 years 
ago. They have not moved. Half of everybody who gets out of 
prison comes back within three years.
    So this is really something that needs a lot of attention. 
And the really tragic thing is when you look beneath these 
numbers of one out of every one hundred being locked up and 
then a more devastating number, I think, one out of every 
thirty-one adults are either locked up or under the direct or 
indirect supervision of a Department of Corrections, probation 
or parole.
    It is having a devastating effect disproportionately on 
certain communities in America. In the African American 
community, this is having a generational impact that is 
unraveling the community I think for generations to come unless 
we do something different.
    Women are the fastest growing sub-population in prisons in 
America. The Hispanic population is significantly over-
represented even when you take away immigration related issues. 
In California, 65 percent of the people locked up today are 
Hispanic.
    So that is the problem we are all trying to address and I 
think this committee is aware of it. I think the public is 
aware of it more today. I certainly see that. There has been a 
huge ground shift in public perception, and I think the main 
reason is once you put over two million people behind bars, 
everybody knows somebody who is locked up. And that was not 
true 25 or 30 years ago.
    You know, when I grew up, I did not know anybody who went 
to jail, but now I have had family members who have been to 
jail, good friends, colleagues, and I think that is true for 
everybody in this room.
    So it has touched the Nation in a very personal way, and I 
think everybody realizes that not everybody in prison is beyond 
redemption, beyond hope, and beyond the chance of a better 
life.
    So in response to the summit that you convened last year, 
we have got a great report that is in front of you. I agree 
with everything that is in that report, so I will not sort of 
go back over that.
    I do want to add some things that I think are not in the 
report that I think are as critical as what is in the report. 
And it is three things that I think are well within the reach 
of this Congress to do.
    The first is there is a really important piece of the 
puzzle in my experience both in getting tough on crime and now 
in the last nine years at Prison Fellowship going into prison 
and try to help people who are in prison get ready to come out. 
There is a very important piece missing in a lot of discussion 
and it is this.
    You cannot hire enough people at the state level or federal 
level to help inmates get ready to come home. Government at the 
federal and state and local level has to leverage the 
volunteers in the community, nonprofits, be they faith based or 
secular, but community people to get involved in the lives of 
these inmates.
    Over the last nine years, I have probably been in over 200 
prisons in the United States and around the world. Most of the 
successful stories that I have seen of people whose lives have 
changed have been through human interaction. That human 
interaction may have come through a program, but it has been 
through human interaction and it is often expressed like this 
by an inmate.
    When these people started coming into prison, I wondered 
what they wanted and then I realized they love me. And there 
was something about being affirmed, being loved, being invested 
in which many of these men and women have not had before, that 
was the pivotal life-changing moment. It may have helped them 
to go on and believe they could get their degree. It may have 
helped them believe they could truly break an addictive habit 
of drugs or alcohol. But it was human interaction.
    We cannot hire people to do that and we should not try, but 
there are an army of volunteers around the Nation who are 
willing to do that and it is growing because everyone has been 
touched by this issue. So it becomes very important for states 
and the federal prison system to be volunteer friendly to let 
people in.
    The big emphasis in prisons in the 1980s and 1990s was on 
security. If the emphasis shifts toward success in reducing 
recidivism as well as security, then every level of 
correctional operation in the U.S. has to get better at 
welcoming volunteers and partnering with volunteers. It is 
absolutely key and it does not cost money at the end of the 
day. It does take some time and it takes a different approach 
within the prison, but it is not a big ticket item. So that is 
the first thing I would ask everybody to keep in mind.
    Secondly, one of the things that the justice reinvestment 
report points out that I think is very important is that we do 
not have enough research going on with programs that we fund. 
There are a lot of pilot programs that go on at the state level 
and the federal level and many of them are good.
    The problem is most of them when they are set up and 
funded, they are not funded with the idea of being really 
research evaluated at the end. So even if they are evaluated, 
it is usually not research. And if they try to be evaluated, 
they have not been set up in such a way to be a good 
experiment.
    So one of my suggestions is that both in the Second Chance 
Act and in the Justice Reinvestment Act, the Congress consider 
changing the language or doing what it needs to do so that 
every grant that is given, whether it is given to a state or 
whether it is given to a 501(c)(3) community-based program, 
built into that grant is a research requirement that is also 
funded within the grant, that part of applying for the grant is 
you have to apply for your program and you design the program 
to be studied. That is part of the deal. And when you get 
funded, you are funded not only to do the program but the 
research is funded as well.
    So then everything that Congress funds, it can really look 
back on in one or two or three or four or five years and see if 
this worked. And if it did, we are going to have a growing 
number of programs that prove themselves beyond the mere legend 
but prove themselves based on the data. So I think that would 
be a really good way to bring accountability into what are two 
really good acts and that is the Second Chance Act and the 
Justice Reinvestment Act.
    The third thing I would suggest is that though I think it 
is important for the Congress to continue to fund programs at 
the state level, provide the technical assistance like is going 
on through the Second Chance Act and the Justice Reinvestment 
Act, do not neglect the Federal Bureau of Prisons. There are 
2.3 million people in prison in the Nation. I looked this 
morning. The Federal Bureau of Prisons every Thursday at twelve 
noon lists the current count. As of yesterday at twelve, there 
were 209,159 people in the federal system, a little less then 
ten percent. So Congress itself actually has an incubator.
    The Bureau of Prisons could be made to do a lot of the 
things we have talked about that the states need to do and 
become a model. When that happens, I promise you the states 
will copy it. Every state loves to find a program that is 
working and copy it. Every state correctional department has a 
very high view of the Bureau of Prisons. And so I think it is 
really an opportunity for the Bureau of Prisons to be the 
leader.
    When I shared last year at the Justice Reinvestment Summit, 
I mentioned five things I thought the Bureau of Prisons could 
do pretty much fairly quickly that would help them to be a 
model. I think they all sort of still stand as needed. I will 
run through them real quickly.
    First, to establish a probation and parole system that 
punishes violators immediately like Project HOPE which you just 
heard Adam talk about.
    Secondly, to actually comply with I think an existing 
regulation to expand the beds in halfway houses to allow a 12-
month stay rather than a six-month stay and to give reentry 
participants first priority.
    Third, and this is a really important one, put inmates as 
close to their families as possible rather than as far away. 
The research has been clear for three decades that the greater 
separation there is between families when people are in prison, 
the higher the recidivism rates. It does not necessarily mean 
we have to build new prisons.
    For example, in D.C., we have several thousand people 
returning to D.C. from prison every year. They could be staged 
back at the facility here in D.C. rather than brought back 
cold. But get them closer to their families.
    Finally, I talked about the mentoring aspect and then the 
last thing open the doors. In my experience in the last nine 
years, and this is limited experience so I would not die on 
this, but at Prison Fellowship, we have found it much easier to 
work with prisons in the states than we did the Federal Bureau 
of Prisons in terms of getting volunteers in, getting 
programming time. The Federal Bureau of Prisons just seem to be 
much more rigid and very, very security conscious that they had 
a difficult time creating opportunities for programs and 
interaction that could really change inmates' lives.
    So with that, I thank you and appreciate you all's 
continued attention to this subject.

[GRAPHIC] [TIFF OMITTED] T7259C.112

[GRAPHIC] [TIFF OMITTED] T7259C.113

[GRAPHIC] [TIFF OMITTED] T7259C.114

[GRAPHIC] [TIFF OMITTED] T7259C.115

[GRAPHIC] [TIFF OMITTED] T7259C.116

[GRAPHIC] [TIFF OMITTED] T7259C.117

[GRAPHIC] [TIFF OMITTED] T7259C.118

[GRAPHIC] [TIFF OMITTED] T7259C.119

[GRAPHIC] [TIFF OMITTED] T7259C.120

    Mr. Wolf. Mr. Thompson.
    Mr. Thompson. Chairman Wolf, Ranking Member Fattah, members 
of the subcommittee, thank you very much for the invitation to 
testify today about issues concerning corrections and public 
safety.
    This committee's constant focus on unacceptably high 
recidivism rates in this country has begun to yield significant 
and exciting dividends. I am pleased today to provide you an 
update about what is happening across the country.
    In 2009, this committee convened a series of hearings on 
reentry and recidivism. As you mentioned, Mr. Chairman, it was 
an unprecedented examination by Congress on challenges 
confronting government officials and community-based 
organizations across the country trying to reduce the Nation's 
high rates in recidivism. The hearing also spotlighted 
innovative, promising reentry programs underway across the 
country.
    Congressman Wolf at the time challenged the Council of 
State Governments and the Pew Center on the States to convene a 
summit of the Nation's leading corrections and criminal justice 
experts as well as researchers and practitioners.
    The instructions that we received were not simply to 
catalogue programs but zero in on the strategies relevant to 
all jurisdictions, boil down the research and experience of 
places and the experiences of places across the country, and 
report on the key elements to reduce recidivism.
    We convened the summit with the support of BJA, a division 
of the Office of Justice Programs in the Department of Justice 
and the Pew Center on the States and the Public Welfare 
Foundation. As you mentioned, it happened about a year ago, 
pulled together, including Mr. Earley and others, 300 people 
across the country, State Supreme Court chief justices, state 
corrections directors, jail administrators, police chiefs, 
victim advocates, a real who's who of criminal justice from 
across the country.
    We released the report earlier this week. We thank you very 
much for helping to speak at that event. And I want to focus on 
the four strategies that the summit report highlights.
    The first is to focus on individuals most likely to re-
offend. We need to stop making gut decisions about who 
represents a risk to public safety and, as Mr. Gelb mentioned, 
use the science-based tools that now exist to really 
distinguish about who is high risk of re-offending, medium, and 
low risk of re-offending.
    Texas does this. Every parole decision now that is made is 
informed by and driven by a risk assessment instrument that 
helps predict what the likelihood is of re-offense. Recidivism 
rates of parolees in Texas have never been lower.
    Second, we need to base programs on science and ensure 
quality. Like never before, we know now about the services and 
reentry programs that have an evidence base to them. We need to 
make sure that that is what we are funding.
    Three, we need to make sure that we are implementing 
effective community supervision policies and practices. Both 
witnesses so far have talked about the importance of swift and 
certain responses. For too long, when a probationer or a 
parolee does not comply with conditions of release, we wait for 
weeks before taking any action. We now know and the evidence 
shows that we need an immediate response. Georgia does this 
with its probation and it has seen extremely significant 
reductions in revocations as a result.
    Fourth, we need to apply place-based strategies. As Mr. 
Earley mentioned, we are talking oftentimes about people not 
from and evenly distributed across the state. They are 
returning to very specific neighborhoods in the state. We know, 
for example, in Arizona, a neighborhood that is one percent of 
the state's population, yet seven percent of the state's prison 
population. We need to focus on those particular places and 
make sure that people are safely and successfully reintegrated 
there.
    The bipartisan Second Chance Act and the funding that was 
made available through it enables states and county governments 
and community and faith-based organizations to incubate the 
kinds of programs that the strategies talked about in the 
summit. It helps them translate them into actual practice.
    The Second Chance Act grant programs have been extremely 
popular among state and local governments and community and 
faith-based organizations.
    In the first year since the act's authorization, nearly a 
thousand sites applied for Second Chance funding. Of those 
nearly thousand applications, 67 grants were actually approved, 
spanning 31 states. The level of demand for the Second Chance 
Act Grant Program makes it about the most competitive program 
the Department of Justice manages with just a seven percent 
approval rate.
    In fiscal year 2010, nearly 1,200 applications were 
received under the Second Chance Act. This time, thanks to 
increased funding made available through this committee, 200 
awards were made to grantees in 45 states. Even with the 
increase in funding from 2009 to 2010, less than 16 percent of 
the applicants actually received support.
    One grantee that I would want to spotlight for just a 
second is the Oklahoma Department of Corrections. It actually 
took some of the strategies that the summit report that you 
commissioned from us, Mr. Chairman, actually takes those and 
operationalizes them. It focuses, for example, on medium to 
high-risk offenders.
    And what it does is it recognizes, as was said earlier, 
that the people coming out of the prisons, and this group in 
particular comes out to no supervision whatsoever, is in one 
remote part of the state, returning to Oklahoma City. With the 
Second Chance Act grant funds, it actually creates a 
transitional reentry program in downtown Oklahoma City. We are 
very optimistic and confident it is going to show dramatic 
impact on recidivism. And we are looking forward to reporting 
on that soon.
    Unfortunately, pilot programs and an improved knowledge 
base are not enough to help states navigate the dilemmas they 
face as they are trying to figure out how to cut tens of 
millions or hundreds of millions of dollars in spending while 
still trying to increase public safety.
    In 2009, you heard testimony from a legislative leader in 
Texas, a corrections secretary in Kansas, and they talked about 
how their states were facing significant growth in their prison 
population and they were receiving instructions to somehow cut 
correction spending and increase public safety. It is against 
this backdrop that they employed a justice reinvestment 
approach.
    By justice reinvestment approach, what they did is they 
took a real data driven detailed look at what was driving their 
prison populations, worked across party lines with all the 
people on the front lines of the criminal justice system with 
help from BJA and the Pew Center on the States and really 
determined what would actually make the biggest impact on 
public safety.
    What we found after the results of those policy changes was 
that Texas and Kansas actually avoided building several new 
prisons that were initially projected, actually saw declines in 
recidivism and saw a decline in crime rates. That was a success 
story that resonated with policymakers across the country. We 
saw governors and legislatures quickly scrambling trying to see 
how they could replicate the successes of those two places. The 
demand, however, for support quickly exceeded whatever kind of 
capacity was available.
    This committee, Mr. Chairman, you recognize the immediacy 
of the challenges that state and local leaders were facing, 
made available $10 million in 2010 for state and local 
governments that wanted to pursue justice reinvestment.
    BJA has since moved exceptionally quickly since receiving 
that funding. They already identified five states where the 
governor and the legislative leaders and the chief justices 
stepped up and said they wanted to employ a justice 
reinvestment approach. Alabama, Indiana, Louisiana, North 
Carolina, and Ohio are the states where the Department of 
Justice is already actively helping them and providing 
intensive support.
    I want to spotlight real quickly Indiana and the work that 
they are doing. Between 2000 and 2009, Indiana's prison 
population grew by over 40 percent, a rate that was three times 
faster than other states in the region. Now, if the existing 
policies in Indiana remain unchanged, Indiana's prison 
population is going to continue to grow. It is going to grow by 
about 21 percent over the next six years. They are going to 
need to spend $1.2 billion to build more prisons and operate 
those prisons on top of what they are already spending over the 
six years to accommodate that growth in the prison population.
    And Governor Daniels and others have said that they wanted 
to take this justice reinvestment approach. They examined what 
was driving the prison population, found that a high rate of 
probation revocations was in part contributing to that, looked 
at the different counties and found that one county had an 11 
percent failure rate for probationers. Another county had 
triple the failure rate.
    How can you have such a wide disparity in failure rates 
from one county to the next? Governor Daniels said this needed 
to be a priority for the State of Indiana and in the State of 
the State, he made it one of his top three legislative 
priorities for this session. We are looking forward to 
continuing to work with him.
    Fourteen states in addition to those that I have mentioned 
have written to the Department of Justice, governors who have 
just been in office for a couple of weeks, saying this needs to 
be one of their priorities. Department of Justice is now in the 
process of reviewing those applications.
    In sum, what we have before us is an historic moment. High 
recidivism rates that once seemed an unfortunate but 
inescapable reality, now, thanks to the work that you have done 
and, Mr. Chairman, as you said, it looks like we are turning a 
corner, there are concrete examples that have actually 
demonstrated significant reductions in recidivism.
    We also have the summit report that distills those 
experiences and tells us what the core strategies are. And 
states and counties can replicate those now across the country.
    And the constant relentless bipartisan focus of this 
committee has changed the mind set about reentry across the 
country. Fifteen years ago when you asked corrections directors 
about reentry, few were talking about it. Now today every 
corrections agency has a point person assigned specifically on 
the issue of reentry. Mayors, sheriffs, governors have all a 
point person in their administration to focus on the topic of 
reentry.
    Now what we need to do is harness the momentum that exists, 
capitalize on the tools that have been assembled because we 
have created an extraordinary window of opportunity to make our 
communities safer. It is because of this committee's work and 
we are looking forward, Mr. Chairman and Ranking Member, to 
continuing to work with you.
    Thank you very much.

    [GRAPHIC] [TIFF OMITTED] T7259C.121
    
    [GRAPHIC] [TIFF OMITTED] T7259C.122
    
    [GRAPHIC] [TIFF OMITTED] T7259C.123
    
    [GRAPHIC] [TIFF OMITTED] T7259C.124
    
    [GRAPHIC] [TIFF OMITTED] T7259C.125
    
    [GRAPHIC] [TIFF OMITTED] T7259C.126
    
    [GRAPHIC] [TIFF OMITTED] T7259C.127
    
    [GRAPHIC] [TIFF OMITTED] T7259C.128
    
    [GRAPHIC] [TIFF OMITTED] T7259C.129
    
    [GRAPHIC] [TIFF OMITTED] T7259C.130
    
    [GRAPHIC] [TIFF OMITTED] T7259C.131
    
    [GRAPHIC] [TIFF OMITTED] T7259C.132
    
    [GRAPHIC] [TIFF OMITTED] T7259C.133
    
    [GRAPHIC] [TIFF OMITTED] T7259C.134
    
    [GRAPHIC] [TIFF OMITTED] T7259C.135
    
    [GRAPHIC] [TIFF OMITTED] T7259C.136
    
    [GRAPHIC] [TIFF OMITTED] T7259C.137
    
    [GRAPHIC] [TIFF OMITTED] T7259C.138
    
    Mr. Wolf. Mr. Williams.
    Mr. Williams. Good morning, Chairman Wolf and my good 
friend, Ranking Member Congressman Fattah.
    And first, Mr. Chairman, I am glad and proud to see another 
Philadelphia boy that went to Penn State and Georgetown doing 
pretty well for himself.
    And, again, my name is Seth Williams and I am the district 
attorney of the City of Philadelphia. I am indeed grateful for 
this opportunity, one just to be here and to share whatever 
ideas I can share with you, but equally important for me just 
to hear from other distinguished people, always the great ideas 
about what we can do to improve the criminal justice system, 
what we can do to improve public safety for all Americans.
    I am very thankful because I really believe that the ideas 
and the goals of reentry and reinvestment are bipartisan. And I 
have come to learn that the hard way. And I think as you heard 
from other people here, my own evolution to this point was when 
I was an assistant district attorney for ten and a half years.
    And it was my job every day to get all of my cases ready 
and to try all ready cases. And it was referred, and I mean not 
to be vulgar, but that we had a verdict orgasm, that all of our 
energies were focused on getting to the verdict, but very 
little of our energies were really in line with trying to 
prevent crime or trying to reduce recidivism.
    As you may know, my predecessor was known as the tough 
cookie. And for generations of prosecutors, that was the goal. 
No matter what the question was, the response was to just be 
tough, no matter if it was from kids writing graffiti on walls 
to homicide. And my predecessor took great pride in being known 
as America's deadliest DA for having more people on death row. 
But Philadelphia still led the Nation in the rate of homicides 
caused by handguns.
    So there was no cause and effect between the one stance and 
on the other hand reducing homicide. So I ran for district 
attorney originally in 2005 and what was on my tee shirts was 
that we had to be smart on crime, not just tough. I wish I had 
copyrighted that because the current attorney general for the 
State of California wrote a book, Smart on Crime, and I do not 
receive any of those royalties, Mr. Chairman. I could pay for 
my kids to go to school if I had.
    But really that I think is what my philosophy is now as the 
district attorney of Philadelphia. Now, we have to be smart on 
crime, that my goal as the district attorney is public safety 
and public safety is about preventing crime.
    Great members of Congressman Fattah's family would prefer 
that he was not shot, not that he was shot, and the district 
attorney's office handled the case very well. So we have to do 
all we can to prevent crime and to reduce recidivism.
    In Pennsylvania, we have seven times the number of people 
today incarcerated than we did 30 years ago, but we are not 
seven times safer. When I came to this, as I said, I was an 
assistant district attorney for ten and a half years. In 2000, 
I was asked to create a unit called the Repeat Offenders Unit 
to deal with the phenomena that in Philadelphia, five percent 
of the defendants were committing 60 percent of the crimes.
    And so I was not a trained criminologist. You know, I did 
very poorly in math and Algebra II when I was in high school, 
but I had to try to come up with ways to try to figure out, 
well, what can we do, what should we do. And what I learned 
along the way is that we have to do all that we can to reduce 
recidivism.
    Defendants that made it into my unit were people who had 
been arrested 25 times or more or had three or more prior 
felony convictions or a total of seven convictions including 
misdemeanors and felonies.
    What I really began to realize was that we did not do 
enough the first time these people were arrested. We did not do 
enough for them while they were on probation or parole or while 
they were incarcerated to ensure that they did not get arrested 
over and over and over again.
    So that was what I meant when I ran, that I wanted to be 
smart on crime. And being smart on crime does not mean being 
soft on criminals. And, again, it is not the severity of 
punishment that changes behavior. It is the certainty of 
punishment. It is not the severity of punishment that changes 
behavior. It is the certainty. So I tell people this everywhere 
I go.
    The honest truth is, I know I was not sworn in today, but I 
hardly ever wear my seat belt. And it is rare that when I am 
driving, I have police officers that drive me now, but it is 
rare when I drive that I drive the speed limit. But I always 
drive the speed limit and I always wear my seat belt when I am 
on a military installation. You heard I am a major in the 
United States Army. I always wear my seat belt. I always go the 
speed limit.
    Why? Because if I do not, if I go one mile per hour over 
the speed limit, I get pulled over on a military installation. 
And it is not going to be a big fine, but I am going to be 
yelled at. I am going to be made, you know, a laughing stock by 
my peers. So it is not the severity of punishment. It is the 
certainty of punishment that changes behavior. And that is true 
if you are raising children, if you are trying to house break a 
dog, or if you are trying to change criminal behavior.
    So this morning, I want to discuss how we can look to 
reduce corrections spending by reducing recidivism. And that 
way is through justice reinvestment. With our limited budgets 
and struggling economy, it remains a challenge to find the 
necessary capital to invest in programs that will improve 
public safety.
    As district attorney of Philadelphia, I want to invest in 
good programs that will reduce recidivism and reduce the size 
of our prison population, but the money just is not there.
    Justice reinvestment affords prosecutors like me, as well 
as other public officials, the opportunity to have a real 
impact in making our communities safer and saving precious 
taxpayers' dollars.
    To that end, I have three primary points this morning. 
First, I want to talk about justice reinvestment generally from 
the perspective of a big city prosecutor. Second, I want to 
provide examples of the kind of public safety investments we 
are trying to implement in Philadelphia and how justice 
reinvestment would help us in that mission. And, finally, I 
want to address the practical importance of obtaining and using 
good data.
    Justice reinvestment, there are three elements of justice 
reinvestment: one, improving public safety; two, reducing 
correction costs; and three, utilizing good and reliable data 
to inform our decisions.
    Justice reinvestment teaches us that we cannot reduce 
correction costs merely for the sake of trying to save a few 
dollars. Such misguided policy will lead to more crime and 
increase costs. Instead we know we can reduce correction costs 
by reducing recidivism. And by reducing recidivism, we make our 
streets and neighborhoods safer.
    And when we decide what programs we are going to invest in 
to reduce recidivism, we must always look to accurate data and 
research, as you heard earlier, not merely anecdote, legend, or 
gut feeling about things. This approach is more than a 
theoretical aspiration.
    In these difficult economic times when our states and 
municipalities are struggling for dollars, it is the most 
responsible and economically sound approach we can undertake. 
Investing in the right programs and reinvesting those savings 
simultaneously make our communities safer and saves precious 
taxpayer dollars. And that is what I call being smart on crime.
    As we talk about justice reinvestment and as we continue to 
show that this is the most effective way of saving money and 
making our cities and towns safer, I believe there will be more 
innovations, efficiencies, and data-driven approaches to public 
safety.
    But here is the challenge. In many cases, programs that 
will lower recidivism rates require us to spend some money well 
before we can realize the greater savings. For those of us on 
the municipal level, it remains a challenge to receive the up-
front capital to invest in the first place.
    More than 90 percent of my office's budget is for salary. 
Therefore, I have little discretionary funds that I can merely 
set aside for new programs or things that I think are great. I 
have made the argument of our mayor, Michael Nutter, that such 
investments will yield Philadelphia both greater financial 
savings as well as safer streets and neighborhoods. Mayor 
Nutter and his staff understand this argument and we continue 
to work together to fund improvement investments.
    The tough economy and the absence of Recovery Act dollars 
should incentivize all of us to find the necessary funding to 
implement public safety programs that will save taxpayer 
dollars.
    Let's use my office as a brief case study. I have 
undertaken a number of initiatives, some with other public 
entities that have saved Philadelphia millions of dollars, made 
our criminal justice system far more efficient and victim 
friendly, and, most importantly, improved public safety.
    Specifically I have revamped our charging unit. The 
charging unit is with the district attorney's office and I have 
the full discretion to determine who gets arrested and who does 
not get arrested and what they are charged with.
    My predecessor used the charging unit as a place to punish 
people. If you dance too close with the boss' wife at the 
Christmas party, then you were sent to the charging unit where 
you spent maybe a year or two, 12 hour shifts in a room that 
had no sunlight, and you reviewed documents that the police 
sent. Well, I have changed that.
    And I travel. And we talk about the best practices. I went 
and I met with Bonnie Dumanis. I flew to San Diego. She is the 
district attorney for San Diego. And she takes great pride, she 
says, in being America's only openly gay Republican Jewish 
district attorney. She has a very small caucus.
    And I learned a lot from her when I visited her. And she 
only puts the most qualified and competent prosecutors who have 
demonstrated great judgment in the charging unit to determine 
who should be charged, what they should be charged with.
    And so I took a unit that had five people and I have 
expanded it to 15. And we are holding the police to task to 
ensure that we have all the proper evidence at the front end 
and that just makes sense. And we are seeing that now in the 
quality of cases that we are putting into our system. We are 
not just abdicating my responsibility to the judges and let the 
judges figure it out. We are doing that in our charging unit.
    Diverting low risk and nonviolent drug offenders. In order 
to move thousands of nonviolent cases out of our main court 
system, we now process cases involving small amounts of 
marijuana as summary cases rather than misdemeanor trials. By 
this method, there are no appointment of counsel costs, no 
police, no necessity for witnesses. We just save a lot of 
money. We do not incur the lab costs.
    My predecessor, one of her parting shots when I tried this, 
she said, oh, the Mexican drug cartels will be jumping for joy. 
Well, the truth of the matter is in Philadelphia, about 75,000 
people get arrested every year. About ten percent of them, the 
most serious charge was that they possessed marijuana. And of 
that 7,500, more than half possessed what our General Assembly 
says is a de minimums amount. It is less than 30 grams. We were 
spending thousands of dollars, appointing attorney, passing 
discovery, having police wait in the courthouse, doing analysis 
on the drugs for thousands of dollars for what is about a 
$10.00 weed case.
    So what we are doing now is we have more certain 
punishment, not severe, but more certain that the defendants 
are paying a $300 fine very quickly. It just makes sense. And 
we are reinvesting that in the criminal justice system of 
Philadelphia.
    Our accelerated misdemeanor program. I have implemented a 
program that accelerates appropriate misdemeanor cases for 
diversion into community service with no misdemeanor trial. The 
city saves counsel costs and reduced police overtime costs. 
There were 464 such cases in the first six months of this 
program.
    Smart rooms, I also learned this from the DA in San Diego. 
There about 75 percent of all their cases result in negotiated 
guilty pleas before the preliminary hearing, before the trial. 
We might not even have had seven of those cases in Philadelphia 
last year. We are trying to ensure that we charge the right 
people, that we get discovery to the defense counsel as soon as 
possible so they can evaluate that and review it with their 
client, and we give a very reasonable offer as the first offer 
that everyone in the system knows is the best offer anyone will 
get.
    Zone courts. I have initiated a program in Philadelphia 
known as Community-Based Prosecution. Crimes occurs 
geographically. I am now assigning my district attorneys 
geographically. Police are assigned geographically. Probation 
officers for the most part are assigned geographically.
    There are patterns of crime based on geography, time, 
temperature, and season. So my DAs are assigned geographically 
and only work in specific neighborhoods to get to understand 
the good, the bad, and the ugly in those neighborhoods and see 
the patterns of crime, know who the good people are, the 
clergy, the business leaders. It is making them more 
accountable, but it is also improving the efficiencies.
    As you heard earlier, all these accomplishments are because 
of several reasons. One, the economy. I mean, every one in the 
criminal justice system has fewer dollars, so people are now 
willing to sit together and say what can we do to solve our 
problems.
    Secondly, the Philadelphia Inquirer, the newspaper of 
record in our city, did a long and exhaustive study about the 
criminal justice system and how broken it was in Philadelphia, 
how Philadelphia had the lowest conviction rate of the 40 
largest urban areas in America despite having had this tough 
cookie.
    So trying to come up with ways to be smart on crime made 
sense economically and it makes sense in trying to reduce 
recidivism and assign the DAs geographically where they work 
with the police. All the courthouse now is assigned 
geographically and we are improving the efficiencies in our 
courthouse. And we are going to hopefully reinvest that again 
into preventing crime.
    Prison legislation. In 2008, my office working along with 
Governor Rendell, Adam Gelb of Pew, and Michael Thompson and 
Dr. Fibello of the Council of State Governments obtained four 
legislative enactments designed to improve many aspects of 
sentencing, parole, and state and county prison practices. 
These legislative enactments have dramatically reduced our 
county prison population by more than 1,000 individuals.
    Preliminary hearing changes. Working collaboratively with 
the Pennsylvania Supreme Court, we have issued rule changes 
that will no longer require the presence of civilian witnesses 
at preliminary hearings in certain nonviolent crimes. People 
who are there just to give ownership and non-permission 
testimony will no longer have to come. And this will help save 
significantly and reduce the number of preliminary hearings and 
police court overtime.
    All told, we estimate the total cost savings of these 
improvements to be around $15 million just this year alone. To 
be sure, we could not have made these changes without the 
cooperation of the other agencies in Philadelphia including the 
courts and police. But the principles of justice reinvestment 
will permit me to receive a portion of that money back to use 
for programs that would reduce recidivism which in turn we 
could save even more money.
    The next question is what kind of program will we invest in 
with such savings. And you learned when you were at Penn State 
and at Georgetown that generally plagiarism is bad. I believe 
as a district attorney plagiarism is a good thing. I try to 
take the best ideas from Joe Hynes in Brooklyn to Kamala Harris 
in San Francisco or Bonnie Dumanis in San Diego and places all 
in between.
    And one of those is a program that the now attorney general 
of California created when she was a district attorney of San 
Francisco called Back on Track to deal with the phenomena again 
that many young men made a terrible decision to be drug dealers 
for whatever their reason. And I do not care what their reason 
is, it is wrong, of course.
    But what we have seen in Pennsylvania is that we are 
filling our state prison with people that are often first-time 
nonviolent offenders who have sold or possessed drugs with the 
intent to deliver a mandatory amount. So in Pennsylvania, if 
you have two sugar packets worth of crack and you are found to 
be in possession with that with the intent to deliver or you 
do, in fact, sell it, you go to jail for a minimum of one year.
    So we are sending people to jail for one to two years who 
had no prior record. When they come home, it is like an 
economic death sentence because they are a convicted felon. By 
the act of the General Assembly in Pennsylvania, you cannot get 
a job cleaning toilets in a nursing home if you have a felony 
conviction. And they were nonviolent when they went to state 
prison. Often now when they come home, they are violent people. 
And we are spending $40,000 a year.
    So I say it does not matter what your partisan position is. 
What we are doing now just does not make sense. If you are a 
right-wing fiscal conservative or a person that is a bleeding 
heart liberal for these people who have been to prison, the 
fact is we are spending $40,000 a year to send these folks to 
state prison and there is a 73 percent recidivism rate. So it 
is just not making any sense.
    The Back on Track Program, which I am going to change the 
name in Philadelphia and call it the Choice is Yours, takes 
these first-time nonviolent offenders and instead of spending 
$40,000 a year, we will spend about $5,000 a year trying to 
address the criminogenic needs, helping them address their drug 
and alcohol addiction, are literacy skills.
    I learned as the chief of the Repeat Offenders Unit in 
Philadelphia that the number one thing people have in common 
that get arrested in Philadelphia is they did not finish high 
school. So we have addressed their literacy needs, peer 
relationships. And the more of those criminogenic needs we can 
address, we will reduce recidivism and it costs about $5,000 a 
year versus $40,000 and the recidivism rate is about five 
percent.
    So many of you have talked about reentry. This is what I 
call pre-entry. So if they successfully complete the program, 
there will be a community service program component to this, if 
they successfully complete the program, not only do they have 
no conviction, they have no record. And I think this will give 
them the second chance that they need to move forward.
    Historically the federal justice system grants, JAG, have 
provided much needed funding for important and innovative 
programs like our drug and mental health courts, technology 
improvements and the establishment of our local Criminal 
Justice Advisory Board. I know the Department of Justice 
already has a solicitation pending for Justice Reinvestment 
programs and I hope that JAG funding going forward will allow 
law enforcement officials to implement innovative programs that 
will promote public safety and reduce correction costs.
    And there has been discussion earlier about the Bureau of 
Justice Assistance and a lot of the great work that they do in 
allowing local governments to serve as incubators and to gather 
the data that can then be replicated in other places across the 
country which leads me to the importance of reliable data.
    Another critical aspect of justice reinvestment, as has 
been mentioned earlier, is the importance it places on basing 
decisions on data, good data. It is fitting that I am sitting 
with Mr. Thompson and Mr. Gelb because both individuals worked 
with members of my staff and officials in the Commonwealth to 
develop legislation that I have spoken about earlier enacted in 
2008 to among other things reduce recidivism by providing 
earned time credits for those offenders who complete programs 
likely to reduce the likelihood of re-victimization. Their work 
was invaluable.
    There are a number of possible explanations for why this 
has happened, but among them is poor data. To be sure, without 
this legislation, the size of Pennsylvania's prison population 
would be higher than it is now and it can be said that at a 
minimum, the legislation slowed the rate of prison population 
growth.
    All this is a long way of saying that data matters and that 
we have to be smart on crime and work to find not just how we 
can be tough or make good sound bites but to really reduce 
recidivism.
    So, Mr. Chairman, thank you for this opportunity. There are 
many programs and changes that we can make to reduce 
recidivism, to improve the safety in our neighborhoods, and 
reduce corrections. I hope to work with many of you in the 
future to achieve these goals. And, again, I am available to 
any of the questions you may have.

[GRAPHIC] [TIFF OMITTED] T7259C.139

[GRAPHIC] [TIFF OMITTED] T7259C.140

[GRAPHIC] [TIFF OMITTED] T7259C.141

[GRAPHIC] [TIFF OMITTED] T7259C.142

[GRAPHIC] [TIFF OMITTED] T7259C.143

[GRAPHIC] [TIFF OMITTED] T7259C.144

    Mr. Wolf. Well, thank you very much, all of you, for your 
testimony.
    And before we have questions, too, I want to again thank 
Adam and Mike or the Pew people and the Council of State 
Governments for sort of pulling this together and using your 
own funding to do this and not really relying on the Federal 
Government.

                EFFECTUATING REFORMS AT THE STATE LEVEL

    Secondly, I appreciate all your testimony. You know, I am a 
conservative Republican. There is no doubt about that. And my 
first job out of college was given to me by Frank Rizzo. And my 
father was a policeman in the City of Philadelphia and the 
neighborhood that I come from is not a pretty--it is a--so I am 
not naive about this, and have been into a lot of prisons.
    But I am committed to doing with and working with Mr. 
Fattah to see if we can honestly do something during this two 
years that really makes a difference. And we can maybe make 
Philadelphia one of the targets that we use because there has 
been a lot of talk about it and nothing really seems to make 
that much of a difference.
    Parenthetically, I should not say this, but I will say 
this, I think one of the big decisions that Governor Rendell 
made and former mayor was bringing gambling to the City of 
Philadelphia. I think it will be a very bad, bad thing. 
Destination gambling is one thing, but convenience gambling 
where it is just right there, and I remember doing a press 
conference at Independence Hall criticizing Rendell when he was 
trying to do this, I remember, but bring gambling to the City 
of Philadelphia, I was the author of the National Commission on 
Gambling, it will be a bad, bad thing.
    But that is not the subject of this hearing, but I just 
felt I had to get that out there. But let's see what we can 
honestly do working together and maybe Philadelphia can be one 
of the places.
    One of the things I would like to do is we are going to do 
a letter to all the governors and maybe what we should do in 
the letter is put all four of your names and also telephone 
numbers and addresses whereby they can come to a place, one 
from a practical, one from an intellectual sort of place.
    Secondly, I want to ask you before we have a lot of other 
questions, how should we do this so it is just not another 
hearing, another thing and it moves on? Should there be a team 
developed whereby you all can get the Texas people, the Kansas 
people, the whoever so that there is someone able to go out to 
a governor and really practically do something rather than just 
say here is the printed report?
    But should there be an offer that we will put somebody 
together, that every governor ought to have a reentry program 
and recidivism person like you were talking about, and that 
will have an availability? Would that make sense before you 
think to actually have a group of people rather than saying, 
you know, give a speech, this is a great idea, this is 
important, somebody will do a magazine article on it and then 
it will just kind of move on?
    Should there be a team put together that actually is 
available to go out to any governor or any district attorney, 
any board to sort of sit down with them? What do you all think 
about it?
    On every question, all of you should comment. So what do 
you think that we should do so that we really do something 
rather than just talk about it?
    Mr. Gelb. Right. So I think you are selling yourself a 
little bit short here. You are doing this already right now by 
funding that you have provided, the Justice Department has been 
providing for the last couple of years and that it is 
formalized in the justice reinvestment initiative that you have 
funded.
    There are a number of things going on. Mike made reference 
a few minutes ago to the applications that have just come in 
from 14, 15 states that have said we want this type of 
assistance. I think there are probably about another 10 or 12 
that maybe did not file, did not make this deadline but that 
are interested and that the various among us are in contact.
    We are doing presentations at the National Governors 
Association, at the National Conference of State Legislators, 
at ALEC, American Legislative Exchange Council meetings, and 
also the National Center for State Courts.
    So I think what has been happening over the past couple of 
years through federal funding, through funding from Pew and 
other private funders is I think a pretty significant level of 
awareness out there that there are resources available. I will 
not say that this is enough. We always want to try to hit all 
50 states.
    But also I would say quite honestly there are a dozen or so 
states, maybe 15, that are not ready to do this kind of work. 
And I do not think you want to see the federal money and we at 
Pew certainly do not want to see our time and energy and 
resources going into states that just simply do not have the 
political will, do not have the data systems at this point and 
are not ready to engage in this process.
    But between us, we are doing a pretty darn good job of 
covering the landscape at this point.
    Mr. Fattah. You know, Adam, I think what the chairman is 
saying is in addition to the $10 million and the initial work 
here, what more we could be doing in this area, so----
    Mr. Gelb. Well, let me say something quickly and then turn 
it to Mike and that is that the money is important. There is no 
question about it. It takes a lot of time and a lot of energy 
and a lot of people to do the justice reinvestment process at a 
state level. I will not go into the gory details of that, but 
it is a long intensive process that takes between 12 and 18 
months and lots of folks involved at lots of different levels, 
at political levels as well as very technical data levels.
    But also at this point, I think what you have heard in the 
testimony that the problems we are seeing in the system and 
getting these reforms at this point are at least, and see the 
results that you want to see, are at least as much problems of 
management as they are of policy.
    I think what you have heard is that we pretty much know now 
what needs to be done and the tough work is about sort of how 
to actually get it done.
    And so do not also sort of understate the importance of the 
leadership that you are showing by having this hearing and this 
continued focus on these issues because the agencies that are 
responsible for actually putting these policies and evidence-
based practices into place have been, in my view, long been 
sort of the stepchild of the criminal justice system, parole 
and probation agencies.
    They do not get very much attention. They certainly do not 
get a lot of resources. And the extent to which you continue to 
provide focus and funding to improve those agencies is 
absolutely critical.
    Mr. Wolf. Mark, do you have any?
    Mr. Earley. I would agree with Adam. I think probably, too, 
the governors are obviously really key at the state level in 
this as are the attorney generals and I would not 
underestimate----
    Mr. Wolf. Should we write every attorney general also?
    Mr. Earley. I would. And they have a growing interest in 
this. I spoke at the NAAG meeting just a couple of months ago 
on this issue and there was a lot of interest. It is the second 
time I have been asked to do it in the last few years.
    Mr. Wolf. We will do that. We will send the same letter 
maybe. If you all can sort of agree, we will wait. We were 
going to try to get something out today, but I think if the 
four of you can sort of talk and we can have something by 
Tuesday, but that we will do.
    And maybe since both of you are in that area, you can 
rework it a little bit for an attorney general or a DA. The 
language at the outset may be a little bit different than the 
governor. So we will do that. We will send a copy to all of 
them.
    Mr. Earley. The governors are clearly important for obvious 
reasons not the least of which what Adam just mentioned is that 
in many instances, there is some political will to do this, but 
it is a management issue in corrections and in government 
execution itself. And the governors are absolutely key to that 
because their agency heads will pretty much do what they give 
them orders to do.
    The reason the AGs are so important is because when they 
become convinced this is a public safety issue, that is very 
important leadership then at the state level for people in the 
House and the Senate to see that this is not something that 
somehow we are going in and saving money at the expense of 
public safety because we are in a crisis. So I think it is very 
important that this be framed as a public safety issue.
    And the one concern I have, and I was invited to speak at 
Stanford Law School at their Criminal Justice Center about this 
earlier this week, the one concern I have is I think a lot of 
times when the tough work has been done like over the last 
couple of years and putting together something like these 
concepts on justice reinvestment, we need to think a little 
more about branding it in such a way that it can translate 
easily into the political arena.
    Justice reinvestment in my opinion is a very boring way to 
talk about what we are talking about. I think it really needs 
to be framed in public safety. It is not that I disagree with 
the notion. It is just at the end of the day, if I walk into an 
AG's office or a state senator's office or a congressman's 
office to talk about this, if I talk about justice 
reinvestment, I mean, they do not know what that means. I have 
to explain it. If I talk about making neighborhoods safer and 
saving money by doing it, that makes a lot of sense and that is 
how they are going to have to talk to their constituents about 
it.
    So somewhere along the line, some thought needs to be given 
to how we sort of brand this larger concept. I think justice 
reinvestment is fine for us in this room, but as it translates 
out, I think it is a weak brand.
    Mr. Wolf. Well, maybe when you do the letter, you could do 
that. I want to make sure that people know that we are not 
talking about opening up the prison doors and allowing 
dangerous people to get out on the street.
    Mr. Earley. You would be amazed how often that is the 
hurdle. When I testify before state legislators, that is the 
hurdle I find I am having to get over in the first ten minutes 
because that is oftentimes the thing they have sort of 
pigeonholed us in as I walk in, so----
    Mr. Wolf. I do not want to do that. And I do not want to be 
there. I just do not want to do that.
    Mr. Earley. Right.
    Mr. Wolf. So maybe as you are drafting, and we did not hear 
from the other two, but you can sort of put language in that 
makes that clear, particularly I think both to the governors 
and to the attorneys general.
    I mean, what do we do?
    Mr. Thompson. First of all, I think your point is dead on 
that we have so much of the data we need now. Now is the time 
of action and we need to be able to take action.
    And the important point is, Mr. Earley's point, is that the 
focus here that we are talking about is using this research and 
the data to increase public safety and these strategies 
actually cost less than the strategies that we are employing. 
And so absolutely increasing public safety and less spending 
are messages that resonate with everything.
    I like the idea very much of letters right now to the 
governors, to the attorneys general. I just spoke to Attorney 
General DeWine in Ohio, for example, about this and it was 
great talking to him. I also think, in effect, your 
counterparts in the states, the legislators who are chairing 
these appropriations committees and the judiciary committees, 
for example, or public safety committees, we can definitely 
make that happen. And I think that is a great idea.
    Mr. Wolf. Well, if you could get us the list.
    Mr. Thompson. We can easily generate that and we would be 
happy to help.
    I think the second point is, and I mentioned I think 
earlier or at some point, I actually went down to the national 
convening of all the state corrections directors and 
corrections leadership just to sort of give them an advanced 
peek at the summit report. And they are just thrilled that 
there is this kind of interest and focus coming from this level 
of government on this.
    And I think, convening them with the leadership in their 
states to actually walk through the strategies themselves and 
make sure they are applied, I think that is a second thing that 
makes a lot of sense.
    To your point about making sure that there is a team of 
people that can respond to these requests, as Adam said thanks 
to what you all have made possible, that that team exists now, 
it is in place.
    One example of something that has already happened is you 
had this Speaker of the House in Oklahoma, the corrections 
director, the chairman of the Finance Committee all going to 
Austin, Texas to try to learn what exactly had been done in 
Texas and how they can replicate that in the state.
    So now you have all of these applications coming in from 
states which BJA is working incredibly quickly to process. But 
at the end of the day, there is just going to be more demand 
than there is supply.
    And so to your point, Ranking Member, I think that we are 
going to need to understand that there is going to be more 
states and counties that need assistance that will not be able 
to get it this go around.
    The other fact of the matter is is you have in a number of 
states governors that, are still just getting settled, term 
limits where you have just cleaned out legislatures in a lot of 
places, and they are just not ready to seize the moment right 
this minute. I think they will be better positioned next year 
through the convenings and the letters.
    So I think that three-tiered approach of essentially 
writing to everybody now, a national convening, and then being 
immediately responsive to places that are ready and then 
recognizing there is going to be a new round of places that are 
ready next year, I think that is the combination of strategies.
    Mr. Williams. Mr. Chairman, I think it would be helpful 
just from a practical standpoint, from a prosecutor's 
standpoint, each state has a District Attorneys Association and 
there is also nationally the National District Attorneys 
Association, so I can speak on behalf of the Pennsylvania 
District Attorneys Association.
    I serve as the chairman of our Legislative Committee. And 
what is interesting is that there are 67 district attorneys 
across the state, the Commonwealth of Pennsylvania, and there 
is only about five that are elected that are Democrats. But 
really there is no blue way or red way of trying to promote 
public safety until one of those decides to run for governor 
and then things kind of change.
    But when we are sitting at our table for just the district 
attorneys, there is almost unanimous agreement on reinvestment 
and what we need to do and to work together and to work 
collaboratively.
    So with me today is Mr. Greg Roe who is the chief of my 
Legislation and Policy Unit. He does all the work really in 
lobbying, I have an assistant chief of that unit as well, doing 
all the lobbying on behalf of the Pennsylvania District 
Attorneys Association in our State Capitol in Harrisburg.
    So I am sure that we would be willing to work. And as an 
example, we worked with our new governor, Tom Corbett, in 
making his application grant for the Reinvestment Grant last 
month and we helped him with that.
    So I am sure that you could get our assistance and maybe 
from the National District Attorneys Association as well 
because as the role of the prosecutor has evolved in America--
it used to be in England, they had private prosecution. You 
really had to use your own attorney. But here we have the 
public prosecution and the DA has almost unlimited authority to 
decide who gets prosecuted.
    And we are at the fulcrum of the criminal justice system, 
but everybody is coming at us to help reduce prison costs and 
the changed policies that in many ways could put these elected 
people on the hot seat----
    Mr. Wolf. Yeah.
    Mr. Williams [continuing]. But no one wants to say, you 
know what, you helped us. Like in Philadelphia, we reduced the 
costs so far by $15 million, but no one is saying, well, some 
of that money needs to go back to further reducing recidivism 
or any of these great ideas.
    So you know what? We will use that for whatever might help 
somebody else get reelected or that will help the potholes or 
something else. But it makes sense if, of some set number, some 
part of that money could go back into public safety. And so you 
will have our support.
    Mr. Wolf. Okay.
    Mr. Williams. I will put Greg to do whatever you need him 
to do for you.
    Mr. Wolf. Okay. I remember in high school, they said there 
were 67 counties in Pennsylvania. Philadelphia was one of the 
counties. You thought of it as a city, but a county. Why don't 
we do that?
    And I see Mr. Yoder came in and I think he has one of the 
best governors in the country, Sam Brownback. And you mentioned 
Kansas. Maybe we could also get two Republican governors and 
two Democratic governors to also do.
    And maybe Mr. Fattah will sign a letter with me here so we 
can send it out. And then if we can get two Republicans, maybe 
Mitch Daniels and Sam Brownback, with two Democratic governors 
because I think there will be a comfort level if they are going 
to hear from a couple congressmen. Okay.
    But if a governor contacts a governor and then maybe we can 
even take this and you all could help us, we could get two 
attorney generals to follow up two Republican and two attorney 
generals who are Democrats so that then you are sort of getting 
Republican and Democratic congressmen from here, Republican and 
Democratic governor, Republican and Democratic attorney 
general, and then you sort of take this thing out of the 
political.
    So we will do, Mr. Fattah and I will do the letter, the one 
that you kind of get us to go out with, and then we will sort 
of work on that second level and if you can kind of help us on 
that, and then we will do the same thing with regard to the 
attorneys general.
    Mr. Fattah.
    Mr. Fattah. Let me thank all of you for your testimony.
    And I want to thank the chairman again for convening this 
hearing. But throughout a number of hearings, a number of these 
issues have been raised.
    I will be happy to sign on to the letter. I also would 
like, at least for purposes of my few minutes here today, to 
broaden this issue because I think that the district attorney 
from Philadelphia talked about pre-entry. The chairman in an 
earlier hearing this week talked about making the incarceration 
itself a useful part of stopping recidivism through Prison 
Industries and other activities.

                INCARCERATION AND ITS EFFECT ON FAMILIES

    I think we have got to look at the broader picture here. 
And one of the things that we know about this whole area is 
that the younger a person is who becomes connected to the 
criminal justice system, the longer they stay in it, the more 
severe the crimes, and the longer the sentence. I mean, it is 
kind of like an education, a higher education system except in 
the wrong direction. So diverting people from the system 
earlier is critically important.
    One of the things that the Federal Government is 
supporting, and we have a Philadelphian very involved through 
our former mayor, Wilson Goode, is a nationwide effort to deal 
with the children of people who are incarcerated. There is an 
almost 90 percent correlation between a parent being in jail 
and eventually the child becoming incarcerated at some later 
stage in their life.
    And so intervening on behalf of these children and making 
sure that they get the kind of assistance that they need is 
important. And, Senator, you spoke about how the arrest of a 
parent has a disastrous effect on the family, and now we have 
so many women who are increasingly being incarcerated. The lack 
of stability in these homes creates much more challenging 
circumstances, so this is an area that is kind of very pre-
entry, you know.
    But we talk about evidence-based work in this area. This is 
clearly an area where a great deal of effort can be rewarded 
because this is a stream of eventual tenants in the 
incarceration system that can be diverted. And then there are 
other diversion efforts. It was Governor Thornburgh or Shapp 
who closed Camp Hill and took youthful offenders out.
    My parents created a reentry group home for boys and Ronald 
Reagan in 1981 saluted my parents for the work that they were 
doing in Philadelphia helping youthful offenders not get 
rearrested. I know we are celebrating a big event, Reagan's 
100th birthday. So it reminded me of that. But I think that it 
is important to note that there is work that is being done.
    And we used to have things we called earmarks and one of 
the things that I earmarked on this committee with the 
chairman's help was the Youth Violence Reduction Program, which 
in Philadelphia meant an intensive probation effort focusing on 
young people who, by the empirical evidence, were either going 
to be the victim of a homicide or were going to kill someone 
based on empirical data. And this program, which required these 
young people to check in daily, to be seen once a week by a 
combination of both the probation units and other people, 
really had reduced recidivism, I think, in the 1,700 young 
people who were focused on. I think less than nine of them 
ended up being re-incarcerated over that two-year period.
    So there are efforts. Now, this was a costly effort. There 
was some cost associated with it, but obviously not to the 
degree of what it would be if they committed a crime or ended 
up being incarcerated.
    So there are things that we can do and I would be glad to 
sign on to the letter.
    I want to thank all of you for the work that you are doing. 
This is not one of those sexy issues, but it is something that 
the chairman--and one of the proudest things I did was as one 
of the original co-sponsors of the Second Chance Act and 
pushing to have this subcommittee increase its support for 
that, but we are in for some tough times. There are going to be 
savings that have to be found in the full committee.
    One of the things I was thinking about, Mr. Chairman, is 
maybe what we end up with is something like the Debt Commission 
but focused on this question of looking at and trying to get 
the country around a set of policies that could deal with pre-
entry, could deal with what is happening.
    If we know that people are incarcerated and some part of 
the problem is that they cannot read, then maybe one of the 
ways that they can earn good time or even be considered for 
taking advantage of some type of reentry is to learn how to 
read while they are in prison. We need to look at some of the 
facts and apply them to the problem in ways that might make 
some sense going forward.
    Mr. Wolf. Mr. Yoder.

                          JUSTICE REINVESTMENT

    Mr. Yoder. Thank you, Mr. Chairman.
    I appreciate just the opportunity to be here today. You 
know, Kansas has made this a priority and I notice that several 
of the speakers noted that fact that several years ago, when I 
was in the Kansas legislature in 2007, several representatives 
including one from a city very close to mine, took this up as a 
personal project. And I think we have made some progress.
    Our numbers are going back up again now and that may be the 
result of the economy and strain that is being placed on 
families. And we are back in a position now where we do have a 
prison capacity problem. But we were able to curb the 
projections in prison population by focusing on lower 
recidivism rates. And so I think this is an area in which 
taxpayers get the biggest bang for their buck in terms of the 
future expenses.
    And we focus a lot and we are going to focus on this 
subcommittee and we focus in legislative bodies and 
congressional bodies across the country about cost. And I noted 
that there was a note here that that is one of the main drivers 
of these types of policies. But certainly there is, I guess, a 
warmth and an understanding that we might help people not 
return to prison. I do not think anybody enjoys the idea of 
individuals in our community having to spend their life in 
prison. That is a very depressing, sad story.
    So if we can find something that actually saves us money 
and puts us in a position where we can turn people back into 
the society as productive citizens, I would feel like that is a 
win-win for everyone. And I am glad to see that this 
subcommittee is focusing on that.
    You know, as we are under the constraints at state levels 
and at the federal level with spending, for anyone on the 
panel, and this may have already been covered, but how do we, 
if we are not going to increase public safety spending and take 
it from another area, and we know that money comes directly 
from taxpayers, and if we are either going to go back and get 
more money from taxpayers to produce these reentry programs or 
they are going to come from other programs within government, 
and none of us have the interest in raising taxes at this 
moment, we are trying to find ways to produce better results 
with less money, how do we balance these things and 
particularly in light of many of our beliefs and the public 
belief that we do need a punishment portion of the system and 
that if you commit a crime, you are incarcerated, you are 
punished, which is solely separate from rehab?
    Do we reduce some of the punishment expenses or do we 
reduce in another area? Can we fit more people into a smaller 
space and reduce overhead? How do we balance the competing 
financial interests so that we can find the resources to invest 
in the types of programs that might save us money in the long 
run without having to go back to taxpayers and say we need more 
money for this or having to take it from other areas such as 
education or, you know, social services? So I do not know who 
might answer that.
    Mr. Williams. I think it is important that we make a crime 
pyramid. So what you see as the lead story on TV every night, 
like the top like five percent is violent crimes. The super 
majority of things that we deal with are nonviolent crimes and 
things that we can address by changing some of our policies. We 
can address and reduce recidivism for them.
    So you ask, you know, what is the shifting of the use of 
the money. Well, just some of the policies themselves on who we 
are going to send to prison and is our goal going to be to 
reducing recidivism and we have all this data that shows that 
we can reduce recidivism if we address this, this, and that.
    And I think again and in speaking to the chairman earlier 
is that it is really about understanding the difference 
between--we have to be smart on crime, but people that are 
violent, that are shooting people and, you know, raping people, 
that is something a little bit different than the super 
majority of crimes are people--you know, my wife loves the 
movie Ocean's Eleven with, you know, Brad Pitt and George 
Clooney, right? So these guys spend months preparing to rob the 
Bellagio.
    Most crimes are crimes of opportunity. Just a knucklehead 
sees you left your garage door open and takes your lawn mower 
and then goes and sells it, crimes that for the most part we 
can prevent and that these are people who commit the most 
crimes over and over. The highest rate of recidivism are people 
that commit low-level property crimes.
    And those are the types of people that if we address their 
criminogenic needs, what is it about this person, where did 
society fail that person, what can we do to teach this person 
to be a barber or a cobbler or auto mechanic or some real job 
in the economy, that we will not see them again. So a lot of it 
comes with the fact that we do not need to send so many people 
that are nonviolent through mandatory sentences for nonviolent 
things to prison.
    Mr. Thompson. Congressman, I appreciate your question on 
this and I did enjoy working with you when you were in Topeka 
in the legislature, you and Senator Rattle and a number of 
others in the legislature. It really was a trend setting moment 
when the legislature came together.
    Then Senator Brownback called. His directive was I want to 
see recidivism cut by 50 percent in this country and I want to 
start in Kansas. And really coming out of that--at that point 
in 2007, as you know, the legislature was looking at a growth 
in the prison population that was going to cost about $500 
million to build and operate new prisons and the State was 
looking at the driver of that. And part of it, in fact, was 
that two out of every three people coming to prison was someone 
who had violated the conditions of their release and the 
question was, how do we actually reduce that rate of 
admissions.
    And as you know, one of the things that you did was you set 
up that County Grant Program which really sort of forced 
counties to sort of deliver on a reduced revocation rate. And 
it did do that and crime dropped at the same time.
    Now, what has happened in the past year or so is that 
funding for some of those initiatives has been cut and 
recidivism has gone back up among that subgroup. And so you 
have put your finger on it. You know, how do you in effect 
maintain funding for those things because it is going to cost 
the State more. You cannot cram any more people in. If you do, 
you end up with such a crowded system. Sooner or later, the 
federal courts become involved and then you have got a 
California situation on your hands. So that is not an option.
    The states are running these systems as leanly as they 
possibly can. I mean, they get the meals down to a one day 
meal, the $1.99 to $1.98. There are no more savings to be had 
there. The only places that they can cut are in these programs 
that actually have some impact on recidivism.
    And, again, if they are cut, then you see the prison 
population go up and the State is going to have to build more 
which will cost even more. So how do you get out of this sort 
of vicious circle without a net increase in spending, you know, 
your question, and it is one that so many states are dealing 
with.
    This is where they need to go back, look at the data, and 
it is sort of our hypothesis that there are ways in which they 
can make further reductions in recidivism which would further 
slow the growth coming in.
    And to your point earlier, are there a group of people for 
whom length of stay could be shortened in a particular case. I 
mean, the point was made repeatedly by this panel. What we know 
is not always the severity of the punishment. It is the 
certainty of it and knowing that it is happening. Some people 
we want to lock up and put away for as long as we possibly can. 
But there is going to be a cohort of folks that if they 
complete certain programs while they are incarcerated, then you 
can actually, if you are a nonviolent offender, go from 85 
percent of your sentence to about 75 percent. That saves tens 
of millions of dollars.
    And so I think the State needs to sort of get that data in 
front of them. If they do not, if they just simply take a blunt 
instrument and make some of the cuts, then they are going to be 
back in that same sort of problem that they found themselves in 
2007.
    Mr. Earley. I am really glad you asked that question, 
Congressman, because I think this goes back to my point a 
little earlier. I think that some of the way this is branded 
when you talk about reinvestment, people automatically thing it 
means an increased expenditure of money.
    The great thing about almost the vast majority of the 
proposals in the justice reinvestment report and the things we 
have talked about here earlier today is that they do not 
require additional money. They require a re-prioritization of 
how current money is being spent and they beg for a willingness 
on the Departments of Corrections around the country to partner 
more fully with community-based organizations, nonprofits, be 
they faith based or secular, to allow them greater access to 
prisoners to provide the kind of programming that would cost 
the State literally millions upon millions of dollars to 
provide.
    You have a great example in Kansas. Prison Fellowship has 
been there for almost ten years. I think it is at the Lansing 
unit. It was at Ellsworth. In fact, Governor Brownback has 
spent the night there not as an inmate, he would want you to 
know, but he spent the night with the inmates.
    But that program has probably had close to a thousand 
people go through it, if not more, over the last eight years 
and, for the last five years, all of it has been provided free. 
What we needed from Kansas--I was the president of Prison 
Fellowship at that time--was simply the green light to be able 
to do the program.
    Now, there are a lot of groups, small, big, medium, who are 
willing to do things like that, but oftentimes because of the 
management philosophy of the Department of Corrections, well, 
we cannot make that much space for programming, we cannot give 
the inmates that much time, we do not want the inmates to be 
able to spend more time with their families.
    In other words, it is a way of looking at how you do 
corrections that has such an intense focus on security and 
warehousing that it cuts off opportunities for the kinds of 
things that really can bring about change, increased 
educational opportunities.
    I mean, the data is there that if an inmate is willing to 
get more education in prison, his chances of recidivism drop 
drastically. If an inmate has more contact with his family in 
prison, the chances of recidivism drop drastically.
    So much of this is not about paying for something new. It 
is about re-spending the money we have and, quite frankly, it 
will leave you with money left over because it usually is not 
going to cost as much as what it is costing to house those 
inmates. So it is not a question of more money. It is a 
question of a different way to approach the time that an inmate 
stays in the system.
    Mr. Gelb. Let me put some numbers on that really quickly. 
It costs about $79 a day to house someone in prison. That is 
the national average, $79 a day. We are spending an average of 
about $3.42 a day on probation. So it costs 23 times as much to 
have somebody behind the walls as it does in the community.
    And I think that disparity is what is becoming compelling 
here in providing the sort of win-win. Often when you say stuff 
like this, we are going to do justice reinvestment, I think we 
feel a little bit like it is snake oil, like how is this 
possible, we are going to have this win-win, we are going to 
improve public safety and we are going to save money, is that 
too good to be true.
    But when you see that kind of disparity between the 
numbers, it does not take too long to realize we can 
substantially improve the level of supervision that we are 
providing. We could substantially improve the quality of 
services that are provided. You could double, triple, quadruple 
that $3.42 a day and really have a strong system in place that 
is much more likely to reduce recidivism and do it at a 
fraction of the cost of that prison cell.
    So the math works out easy. I think we have discussed it is 
a lot of hard work to get there and to build the political will 
to make those decisions. But in Kansas and elsewhere, they have 
been made and I think that is why we are seeing this level of 
activity around the country.
    Mr. Fattah. Mr. Chairman, I think part of the problem, and 
my colleague is back, so I am only going to speak for a few 
seconds here, is that we have this myth operating, which the 
public somehow believes, that we lock someone up and they are 
going away and they are never coming back. And the truth is the 
exact opposite. Almost every single one of them is going to 
come back.
    My question is, are they coming back in a circumstance in 
which they are going to victimize someone else and go back to 
prison or are they coming back in a way in which they are going 
to live a life that would not require them to be incarcerated 
again and would not have them victimize anyone else?
    And that is really the only issue. And we have somehow 
convinced people that, well, if they do not get an education 
while they are in prison, if they do not have Prison 
Industries, if we are tough on them, then somehow they are 
never coming back. We have to have people understand that 
almost every single person, 90 plus percent, are coming right 
back to the neighborhoods and the communities that they left 
from.
    And now under our present system, they are coming back more 
violent, more disconnected, and a large percent of them are 
going to be re-incarcerated, but only after victimizing someone 
else before they are re-incarcerated.
    Mr. Wolf. Let me just say, I am going to comment on that 
and then go to Mr. Schiff, Mr. Fattah is right. And I hope you 
will tell Sam Brownback that, and we do miss him, he was a 
voice in this town for human rights, religious freedom that 
frankly we have lost. And maybe you can help fill that role 
because really Sam made a tremendous effort.
    Sam and I were the first two persons in Congress to go to 
Darfur to see firsthand the genocide and he was the leading 
advocate in the Senate on that issue. So maybe the two 
republican governors can be Daniels who has done a great job 
and Sam Brownback and then you can find us or you can find us 
two democratic governors to do that.
    Mr. Gelb. Lots of choices.
    Mr. Wolf. I have been in a lot of prisons and a lot of 
people you send there come out hardened, hardened criminals. It 
is almost like a graduate school for crime.
    Also, you are finding a tremendous problem, we are not 
going to get into it here, a radicalization. I mean, the Saudis 
have been funding radical textbooks of Wahhabism going into 
prisons to radicalize people. And so they come out of prison.
    So what Mr. Fattah said is exactly right. It is not being 
soft. It is being smart because if you send somebody away for 
ten years, give him or her no work--and this Congress 
unfortunately has reduced the prison work, the Prison 
Industries is literally dying on the vine--they come back to 
the neighborhood and then they commit a crime that is actually 
worse. So I think that is exactly right.
    Mr. Schiff.
    Mr. Schiff. Mr. Chairman, I could not agree more. And I 
think actually some of the most powerful testimony on that 
subject was someone who I have a long history with who was a 
political opponent of mine back when I ran for the state 
legislature. He was an incumbent assembly member, Pat Nolan, 
who later went to prison.
    And he testified that when he got out of prison, and he was 
the guy who was the majority leader on the State Assembly, very 
smart, served a relatively short sentence compared to many 
others, I think it was probably around two years or less, and 
when he got out, he was invited to have lunch with some of his 
colleagues in Sacramento. They went out to a delicatessen for 
lunch. And he opened up the menu and there were so many 
choices, he was rattled. He did not know how to cope with it 
and he got up and left.
    Now, here is someone who you would expect has every 
advantage in terms of being able to re-assimilate and found it 
difficult even to know how to operate in a restaurant. You can 
imagine people sent away for a long time who have no job 
skills, who have a substance abuse problem. The only time we 
should be surprised is when they do not recidivate under those 
circumstances.
    I want to thank you for your leadership and our former 
colleague, Alan Mollohan, who have really always been 
tremendous supporters of being smart as well as being tough on 
crime. And I want to thank the panelists today.
    During the last session, Dan Lungren and I introduced 
legislation on justice reinvestment. Ted Poe and I introduced 
legislation on Project HOPE both to try to expand those 
promising programs.
    And, Michael and Adam, I want to thank you for all your 
efforts in assisting me and my staff and helping to draft that 
legislation.
    Mark, I think you are absolutely right. Justice 
reinvestment is a terrible term. And, I mean, the whole concept 
is hard to explain. And every time I try to explain it, I 
struggle with it. It just sounds so wonkish and wonkish is hard 
to sell in the area of public safety.
    But we have 170,000 people in custody in California. It is 
ten percent of our budget. It is bankrupting our State. It is 
not doing much for our federal budget either. And we have to 
find strategies of reducing those costs and the terrible waste 
of human capital.
    I would like to ask you. I had an interesting meeting with 
our sheriff, Lee Baca, recently and we were talking about some 
of the changes in California and among them the possibility of 
the local government taking over some of the parole 
responsibilities.
    One of the things he emphasizes, he has really begun an 
aggressive program of education in the jail system, people who 
are in the jails for a year or less, but then they often go to 
prison from the jail once the trial proceedings are done, et 
cetera. A lot of work that he has done in terms of 
rehabilitation or education may or may not be carried on once 
they leave jail.
    And I would be interested to know, Seth, from your 
experience and your colleagues on the panel how much of a focus 
we should put on the jail as opposed to the prison. Is that an 
important period as well? Is there any coordination between 
jail and prison because they are run by different agencies or 
is there like a big falling off of the cliff?

                             DRUG TREATMENT

    And then the final question I have is, I think it is just 
insane for us not to make drug treatment available on demand 
for anybody in custody. To release somebody back into the 
population with a substance abuse problem that has been 
unaddressed is just crazy and cost inefficient. So I would be 
interested to know your sense of where are we with that. Have 
we conquered that problem or are there still lots of people who 
are on waiting lists to get into a substance abuse program in 
an incarcerated setting?
    Mr. Williams. I will tackle it first a little bit. One, I 
think there is almost virtually no communication between our 
county prison facility and the state. And also the county 
facility, which you term as the jail, really serves two 
purposes, one for people that have county sentences, people who 
have less than a state sentence.
    Often in Pennsylvania or in Philadelphia, the judges give 
people a county sentence when really the sentencing guidelines 
require a state sentence, but they think they are helping the 
defendant or something. It just adds more cost to the municipal 
government. But also we have people that are there that are 
awaiting trial, as you said.
    So part of what we are trying to do to reduce our costs 
locally is just changing our philosophy on who needs to be 
incarcerated pretrial. The goal should be to ensure that they 
appear. And so we can use more day treatment centers. You heard 
about $3.00 a day for probation. Well, the day treatment 
centers are almost the same. But they go. They might report. 
They can get treatment while they are there, but you do not 
have the expense of the housing and all the overtime for those 
employees. So that is a major goal.
    But really there has to be more of a focus on addressing 
the criminogenic needs of those that are incarcerated, as 
Congressman Fattah said, so that when they come out, because 90 
percent of them or more are going to be coming home, to ensure 
that they can be better citizens. They are not going to be 
altar boys or anything, I am sure, for the most part, but they 
can be better citizens that get employed and try not to re-
victimize. And that is really the challenge.
    Mr. Thompson. I am glad, Congressman, that you mentioned 
the issue of the jails. You know, we talk so often about 
approximately 700,000 people being released from state prison 
each year. Eleven million releases are conducted by U.S. jails. 
I mean, the volume of people churning through the jail system 
is just extraordinary as are the challenges. The dislocation 
that somebody can have even in a short stay can be just as life 
altering as a lengthy prison sentence in some cases.
    Mr. Schiff. You know, and I would just add to that, those 
that are serving the jail sentences not awaiting trial but, as 
you point out, that have a sentence of a year or less, they 
will often become part of the prison population when they 
recidivate. So to whatever degree we can improve the jail 
rehabilitation efforts, it could pay big dividends.

                   MENTAL HEALTH AND THE INCARCERATED

    Mr. Thompson. And the population that I know this committee 
is focused on that has been particularly difficult, we talked 
about the Los Angeles County jails and the Nation's largest 
mental health hospital, and we talk about jobs now where about 
one in every five people in the prisons and jails have a 
serious mental health issue. With women, it is close to one in 
three having a serious mental illness.
    And the lengths of stay, for example, are sort of stunning 
because I know I was just meeting with New York City officials, 
the average length of stay pretrial is about 30 days. If it is 
someone with mental illness, it is about 100 days, because once 
they get there, they act out, they have issues, and then, of 
course, if they are lucky we give them a supply of medications 
for ten days and hope that things will work out. So that 
absolutely needs to be a priority.
    And we talk about the justice reinvestment approach, and I 
am thrilled that the legislation includes a focus on counties, 
and, in fact, a number of counties have applied because the big 
challenge there is they do not have the kind of data that the 
states have. You ask them who is coming into your facilities, 
how long are they staying, who is recidivating, not only can 
they not tell you, they do not have the information systems 
oftentimes to help generate that. So it is critically 
important.

                             DRUG TREATMENT

    And to your point of drug treatment: obviously we have a 
huge demand for drug treatment for people who are coming in 
contact with the criminal justice system. We are not coming 
anywhere close to meeting that demand.
    And I think what we are most concerned about is with the 
very few treatment slots that are available behind the walls, 
are they being prioritized as they most effectively can. And 
sometimes they are and that is through the great work of the 
kinds of Second Chance Act and the Justice Reinvestment 
Project, but what we need to do is make sure that we are 
putting those medium to high-risk people in those drug 
treatment programs and that we make sure that it is immediately 
before their release and then there is immediate continuity of 
care.
    If we do not do those things, then we do not have the kind 
of return on the investment. And so our big focus right now is 
just with the limited treatment slots available, getting the 
absolute most out of them and that is something that this 
committee is helping us do.

                              OVERCROWDING

    Mr. Earley. I think, Congressman, on the jail and prison 
connection I cannot really add anything. It has been covered 
pretty completely. Only to say that there is also a third 
category and that is people that are sentenced to the state 
system but end up spending maybe one or two years in the local 
jail basically awaiting transfer because of prison overcrowding 
situations.
    So there does obviously need to be more connectivity 
because for many of them, it is all incarceration. And the 
earlier you start, the better chance you have got of getting a 
good result.

                             DRUG TREATMENT

    On the drugs, two things. I think a couple of states are 
really good about requiring drug treatment for prisoners. They 
do good assessment up front about who should have it and they 
require them to get it before they can be released. So if you 
have not had your drug counseling, you are not going to get 
released. So I think that is important.
    Second, what we found in our work over the last ten years 
or so is that even if people get it, which they should, that is 
not the end of the story because people who have a substance 
abuse problem, even who have been through the treatment in 
prison, are still very high-risk recidivators when they come 
out simply because it is easier to deal with drugs in prison 
when it is a very structured, secure environment and they are 
not as available. When you get out, within the first 30 to 60 
days, it is tough.
    So it is one of the reasons why we found the mentoring is 
so important. A guy on the street 30 to 90 days after he is 
released who is getting ready to go off the edge with drugs is 
not going to call his probation officer. He may call a friend, 
someone he trusts. And so we think it is really important for 
those coming out of prison--particularly drug offenders--to 
have mentors.
    And, again, this is something the community can provide. 
They can be volunteers who are well trained. It is not 
something that has to be paid for by the state, but the state 
has to allow an interaction between these mentors and these 
inmates before they come out so the mentor can be there to meet 
them at the gate and know who they are and begin walking with 
them.
    Mr. Schiff. Thank you, Mr. Chairman.
    Mr. Wolf. Thank you, Mr. Schiff.

                           PRISON INDUSTRIES

    I just have two other questions and then I will go back to 
Mr. Fattah or the other Members.
    The Congress pretty much abolished the Prison Industries 
and we are going to try to do something here. I do not know 
what we are going to be able to do, but. I have a bill that 
would allow the BoP to work on products that are no longer made 
in the United States.
    Oversimplification, but to give you an example, we no 
longer make televisions in the United States and, yet, I would 
venture to guess everyone here has a television set and some of 
you may have two or three or four or five. And a while back, in 
Lorton Reformatory, which I was involved in a program years ago 
at Lorton, we had had a company we thought, Emerson, that was 
willing to coming in. They were the last television 
manufacturer in the country and I think they were willing to 
come in. For different reasons, everyone opposed it, bad idea, 
competing with, the unions will not like it, et cetera, and so 
it never took place. In Lorton, there was basically no work.
    Have any of you ever been at Lorton? It was amazing.
    And the men would tell you they, I mean, they had a little 
license plate operation, but they just had no work. And so what 
we wanted to do was to bring in Emerson or a company that would 
make television sets that would be for sale in the United 
States and around the world, but they would not be competing 
with any American manufacturer.
    And so what we are trying to do is get some language in 
this bill that would allow them to work on products that are no 
longer made in the United States--which unfortunately, if you 
go to Walmart, it is almost everything it seems lately. 
Unfortunately, our manufacturing base is eroding.
    And so if you could just give us some comments about what 
you think about the importance of giving men and women in 
prison dignity with regard to work.
    The second question, and maybe as you answer, you can 
answer the other one, too, are all of these ideas applicable to 
the Bureau of Prisons?
    And, Mark, you were saying you were a little concerned that 
there was not quite the openness there. This Congress is sort 
of the board of directors for the Bureau of Prisons.
    Mr. Earley. I mentioned it.
    Mr. Wolf. And so what do you think or what are your 
recommendations with regard to the Bureau of Prisons who will 
be up here in a week or two or three with regard to some of the 
recommendations that you have? So, one, the importance of work 
in prisons and, two, how this would relate what you have done 
here with regard to the Bureau of Prisons.
    Mr. Earley. I think with the Bureau of Prisons, I would 
think about it as the 51st state or the 51st system in the 
country and make it the model. It is a small enough population 
that all of the things, take the best of what is maybe out 
there at the state level, the best of some of the ideas that 
have not yet been implemented, and gradually phase them into 
the Bureau of Prisons so it becomes what everybody else looks 
to in the states as the model.
    In the long run, it will save money. It is much cheaper for 
you to do something in one place and the states will copy it on 
their own as in many cases, it is not necessarily a question of 
more money, but doing things differently. So a lot of the stuff 
we have just talked about here today could just start picking 
and say is this true at our home place, the Bureau of Prisons. 
And if it is not prioritize and start phasing it in.
    On work, I think, you know, the suggestion about having 
products made in prison that are not made in the U.S. is 
obviously a good suggestion insofar as it settles the 
objections that come from private industry. And it does give 
the inmates the dignity of work which everyone needs, I 
believe, and the values that come along with it.
    The only drawback is if they are making something that is 
not made here in the United States. We know that one of the 
biggest needs of inmates when they get out is a job. It has not 
necessarily made them more job ready in a particular vocation. 
It has clearly made them more job ready in terms of the value 
of work and going to work. So I think it is good.
    Mr. Wolf. We do deal with that. The exact product may not 
be made in the United States, but the technology and skill 
could be transfered to the manufacturing of another product.
    Mr. Earley. Well, then I think it is a home run if you get 
that.

                         FEDERAL PRISON SYSTEM

    Mr. Wolf. Anybody else? How do you think the Bureau of 
Prisons are doing? I mean, you may not want to be critical of 
your prisons and I understand that.
    Mr. Earley. I am the one that brought it up. I do not think 
they are doing bad. I just think----
    Mr. Earley [continuing]. That could be the model.
    Mr. Wolf. I think we should write Mr. Fattah and I should 
write the Bureau of Prisons to say that what was in this report 
that you are not doing, you ought to be doing. That way, I do 
not want to get you two involved in the Bureau of Prisons. And, 
you know, I think they work hard. But maybe we should ask them 
to replicate or take whatever you have. And I think Mr. Lappin 
would be open to do that.
    Mr. Gelb. I guess I would just say quickly that I think you 
are absolutely right in terms of the role and the leadership 
position that the BoP has and the level of respect that it has 
in the field and that if it does something, others will 
definitely take note.
    But in this case, it really has been the states that have 
been the innovators here in terms of what is happening behind 
the walls and in terms of the whole justice reinvestment 
approach and that there are a number of things from the states 
that could be learned at the federal level with the population 
of, 209,000.
    And one of them that we have not really talked about today, 
but I would want to just throw out quickly, is the use of 
incentives. And there is a lot of talk about running government 
more like a business not only from the limited government 
perspective but the efficiencies and this is about results and 
what comes out, not just what goes in.
    And I am sorry that Congressman Yoder left, but Kansas 
really helped pioneer this approach in saying that there is 
going to be a return to the parole and probation agencies if 
they increase their success rate and stop sending so many 
failures back to the system. And that model was sort of refined 
in Arizona the next year.
    And believe it or not, California which is, I guess I have 
to say, a basket case in this arena and is facing federal court 
intervention, despite all the paralysis in California on this, 
they were able to pass legislation, Senate Bill 678, a couple 
of years ago which says exactly this, from the state to the 
counties, we are going to count the number of violators and 
revocations you had from last year and each year going forward, 
if you send fewer, we will tally up the savings that the state 
accrues by not having to lock up those failed cases and we will 
give you half of it back.
    The Department of Finance, a totally independent agency in 
California, has calculated what happened just in the first year 
of that program, reduced prison admissions by 4,000, 4,000 
fewer people coming into California Department of Corrections 
at an actual savings of $118 million and recommending that half 
of that go back to the counties to put into substance abuse 
treatment and other recidivism reduction programs.
    And there has been some discussion at the federal level of 
this type of model and similar----
    Mr. Wolf. How would you apply that? What would you say to 
the bureau? What would the committee say to the Bureau of 
Prisons? How would you structure that?
    Mr. Gelb. So a lot of thinking would have to go into this. 
But one of the reasons why it may be applicable at the federal 
level is that you have a disconnect between the fiscal 
responsibility and authority here, which is that the executive 
branch runs the BoP and the judicial branch runs probation. And 
so the same dynamic exists at the counties between the states 
and local government, right?
    If you are local government, you are paying for probation 
and you are having problems with somebody, why not just violate 
them and dump them into the state system? And they are off your 
caseload, they are out of your hair, and they are on somebody 
else's dime.
    And so you have a little bit of that same dynamic here 
where it is one branch of government and one budget that is 
totally separated from the other. There is no incentive 
necessarily to work with those people and not send them back to 
prison because if they do, they are off your caseload and on to 
somebody else's budget.
    Mr. Wolf. Well, if you have an idea, let us know, a way 
that would be directly incentivized.
    Years ago, I once offered an amendment in the 
Appropriations Committee and it was overwhelmingly opposed that 
an agency could save money and most of the money would come 
back to the Federal Government, but a small percentage would 
stay with the agency for them to do with what they wanted to 
and another portion of it would be used for bonuses. And it 
just did not go. The appropriators said that it would be taking 
away the authority of the committee, et cetera.
    So if you have a way of doing that in the Federal 
Government, we would like to hear it.
    Mr. Earley. I think in addition to the financial 
incentives, just to talk about that one particular idea, a part 
of it has to do, too, with how people are evaluated who do 
certain jobs. In other words, is probation and parole evaluated 
based on how quickly they revoke someone or are they evaluated 
on, you know, declined recidivism. Same thing with those who 
run the institutions. Are they evaluated not just on how secure 
their institutions are, but on what the recidivism rate looks 
like of those coming out.
    So once people realize that they are responsible for 
delivering something other than just what they are focused on 
today, they begin to change and exciting things begin to happen 
at the grass roots level which sometimes is even better than 
what we can think of here.
    Mr. Wolf. That is a good point.
    Mr. Fattah, do you have any questions?

                               PRE-ENTRY

    Mr. Fattah. Well, let me just conclude with the point I was 
trying to make earlier, and I will try to make it even more so 
now, which is I think that the work that is being done is very 
good, but it is overwhelmed by the problem. That is to say that 
there is a lot more that needs to be done. And it is at pre-
entry, it is at education.
    This vast increase in young women going to prison is in 
large measure because of some of the mandatory sentencing 
requirements. And a lot of times, the real culprit, takes a 
plea, negotiates a deal, and, the young lady who was an 
innocent, essentially almost an innocent player in some of 
these drug transactions, ends up doing the mandatory sentence.
    We have lots of problems here and a lot of our young people 
have no idea about the difference between joy riding and grand 
theft auto, and nobody spends the time trying to explain it to 
them either.
    And we have a case in Pennsylvania right now with a number 
of judges who are on trial today for essentially taking 
kickbacks, $2 million in kickbacks for sending young people 
away to a prison that was a for-profit operation.
    But the point here is the chairman is right that it is not 
just what we do on reentry. It is what we do while they are 
incarcerated. I mean, there is no reason why we should be 
spending $79.00 a day and have someone come in who cannot read 
and for them to leave not being able to read. I mean, It makes 
no sense and there are ways for us to figure out how to do 
this.
    So I think that the federal system is a place where we can 
have an impact. Obviously we can have an impact at the states. 
I do think we need to get the judges in the deal because judges 
need to know a little bit more about the reality.
    And Seth was, I think, being kind when he says that in some 
cases, they sentence people to the city prison versus the state 
prison. They are trying to help the inmate. And it is true 
because they know that if they send them away to state prison, 
you know--I mean, part of the reason why we have a million 
people and members of gangs in this country is a lot of 
recruitment takes place in prison. We are creating a set of 
dynamics here that just spirals out of control.
    And, the idea that we should be taking someone who is 
shoplifting and put them in a prison with someone who is a 
violent repeat offender and think something good is going to 
come of this, it just does not make a lot of sense.
    So there is a lot of work to be done, and I thank the 
chairman for having the hearing. I thank you for your 
testimony.

                                 GANGS

    Mr. Wolf. Sure. Well, I have one last question. Mr. Fattah 
is right. You send somebody to some of these prisons, they are 
going to join one of four or five gangs. They just literally 
join.
    Mr. Fattah. They do it for self-protection.
    Mr. Wolf. They do it for self-protection.

                   ACCESS TO FEDERAL RECIDIVISM DATA

    The last question we had had in this was, does BoP 
generally provide outside groups like Pew, Council of State 
Governments, the Prison Fellowship with the same access to its 
recidivism data as state corrections systems do? Do they supply 
you with that?
    Mr. Gelb. Sir, we have not asked for it. We are a state 
project and we work with states, so we have not.
    Mr. Wolf. Okay.
    Mr. Gelb. It goes with BoP on that.
    Mr. Thompson. And, again, I was with Director Lappin just a 
week ago and he actually, he right after the meeting put me in 
touch with this research team instead.
    Mr. Wolf. Okay.
    Mr. Thompson. But they seem incredibly cooperative.
    Mr. Wolf. Okay. Good.
    Mr. Earley. Yeah. I think on that kind of stuff, they are 
very transparent.
    Mr. Wolf. Okay. Good.
    Well, I want to thank the four of you. We appreciate it 
very, very much.
    And with that, the hearing will adjourn. Thanks.

    [GRAPHIC] [TIFF OMITTED] T7259C.145
    
    [GRAPHIC] [TIFF OMITTED] T7259C.146
    
    [GRAPHIC] [TIFF OMITTED] T7259C.147
    
    [GRAPHIC] [TIFF OMITTED] T7259C.148
    
    [GRAPHIC] [TIFF OMITTED] T7259C.149
    
    [GRAPHIC] [TIFF OMITTED] T7259C.150
    
    [GRAPHIC] [TIFF OMITTED] T7259C.151
    
    [GRAPHIC] [TIFF OMITTED] T7259C.152
    
    [GRAPHIC] [TIFF OMITTED] T7259C.153
    
    [GRAPHIC] [TIFF OMITTED] T7259C.154
    
    [GRAPHIC] [TIFF OMITTED] T7259C.155
    
    [GRAPHIC] [TIFF OMITTED] T7259C.156
    
    [GRAPHIC] [TIFF OMITTED] T7259C.157
    
    [GRAPHIC] [TIFF OMITTED] T7259C.158
    
    [GRAPHIC] [TIFF OMITTED] T7259C.159
    
    [GRAPHIC] [TIFF OMITTED] T7259C.160
    
    [GRAPHIC] [TIFF OMITTED] T7259C.161
    
    [GRAPHIC] [TIFF OMITTED] T7259C.162
    
    [GRAPHIC] [TIFF OMITTED] T7259C.163
    
    [GRAPHIC] [TIFF OMITTED] T7259C.164
    
    [GRAPHIC] [TIFF OMITTED] T7259C.165
    
    [GRAPHIC] [TIFF OMITTED] T7259C.166
    
    [GRAPHIC] [TIFF OMITTED] T7259C.167
    
    [GRAPHIC] [TIFF OMITTED] T7259C.168
    
    [GRAPHIC] [TIFF OMITTED] T7259C.169
    
    [GRAPHIC] [TIFF OMITTED] T7259C.170
    
    [GRAPHIC] [TIFF OMITTED] T7259C.171
    
    [GRAPHIC] [TIFF OMITTED] T7259C.172
    
    [GRAPHIC] [TIFF OMITTED] T7259C.173
    
    [GRAPHIC] [TIFF OMITTED] T7259C.174
    
    [GRAPHIC] [TIFF OMITTED] T7259C.175
    
    [GRAPHIC] [TIFF OMITTED] T7259C.176
    
    [GRAPHIC] [TIFF OMITTED] T7259C.177
    
    [GRAPHIC] [TIFF OMITTED] T7259C.178
    
    [GRAPHIC] [TIFF OMITTED] T7259C.179
    
    [GRAPHIC] [TIFF OMITTED] T7259C.180
    
    [GRAPHIC] [TIFF OMITTED] T7259C.181
    
    [GRAPHIC] [TIFF OMITTED] T7259C.182
    
    [GRAPHIC] [TIFF OMITTED] T7259C.183
    
    [GRAPHIC] [TIFF OMITTED] T7259C.184
    
    [GRAPHIC] [TIFF OMITTED] T7259C.185
    
    [GRAPHIC] [TIFF OMITTED] T7259C.186
    
    [GRAPHIC] [TIFF OMITTED] T7259C.187
    
    [GRAPHIC] [TIFF OMITTED] T7259C.188
    
    [GRAPHIC] [TIFF OMITTED] T7259C.189
    
    [GRAPHIC] [TIFF OMITTED] T7259C.190
    
    [GRAPHIC] [TIFF OMITTED] T7259C.191
    
    [GRAPHIC] [TIFF OMITTED] T7259C.192
    
    [GRAPHIC] [TIFF OMITTED] T7259C.193
    
    [GRAPHIC] [TIFF OMITTED] T7259C.194
    
    [GRAPHIC] [TIFF OMITTED] T7259C.195
    
    [GRAPHIC] [TIFF OMITTED] T7259C.196
    
    [GRAPHIC] [TIFF OMITTED] T7259C.197
    
    [GRAPHIC] [TIFF OMITTED] T7259C.198
    
    [GRAPHIC] [TIFF OMITTED] T7259C.199
    
    [GRAPHIC] [TIFF OMITTED] T7259C.200
    
    [GRAPHIC] [TIFF OMITTED] T7259C.201
    
    [GRAPHIC] [TIFF OMITTED] T7259C.202
    
    [GRAPHIC] [TIFF OMITTED] T7259C.203
    
    [GRAPHIC] [TIFF OMITTED] T7259C.204
    
    [GRAPHIC] [TIFF OMITTED] T7259C.205
    
    [GRAPHIC] [TIFF OMITTED] T7259C.206
    
    [GRAPHIC] [TIFF OMITTED] T7259C.207
    
    [GRAPHIC] [TIFF OMITTED] T7259C.208
    
    [GRAPHIC] [TIFF OMITTED] T7259C.209
    
    [GRAPHIC] [TIFF OMITTED] T7259C.210
    
    [GRAPHIC] [TIFF OMITTED] T7259C.211
    
    [GRAPHIC] [TIFF OMITTED] T7259C.212
    
    [GRAPHIC] [TIFF OMITTED] T7259C.213
    
    [GRAPHIC] [TIFF OMITTED] T7259C.214
    
    [GRAPHIC] [TIFF OMITTED] T7259C.215
    
    [GRAPHIC] [TIFF OMITTED] T7259C.216
    
    [GRAPHIC] [TIFF OMITTED] T7259C.217
    
    [GRAPHIC] [TIFF OMITTED] T7259C.218
    
    [GRAPHIC] [TIFF OMITTED] T7259C.219
    
    [GRAPHIC] [TIFF OMITTED] T7259C.220
    
    [GRAPHIC] [TIFF OMITTED] T7259C.221
    
    [GRAPHIC] [TIFF OMITTED] T7259C.222
    
    [GRAPHIC] [TIFF OMITTED] T7259C.223
    
    [GRAPHIC] [TIFF OMITTED] T7259C.224
    
    [GRAPHIC] [TIFF OMITTED] T7259C.225
    
    [GRAPHIC] [TIFF OMITTED] T7259C.226
    
    [GRAPHIC] [TIFF OMITTED] T7259C.227
    
    [GRAPHIC] [TIFF OMITTED] T7259C.228
    
    [GRAPHIC] [TIFF OMITTED] T7259C.229
    
    [GRAPHIC] [TIFF OMITTED] T7259C.230
    
    [GRAPHIC] [TIFF OMITTED] T7259C.231
    
    [GRAPHIC] [TIFF OMITTED] T7259C.232
    
    [GRAPHIC] [TIFF OMITTED] T7259C.233
    
    [GRAPHIC] [TIFF OMITTED] T7259C.234
    
    [GRAPHIC] [TIFF OMITTED] T7259C.235
    
    [GRAPHIC] [TIFF OMITTED] T7259C.236
    
    [GRAPHIC] [TIFF OMITTED] T7259C.237
    
    [GRAPHIC] [TIFF OMITTED] T7259C.238
    
    [GRAPHIC] [TIFF OMITTED] T7259C.239
    
    [GRAPHIC] [TIFF OMITTED] T7259C.240
    
    [GRAPHIC] [TIFF OMITTED] T7259C.241
    
    [GRAPHIC] [TIFF OMITTED] T7259C.242
    
    [GRAPHIC] [TIFF OMITTED] T7259C.243
    
    [GRAPHIC] [TIFF OMITTED] T7259C.244
    
    [GRAPHIC] [TIFF OMITTED] T7259C.245
    
    [GRAPHIC] [TIFF OMITTED] T7259C.246
    
    [GRAPHIC] [TIFF OMITTED] T7259C.247
    
    [GRAPHIC] [TIFF OMITTED] T7259C.248
    
    [GRAPHIC] [TIFF OMITTED] T7259C.249
    
    [GRAPHIC] [TIFF OMITTED] T7259C.250
    
    [GRAPHIC] [TIFF OMITTED] T7259C.251
    
    [GRAPHIC] [TIFF OMITTED] T7259C.252
    
    [GRAPHIC] [TIFF OMITTED] T7259C.253
    
    [GRAPHIC] [TIFF OMITTED] T7259C.254
    
    [GRAPHIC] [TIFF OMITTED] T7259C.255
    
    [GRAPHIC] [TIFF OMITTED] T7259C.256
    
    [GRAPHIC] [TIFF OMITTED] T7259C.257
    
    [GRAPHIC] [TIFF OMITTED] T7259C.258
    
    [GRAPHIC] [TIFF OMITTED] T7259C.259
    
    [GRAPHIC] [TIFF OMITTED] T7259C.260
    
    [GRAPHIC] [TIFF OMITTED] T7259C.261
    
    [GRAPHIC] [TIFF OMITTED] T7259C.262
    
    [GRAPHIC] [TIFF OMITTED] T7259C.263
    
    [GRAPHIC] [TIFF OMITTED] T7259C.264
    
    [GRAPHIC] [TIFF OMITTED] T7259C.265
    
    [GRAPHIC] [TIFF OMITTED] T7259C.266
    
    [GRAPHIC] [TIFF OMITTED] T7259C.267
    
    [GRAPHIC] [TIFF OMITTED] T7259C.268
    
    [GRAPHIC] [TIFF OMITTED] T7259C.269
    
    [GRAPHIC] [TIFF OMITTED] T7259C.270
    
    [GRAPHIC] [TIFF OMITTED] T7259C.271
    
    [GRAPHIC] [TIFF OMITTED] T7259C.272
    
    [GRAPHIC] [TIFF OMITTED] T7259C.273
    
    [GRAPHIC] [TIFF OMITTED] T7259C.274
    
    [GRAPHIC] [TIFF OMITTED] T7259C.275
    
    [GRAPHIC] [TIFF OMITTED] T7259C.276
    
    [GRAPHIC] [TIFF OMITTED] T7259C.277
    
    [GRAPHIC] [TIFF OMITTED] T7259C.278
    
    [GRAPHIC] [TIFF OMITTED] T7259C.279
    
    [GRAPHIC] [TIFF OMITTED] T7259C.280
    
    [GRAPHIC] [TIFF OMITTED] T7259C.281
    
    [GRAPHIC] [TIFF OMITTED] T7259C.282
    
    [GRAPHIC] [TIFF OMITTED] T7259C.283
    
    [GRAPHIC] [TIFF OMITTED] T7259C.284
    
    [GRAPHIC] [TIFF OMITTED] T7259C.285
    
    [GRAPHIC] [TIFF OMITTED] T7259C.286
    
    [GRAPHIC] [TIFF OMITTED] T7259C.287
    
    [GRAPHIC] [TIFF OMITTED] T7259C.288
    
    [GRAPHIC] [TIFF OMITTED] T7259C.289
    
    [GRAPHIC] [TIFF OMITTED] T7259C.290
    
    [GRAPHIC] [TIFF OMITTED] T7259C.291
    
    [GRAPHIC] [TIFF OMITTED] T7259C.292
    
    [GRAPHIC] [TIFF OMITTED] T7259C.293
    
    [GRAPHIC] [TIFF OMITTED] T7259C.294
    
    [GRAPHIC] [TIFF OMITTED] T7259C.295
    
    [GRAPHIC] [TIFF OMITTED] T7259C.296
    
    [GRAPHIC] [TIFF OMITTED] T7259C.297
    
    [GRAPHIC] [TIFF OMITTED] T7259C.298
    
    [GRAPHIC] [TIFF OMITTED] T7259C.299
    
    [GRAPHIC] [TIFF OMITTED] T7259C.300
    
    [GRAPHIC] [TIFF OMITTED] T7259C.301
    
    [GRAPHIC] [TIFF OMITTED] T7259C.302
    
    [GRAPHIC] [TIFF OMITTED] T7259C.303
    
    [GRAPHIC] [TIFF OMITTED] T7259C.304
    
    [GRAPHIC] [TIFF OMITTED] T7259C.305
    
    [GRAPHIC] [TIFF OMITTED] T7259C.306
    
    [GRAPHIC] [TIFF OMITTED] T7259C.307
    
    [GRAPHIC] [TIFF OMITTED] T7259C.308
    
    [GRAPHIC] [TIFF OMITTED] T7259C.309
    
    [GRAPHIC] [TIFF OMITTED] T7259C.310
    
    [GRAPHIC] [TIFF OMITTED] T7259C.311
    
    [GRAPHIC] [TIFF OMITTED] T7259C.312
    
    [GRAPHIC] [TIFF OMITTED] T7259C.313
    
    [GRAPHIC] [TIFF OMITTED] T7259C.314
    
    [GRAPHIC] [TIFF OMITTED] T7259C.315
    
    [GRAPHIC] [TIFF OMITTED] T7259C.316
    
    [GRAPHIC] [TIFF OMITTED] T7259C.317
    
    [GRAPHIC] [TIFF OMITTED] T7259C.318
    
    [GRAPHIC] [TIFF OMITTED] T7259C.319
    
    [GRAPHIC] [TIFF OMITTED] T7259C.320
    
    [GRAPHIC] [TIFF OMITTED] T7259C.321
    
    [GRAPHIC] [TIFF OMITTED] T7259C.322
    
    [GRAPHIC] [TIFF OMITTED] T7259C.323
    
    [GRAPHIC] [TIFF OMITTED] T7259C.324
    
    [GRAPHIC] [TIFF OMITTED] T7259C.325
    
    [GRAPHIC] [TIFF OMITTED] T7259C.326
    
    [GRAPHIC] [TIFF OMITTED] T7259C.327
    
    [GRAPHIC] [TIFF OMITTED] T7259C.328
    
    [GRAPHIC] [TIFF OMITTED] T7259C.329
    
    [GRAPHIC] [TIFF OMITTED] T7259C.330
    
    [GRAPHIC] [TIFF OMITTED] T7259C.331
    
    [GRAPHIC] [TIFF OMITTED] T7259C.332
    
    [GRAPHIC] [TIFF OMITTED] T7259C.333
    
    [GRAPHIC] [TIFF OMITTED] T7259C.334
    
    [GRAPHIC] [TIFF OMITTED] T7259C.335
    
    [GRAPHIC] [TIFF OMITTED] T7259C.336
    
    [GRAPHIC] [TIFF OMITTED] T7259C.337
    
    [GRAPHIC] [TIFF OMITTED] T7259C.338
    
    [GRAPHIC] [TIFF OMITTED] T7259C.339
    
    [GRAPHIC] [TIFF OMITTED] T7259C.340
    
    [GRAPHIC] [TIFF OMITTED] T7259C.341
    
    [GRAPHIC] [TIFF OMITTED] T7259C.342
    
    [GRAPHIC] [TIFF OMITTED] T7259C.343
    
    [GRAPHIC] [TIFF OMITTED] T7259C.344
    
    [GRAPHIC] [TIFF OMITTED] T7259C.345
    
    [GRAPHIC] [TIFF OMITTED] T7259C.346
    
    [GRAPHIC] [TIFF OMITTED] T7259C.347
    
    [GRAPHIC] [TIFF OMITTED] T7259C.348
    
    [GRAPHIC] [TIFF OMITTED] T7259C.349
    
    [GRAPHIC] [TIFF OMITTED] T7259C.350
    
    [GRAPHIC] [TIFF OMITTED] T7259C.351
    
    [GRAPHIC] [TIFF OMITTED] T7259C.352
    
    [GRAPHIC] [TIFF OMITTED] T7259C.353
    
    [GRAPHIC] [TIFF OMITTED] T7259C.354
    
    [GRAPHIC] [TIFF OMITTED] T7259C.355
    
    [GRAPHIC] [TIFF OMITTED] T7259C.356
    
    [GRAPHIC] [TIFF OMITTED] T7259C.357
    
    [GRAPHIC] [TIFF OMITTED] T7259C.358
    
    [GRAPHIC] [TIFF OMITTED] T7259C.359
    
    [GRAPHIC] [TIFF OMITTED] T7259C.360
    
    [GRAPHIC] [TIFF OMITTED] T7259C.361
    
    [GRAPHIC] [TIFF OMITTED] T7259C.362
    
    [GRAPHIC] [TIFF OMITTED] T7259C.363
    
    [GRAPHIC] [TIFF OMITTED] T7259P3.001
    


                               I N D E X

                              ----------                              --
--------

                         Department of Justice
                      Attorney General Eric Holder

                                                                   Page
10th Amendment issues...........................................116-117
9/11 health bill................................................. 81-82
Bureau of Prisons................................................ 82-83
independent auditing of.......................................... 61-63
Computer Intrusion Initiative.................................... 73-74
Counter-radicalization........................................... 86-87
DEA--Colombia best practices..................................... 88-89
Defense of Marriage Act.........................11-13, 18-23, 24, 51-52
DNA backlog...................................................... 46-48
Equipping federal agents with firearms in Mexico.................    88
Federal inmate good conduct time credit..........................    84
Firearms seized in Mexico........................................ 30-31
FISA court requirements..........................................    32
Freedom of Information Act requests.............................. 10-11
Funding impacts of the continuing resolution.....................    18
Guantanamo:
    detainees.................................................... 14-15
    rule of law.................................................. 17-18
Gulf Coast Claims Facility....................................... 25-28
Gun control:
    long guns.................................................... 29-30
    reporting of long gun sales..................................    48
    straw purchasers.............................................    49
High-Value Detainee Interrogation Group.......................... 66-67
Human trafficking......................................23, 65-66, 72-73
    U.S. Attorneys' task forces.................................. 63-64
Hypothetical capture of Osama bin Laden.......................... 24-25
Impact of DOJ budget cuts........................................ 59-60
Indian Country justice programs..................................    29
Intellectual property...........................................114-116
Internet radicalization.......................................... 87-88
Khalid Sheik Mohammed............................................   117
Medicare fraud................................................... 23-24
Miranda decision................................................113-114
National security funding........................................ 13-14
Office of Justice Programs.......................................    50
Oil Pollution Act of 1990........................................ 26-27
Opening statement:
    Mr. Fattah...................................................   1-2
    Mr. Holder...................................................   2-9
    Mr. Wolf.....................................................     1
PATRIOT Act...................................................... 31-32
Prescription drug abuse.......................................... 33-46
Prison rape...................................................... 60-61
Prison reform.................................................... 84-86
Project HOPE.....................................................   116
Questions for the Record:
    Mr. Aderholt................................................155-160
    Mr. Bonner..................................................161-164
    Mr. Fattah..................................................143-154
    Mr. Wolf....................................................118-142
Redistricting....................................................    82
State Criminal Alien Assistance Program.......................... 28-29
Terrorism recidivism............................................. 15-17
Thomson facility................................................. 50-51
Trafficking Victims Protection Reauthorization Act...............    64
Voting rights enforcement...................52-59, 67-72, 74-81, 89-113
Wilberforce Act.................................................. 64-65

                    Federal Bureau of Investigation
                       Director Robert S. Mueller

Assessment of the FBI over director's tenure....................190-192
Benefits of investment in the FBI...............................187-188
Border security..................................................   228
    terrorist threats, and......................................211-213
Central records complex.........................................225-226
Counterintelligence vs. criminal career tracks..................182-184
DNA backlog.....................................................209-210
Domestic radicalization................................184-187, 198-205
Electronic surveillance.........................................216-217
Familial DNA....................................................195-196
FBI Academy.....................................................223-224
FBI/ATF explosives investigations jurisdiction..................217-219
FBI's transformation:
    assessment of...............................................179-182
    since 9/11...................................................   215
Foreign espionage/cyber threats.................................207-208
Foreign language training/material review.......................224-225
FY2012 budget request...........................................189-190
FY2011 continuing resolution....................................215-216
Health care fraud................................................   210
High-value Detainee Interrogation Group.........................205-207
Human trafficking/violent crime/gangs...........................229-233
Indian country..................................................208-209
Interagency coordination on the southwest border................197-198
Killings on the southwest border.................................   179
Legat offices....................................................   226
Miranda warning issues..........................................193-195
Murder of Jaime Zapata..........................................213-215
North African/Middle Eastern protests...........................226-228
Opening statement:
    Mr. Fattah...................................................   166
    Mr. Mueller.................................................166-178
    Mr. Wolf....................................................165-166
Questions for the Record:
    Mr. Fattah..................................................244-253
    Mr. Graves..................................................254-256
    Mr. Wolf....................................................234-243
Relationship with international law enforcement community.......228-229
Sentinel...................................................197, 219-223
Top threats to U.S..............................................196-197
Violent crime...................................................210-211
Violent gangs....................................................   217

                    Drug Enforcement Administration
                     Administrator Michele Leonhart

Afghanistan.....................................................281-285
Agents killed in the line of duty...............................267-272
Arming agents in Mexico.........................................287-288
Bolivia.........................................................332-337
Caribbean drug trafficking.......................................   285
Cybersecurity....................................................   340
Drone usage......................................................   288
Drug trafficking submarines......................................   321
El Paso Intelligence Center.....................................279-280
FY2012 budget..........................................289-293, 321-325
Internet pharmacies.............................................286-287
Juveniles and drug trafficking..................................320-321
Meth labs.......................................................325-330
Mexican cartels.................................................276-281
Mexican drug trafficking........................................285-286
Mobile enforcement teams........................................330-332
Opening statement:
    Mr. Fattah..................................................257-258
    Ms. Leonhart................................................258-266
    Mr. Wolf.....................................................   257
Prescription drug:
    diversion...................................................293-320
    trafficking.................................................288-289
Questions for the Record:
    Mr. Aderholt................................................355-357
    Mr. Fattah..................................................349-355
Mr. Wolf........................................................340-349
Viktor Bout............................................273-276, 337-339

                           Bureau of Prisons
                       Director Harley G. Lappin

BOP furlough program............................................411-412
Clarification of opening statement...............................   374
Closing remarks.................................................426-427
Continuing resolution problems..................................405-406
Correctional staff killed in the line of duty...................425-426
Elderly offender pilot program..................................410-411
Federal Prison Industries..............................395-397, 400-404
Good conduct time legislative proposal.....................376-394, 410
Growing prison populations and recidivism........................   402
Inmate:
    programs and recidivism.....................................397-400
    work opportunities...........................................   395
Justice reinvestment and public safety..........................374-376
Opening statement:
    Mr. Fattah...................................................   360
    Mr. Lappin..................................................360-373
    Mr. Wolf....................................................359-360
Preventing communications with terrorists.......................414-415
Prison:
    drugs in....................................................420-421
    farms........................................................   426
    gangs in......................................403, 412-413, 416-417
    privately operated...........................................   405
    radicalization..............................................413-414
Prison Rape Elimination Act.....................................421-425
Proposed CHEF Act...............................................415-416
Questions for the Record:
    Mr. Aderholt................................................428-430
    Mr. Fattah..................................................431-434
    Mr. Wolf....................................................435-438
Solitary confinement.............................................   418
Supervised release program......................................417-418
The increasing inmate population.................................   404
The National Summit on Justice Reinvestment.....................380-381
Thomson, Il facility..............................406-410, 413, 419-420
USP Marion, Illinois............................................418-419

                       Office of Justice Programs
             Assistant Attorney General Laurie O. Robinson

Adam Walsh Act..................................................487-488
Automated victim identification and notification.................   490
Byrne Criminal Justice Assistance program.......................486-487
Deficit reduction...............................................478-479
DNA and forensics...............................................481-483
Domestic radicalization.........................................488-490
Evidence-based approaches........................................   475
Grant program flexibility.......................................483-484
Hawaii HOPE......................................................   474
Justice reinvestment............................................458-460
Juvenile justice................................................456-477
Missing and exploited children..................................471-472
NICS and NCHIP..................................................479-480
Opening statement:
    Ms. Robinson................................................440-457
    Mr. Wolf.....................................................   439
Prescription drug abuse................................460-471, 477-478
Prison rape.....................................................480-481
Prisoner reentry................................................472-473
Public safety officer benefits..................................473-474
Questions for the Record:
    Mr. Fattah..................................................498-507
    Mr. Graves..................................................508-510
    Mr. Honda...................................................415-517
    Mr. Schiff..................................................411-514
    Mr. Wolf....................................................493-497
RISS............................................................490-491
Study of hate crimes............................................475-476
Tom Perrelli....................................................491-492
Tribal criminal justice needs....................................   485

                       Legal Services Corporation
                       President James J. Sandman
                 Member of the Board Robert J. Grey Jr.

Fiscal oversight................................................582-583
Impact of budget cuts...........................................575-576
IOLTA funding....................................................   569
Justice gap......................................................   576
Khalid Sheikh Mohammed..........................................577-578
Legal aid clinics................................................   575
Legal services for veterans.....................................574-575
Legal Services Corporation:
    context of the overall federal budget, in the...............569-573
    spending....................................................578-580
    structure...................................................573-574
Opening statement:
    Mr. Fattah..................................................520-521
    Mr. Grey....................................................533-555
    Mr. Sandman.................................................521-532
    Mr. Wolf....................................................519-520
Performance standards...........................................583-584
Political activism.....................................556-557, 576-577
Pro bono:
    increasing...................................................   578
    legal services..............................................557-568
    requirements in law schools.................................584-589
Public libraries.................................................   583
Questions for the Record:
    Mr. Fattah..................................................594-597
    Mr. Graves..................................................601-604
    Mr. Honda...................................................598-600
    Mr. Wolf....................................................590-593
Restriction on collection of attorneys' fees.....................   580
Technology initiative grants....................................580-582

                    Prisoner Reentry and Recidivism
 Adam Gelb, Director, Public Safety Performance Project, Pew Center on 
                               the States
   Honorable Mark L. Earley, Member of The Board, Prison Fellowship 
                             International
     Michael Thompson, Director, Justice Center, Council of State 
                              Governments
       R. Seth Williams, District Attorney, City of Philadelphia

Access to federal recidivism data...............................683-684
Drug treatment..................................................677-679
Effectuating reform at the state level..........................664-669
Federal prison system...........................................681-682
Gangs............................................................   683
Incarceration and its effect on families........................670-671
Justice reinvestment............................................671-677
Mental health and the incarcerated...............................   678
Opening statement:
    Mr. Earley..................................................616-628
    Mr. Fattah...................................................   607
    Mr. Gelb....................................................608-615
    Mr. Thompson................................................629-650
    Mr. Williams................................................651-663
    Mr. Wolf....................................................605-607
Overcrowding....................................................678-679
Pre-entry.......................................................682-683
Prison industries...............................................679-681

                                  <all>

</pre></body></html>
